<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF TRANSPORTATION, THE EXECUTIVE OFFICE OF THE PRESIDENT, AND THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 111-429]
[From the U.S. Government Publishing Office]


 
                                                       S. Hrg. 111-429
 
                           NOMINATIONS TO THE
                     DEPARTMENT OF TRANSPORTATION,
                 THE EXECUTIVE OFFICE OF THE PRESIDENT,
                     AND THE DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                        U.S. GOVERNMENT PRINTING OFFICE
54-288 PDF                    WASHINGTON: 2010
---------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION



            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2009.....................................     1
Statement of Senator Warner......................................     1
Statement of Senator Lautenberg..................................     5
Statement of Senator Hutchison...................................     6
    Prepared statement...........................................     6
Statement of Senator Udall.......................................    78
Statement of Senator Begich......................................    78
Statement of Senator Isakson.....................................    83
Statement of Senator Brownback...................................    85
Statement of Senator Dorgan......................................    87
Statement of Senator Klobuchar...................................    89

                               Witnesses

Hon. Barbara Mikulski, U.S. Senator from Maryland................     3
Hon. Benjamin Cardin, U.S. Senator from Maryland.................     4
Lawrence E. Strickling, Assistant Secretary-Designate of Commerce 
  for Communications and Information, U.S. Department of Commerce     8
    Prepared statement...........................................    10
    Biographical information.....................................    11
John Porcari, Deputy Secretary-Designate, U.S. Department of 
  Transportation.................................................    21
    Prepared statement...........................................    23
    Biographical information.....................................    23
Aneesh Chopra, Associate Director-Designate for Technology, 
  Office of Science and Technology Policy, Executive Office of 
  the President..................................................    33
    Prepared statement...........................................    34
    Biographical information.....................................    36
Dr. Rebecca M. Blank, Under Secretary-Designate for Economic 
  Affairs, U.S. Department of Commerce...........................    49
    Prepared statement...........................................    50
    Biographical information.....................................    51
J. Randolph Babbitt, Administrator-Designate, Federal Aviation 
  Administration, U.S. Department of Transportation..............    69
    Prepared statement...........................................    71
    Biographical information.....................................    72

                                Appendix

Hon. Edward M. Kennedy, U.S. Senator from Massachusetts, prepared 
  statement......................................................    93
Hon. Richard Durbin, U.S. Senator from Illinois, prepared 
  statement......................................................    93
Hon. John D. Dingell, U.S. Representative from Michigan (15th 
  Congressional District), prepared statement....................    94
Letter, dated May 14, 2009, from Edward P. Faberman, Executive 
  Director--Air Carrier Association of America to Hon. Byron 
  Dorgan, Chairman, Subcommittee on Aviation Operations, Safety 
  and Security...................................................    94
Letter, dated May 18, 2009, from H. Stephen Leiber, CAE, HIMSS 
  President/CEO and Charles E. Christian, FCHIME, FHIMSS, HIMSS 
  Chairman of the Board to Hon. Bill Nelson and Hon. David Vitter    95
Response to written questions submitted to Lawrence E. Strickling 
  by:
    Hon. John D. Rockefeller IV..................................    95
    Hon. John D. Rockefeller IV and Hon. Byron Dorgan............    96
    Hon. Daniel K. Inouye........................................    97
    Hon. John Kerry..............................................    98
    Hon. Bill Nelson.............................................    99
    Hon. Mark Pryor..............................................   100
    Hon. Tom Udall...............................................   100
    Hon. Mark Begich.............................................   102
    Hon. Kay Bailey Hutchison....................................   104
    Hon. Olympia J. Snowe........................................   105
    Hon. John Ensign.............................................   107
    Hon. Jim DeMint..............................................   107
    Hon. John Thune..............................................   109
    Hon. Johnny Isakson..........................................   110
    Hon. David Vitter............................................   110
    Hon. Sam Brownback...........................................   111
Response to written questions submitted to John Porcari by:
    Hon. John D. Rockefeller IV..................................   111
    Hon. Mark Pryor..............................................   112
    Hon. Tom Udall...............................................   113
    Hon. Kay Bailey Hutchison....................................   114
    Hon. John Thune..............................................   115
    Hon. Johnny Isakson..........................................   115
Response to written question submitted to Aneesh Chopra by:
    Hon. John D. Rockefeller IV..................................   116
    Hon. Bill Nelson.............................................   117
    Hon. Tom Udall...............................................   118
    Hon. Kay Bailey Hutchison....................................   119
    Hon. Olympia J. Snowe........................................   121
    Hon. John Thune..............................................   121
    Hon. Johnny Isakson..........................................   123
Response to written questions submitted to Dr. Rebecca M. Blank 
  by:............................................................
    Hon. John D. Rockefeller IV..................................   124
    Hon. Bill Nelson.............................................   124
    Hon. Tom Udall...............................................   124
Response to written questions submitted to J. Randolph Babbitt 
  by:
    Hon. John D. Rockefeller IV..................................   125
    Hon. Daniel K. Inouye........................................   125
    Hon. John Kerry..............................................   126
    Hon. Byron Dorgan............................................   126
    Hon. Barbara Boxer...........................................   127
    Hon. Bill Nelson.............................................   128
    Hon. Frank R. Lautenberg.....................................   129
    Hon. Mark Pryor..............................................   129
    Hon. Tom Udall...............................................   130
    Hon. Mark Warner.............................................   132
    Hon. Mark Begich.............................................   132
    Hon. Kay Bailey Hutchison....................................   133
    Hon. John Thune..............................................   135
    Hon. Olympia J. Snowe........................................   136
    Hon. Johnny Isakson..........................................   137


                           NOMINATIONS TO THE



                     DEPARTMENT OF TRANSPORTATION,



                 THE EXECUTIVE OFFICE OF THE PRESIDENT,



                     AND THE DEPARTMENT OF COMMERCE

                              ----------                              


                         TUESDAY, MAY 19, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Warner, 
presiding.

            OPENING STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. We will come to order.
    Let me say to Senator Isakson and Senator Begich, this is 
the most rapid rise of a freshman member to committee 
chairmanship in, I think, in recent Senate history.
    [Laughter.]
    Senator Warner. Please don't tell Senator Rockefeller that 
I got comfortable in this chair for any moment in time.
    [Laughter.]
    Senator Warner. I know Senator Rockefeller sends his 
apologies to the nominees. I'm going to do a brief opening 
statement, and then we will start with Senator Mikulski and 
Senator Cardin, who will make the introductions of one of our 
nominees.
    So, we'll start with that. I'm happy to welcome and 
congratulate all of the nominees before us today. It's a great 
honor for you to be before the Committee, and I look forward to 
hearing from these distinguished individuals.
    If confirmed, these leaders will be responsible for 
improving our networks, advancing our policies, and promoting 
our transportation systems.
    As I mentioned, Chairman Rockefeller sends his sincere 
regret for not being able to welcome you in person, but looks 
forward to reading your remarks, and hopes to work with you in 
the coming months and years.
    I'd also like to recognize Senator Isakson and Senator 
Begich, and if Ranking Member Hutchison comes, she'll obviously 
have a chance to make her comments, as well.
    Because we've got a number of nominees this morning, I 
would ask each of them to make their remarks fairly brief, so 
we can make sure we get in plenty of questions.
    Obviously, President Obama was elected to bring change to 
our Nation, and advancing the shared goals we all have of 
progress and prosperity will require everyone's best efforts. 
Nominees for positions in the National Telecommunications and 
Information Administration, NTIA, the Office of Science and 
Technology Policy, OSTP, and the United States Department of 
Transportation will be before us in a few moments.
    Obviously, as somebody who spent a career in communications 
before taking the plunge into government, I am particularly 
interested to hear from Mr. Strickling. His challenges will be 
not only to manage digital television transition, but to make 
sure we appropriately distribute broadband Stimulus Funds, and 
navigate the Internet governance. These are all issues that 
have remarkable consequences well beyond the bounds of 
telecommunications policy, extending into the overall health of 
our economy.
    We're going to be hearing from Mr. Chopra, who I have a 
long record and association with. He has been nominated to 
serve two roles--Assistant Associate Director of White House 
Office of Science and Technology, and Chief Technology 
Officer--a new position the President has recently created, and 
I'll be making some more formal comments about Mr. Chopra when 
I have a chance to introduce him.
    Mr. Porcari, if confirmed, you will be responsible for 
giving our Nation's transportation system a new vision, and 
you'll have to balance the needs of all of the transportation 
agencies to ensure that our transportation systems are safe, 
efficient and sustainable.
    I would also add that I hope today is not the high point, 
considering the glowing articles you received recently of 
bipartisan support in the Washington Post today. I've been 
around a long time in the region, and rarely do you see such a 
strong story of endorsement of your background and credentials, 
and I know we're going to hear from Senator Mikulski and 
Senator Cardin on that subject in a moment.
    Mr. Babbitt is appointed to be Administrator of the FAA, an 
enormously challenging position, both in terms of NextGen 
safety issues, and a host of other issues around aviation. We 
look forward to your testimony.
    And finally, Ms. Blank will be conducting the 2010 Census, 
one of the largest undertakings of our government, and is 
appointed to be Undersecretary for Economic Affairs at the 
Department of Commerce.
    You will also serve as head of Economics and Statistics 
Administration, providing analysis for Commerce and interacting 
with industry and other community leaders. I know you've got a 
great background, and look forward to your position.
    With such great and highly qualified individuals, I look 
forward to hearing from each of you, but we will start with Mr. 
Porcari, and I would like to call upon our colleagues, Senator 
Mikulski and Senator Cardin, to introduce John Porcari.
    Senator Mikulski?

              STATEMENT OF HON. BARBARA MIKULSKI, 
                   U.S. SENATOR FROM MARYLAND

    Senator Mikulski. Thank you very much, Mr. Chairman, and 
it's good to see you in the chair.
    I come today to join with my colleague, Senator Ben Cardin, 
to strongly recommend John Porcari to be Deputy Secretary of 
the U.S. Department of Transportation. John has the experience, 
knowledge, and a can-do attitude to successfully serve in this 
capacity.
    For those of us from Maryland who come before you today, it 
is a bittersweet situation. If confirmed, John Porcari will do 
a great job, and therefore the choice will be a great one for 
the United States of America. But it is a sad day for Maryland 
if we--as we lose him to be our Secretary of Transportation.
    Secretary Porcari--and I'm calling him that because of his 
position in Maryland--comes with outstanding personal 
characteristics and a wonderful family. They're here today, 
you'll meet Heidi and the five children, and all of the 
Porcaris. You'll find that he is a man who--from his personal 
characteristics--a man who believes in honor, and integrity, 
and really getting the job done.
    When one deals with large contracts, you not only have to 
master the budget process, particularly if you're working in a 
public agency, but you also have to be sure that it's done with 
honesty and integrity. So, we're starting with that threshold, 
which I know is so important as a characteristic for the Obama 
Administration.
    He has my full support, because John will bring vision, new 
ideas, and actually juice to the excellent Transportation team 
President Obama is assembling.
    He has had a great deal of experience in fixing crumbling 
transportation infrastructure, and knowing how to do it under 
very difficult financial constraints.
    John has served our great State twice as Transportation 
Secretary, once for Governor Glendening, from 1999 to 2002, and 
then returned to serve in the O'Malley Administration.
    Mr. Chairman, our Secretary of Transportation is unique. 
For him, it's not only about highways, byways, beltways and 
subways, but it also includes airports and seaports, and he has 
had an enormous set of challenges in terms of everything from 
large transit systems, to the airport, to the Port of 
Baltimore, as well as highways and bridges.
    President Obama has made an excellent choice, because he 
will carry out the Obama agenda for rebuilding our 
infrastructure. But in rebuilding that infrastructure, he knows 
he will use it to build a bridge to somewhere--to use our 
highways and our physical infrastructure as a way to generate 
jobs, solve transportation problems that will promote economic 
growth and vitality, and doing it with very difficult funding 
sources.
    As he worked with Governor O'Malley in probably one of the 
worst economic crises Maryland has ever seen, John was able to 
give advice to the Governor about how we could meet compelling 
transportation needs, and at the same time meet our budget 
challenges.
    I'm going to conclude and turn to my colleague, Senator 
Cardin, but I want people in this room to know he's worked on 
issues like D.C. Metro, the Woodrow Wilson Bridge, and building 
the Appalachian Highway. In that way, he's worked with the 
District of Columbia and with Governors from Virginia. And you 
know, that's almost like treaty negotiations----
    [Laughter.]
    Senator Mikulski. When we finished working on the Woodrow 
Wilson Bridge, we felt that he was going to be tapped by Bill 
Clinton to be Secretary of State.
    But, wearing your Governor's hat, you know how difficult it 
is. So, he knows how to bring together politics, deal with 
coalitions, prickly issues from design, to consumer, to 
environment, to budget.
    I think President Obama has made a great choice, and we 
enthusiastically support him, and hope you do, as well.
    Senator Warner. Thank you, Senator Mikulski.
    Senator Cardin?

              STATEMENT OF HON. BENJAMIN CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Senator Warner, thank you very much. 
It's a pleasure to be here with Senator Mikulski to endorse 
John Porcari's nomination to be Deputy Secretary for the United 
States Department of Transportation.
    I want to compliment the President on all three of the 
nominees that he has sent forward that are being considered 
today by this Committee. I think all three are dedicated 
people, and I want to thank them and their families for their 
sacrifices they make to serve our Nation.
    Now, I'm going to confess to you that I'm not objective 
when it comes to John Porcari--he's a friend. He's a person 
I've known for many years, a person of unquestioned integrity, 
a real professional who gets the job done, a person who has the 
experience to do this job for our country. His experience under 
two Administrations--both the Glendening Administration, and 
O'Malley Administration--and as Senator Mikulski pointed out, 
the responsibility that our Secretary of Transportation has in 
Maryland is far broader than just dealing with one mode of 
transportation; he has to deal with every mode of 
transportation.
    Senator Mikulski mentioned some of the projects that he had 
to manage, or to see completed. The Woodrow Wilson Bridge 
which, Senator, you--as Governor--was very familiar about the 
difficulties. That's a $2 billion-plus project that was 
delivered on-time and on-budget, which showed some 
extraordinary leadership from Secretary Porcari.
    He had to deal with a lot of tough political battles. Let 
me just mention some of the transit issues in our State--the 
Purple Line and the Inter-County Connector. These are issues 
that require the best in professionalism and political skills, 
and John Porcari exercised the right judgment that made our 
State proud of the manner in which he conducted his service as 
Secretary of Transportation.
    I think he has the package needed, at this time, for our 
country. We know that we have just passed the American Recovery 
and Reinvestment Act, a significant increase in funding for our 
transportation infrastructure. We now need to make sure that 
there's accountability. John Porcari will be an excellent 
person, if confirmed, to carry out the oversight necessary to 
make sure that the taxpayers of this country get the value for 
the investments that have been made.
    We know that we have tremendous needs in this country for 
infrastructure investment for transportation. We also know we 
have challenges on revenue. I think John Porcari will be an 
excellent person to try to help us map out the strategies 
necessary to achieve our goals of modernizing our 
infrastructure system, and do it in a fiscally responsible 
manner.
    I concur with Senator Mikulski--this is a contribution 
being made by the people of Maryland. We're going to miss him 
as Secretary of Transportation, but we think it's an excellent 
choice for the Obama Administration, and we wholeheartedly 
endorse his candidacy.
    Senator Warner. Thank you, Senator Cardin, and Senator 
Mikulski.
    Let me just add--echoing the comment that Senator Mikulski 
made--that all of us in the greater Washington region realize 
that for many decades, the Potomac River was the great divide 
between Virginia and Maryland, and we too often did not view 
our transportation system as a regional network. And I had the 
opportunity--and my Secretary of Transportation, Pierce Homer, 
had an opportunity to work, at great length, with John Porcari.
    And I will echo your comments that he has been able to 
negotiate those waters and move us forward as a region.
    So, I echo both of your comments that I think he will be a 
great addition to the Administration. I thank you both for your 
testimony, and if you don't have anything else to add?
    Senator Mikulski. Mr. Chairman, I just would like to put my 
appropriations hat on for a moment. As you know, I chair the 
subcommittee that funds the Commerce Department, on 
Appropriations. There are those at the table that are part of 
my Subcommittee.
    And, Mr. Chairman, you have outstanding nominees here that 
will be working in the Commerce Department and I, too, would 
like to congratulate them, and in each and every one of their 
areas, whether it's Census, the digital TV conversion issues, 
and so on. We look forward to working with them and 
implementing, also, the President's rural broadband.
    And I would really hope, then, with this talent that will 
be coming before you, and working with the authorizers, we can 
really revitalize and recapitalize the Commerce Department.
    I look forward to working with you, and the people who will 
be confirmed.
    Thank you very much.
    Senator Warner. Thank you, Senator.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Mr. Chairman, you notice the 
endorsement--the outstanding endorsement--that Mr. Porcari got, 
and Senator Mikulski reminded us that she's on the 
Appropriations Committee.
    [Laughter.]
    Senator Warner. It wasn't very subtle, was it?
    [Laughter.]
    Senator Lautenberg. Not for me, I'm on her Subcommittee.
    Senator Warner. Thank you, Senator Mikulski.
    Thank you, Senator Cardin.
    Senator Hutchison, I already, in my interim step, here, as 
Chair, gave an opening statement. I wondered if you would like 
to offer an opening statement, as well.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    I do have an opening statement, but I will not read it 
because everyone is here, we're going to have a vote soon, and 
I would like to proceed with the hearing, so I will submit mine 
for the record.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Senator, for filling in today. We wish Chairman 
Rockefeller a speedy recovery and look forward to his return soon. We 
have several important nominations to consider today, and I thank the 
nominees for accepting these positions and the challenges that come 
with them.
    Addressing NTIA first, I want to emphasize that the DTV transition 
must remain the highest priority for NTIA. I am encouraged that since 
February we have been able to cut the number of unprepared households 
in half, but there remain concerns, particularly in Texas where we have 
many vulnerable communities. Recently, the FCC and NTIA have ramped up 
their efforts to target assistance to the Spanish-speaking population. 
I want to ask Mr. Strickling about his plans to continue focusing on 
NTIA's resources, through the transition, on Spanish-speaking 
communities, including print and video advertising, walk-in centers, 
and Spanish-speaking call center agents.
    I also would like Mr. Strickling to address how NTIA intends to 
focus the broadband grant program on unserved communities. This program 
must be, from the outset, a model for efficiency and effective 
oversight. NTIA was provided $4.7 billion for the broadband grant 
program with a short time-frame with which to spend the money. I want 
to know how NTIA will aggressively enforce its program to ensure 
against waste, fraud, and abuse. Mr. Strickling has a commendable 
background in government, particularly at the FCC during the 
development of the Universal Service Fund's various programs. The 
Universal Service Fund, however, has a questionable track record of 
management and oversight. I would like the nominee to address what 
lessons he takes from his experiences at the FCC that will ensure the 
broadband grant program is run efficiently and taxpayer dollars are 
spent wisely and carefully.
    Another significant program that is pending before the Department 
of Commerce is the 2010 Census. It is important that the process remain 
transparent and that we receive an accurate count. Since the Under 
Secretary of Commerce for Economic Affairs is involved in that process, 
I look forward to hearing Ms. Blank's views on how the 2010 Census 
should be handled.
    Today's hearing is also a unique one because we have a nominee to 
be Associate Director of Technology within the Office of Science and 
Technology Policy, who will also have additional responsibilities as 
the Chief Technology Officer, a new position created by this 
Administration. I look forward to learning about Mr. Chopra's vision 
for these positions.
    Moving to our transportation nominees, I welcome the opportunity to 
move forward on Mr. Babbitt's nomination. It is extremely important we 
get a strong and stable leadership team in place at the FAA. In the 
wake of recent accidents and the questions raised by those tragic 
incidents regarding pilot training and competence, along with labor 
strife and Congressional debate on FAA Reauthorization, it is 
imperative that we have a qualified and able Administrator in place.
    As I emphasized in our private meeting earlier this month, I am 
increasingly concerned with FAA's air traffic control modernization 
efforts and the fiscal implications of a potentially re-negotiated air 
traffic controller contract. We will need your help, Mr. Babbitt, to 
pass an FAA Reauthorization bill this year. There are several poison 
pills looming, especially in the current version of the House bill that 
could lead to a deadlock. We will need some assistance and practical 
decisionmaking at the FAA in order to get a bill through this year.
    I would also like to welcome Mr. Porcari, who is nominated to be 
Deputy Secretary at the Department of Transportation. If confirmed, Mr. 
Porcari will serve as Chief Operating Officer at DOT and oversee the 
day-to-day operations of the Department. This is an important position, 
as DOT is currently facing many important legislative and policy 
challenges.
    Again, I thank the nominees for their willingness to serve in these 
important roles and look forward to having a constructive dialogue.

    Senator Warner. Thank you, and I know that I will also ask 
the Committee's unanimous consent to insert some statements for 
the record from Chairman Rockefeller, Senators Kennedy, Durbin, 
and from Representative Dingell.
    [The information referred to is contained in the Appendix.]
    Senator Warner. So, I'd like to ask the nominees to come to 
the table now.
    Again, I'd like to welcome you all here, and I look forward 
to your testimony and your service. I want to--following 
Senator Mikulski and Senator Cardin's glowing endorsement of 
their fellow Marylander, John Porcari, I want to take the same 
opportunity as a Virginia Senator to introduce Aneesh Chopra.
    I'll do this quite briefly, but Aneesh Chopra has been 
nominated by President Obama to be both Chief Technology 
Officer--a new position, a position that I've been a strong 
advocate for and believe is, combined with the CIO and the CPO, 
can bring really new focus to making sure that we're more 
effective, efficient, and technologically adept at our national 
level.
    In addition to that position, he has also been nominated to 
be Associate Director of the Office of Science and Technology. 
And I'll come back to Mr. Babbitt in a moment.
    Now, Mr. Chopra and I have gone back decades since he first 
got involved in public policy, and I was proud to appoint him 
to a series of boards when I had the opportunity to be 
Governor. My successor, Governor Kaine, appointed him as 
Secretary of Technology, where he has performed admirably.
    Last year, Government Technology Magazine named him one of 
the Top 25 Doers, Dreamers, and Drivers, and as someone who has 
spent a great deal of time with Aneesh, he's a bit of a 
whirlwind and it is difficult to keep up with his ideas. I know 
that he'll bring that same energy to this position.
    He's got a great background serving in senior private 
experience on the Advisory Board with Morgan Stanley. He brings 
the right mix of technology and governmental backgrounds. I 
know he's going to do a remarkable job as CTO, and look forward 
to his service.
    I also want to take a moment to introduce Randy Babbitt, 
who the President has nominated to be Administrator of the FAA. 
Mr. Babbitt has spent more than 40 years focusing on aviation 
industry and labor relations issues, and I believe he is the 
right person to lead the FAA at this moment.
    He began his career as a commercial pilot for Eastern 
Airlines, I think we all remember when it was the Eastern 
Shuttle. Many years ago, he served as President of the Airline 
Pilots Association, and most recently has served as an aviation 
consultant.
    He has a great background, has deep knowledge of safety 
issues, and understands the challenges at the FAA. We had a 
chance to visit on matters related to issues with the air 
traffic controllers. We want to make sure that the NextGen 
project moves from discussion into implementation. I think he 
will bring the appropriate skills and background to this very, 
very important position, and I commend the President for his 
nomination.
    We'll now ask each of the nominees to introduce anyone 
you've brought, and put forward your statements, again, 
recognizing that we may have some votes. We've got five of you, 
but we all want to make sure we will get to questions.
    So, we'll start with Mr. Strickling.

              STATEMENT OF LAWRENCE E. STRICKLING,

           ASSISTANT SECRETARY-DESIGNATE OF COMMERCE

              FOR COMMUNICATIONS AND INFORMATION,

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Strickling. Thank you, Mr. Chairman.
    Senator Hutchison, and distinguished Members of the 
Committee, my name is Larry Strickling, and I want to thank you 
for considering my nomination, and for giving me the 
opportunity to appear before you today to introduce myself, and 
answer any questions you may have for me.
    I want to thank President Obama for nominating me for this 
position, and also to thank Secretary Locke for his support of 
my nomination. I'd also like to take this opportunity to 
acknowledge and thank Anna Gomez, the Assistant Secretary of 
NTIA, and Senior Policy Advisor, Mark Seifert, who have led the 
Agency's efforts since February. From all reports, they have 
done a magnificent job with respect to the digital television 
transition, and the implementation of the broadband grants 
program established by the American Recovery and Reinvestment 
Act, they both deserve our thanks.
    Well, if I may, Mr. Chairman, I'd like to introduce the 
members of my family in the audience. My wife, Sydney Hans, is 
a Professor at the University of Chicago School of Social 
Service Administration. As the one member of our family with a 
steady job----
    [Laughter.]
    Mr. Strickling. She will remain in Chicago. But I do want 
to thank her, and I ask the members to acknowledge her, and 
thank her for her sacrifice in allowing me to be considered for 
this position in the Administration.
    My oldest son, Taylor, is completing a year of study of 
Arabic, in Morocco, and could not be here today, but my other 
two sons are here. Alec Strickling, who worked as a Field 
Organizer, and Deputy Field Director in the Obama campaign for 
2 years, and my youngest son, Rob, is also here today, who just 
finished his successful freshman campaign at Macalester 
College.
    Senator Warner. Can they raise their hands, so we can at 
least see them?
    Nice to see you guys.
    Mr. Strickling. And finally, my sister, Ann Strickling is 
also in attendance.
    Given the size of today's panel, I ask that my longer, 
prepared remarks be included in the record of today's hearing.
    Senator Warner. Without objection.
    Mr. Strickling. And instead, I would like to summarize my 
testimony by making the following three points. First, I have 
spent more than 25 years in the communications sector of the 
economy. I have worked for what was one of the largest, and 
most heavily regulated companies in this industry, Ameritech, 
as well as a fledgling, unregulated startup, CoreExpress. I've 
also had a chance to see this industry through the eyes of a 
regulator, given my post at the FCC 10 years ago.
    I have seen companies succeed in this industry, and I have 
shared in the heartbreak of employees who have lost their jobs 
when their company failed.
    But even as companies come and go, there is no doubt that 
the communications sector of our economy is a huge potential 
source of growth and innovation, and impacts every other part 
of our economy.
    Advances in communication technology and products can 
improve the competitiveness of all American businesses, whether 
they are in healthcare, energy, or any other line of business, 
and these advances create jobs.
    Moreover, we must do everything we can to ensure that all 
Americans have access to these modern communications services. 
The Internet plays such an important day-to-day role in the 
lives of so many of us, that those of our citizens who are not 
connected risk being left behind, in terms of getting a modern 
education, in terms of competing for high-value jobs, receiving 
healthcare, and in so many other ways.
    Second, Congress has entrusted NTIA with many important 
responsibilities, ranging from managing the government's use of 
spectrum, to Internet governance, to implementing the broadband 
grant program established by the Recovery Act.
    While each of these tasks is important in its own right, 
NTIA should ensure that everything it does supports the 
priorities of Secretary Locke and the Administration to help 
the economy recover as quickly as possible, and then to support 
the larger mission of the Department to promote commerce, 
particularly through encouraging growth, innovation, and job 
creation in this sector.
    If I am confirmed, NTIA will perform its responsibilities 
with clarity, common sense, and creativity, and always with the 
goal of promoting our overall economy through the growth and 
innovation that the communications sector can deliver.
    Third, and in closing, I want to assure you that you have 
my commitment that if I am confirmed, I will work with each one 
of you, and members of your staff, to address the challenges 
facing our technology and telecommunications sector.
    Thank you, again, for the opportunity to be here today, and 
I would be happy to answer any questions that you may have for 
me.
    Thank you very much.
    [The prepared statement and biographical information of Mr. 
Strickling follows:]

   Prepared Statement of Lawrence E. Strickling, Assistant Secretary-
       Designate of Commerce for Communications and Information, 
                      U.S. Department of Commerce
    Mr. Chairman, Senator Hutchison, and distinguished Members of the 
Committee, my name is Lawrence Strickling and I am appearing before you 
today as the nominee for Assistant Secretary of Commerce for 
Communications and Information. Thank you for considering my nomination 
and for giving me the opportunity to appear before you today to 
introduce myself and answer any questions that you have for me.
    I want to thank President Obama for nominating me for this position 
and to thank Secretary Locke for his support of my nomination. I would 
also like to take this opportunity to acknowledge and thank Anna Gomez, 
Deputy Administrator at NTIA, and Senior Advisor, Mark Seifert, who 
have led the agency's efforts since February. From all reports, they 
have done a magnificent job with respect to the digital television 
transition and the implementation of the broadband grants program 
established by the American Recovery and Reinvestment Act and they both 
deserve our thanks.
    I have spent more than twenty-five years in the communications 
sector of our economy. My first involvement was in 1983 when I was a 
member of a team of lawyers assembled to advise the yet-to-be-named 
Midwest Baby Bell that would be created by the break-up of AT&T in 
1984. I later joined that company, by then known as Ameritech, and 
served as a senior executive in the company in the law and public 
policy departments, living through the industry transformation that 
followed the Bell break-up and the debate and passage of the 
Telecommunications Act of 1996.
    In 1997, at the invitation of Chairman Reed Hundt and soon-to-be 
Chairman Bill Kennard, I joined the staff of the Federal Communications 
Commission to work on the Nation's transition to a more competitive 
telecommunications marketplace and to develop new tools, primarily in 
enforcement, to deal with the rapidly changing market conditions. 
During my tenure at the Commission, where I served as Chief of the 
Common Carrier Bureau, among other positions, the FCC granted the first 
long distance licenses to the Bell companies--Verizon in New York and 
SBC in Texas--and we made much progress in protecting consumers from 
the twin scourges of ``slamming'' and ``cramming'' that became 
widespread at that time.
    Since 2000, I have worked for a handful of telecommunications 
companies of varying sizes, each with their own product offerings and 
business strategies. None survives as a stand-alone company today. I 
believe these experiences with an assortment of communications 
companies and my previous government service at the FCC provide me a 
unique background for the position of Assistant Secretary. I have 
worked for what was one of the largest and most heavily-regulated 
companies in the industry, Ameritech, as well as for a fledgling 
unregulated start-up, CoreExpress. I have seen companies succeed in 
this industry and I have shared the heartbreak of employees who have 
lost their jobs when their company failed.
    The lessons I have learned from these 25 years of experience will 
not surprise anyone. First, the communications sector of our economy, 
as a potential source of growth and innovation, impacts every other 
part of the economy. Advances in communications can improve the 
competitiveness of all American businesses whether they are in health 
care, energy or any other line of business. Second, this growth and 
innovation is possible only if there is capital available for both 
incumbents and entrepreneurs to commercialize their ideas. Obviously, 
this is a particular challenge today, but government can help encourage 
investment by providing a stable and predictable regulatory landscape. 
Third, we must do everything we can to ensure that all Americans have 
access to modern communications services. The Internet plays such an 
important day-to-day role in the lives of so many of us that those of 
our citizens who are not connected risk being left behind--in terms of 
getting a modern education, competing for high-value jobs, receiving 
health care--and in so many other ways.
    Congress has entrusted NTIA with many important responsibilities, 
ranging from managing the government's use of spectrum to Internet 
governance to implementing the broadband grant program established by 
the Recovery Act. While each of these tasks is important in its own 
right, NTIA should ensure that everything it does supports the 
priorities of Secretary Locke and the Administration to help the 
economy recover as quickly as possible and then to support the larger 
mission of the Department to promote commerce, particularly through 
encouraging growth and innovation in this sector.
    If I am confirmed, NTIA will perform its responsibilities with 
clarity, common sense and creativity and always with the goal of 
promoting our overall economy through the growth and innovation that 
the communications sector can deliver.
    In closing, let me once again thank you and the Committee for the 
opportunity to be here today. You have my commitment that I will work 
with each one of you as well as members of your staff to address the 
challenges facing our technology and telecommunications sectors.
    I will be happy to answer any questions you may have for me. Thank 
you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Lawrence 
Edward Strickling.
    2. Position to which nominated: Assistant Secretary of Commerce for 
Communications and Information.
    3. Date of Nomination: March 31, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: None.

    5. Date and Place of Birth: November 23, 1951; Takoma Park, 
Maryland.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Sydney Lynn Hans, Professor, University of Chicago; 
        children: Taylor William Strickling, age 27; John Alexander 
        Strickling, age 24; Robert Bennett Strickling, age 19.

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Maryland, B.A. in Economics, 1973.

        Harvard Law School, J.D., 1976.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Public Liaison for Policy Groups, Office of the President-
        Elect, 2008-2009.

        Policy Coordinator, Obama for America, 2007-2008.

        Chief Regulatory and Chief Compliance Officer, Broadwing 
        Communications, 2004-2007 (acquired by Level 3 Communications 
        in January 2007).

        Senior Vice President, Industry Development, Allegiance 
        Telecom, 2002-2004.

        Member, Board of Directors, Network Plus, Inc., 2001-2002.

        Executive Vice President, General Counsel and Secretary, 
        CoreExpress, Inc., 2000-2001.

        Federal Communications Commission, 1997-2000.

                Chief, Common Carrier Bureau, 1998-2000.

                Deputy Chief, Common Carrier Bureau, 1998.

                Associate General Counsel and Chief, Competition 
                Division, 1997-98.

        Ameritech, 1987-1997.

                Vice President--Public Policy, 1993-1997.

                Vice President and Associate General Counsel, 1991-93; 
                Counsel, 1987-91.

        Kirkland & Ellis, 1976-87.

                Partner, 1983-87.

                Associate, 1976-83.

    All of the positions I held from 1987 through 2007 were management 
positions, except for the Network Plus board seat, and all of them, as 
positions within the telecommunications sector, relate to the position 
to which I have been nominated. In addition, I believe my work at 
Kirkland & Ellis and on the Obama campaign and transition has provided 
me additional skills and experience that will be useful to me at the 
Department of Commerce if I am confirmed.
    9. Attach a copy of your resume. See Attachment A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Board of Visitors, University of Maryland School of Public 
        Policy, 2006-present.

        Board of Directors, Telecommunications Policy Research 
        Conference, 2001-2004.

        Board of Trustees, Court Theatre, 1995-present (Chairman since 
        2006).

        Board of Directors, Music of the Baroque, 2003-present 
        (Treasurer since 2006).

        Board of Directors, Chicago Area Council, Boy Scouts of 
        America, 1992-2006 (Vice President from 1992-2006).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.
    See board positions listed in response to Question 11. The Boy 
Scouts of America does restrict membership on the basis of sex (for 
certain elements of its program) and sexual orientation.
    In addition, I belong to but am not particularly active in the 
following organizations:

        University of Maryland Terrapin Club.

        Maryland Gridiron Network.

        Chicago Civil War Roundtable.

        The Mencken Society.

        Chicago Symphony Orchestra Governing Members (1996-2009).

    I am also a member of the Illinois Bar.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

 
 
 
 
    2008:                     Obama Victory Fund, $2,300
                              Lessig 08, $500
    2007:                     Obama Exploratory Committee, $2,300
                              Friends of Leslie Hairston (Chicago
                               alderman), $500
                              Al Franken for Senate, $500
    2006:                     Friends of Leslie Hairston, $500
    2005:                     Obama for Illinois, $1,000
                              Friends of Leslie Hairston, $500
    2004:                     Obama for Illinois, $2,000
                              John Kerry for President, $2,000
                              John Kerry GELAC, $2,000
                              Ohio Democratic Party, $4,000
                              Armendariz-Klein Campaign, $1,000
                              Friends of John McCain, $1,000
                              Friends of Leslie Hairston, $500
    2003-04:                  Allegiance Telecom PAC, $2,700
    2003:                     Obama for Illinois, $1,000
                              Markey for Congress Committee, $1,000
                              Friends of Leslie Hairston, $1,000
                              Citizens for Welch (Illinois Senate), $500
    2002:                     Schmidt 2002 (Illinois Attorney General),
                               $2,000
    2001:                     Richard M. Daley Campaign Committee, $500
    2000:                     Campbell for U.S. Senate, $1,000
    1999:                     Obama for Congress 2000, $500
    1998:                     Tom Campbell for Congress, $1,000
 


    As noted in response to question 8 above, I served as Policy 
Coordinator for Obama for America from May 2007 through the general 
election in November 2008. Additionally, in January and February 2002, 
I worked on policy issues for the primary campaign of John Schmidt who 
was a candidate for Illinois Attorney General.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        University of Maryland: Phi Beta Kappa, Phi Kappa Phi, Omicron 
        Delta Epsilon.

        Chicago Area Council, Boy Scouts of America: Silver Beaver, 
        District Award of Merit.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    See list of representative presentations, appended hereto as 
Attachment B.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        House Telecommunications Subcommittee, June 1998: Slamming (the 
        practice of long distance companies switching consumers to 
        their service without the customers' consent).

        Senate Permanent Subcommittee on Investigations, July 1998: 
        Cramming (the practice of companies billing consumers for 
        services they have not ordered or requested, usually through 
        the phone bill of the incumbent phone company).

        House Telecommunications Subcommittee, September 1998: 
        Cramming/ Slamming.

        House Telecommunications Subcommittee, June 2000: Reciprocal 
        Compensation (the mechanism by which an incumbent and a 
        competitive local exchange carrier compensate each other for a 
        call that traverses both's networks).

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe my more than 25 years of experience in the 
telecommunications industry uniquely qualifies me to serve as Assistant 
Secretary of Commerce for Communications and Information. I have worked 
for a variety of companies in the industry ranging from an incumbent 
Bell telephone company to a fledgling start-up. I have previously 
served in the Federal Government as Chief of the Common Carrier Bureau 
at the Federal Communications Commission from 1998-2000 at a time when 
the industry and the FCC were trying to navigate the significant market 
changes resulting from the passage of the Telecommunications Act of 
1996. With this experience, I have an in-depth understanding of how 
companies are able to succeed in this industry and how they fail. This 
experience will be particularly valuable as NTIA is called upon to 
provide $4.7 billion in grants to expand broadband service in unserved 
and underserved areas in this country and also provides me a strong 
foundation from which to deal with all the communications and 
information issues within the ambit of NTIA.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Particularly in light of the task Congress has entrusted to NTIA to 
manage the Broadband Telecommunications Opportunities Program, ensuring 
proper management and accounting controls will be a top priority for me 
if I am confirmed as Assistant Secretary. I will work with the 
Department's Chief Financial Officer and Inspector General to ensure 
that we have crafted the appropriate reporting and monitoring 
requirements for NTIA and the BTOP grant recipients and then I will 
devote whatever staff and outside resources are necessary to ensure 
that the requirements are followed.
    As both Vice President, Public Policy at Ameritech and Chief of the 
Common Carrier Bureau at the FCC, I managed large organizations and 
multi-million dollar budgets. In both of these positions, I devoted 
substantial time in these organizations to improving the morale, 
efficiency, and creativity of the work groups, largely by engaging and 
empowering staff members. I plan to dedicate a significant percentage 
of my time if confirmed to engage the NTIA staff using similar team-
building tools that were successfully employed in my previous 
positions.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    As Secretary Locke has previously stated, economic recovery is the 
number one priority for the Department of Commerce. At NTIA, I believe 
that we can best support that mission in the following ways:

        First, NTIA must implement the broadband provisions of the ARRA 
        as responsibly and promptly as possible.

        Second, NTIA plays a central role with respect to this Nation's 
        spectrum and Internet policies. We must make every effort to 
        ensure that spectrum is available to fuel economic growth in 
        the United States. We must also ensure that our policies with 
        respect to the Internet protect and maintain the openness and 
        innovation that has so well-served our citizens and businesses 
        up to now.

        Third, NTIA should revitalize its role as the advisor to the 
        President on communications policy.

    And, in all of these activities, NTIA should perform its assigned 
responsibilities with clarity, common sense and creativity.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    I currently hold a number of investments in various companies in 
the telecommunications industry. In connection with the nomination 
process, I have consulted with the Office of Government Ethics and the 
Department of Commerce's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have executed and which is appended to this questionnaire as 
Attachment C. I am not aware of any other potential conflict of 
interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have executed 
and which is appended to this questionnaire as Attachment C. I am not 
aware of any other potential conflict of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have not engaged in any activity to directly influence the 
passage, defeat or modification of any legislation except as follows: 
As a member of the President-Elect's transition team, I met with Senate 
staffers from several offices in January and February 2009 regarding 
the broadband provisions of the recovery legislation.
    Indirectly, in my role as policy coordinator on the Obama campaign, 
I oversaw the work of more than twenty domestic policy committees whose 
charge was to develop ideas that might eventually be adopted by the 
campaign and which could form the basis of legislative proposals. In 
addition, since leaving the FCC in 2000, I have returned to the 
Commission a handful of times on ex parte appearances with respect to 
pending regulatory matters. In each case, an appropriate notice of ex 
parte contact was filed at the Commission.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have executed 
and which is appended to this questionnaire as Attachment C.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    Yes. In September 2005, I joined with ten other Scout leaders in 
Chicago in an action against the Chicago Area Council, Boy Scouts of 
America and its president, pleading that the Council and president had 
committed numerous violations of Illinois law and had breached 
fiduciary duties owed to voting members of the Council in refusing to 
allow members to vote on a properly-nominated slate of officers and 
directors of the Council. In January 2006, the judge of the Circuit 
Court of Cook County ruled that the Council and its president had 
violated Illinois law and had breached their fiduciary duties to the 
members. The Council appealed the decision to the Illinois Appellate 
Court and a settlement was reached during the appeal that resulted in 
the dismissal of the complaint.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              Attachment A
                    resume of lawrence e. strickling
Professional Experience
    Public Liaison for Policy Groups, Office of the President-Elect, 
2008-09.
    Policy Coordinator, Obama for America, 2007-2008.

        Responsible for directing the activities of 24 domestic policy 
        committees, made up of volunteer policy experts from across the 
        country. Managed the growth of the committees from a few 
        hundred in 2007 to around 4,500 people in the Fall of 2008. 
        Developed and executed strategy for the use of the groups, 
        starting with developing policy ideas in 2007, engaging in 
        policy outreach focused primarily on the battleground states 
        starting in Summer 2008, and participating in get-out-the-vote 
        activities in October and November.

        In the campaign policy department, I was responsible for 
        technology and telecommunications issues. In that role, I 
        assembled and edited the campaign's policy statement on 
        technology policy in November 2007.

        In the field, I helped organize the voter protection efforts 
        for the campaign for the Ohio primary, worked in the voter 
        protection boiler rooms in Wisconsin and Indiana, and did GOTV 
        in Iowa, New Hampshire and Massachusetts. On Election Day, I 
        worked in the Chicago boiler room monitoring Michigan.

    Chief Regulatory and Chief Compliance Officer, Broadwing 
Communications, 2004-2007.

        Responsible for ensuring company's compliance with Federal and 
        state regulatory requirements and for developing and executing 
        its regulatory strategies. Broadwing was acquired by Level 3 in 
        January, 2007.

    Senior Vice President, Industry Development, Allegiance Telecom, 
2002-2004.

        Responsible for negotiating and administering Allegiance's 
        interconnection relationships with other carriers in the 
        telecommunications industry, particularly the incumbent local 
        exchange carriers. Also responsible for the development and 
        execution of Allegiance's state regulatory strategies. 
        Allegiance was sold to X0 Communications out of bankruptcy in 
        the Summer, 2004.

    Member, Board of Directors, Network Plus, Inc., 2001-2002.

    Executive Vice President, General Counsel and Secretary, 
CoreExpress, Inc., 2000-2001.

        Responsible for the legal and regulatory affairs of the 
        corporation. The company was sold by its secured creditors to 
        Williams Communications at the end of 2001.

    Federal Communications Commission, 1997-2000.

        Chief, Common Carrier Bureau, 1998-2000.

        Deputy Chief, Common Carrier Bureau, 1998.

        Associate General Counsel and Chief, Competition Division, 
        1997-98.

    Principal accomplishments included the following:

    Competition:

        Unbundling. Developed and implemented the Commission's network 
        element unbundling standard after the 1999 Supreme Court 
        decision. Developed new rules for collocation and line sharing.

        Long Distance Entry. Led the review of the market-opening 
        activities of Verizon in New York and SBC in Texas leading to 
        the FCC's approval of companies' applications to provide long 
        distance service.

        Access Reform and Deregulation. Facilitated industry 
        negotiations to reform and reduce interstate access charges, 
        adopted by the Commission as the CALLS proposal in 2000, and 
        led the development of the framework for streamlining the 
        deregulation of access charges as competition develops.

        Data Collection. Directed development of the FCC local 
        competition report which gathers and collects authoritative 
        information from all carriers.

    Enforcement:

        Rocket Docket Complaint Process. Created and implemented a new 
        complaint process by which the Commission could resolve formal 
        complaints between carriers within 60 days.

        Slamming Enforcement. Led the Bureau's efforts to step up 
        enforcement actions against slamming by revoking licenses and 
        levying the first million-dollar fines against long distance 
        companies that engage in this illegal practice and to develop 
        new rules to absolve consumers of any obligation to pay 
        slamming carriers for calls they wrongfully handle.

        Cramming Guidelines. In response to growing consumer and 
        Congressional concerns about cramming, organized a workshop of 
        the large local exchange carriers to develop a set of voluntary 
        best practices to combat this new form of consumer fraud. The 
        guidelines were completed in 2 months, thus providing consumers 
        much faster action and protection than the traditional 
        rulemaking process would have allowed.

    Congressional Testimony:

        House Telecommunications Subcommittee, June 1998: Slamming.

        Senate Permanent Subcommittee on Investigations, July 1998: 
        Cramming.

        House Telecommunications Subcommittee, September 1998: 
        Cramming/Slamming.

        House Telecommunications Subcommittee, June 2000: Reciprocal 
        Compensation.

    Ameritech, 1987-1997.

        Vice President--Public Policy, 1993-1997.

        Vice President and Associate General Counsel, 1991-93; Counsel, 
        1987-91.

    As Vice President--Public Policy, I was responsible for developing 
and implementing the state and Federal regulatory and legislative 
agenda for Ameritech. I supervised more than 250 employees in 
regulatory and public policy, managing a budget of more than $25 
million, and participating in all proceedings before the FCC and state 
utility commissions. I also served on Ameritech's Asset Management 
Committee, which oversaw management of the company's multi-billion 
dollar pension funds, and on the Benefits Committee, which was the 
final arbiter of employee claims for pension and other benefits.

    Kirkland & Ellis, 1976-87.

        Partner, 1983-87.

        Associate, 1976-83.

    At Kirkland & Ellis, I practiced in the area of general business 
litigation, including environmental, antitrust, contract and tort 
matters. Principal professional matters included the following:

        Amoco Cadiz Oil Spill Litigation. One of Amoco's principal 
        trial counsel in this $700 million litigation arising from a 
        tanker casualty off Brittany, France. Presented Amoco's case 
        during a one-year trial in defense of claims of damage to the 
        overall marine ecosystem, examining technical experts on marine 
        ecology, coastal geology, oyster biology, fish population 
        dynamics, and oil spill cleanup.

        Dow Chemical Company v. Consumers Power Company. One of Dow's 
        trial counsel in a $500 million fraud and breach of contract 
        action involving the Midland nuclear plant. Developed Dow's 
        case relating to misrepresentations of the project's completion 
        schedule.
Education
        Harvard Law School, J.D., 1976.

        University of Maryland, B.A. with High Honors in Economics, 
        1973. Phi Beta Kappa.
Professional and Civic Activities
        Board of Visitors, University of Maryland School of Public 
        Policy, 2006-present.

        Board of Directors, Telecommunications Policy Research 
        Conference, 2001-04.

        Board of Directors, U.S. Telephone Association, 1994-96.

        Co-Founder, Consortium for Research in Telecommunication 
        Policy, 1994-97.

        Admitted to Illinois Bar, 1976.

        Board of Trustees, Court Theatre, 1995-present (current Board 
        Chairman).

        Board of Directors, Music of the Baroque, 2003-present (current 
        Treasurer).

        Vice President, Chicago Area Council, Boy Scouts of America, 
        1992-2006.

        Governing Member, Chicago Symphony Orchestra, 1996-2009.

        Board of Directors, Chicago Children's Choir, 1993-98.
                                 ______
                                 
                              Attachment B
                      representative presentations
    Panelist, Impact of Presidential Election on Telecom Sector, Stifel 
Nicolaus Telecom, Media and Tech D.C. Policy Day, Washington, D.C., 
June 4, 2008.

    Speaker, ``Technology, Campaigning and Governing,'' 41st KMB 
Invitational Conference, St. Petersburg, Florida, May 12, 2008.

    Panelist, The Changing Role of Technology in the Election Process, 
FCBA Annual Seminar, Cambridge, Maryland, May 2, 2008.

    Panelist, Regulatory Forum: Analysing the Impact of the Latest U.S. 
Regulatory Developments on Next-Gen Networks and Services: Net 
Neutrality, Capacity Magazine Next-Gen USA 2006, Denver, Colorado, 
November 30, 2006.

    Moderator and Panelist, 38th KMB Invitational Conference: Telecom 
Customers--Their Needs, Wants and Expectations, St. Petersburg, 
Florida, October 2006.

    Speaker, ``Net Neutrality and Interoperability,'' Quello Center 
Communication Law and Policy Symposium, Washington, D.C., April 6, 
2006.

    Speaker, ``How Will VoIP Be Regulated? FCC Rulings and 
Proceedings,'' 2006 Telecom, Cable and Wireless Conference, University 
of Texas at Austin School of Law, Austin, Texas, March 10, 2006.

    Moderator, 37th KMB Invitational Conference: Making Sure that 
America Maintains a World-Class Telecom Infrastructure, St. Petersburg, 
Florida, March 2006.

    Panelist, State and Federal Regulatory Developments, MetroConnect 
USA, Miami, Florida, February 8, 2006.

    Panelist, Implementing the Telecom Act: Major Common Carrier 
Issues, Columbia Institute for Tele-Information and George Washington 
University School of Public Policy, Washington, D.C., February 6, 2006.

    Moderator and Panelist, 36th KMB Invitational Conference: The 2006 
Outlook for the New Telecom Infrastructures, St. Petersburg, Florida, 
September 2005.

    Moderator, 35th KMB Invitational Conference: Telecom 2005, St. 
Petersburg, Florida, May 2005.

    Moderator and Panelist, 34th KMB Invitational Conference: 
Considerations for a New Telecom Act, St. Petersburg, Florida, 
September 2004.

    Moderator, 33d KMB Invitational Conference: The Impact of Today's 
Telecom Realities on Regulatory Policies and an Evolving Industry, St. 
Petersburg, Florida, May 2004.

    Participant, Quello Center Workshop on Making U.S. 
Telecommunications Policy, Michigan State University, East Lansing, 
Michigan, October 27-28, 2003.

    Moderator and Panelist, 32d KMB Invitational Conference: Telecom 
Complexities, St. Petersburg, Florida, September 2003.

    Panelist, FCC Triennial Review, Mid-America Regulatory Conference, 
Omaha, Nebraska, June 10, 2003.

    Moderator and Panelist, 31st KMB Invitational Conference: Managing 
and Advancing Telecommunications Services, St. Petersburg, Florida, May 
6, 2003.

    Panelist, ALTS 2003 Annual Meeting and Strategy Conference, 
Arlington, Virginia, April 30, 2003.

    Panelist, Current State of Incumbent-CLEC Relations, NARUC Annual 
Convention, Chicago, Illinois, November 2002.

    Moderator and Panelist, 30th KMB Invitational Conference: What 
Comes After the Telecom Turmoil, St. Petersburg, Florida, October 8, 
2002.

    Panelist, 29th KMB Invitational Conference: The Role of 
Telecommunications in a New Environment: The Economy, National Security 
and Competition, St. Petersburg, Florida, April 23, 2002.

    Keynote Speaker, Kaufman Brothers Emerging Telecom Conference, New 
York, New York, October 15, 2001.

    Moderator, Debate on Regulation of Advanced Services, 28th KMB 
Invitational Conference: Competition, Regulation, Enforcement and 
Survival, St. Petersburg, Florida, October 2001.

    Panelist, 27th KMB Invitational Conference: Managing the Telecom 
Transition, St. Petersburg, Florida, April 2001.

    Speaker, Illinois Telecommunications Symposium, Kellogg Graduate 
School of Management, Evanston, Illinois, December 13, 2000.

    Panelist, Columbia Institute for Tele-Information Conference: 
Setting the Telecommunications Agenda, New York, New York, November 3, 
2000.

    Speaker, ``Strategic Implications of Upcoming FCC Actions,'' ALTS 
Executive Summit, Chicago, Illinois, October 27, 2000.

    Panelist, 26th KMB Invitational Conference, 2001 Technological 
Advances, Telecom Structures and Regulatory Policies, St. Petersburg, 
Florida, October 2000.

    Speaker, ``The Changing Role of Federal Regulation of 
Telecommunications,'' Indiana Bar Association, Merrillville, Indiana, 
September 22, 2000.

    Panelist, The Federal Role in a Changing Regulatory Environment, 
Mid-America Regulatory Commissioners Annual Meeting, St. Louis, 
Missouri, June 13, 2000.

    Speaker, ``The Regulatory View from Washington,'' Illinois 
Telecommunications Association Annual Convention, Osage Beach, 
Missouri, June 12, 2000.

    Speaker, Hoexter's Broadband Retreat, Merrill Lynch Emerging 
Broadband Group, Scottsdale, Arizona, June 5, 2000.

    Panelist, ``Building the Bridges Bureau by Bureau,'' FCBA Annual 
Seminar, Nemacolin, Pennsylvania, May 13, 2000.

    Panelist, National Cable Television Association Annual Convention, 
New Orleans, Louisiana, May 9, 2000.

    Panelist, 25th KMB Invitational Conference, Managing the Telecom 
Transition, St. Petersburg, Florida, April 2000.

    Speaker, Practising Law Institute Conference, Telecommunications 
Convergence: Implications for the Industry and for the Practicing 
Lawyer, New York, New York, March 17, 2000.

    Speaker, ``Common Carrier Tutorial,'' 17th Annual PLI/FCBA 
Conference, Washington, D.C., December 9, 1999.

    Panelist, ``Toward a National Broadband Policy in 
Telecommunications,'' 31st Annual Williamsburg Conference, Institute of 
Public Utilities and Network Industries, Michigan State University, 
Williamsburg, Virginia, December 8, 1999.

    Keynote Speaker, Regulatory Sunday, United States Telephone 
Association 102d Annual Convention, San Francisco, California, October 
17, 1999.

    Panelist, ``FCC Bureau Chief Perspectives,'' FCBA and Georgetown 
Law Center Conference: The FCC in 2000: Hot Topics for the New 
Millennium, Washington, D.C., October 5, 1999.

    Panelist, 24th KMB Invitational Conference: Telecom Policies for 
the New Century, Can Massive Changes Be Harmonized?, St. Petersburg, 
Florida, October 1999.

    Keynote Speaker, London Business School Regulation Initiative 
Conference, Local Loop Unbundling: For Whom and At What Price? London, 
England, June 14, 1999.

    Panelist, FCC Bureau Chiefs Discussion, FCBA Annual Seminar, 
Hershey, Pennsylvania, May 7, 1999.

    Panelist, 23d KMB Invitational Conference: Telecommunication Policy 
Requisite for the 21st Century, St. Petersburg, Florida, April 1999.

    Speaker, Center for the New West Conference, America's Growing 
Digital Divide, Washington, D.C., February 17, 1999.

    Panelist, Economic Strategy Institute Conference: America's 
Broadband Future, Washington, D.C., February 3, 1999.

    Panelist, George Mason University Workshop on Trust and the 
Internet, Washington, D.C., January 14, 1999.

    Panelist, ``A Conversation with the FCC Bureau Chiefs,'' 16th 
Annual PLI/FCBA Conference, Washington, D.C., December 10, 1998.

    Panelist, ``The Impacts of Next Generation Internet on Competition 
and Regulation in the Information Industry,'' 30th Annual Williamsburg 
Conference, Institute of Public Utilities and Network Industries, 
Michigan State University, Williamsburg, Virginia, December 9, 1998.

    Speaker, ``Integration of Business and Political Strategies,'' 
University of California, Berkeley, Conference on the Positive 
Political Theory of Business Strategy, Marconi Conference Center, 
Marshall, California, October 16, 1998.

    Panelist, Section 706 of the Telecommunications Act, Regulatory 
Sunday, United States Telephone Association 101st Annual Convention, 
Philadelphia, Pennsylvania, October 11, 1998.

    Panelist, 22d KMB Invitational Conference: The Outlook for 
Universal Service, Local Competition and E-Rates, St. Petersburg, 
Florida, September 1998.

    Panelist, Competition Enforcement and Future Challenges to 
Regulation, 40th NARUC Annual Regulatory Studies Program, Michigan 
State University, East Lansing, Michigan, August 1998.

    Speaker, ``A New Model for Deregulation,'' National Economic 
Research Associates Antitrust and Trade Regulation Seminar, Santa Fe, 
New Mexico, July 10, 1998.

    Panelist and Commentator, Fourth Annual Conference of the 
Consortium for Research on Telecommunications Policy and Strategy, 
University of Michigan Business School, Ann Arbor, Michigan, June 1998.

    Panelist, 21st KMB Invitational Conference: Competition and 
Regulation in the Era of Telecom Mergers and Acquisitions, St. 
Petersburg, Florida, April 1998.

    Speaker, Alliance for Public Technology Conference on Advanced 
Telecom Services, Washington, D.C., February 27, 1998.

    Speaker, ``Evaluating and Enforcing Telecommunications 
Competition,'' 29th Annual Williamsburg Conference, Institute of Public 
Utilities and Network Industries, Michigan State University, 
Williamsburg, Virginia, December 4, 1997.

    Plenary Speaker, ``Competition and Access Networks--What's Really 
Happening,'' 1998 Broadband Access ComForum, Orlando, Florida, March 
30, 1998.

    Speaker, ``A View from the FCC,'' Bell Atlantic Industry Services 
Fall Conference, Williamsburg, Virginia, October 30, 1997.

    October 28, 1997, Speaker, ``Local Competition Enforcement,'' 20th 
KMB Invitational Conference, St. Petersburg, Florida.

    In addition, over the years, I have appeared on a number of 
videotapes produced by the KMB Video Journal. Most of those appearances 
have been on programs summarizing the various KMB conferences. I have 
also appeared on separate programs addressing specific 
telecommunications issues, such as ``The FCC Anti-Slamming Rules'' 
(1999), ``Line Sharing: Problems and Opportunities'' (2000), ``The U.S. 
Supreme Court, Participation in Telecom Policies'' (2001), and ``The 
Regulatory Issues by the Triennial Order'' (2003), to name a few.
                                 ______
                                 
                              Attachment C
Ms. Barbara S. Fredericks,
Assistant General Counsel for Administration,
U.S. Department of Commerce,
Washington, DC.

Dear Ms. Fredericks:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed for and appointed to the position of Assistant 
Secretary for Communications and Information, National 
Telecommunications and Information Administration, U.S. Department of 
Commerce.
    As required by 18 U.S.C.  208(a), I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on my financial interests or those of any person 
whose interests are imputed to me, unless I first obtain a written 
waiver, pursuant to 18 U.S.C,  208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C.  208(b)(2). I understand that the 
interests of the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    Within 90 days of my confirmation, my spouse and I, our dependent 
children, and the Lawrence E. Strickling Trust will divest our 
interests in the following entities: AT&T, Inc.; Clearwire Corporation; 
Comcast; Cisco Systems, Inc.; France Telecom; General Electric Co.; 
Hewlett Packard Co.; IBM Corp.; Intel Corp.; Level 3 Communications; 
Verizon Communications, Inc.; McGraw Hill Companies, Inc.; Microsoft 
Corporation; and Walt Disney Co. With regard to each of these entities, 
I will not participate personally and substantially in any particular 
matter that has a direct and predictable effect on the financial 
interests of the entity until I have divested it, unless I first obtain 
a written waiver, pursuant to 18 U.S.C.  208(b)(1), or qualify for a 
regulatory exemption, pursuant to 18 U.S.C.  208(b)(2).
    I will divest my interests in the Campbell Strategic Allocation 
Fund; Mesirow Large Cap Value Fund; and Mesirow Small Cap Value Fund, 
within 90 days of my confirmation. Until I have completed these 
divestitures, I will not participate personally and substantially in 
any particular matter that has a direct and predictable effect on the 
financial interests of any holding of these funds, unless I first 
obtain a written waiver, pursuant to 18 U.S.C.  208(b)(1), or qualify 
for a regulatory exemption, pursuant to 18 U.S.C.  208(b)(2).
    I have been advised that the duties of the position of Assistant 
Secretary are not likely to involve particular matters affecting the 
financial interests of the following entities: Abbott Laboratories; 
American Express Company; Bank of America Corporation; BP P.L.C.; 
Bristol-Myers Squibb Co.; Chubb Corporation; Citigroup, Inc.; EI DuPont 
de Nemours & Co.; Eli Lilly & Co.; Exxon Mobil Corp.; Johnson & 
Johnson; JP Morgan Chase & Co.; Kimberly Clark Corp.; Kraft Foods, 
Inc.; Merck & Co., Inc.; Oracle Corp.; Pepsico, Inc.; Procter & Gamble, 
Co.; Schlumberger Limited; Under Armour, Inc.; and Yum Brands, Inc. The 
Department of Commerce determined that it is not necessary at this time 
for me to divest my interests in these entities in order to 
appropriately perform the duties of my position because the likelihood 
that my duties will involve any such matter is remote. Accordingly, I 
will retain these holdings and will not participate personally and 
substantially in any particular matter that has a direct and 
predictable effect on the financial interests of any of these entities, 
unless I first obtain a written waiver, pursuant to 18 U.S.C.  
208(b)(1), or qualify for a regulatory exemption, pursuant to 18 U.S.C. 
 208(b)(2).
    With respect to my other assets in which I have a financial 
interest, including stock holdings and mutual fund holdings, 
disqualification is not presently required because of the applicability 
of a regulatory exemption under 18 U.S.C.  208(b)(2). I will monitor 
the value of those interests and if the aggregate value of interests 
affected by a particular matter increases and exceeds the de minimis 
threshold, I will not participate in the particular matter, unless I 
first obtain a written waiver under 18 U.S.C.  208(b)(1).
    My spouse is a professor at the University of Chicago, a position 
for which she receives a fixed annual salary. I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on my spouse's compensation or employment with 
the University, unless I first obtain a written waiver, pursuant to 18 
U.S.C.  208(b)(1), or qualify for a regulatory exemption, pursuant to 
18 U.S.C.  208(b)(2). In addition, for as long as my spouse continues 
to be employed with the University of Chicago, I will not participate 
personally and substantially in any particular matter involving 
specific parties in which the University is a party or represents a 
party, unless I am first authorized to participate under 5 C.F.R.  
2635.502(d).
    Upon confirmation, I will resign from positions I currently hold 
with the following organizations:

        Court Theatre

        Music of the Baroque

        University of Maryland, School of Public Policy

    For a period of one year after my resignation, I will not 
participate personally and substantially in any particular matter 
involving specific parties in which any of the following organizations 
is a party or represents a party, unless I am first authorized to 
participate, pursuant to 5 C.F.R.  2635.502(d):

        Court Theatre

        Music of the Baroque

    I will retain my position as a trustee of the Lawrence E. 
Strickling Trust. I will not receive any fees for the services that I 
provide as a trustee during my appointment to the position of Assistant 
Secretary. I will not participate personally and substantially in any 
particular matter that has a direct and predictable effect on the 
financial interests of the trust, unless I first obtain a written 
waiver, pursuant to 18 U.S.C.  208(b)(1), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C.  208(b)(2).
            Sincerely,
                                     Lawrence E. Strickling

    Senator Warner. Thank you, Mr. Strickling.
    As somebody who has spent 20 years in the telecom sector 
before I also made the transition to government, I can't think 
of a more critical position than yours. It's an area where 
we've got to make sure we get things right.
    Mr. Porcari?

  STATEMENT OF JOHN PORCARI, DEPUTY SECRETARY-DESIGNATE, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Porcari. Mr. Chairman, Ranking Member Hutchison, and 
Members of the Committee, it's both a personal and professional 
honor to have been nominated by the President for the position 
of Deputy Secretary of the United States Department of 
Transportation, and to appear before you today. If confirmed, I 
pledge to you that I will work enthusiastically and diligently 
every day, to support Secretary LaHood, and the talented 
professionals at the Department of Transportation.
    With your permission, I'd like to introduce my wife, Heidi, 
my children, Emily, James, Anna, John and Julia--they are back 
there----
    Senator Warner. Hands, guys. Raise your hands, guys, let's 
see you.
    Senator Lautenberg. Let us see you.
    Senator Warner. All right.
    Mr. Porcari. My dad, Jim, and his wife, Nancy; my sister, 
Lieutenant Commander Jenny Keough; my brother Jim and his wife, 
Vicky; my brother, Charles and his wife, Jennifer; and my 
cousin, Lieutenant Colonel Van Opdorp.
    The Department's mission of ensuring the safe and efficient 
movement of people and goods has never been more important than 
it is today. Safety has been--and must continue to be, the top 
priority of the Department. In addition, virtually every 
element of our transportation system faces daunting capacity 
constraints. Our transportation system is essential to the 
long-term prosperity of the United States, and must also play a 
key role in advancing important policy goals, such as livable 
communities, energy conservation, and climate change.
    We also face unprecedented challenges in maintaining our 
existing infrastructure, while simultaneously building a true, 
multi-modal transportation system that will serve the varied 
needs of our communities. I'm confident that, together, we have 
the abilities to successfully address these challenges. If 
confirmed, I look forward to working with Secretary LaHood, and 
the excellent team that he has assembled.
    Having served two tours at a state level in Maryland DOT 
from 1999 to 2003 and 2007 to today, I've had the opportunity 
to manage an agency that uniquely incorporates all of the 
transportation modes under one roof--highways, transit, 
aviation, maritime commerce, passenger and freight rail, as 
well as a toll authority and motor vehicle administration. I 
have a keen sense of why we must have a balanced transportation 
system that meets the Nation's diverse needs.
    The large, complex public organizations that I've had the 
honor to serve in have provided me with the management, 
teamwork, and leadership skills necessary to support the 
Administration, Secretary LaHood, and the Department.
    Having completed significant projects like the Woodrow 
Wilson Bridge, major terminal improvements at BWI Thurgood 
Marshall Airport, light rail, subway, and commuter rail 
projects, and new facilities for the Port of Baltimore, I 
understand the imperative of delivering projects, on-time, and 
on-budget.
    Likewise, the financial, human resources, procurement, and 
administrative challenges of the Department are ones that I 
bring a hands-on perspective to.
    We must relentlessly focus on safety, accountability, and 
transparency, while at the same time encouraging innovation and 
collaboration. We must also coordinate with other Federal 
agencies and departments.
    Mr. Chairman, you, the members of the Committee, and staff 
have my commitment that I will work closely with you on our 
mutual goal of preserving and enhancing America's 
transportation system, one of the keystones to our quality of 
life.
    I will be pleased to answer any questions, and thank you 
for your consideration of my nomination.
    [The prepared statement and biographical information of Mr. 
Porcari follows:]

    Prepared Statement of John Porcari, Deputy Secretary-Designate, 
                   U.S. Department of Transportation
    Mr. Chairman, Ranking Member Hutchison, and members of the 
Committee: It is both a personal and professional honor to have been 
nominated by the President for the position of Deputy Secretary of the 
United States Department of Transportation and to appear before you 
today.
    If confirmed, I pledge to you that I will work enthusiastically and 
diligently every day to support Secretary LaHood and the talented 
professionals of the Department of Transportation.
    I would like to introduce my wife, Heidi; my children, Emily, 
James, Anna, John, and Julia; my Dad, Jim and his wife, Nancy; my 
sister, Lieutenant Commander Jinny Keough; my brother, Jim and his 
wife, Vicky; my brother, Charles and his wife, Jennifer; and my cousin, 
Lieutenant Colonel Van Opdorp.
    The Department's mission of ensuring the safe and efficient 
movement of people and goods has never been more important than it is 
today. Safety has been, and must continue to be, the top priority of 
the Department. In addition, virtually every element of our 
transportation system faces daunting capacity constraints. Our 
transportation system is essential to the long-term prosperity of the 
United States and must also play a key role in advancing important 
policy goals such as livable communities, energy conservation and 
climate change. We also face unprecedented challenges in maintaining 
our existing infrastructure while simultaneously building a true multi-
modal transportation system that will serve the varied needs of our 
communities. I am confident that, together, we have the ability to 
successfully address these challenges. If confirmed, I look forward to 
working with Secretary LaHood and the excellent team that he has 
assembled.
    Having served two tours at a state-level in Maryland DOT from 1999-
2003 and 2007 until today, I have had the opportunity to manage an 
agency that uniquely incorporates all of the transportation modes under 
one roof--highways, transit, aviation, maritime commerce, passenger and 
freight rail, as well as a toll authority and motor vehicle 
administration. I have a keen sense of why we must have a balanced 
transportation system that meets the Nation's diverse needs. The large, 
complex public organizations that I have had the honor to serve in have 
provided me with the management, teamwork and leadership skills 
necessary to support the Administration, Secretary LaHood and the 
Department. Having completed significant highway projects like the 
Woodrow Wilson bridge replacement, major terminal improvements to BWI 
Thurgood Marshall airport, light rail, subway and commuter rail 
projects for the Maryland Transit Administration and new facilities for 
the Port of Baltimore, I understand the imperative of delivering 
projects on-time, on-budget. Likewise, the financial, human resources, 
procurement and administrative challenges of the department are ones 
that I bring a hands-on perspective to.
    We must relentlessly focus on safety, accountability and 
transparency, while at the same time encourage innovation and 
collaboration. We must also coordinate with other Federal agencies and 
departments.
    Mr. Chairman, you, the members of the Committee and staff have my 
commitment that I will work closely with you on our mutual goal of 
preserving and enhancing America's transportation system, one of the 
keystones of our quality of life.
    I would be pleased to answer any questions. Thank you for your 
consideration of my nomination.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): John Davis 
Porcari.
    2. Position to which nominated: Deputy Secretary, United States 
Department of Transportation.
    3. Date of Nomination: 4/27/09.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 7201 Corporate Center Drive, P.O. Box 548, Hanover, MD 
        21076.

    5. Date and Place of Birth: 12/14/58; Rochester, New York.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Heidi Uhlenhake Porcari, teacher, St. Ambrose School, 
        Cheverly, Maryland; children: Emily Ada Porcari, 20; James 
        David Porcari, 15; Anna Katherine Porcari, 13; John Abijah 
        Porcari, 10; Julia Kocher Porcari, 8.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Bachelor of Arts, University of Dayton, Dayton, Ohio, 1981.

        Masters of Public Administration, Rockefeller College of Public 
        Affairs and Policy, State University of New York at Albany, 
        1985.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    Secretary, Maryland Department of Transportation, 2007-present.

        Direct activities of 9,300-employee department, encompassing 
        transit, highway, aviation, port, bridge and tunnel authority 
        and motor vehicle administration modes. $3.2 billion annual 
        budget. Implemented transportation provisions of American 
        Recovery and Reinvestment Act; Maryland had first ARRA project 
        in U.S. under construction.

        Formulated and implemented comprehensive program for Transit-
        Oriented Development and Smart Growth policies related to 
        transportation. Chair newly-formed Climate Change Steering 
        Committee for American Association of State Highway and 
        Transportation Officials.

    Vice President for Administrative Affairs, University of Maryland, 
2003-2007.

        Served as Chief Administrative and Financial Officer. Campus 
        included over 35,000 students, daytime population of 53,000, 12 
        million square feet of space, annual research budget of over 
        $400 million. Duties included formulation and execution of $1.3 
        billion annual operating budget; responsibility for 
        procurement, human resources, construction, public safety, 
        public/private real estate ventures.

    Secretary, Maryland Department of Transportation, 1999-2003.

        Duties included overall responsibility for conception and 
        execution of multi-modal transportation strategy for state, 
        including highways, transit, Port of Baltimore, Baltimore/
        Washington International Thurgood Marshall Airport, bridge and 
        tunnel authority and motor vehicle administration. Transformed 
        capital program by requiring consistency with Smart Growth 
        principles; directed state transportation response to events of 
        September 11; led formulation of strategic plan for doubling 
        transit ridership.

    Deputy Secretary, Maryland Department of Transportation, 1997-1998.

        Served as Chief Operating Officer for department. Supervised 
        capital and operating budgets, planning, Federal and state 
        relations, fair practices, legal, human resources, internal 
        audit functions.

    Vice President, Loiederman Associates, Inc., Rockville, MD, 1996-
1997.

        Managed multi-disciplinary team for civil engineering and land 
        use planning firm. Served as Principal-in-Charge of firm's 
        environmental services section.

    Governor's Ombudsman, Assistant Secretary for Economic Development 
Policy, Maryland Department of Business and Economic Development, 1995-
1996.

        Coordinated specific economic development projects at direction 
        of Governor, including negotiator and state project manager for 
        Redskins NFL stadium, establishment of Institute of Human 
        Virology, established Cabinet-level working group to accelerate 
        road, school, higher education and other infrastructure 
        projects needed as a result of Base Realignment and Closure 
        (BRAC) process.

    Development Manager, Office of the County Executive, Prince 
George's County, MD, 1987-1995.

    Served as County's project manager on selected public and private 
economic development projects.

    Environmental Planner, Prince George's County, MD, 1986-1987.

        Responsible for County's 10-year Water and Sewerage Plan. 
        Assisted with development of Chesapeake Bay Critical Area 
        Program.

    Manager, WaldenBooks, San Francisco, CA, 1982-1983.

    Field Canvasser, California Public Interest Research Group 
(CALPIRG), Berkeley, CA, 1982.

    Laborer, Mark IV Construction Company, Rochester, NY, 1981-1982.

    9. Attach a copy of your resume. See Attachment A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        Honorary Squadron Commander, 89th Logistics Group, Andrews Air 
        Force Base, 1999-present.

        Chair of Maryland Port and Aviation Commissions, and Maryland 
        Transportation Authority as noted in #11 below, 1999-2003, 
        2007-present.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Board of Directors, World Trade Center Institute, 1999-2003, 
        2007-present.

        Board of Directors, American Association of State Highway and 
        Transportation Officials (AASHTO), 1999-2003, 2007-present; 
        Chair, Standing Committee on Aviation, 2007-present, Chair, 
        Climate Change Steering Committee, 2008-present.

        Board of Directors, American Public Transportation Association, 
        2007-present.

        Board of Visitors, Maryland Institute of Emergency Medical 
        Services (Shock Trauma), 2007-present.

        Board of Directors, National Aquarium in Baltimore, 1998-2006.

        Secretary/Treasurer, National Aquarium Society, Washington, 
        D.C., 2005-2007.

        Board of Advisors, Maryland Transportation Institute, 
        University of Maryland, 2008-present.

        Chairman, Maryland Aviation Commission, (statutory role as 
        Secretary), 1999-2003, 2007-present.

        Chairman, Maryland Port Commission, (statutory role as 
        Secretary), 1999-2003, 2007-present.

        Chairman, Maryland Transportation Authority, (statutory role as 
        Secretary), 1999-2003, 2007-present.

        Ex-officio Board Member, Maryland Highway Safety Foundation, 
        2008-present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        American Council of Young Political Leaders, 1997-2006.

        Leadership Maryland, Maryland Chamber of Commerce, 1995-
        present.

        None of these organizations restrict membership based on sex, 
        race, color, religion, national origin, age or handicap.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Kathleen Kennedy Townsend for Governor: $1,000, 2002.

        Friends of Mike Busch $500, 2003.

        Student Citizens Action Network $600, 2003.

        Delegate (elected), Democratic National Convention, 2004.

        Volunteer, O'Malley for Governor campaign, 2006.

        Volunteer, Obama for President campaign, 2008.

        Volunteer, Obama Transportation Policy Group, 2008.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Graduate Fellowship, New York Sea Grant Institute, 1984-85.

        New York State Regents Scholarship, 1977.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Participant in National Journal's weekly ``Transportation 
        Expert'' blog, 2008-present.

        ``Secretary's Message,'' Motor Vehicle Administration 
        newsletter, monthly 1999-2003, 2007-present.

        ``Secretary's Message,'' State Highway Administration 
        ``Maryland Roads'' newsletter (monthly), 1999-2003, 2007-
        present.

        ``Secretary's Message,'' The MBE Times Newsletter (MDOT Office 
        of Minority Business Enterprise publication), March, 2008.

        ``Secretary's Message,'' Port of Baltimore magazine 
        (quarterly), 1999-2003, 2007-present.

        ``Secretary's Message,'' Maryland Transit Administration 
        newsletter (monthly), 1999-2003, 2007-present.

        ``Supporting America's Economic Recovery: Maryland's Strategy 
        to Stimulate the Economy and Protect Jobs Through 
        Transportation Investment'' (MDOT home page web message), 
        March, 2009.

        ``Cost Recovery Efforts Proposed for Maryland's Toll 
        Facilities,'' January 2009.

        Letter to the Editor, Washington Post (southern Maryland 
        edition), regarding safety of Thomas Johnson bridge, May, 22, 
        2008.

        Letter to the Editor, Washington Post, response to Secretary 
        Mary Peters' op-ed, August 21, 2007.

        Outlook Section, Washington Post, op-ed on Maryland's 
        commitment to dedicated funding for WMATA, April 16, 2007.

        ``Voluntary Interstate Shellfish Sanitation Agreements: Their 
        Effectiveness in Protecting Public Health'' by Edith Baumel and 
        John Porcari, Rockefeller Institute, 1985.

    I have given hundreds of speeches in my capacity as MDOT Secretary. 
Typically, this numbers approximately 2-5 per week. Many have been 
impromptu, unscripted remarks on various topics. Others, usually given 
before larger business groups, community groups, industry associations 
and professional gatherings, would include prepared remarks. The most 
common topics for these speeches were various transportation issues, 
policy initiatives, project-specific information, planning, land use, 
public administration and other topics.
    Some of the more significant speeches included: transportation 
revenue needs and options at the state level; opportunities for 
increased maritime goods movement coupled with rail freight 
improvements; building an integrated aviation system that includes 
scheduled regional air service; comprehensively addressing aging 
infrastructure issues; and the role of transit in a balanced 
transportation system. I have copies of only the most recent of these 
speeches and would be happy to provide the Committee with them if 
requested.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        House Committee on Transportation and Infrastructure, 
        Subcommittee on Highways and Transit (on behalf of American 
        Association of State Highway and Transportation Officials): 
        ``Energy Reduction and Environmental Sustainability in Surface 
        Transportation'', January 27, 2009.

        House Committee on Transportation and Infrastructure (on behalf 
        of American Association of State Highway and Transportation 
        Officials): ``Investing in Infrastructure: The Road to 
        Recovery,'' October 29, 2008.

        Senate Commerce, Science and Transportation Committee (on 
        behalf of American Association of State Highway and 
        Transportation Officials): ``Climate Change Impacts on the 
        Transportation Sector,'' June 24, 2008.

        House Subcommittee on Coast Guard and Maritime Transportation, 
        Hearing on Transportation Workers Identification Credential 
        (TWIC), January 23, 2008.

        Senate Committee on Banking, Housing and Urban Affairs, 
        Subcommittee on Housing and Transportation: ``TEA-21: A 
        Lifeline for America's Citizens,'' July 17, 2002.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I have been involved in many of the major policy issues, 
operational objectives and programs of the USDOT. I am confident that 
the technical and programmatic knowledge that I have accumulated, the 
problem-solving skills that I have honed in large, complex public 
organizations and my commitment to teamwork and mission have all 
prepared me to assume a leadership role in this organization.
    I believe deeply in public service, as evidenced by the bulk of my 
professional career. The opportunity to serve and, working as part of a 
team of professionals, to leave the Department better off than I found 
it is what motivates me. The United States of America has given my 
family extraordinary opportunities over four generations, and I relish 
the opportunity to give back a little of what it has provided us.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    The Deputy Secretary has primary responsibility for ensuring that 
the Department has the proper management and accounting controls 
throughout the organization. I have extensive experience in managing 
large, complex public organizations such as the Maryland Department of 
Transportation and the University of Maryland. Both institutions have 
common characteristics of a large organization such as multiple, 
simultaneous, complex objectives; decentralized functions; large span 
of control; and the need for a shared sense of mission.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        1. The most immediate challenge is to ensure that 
        transportation funding provided to the States by the American 
        Recovery and Reinvestment Act is spent carefully, transparently 
        and responsibly.

        2. Large, complex programmatic priorities such as the NextGen 
        air traffic control system must be delivered on time and on 
        budget.

        3. The Department needs to align its priorities and its 
        structure to meet new challenges by working across modal lines 
        for the most efficient and effective movement of people and 
        goods. In addition, a higher level of collaboration and 
        partnership with other Federal agencies and departments will 
        advance environmental and economic development goals.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.

        T. Rowe Price 401(k) Retirement account; Maryland State 
        Retirement Plan 401(k); Maryland State Retirement Plan 401(a); 
        Maryland State Retirement Plan 457(b); Maryland State 
        Retirement Plan (defined benefit plan); eligibility begins at 
        age 62.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my capacities as Maryland DOT Secretary and Vice President of 
the University of Maryland, I have advocated for policies and 
legislation at the Federal, state and local levels. All activities were 
on behalf of these public institutions.
    As MDOT Secretary, I have advocated for increased transit funding, 
highway funding equity for donor states, adequate Amtrak funding and 
specific transportation projects for the State of Maryland. I have also 
testified before Congress on specific topics such as: energy reduction 
and environmental sustainability in surface transportation; investing 
in infrastructure during an economic recession; climate change impacts 
on the transportation sector; implementation issues associated with the 
Transportation Worker Identification Credential (TWIC); and the 
importance of the Jobs Access/Reverse Commute (JARC) program.
    At the University of Maryland, I advocated for increased funding 
for basic research in America and for specific programs and research 
projects for the university.
    I also volunteered on the Obama Transportation Policy Group in 
2008, which developed policy positions on the status of the Highway 
Trust Fund, high speed rail, freight and goods movement, and other 
topics.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    As the Maryland Secretary of Transportation, I have been named in a 
number of lawsuits. These are listed in Attachment B. In addition, 
there are two cases against MDOT in which I am not named but that 
include claims about my actions as Secretary. The case of Jacqueline 
Jones v. MDOT concerned the termination of Ms. Jones from her at-will 
position, which she claimed was in retaliation for her work in the 
Office of Fair Practices under the prior MDOT Secretary. MDOT prevailed 
at the administrative hearing level, as well as in Baltimore City 
Circuit court, and the case is now pending on appeal. (Maryland Court 
of Special Appeals, Sept. 2007 Term, No. 2847).
    In Greg Maddalone v. MDOT, Mr. Maddalone alleged that I fired him 
in January 2007 from his at-will position as an Office of Engineering, 
Procurement and Emergency Services (OEPES) Administrator because of his 
political affiliation. I have maintained that I terminated him after I 
became Secretary because he was not the most qualified person for his 
job in emergency management. The Administrative Law Judge (AU) found in 
Maddalone's favor, and the Anne Arundel Circuit Court affirmed the 
All's decision. Currently, the MDOT appeal to the Maryland Court of 
Special Appeals is pending. (Maryland Court of Special Appeals, Sept. 
Term 2008, No. 328). In October 2007, Maddalone was reinstated at 
OEPES, but he was terminated shortly thereafter. Maddalone filed a 
second case with the Office of Administrative Hearings alleging that 
this termination violated his First Amendment rights. MDOT prevailed. 
The Al found that I had used my authority legitimately and that there 
was no evidence that Maddalone was qualified for the position. 
Maddalone did not appeal this decision (Office of Administrative 
Hearings, THRS-MDOT-09-07-41664).
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain.
    Please see the relevant cases in my response to question #3 above 
and in Attachment B. I am not aware of any other accusations on these 
bases.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                              attachment a
                      resume of john davis porcari
    Secretary, Maryland Department of Transportation (January 2007-
present).

        MDOT includes integrated highway, transit, aviation, port, 
        bridge and tunnel authority and motor vehicle administration 
        components; 9,300 employees, $3.2 billion annual budget. MDOT 
        is responsible for 16,000 lane miles of highways, 2,500 
        bridges; 112 transit stations, 500,000 bus trips and 290,000 
        heavy rail trips per day; largest Ro/Ro port in Nation, 127,000 
        cruise passengers per year; 21 million air passengers per year; 
        12.5 million motor vehicle administration transactions per 
        year; 120 million toll transactions/year.

        Emphasis areas include formulation and implementation of a 
        comprehensive program for Transit-Oriented Development and 
        Smart Growth policies related to transportation. Support 
        integration of land use planning and transportation through 
        Governor's Smart Growth subcabinet, Climate Change committee 
        and livable communities initiatives throughout the department.

    Vice President for Administrative Affairs, University of Maryland 
(January 2003-January 2007).

        Served as Chief Administrative Officer and Chief Financial 
        Officer for University of Maryland, flagship campus of 
        University System of Maryland. Campus includes over 35,000 
        students, 260 major buildings, 12 million square feet of space, 
        a daytime population of 53,000 and an annual sponsored research 
        budget exceeding $400 million. Duties include formulation and 
        execution of $1.3 billion annual operating budget; 
        responsibility for procurement; human resources; public safety; 
        planning, design and construction of facilities; operation and 
        maintenance of campus buildings; environmental safety and 
        public/private real estate ventures.

    Secretary, Maryland Department of Transportation (January 1999-
January 2003).

        Duties included overall responsibility for conception and 
        execution of multi-modal transportation strategy for the State 
        of Maryland, including highways, transit, Port of Baltimore, 
        Baltimore/Washington International Thurgood Marshall airport, 
        bridge and tunnel authority and motor vehicle administration. 
        Department included over 9,700 employees and annual 
        departmental budget of approximately $2.2 billion. As 
        Secretary, also served as Chairman of Maryland Aviation 
        Administration, Maryland Port Commission and Maryland 
        Transportation Authority.

    Deputy Secretary, Maryland Department of Transportation (March 
1997-December 1998).

        Served as Chief Operating Officer for department encompassing 
        five transportation modes (highways, transit, aviation, port, 
        motor vehicles) and one independent bridge and tunnel 
        authority. Responsible for internal activities of department, 
        including capital and operating budgets, planning, Federal and 
        state relations, audits, fair practices, legal, human 
        resources. Instituted department-wide reorganizations to 
        streamline service delivery. Supervised specific capital 
        projects to ensure delivery on time and budget.

    Vice President, Loiederman Associates, Inc., Rockville, MD (May 
1996-March 1997).

        Managed multi-disciplinary team for civil engineering, land use 
        and consulting firm. Clients included private sector 
        developers, Washington Metropolitan Area Transit Authority, 
        Montgomery and Prince George's County governments, PEPCO, 
        Washington Suburban Sanitary Commission, State of Maryland. 
        Served as Principal in Charge of firm's environmental services 
        section, providing wetlands, forest delineation, storm water 
        management and environmental monitoring.

    Governor's Ombudsman, Assistant Secretary for Economic Development 
Policy, Maryland Department of Business and Economic Development 
(January 1995-May 1996).

        Coordinated specific economic development projects at the 
        direction of the Governor. Examples included: negotiator and 
        State's Project Manager for Redskins NFL stadium; establishment 
        of Institute of Human Virology at University of Maryland at 
        Baltimore; establishment and management of cabinet-level 
        working group to accelerate road, school, airport and other 
        infrastructure improvements in southern Maryland to accommodate 
        rapid growth of Patuxent River Naval Air Station.

    Development Manager, Office of the County Executive, Prince 
George's County, MD (December 1987-January 1995).

        Advised County Executive on business and economic development 
        matters. Served as County's Ombudsman/Project Manager on 
        selected large-scale public and private development projects.

    Environmental Planner, Department of Environmental Resources, 
Prince George's County, MD (March 1986-December 1987).

        Responsible for County 10-year Water and Sewerage Plan. 
        Assisted with Chesapeake Bay Critical Area program 
        implementation and assumption by DER of stormwater management 
        responsibilities.

    Graduate Fellowship (1984-85).

        New York Sea Grant Institute. Conducted public policy research 
        related to oceans and Great Lakes. Co-authored paper 
        ``Voluntary Interstate Shellfish Sanitation Agreements: Their 
        Effectiveness in Protecting Public Health'', published by 
        Rockefeller Institute, 1985.

    Manager, Waldenbooks (1982-83), San Francisco, California.

    Field Canvasser (1982), California Public Interest Research Group 
(CALPIRG), Berkeley, California.
Education
        (December 1985), Nelson A. Rockefeller College of Public 
        Affairs and Policy, State University of New York at Albany, 
        Masters of Public Administration.

        (1981), University of Dayton, Dayton, Ohio, Bachelor of Arts, 
        Political Science.
Personal
        Married to Heidi Uhlenhake Porcari; five children (Emily, 20; 
        James, 15; Anna, 13; Johnny, 9; Julia, 8).
Other
        Chair, Standing Committee on Aviation, American Association of 
        State Highway and Transportation Officials (AASHTO), 2007-
        present.

        Chair, Climate Change Steering Committee, AASHTO.

        Board of Directors, AASHTO, 2007-present.

        Board of Directors, American Public Transportation Association 
        (APTA), 2007-present.

        Delegate (elected), Democratic National Convention, 2004.

        American Council of Young Political Leaders. Participated as 
        delegate in exchanges with People's Republic of China, 1997, 
        2004; Japan, 2006.

        Joint Civilian Orientation Conference, 1998. Selected by Office 
        of Secretary of Defense for week-long intensive program to 
        learn goals, capabilities and organization of America's armed 
        forces. Included travel to and interaction with DoD facilities 
        throughout United States, 1998.

        Leadership Maryland, Maryland Chamber of Commerce, Class of 
        1995.

        Board of Directors, National Aquarium in Baltimore, 1998-2006.

        Secretary/Treasurer, National Aquarium Society, Washington, 
        D.C., 2005-2007.

        Honorary Squadron Commander, 89th Logistics Group, Andrews Air 
        Force Base, 1999-present.

        Board of Visitors, Maryland Institute of Emergency Medical 
        Services (Shock Trauma), 2007-present.

        Board of Directors, World Trade Center Institute, 1999-2003, 
        2007-present.
                                 ______
                                 
                              attachment b

 
------------------------------------------------------------------------
              Case                     Date         Resolution/Status
------------------------------------------------------------------------
Haynes, et al., v. Porcari, et    11/99 to 11/   Consent decree entered
 al., U.S. District Court,         08             10/31/03 in case
 Maryland, No. 99-cv-2263                         regarding audio stop
                                                  and route
                                                  announcements and case
                                                  dismissed 11/21/08.
------------------------------------------------------------------------
Project Life, Inc. v. Glendening  7/98-5/02      Maryland Port
 et al., CA-98-2163-WMN                           Administration was
                                                  required to provide
                                                  plaintiffs a lease for
                                                  a vessel for use by
                                                  persons with
                                                  disabilities.
------------------------------------------------------------------------
American Infrastructure MD, Inc.  5/08-1/09      Claims relating to
 v. State of Maryland et al.,                     Minority Business
 U.S. District Court, 1:08-cv-                    Enterprise Program
 01153-CCB and 1:08-cv-01154-MJG                  (MBE) were dismissed
                                                  by the Court for
                                                  failure to state a
                                                  claim.
------------------------------------------------------------------------
American Infrastructure MD Inc.   11/07-present  Disposition is pending
 v. State of Maryland et al.,                     on a mandamus action
 12C07003309 Harford Co. Circuit                  to overturn MDTA
 Court                                            decision to reject all
                                                  bids due to errors in
                                                  solicitation's MBE
                                                  goals.
------------------------------------------------------------------------
Daisy Concrete, Inc. of Maryland  7/07-6/08      The court found for
 v. Maryland Transportation                       plaintiff in this
 Authority, et al. 12C07002240                    challenge to a bid
 Harford Co. Circuit Court                        denial in a State
                                                  procurement.
------------------------------------------------------------------------
Love v. Smith, et al., U.S.       9/04 to 10/05  In addition to other
 District Court. Maryland, Case                   claims, plaintiff
 No. 04-cv-3070                                   asserted that I and
                                                  other defendants
                                                  discriminated against
                                                  her on the basis of
                                                  sex after we removed
                                                  her from her position
                                                  as Acting Manager of
                                                  Bus Operations at the
                                                  MTA. I, and the other
                                                  defendants, maintained
                                                  that this was based on
                                                  her failure to
                                                  properly address bus
                                                  safety issues. The
                                                  case was ultimately
                                                  dismissed by
                                                  settlement order in
                                                  October 2005.
------------------------------------------------------------------------
MdTA Police Lodge v. State of     6/07-present   Motion for Summary
 Maryland, et al., Circuit Court                  Judgment granted in
 for Baltimore County                             favor of all
                                                  defendants in July
                                                  2008. Plaintiff's
                                                  appeal is pending in
                                                  the Court of Special
                                                  Appeals.
------------------------------------------------------------------------
Diana Campitelli, et al v.        1/01-2/02      Suit by former MTA
 Glendenning, Porcari, et al.,                    employee which made a
 1:01-cv-00035-BEL U.S. District                  series of claims (mail
 Court, Maryland                                  fraud, obstruction of
                                                  justice, accessory
                                                  after the fact, and
                                                  conspiracy to deny her
                                                  equal protection), all
                                                  of which were
                                                  dismissed by the
                                                  Court.
------------------------------------------------------------------------
Richard F. Kline, Inc. v.         11/08-present  Civil Rights case
 Porcari et al. 1:08-cv-03197-                    challenging the
 RDB                                              Maryland Disadvantaged
                                                  Business Enterprise
                                                  Program on its face
                                                  and as applied in a
                                                  specific procurement.
                                                  Case pending.
------------------------------------------------------------------------
Shady Grove Woods Homeowners      4/07-3/08      Stipulation of
 Association, Inc. v. MDOT, et                    dismissal in case
 al., 281500-V                                    concerning InterCounty
                                                  Connector.
------------------------------------------------------------------------
Berliner v. Ehrlich, Jr., et      10/06-6/07     Suit dismissed for lack
 al., Circuit Ct for Montgomery                   of subject matter
 County 275452V                                   jurisdiction, and
                                                  failure to state a
                                                  claim on which relief
                                                  could be granted due
                                                  to failure to exhaust
                                                  administrative
                                                  remedies.
------------------------------------------------------------------------

                                 ______
                                 
                              attachment c
Rosalind A. Knapp,
Designated Agency Ethics Official,
U.S. Department of Transportation,
Washington, DC.

Dear Ms. Knapp:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed for the position of Deputy Secretary at the 
Department of Transportation.
    As required by 18 U.S.C.  208(a), I will not participate 
personally and substantially in any particular matter that has a direct 
and predictable effect on my financial interests or those of any other 
person whose interests are imputed to me, unless I first obtain a 
written waiver, pursuant to 18 U.S.C.  208(b)(1), or qualify for a 
regulatory exemption, pursuant to 18 U.S.C.  208(b)(2). I understand 
that the interests of the following persons are imputed to me: any 
spouse or minor child of mine; any general partner of a partnership in 
which I am a limited or general partner; any organization in which I 
serve as officer, director, trustee, general partner or employee; and 
any person or organization with which I am negotiating or have an 
arrangement concerning prospective employment.
    I will divest my interest in the following entities within 90 days 
of my confirmation: General Electric Co., General Electric Capital 
Corp., Exxon Mobil Corp., Raytheon Co., and Boeing Co. With regard to 
each of these entities, I will not participate personally and 
substantially in any particular matter that has a direct and 
predictable effect on the financial interests of the entity until I 
have divested it, unless I first obtain a written waiver pursuant to 18 
U.S.C.  208(b)(1), or qualify for a regulatory exemption pursuant to 
18 U.S.C.  208(b)(2).
    If I rely on any de minimis exemption under 5 C.F.R.  2642.202 
with regard to any of my financial interests, I will monitor the value 
of those interests. If the aggregate value of interests affected by a 
particular matter increases and exceeds the de minimis threshold, I 
will not participate in the particular matter, unless I first obtain a 
written waiver under 18 U.S.C.  208(b)(1).
    Upon confirmation, I will resign from the following positions: 
Secretary of Transportation, State of Maryland, Hanover, MD; Board 
Member, National Aquarium, Washington, D.C.; Advisory Board Member, 
University of Maryland Transportation Institute; Board Member, American 
Association of State Highway and Transportation Officials, Washington, 
D.C.; Board Member, American Public Transportation Association, 
Washington, D.C.; Board Member, World Trade Center Institute, 
Baltimore, MD; Chairman, Maryland Aviation Commission, BWI Airport, MD; 
Chairman, Maryland Port Commission, Hanover, MD; Chairman, Maryland 
Transportation Authority, Baltimore, MD; Ex-Officio Board Member, 
Maryland Highway Safety Foundation, Sparks, MD; and Advisory Board 
Member, Maryland Institute of Emergency Medical Services, Baltimore, 
MD. Furthermore, for 1 year from my resignation from each of these 
entities, I will not participate personally and substantially in any 
particular matter involving specific parties in which that entity is a 
party or represents a party, unless I am first authorized to 
participate pursuant to 5 C.F.R.  2635.502(d).
    Finally, I understand that as an appointee I am required to sign 
the Ethics Pledge (Exec. Order No. 13490) and that I will be bound by 
the requirements and restrictions therein in addition to the 
commitments I have made in this and any other ethics agreement.
            Sincerely,
                                            John D. Porcari

    Senator Warner. Thank you, Mr. Porcari, thank you for your 
comments, and for bringing so many members of your family. 
Again, someone who, I think, is going to bring a great set of 
skills to a new position, someone that has enormous potential, 
my friend, Aneesh Chopra.

                  STATEMENT OF ANEESH CHOPRA,

          ASSOCIATE DIRECTOR-DESIGNATE FOR TECHNOLOGY,

            OFFICE OF SCIENCE AND TECHNOLOGY POLICY,

               EXECUTIVE OFFICE OF THE PRESIDENT

    Mr. Chopra. Thank you. Chairman Rockefeller, if you're 
joining us via web cast, Ranking Member Hutchison, and 
distinguished Members of the Committee, it is indeed a great 
honor to appear before you today. Compounding this honor is the 
opportunity to appear before my mentor, Senator Mark Warner, 
who has led the way in harnessing the power of technology in 
advancing our public priorities.
    I am, indeed, grateful for President Obama's confidence to 
fulfill this important role, and for OSTP Director, Dr. John 
Holdren, for his leadership in support of my nomination.
    If confirmed, I look forward to working with all of you to 
ensure that every American has the opportunity to participate 
in our vibrant, technology-based economy, and that we 
thoughtfully apply emerging technologies to address our 
Nation's most pressing challenges.
    With your permission, I'd like to introduce members of the 
Committee to my family. First, my wife, Rohini, and our young 
daughters, Naya and Devan. That's right, you heard her scream 
in the back.
    [Laughter.]
    Mr. Chopra. In addition, I have an extended member of--my 
parents are here, my cousins, my aunts, my uncles, if I could 
have them just raise their hands, they're all standing in the 
room behind us.
    [Laughter.]
    Mr. Chopra. I want to bring specific attention to my 
father, Ram Chopra, who--like so many immigrants--came to this 
country to live the American Dream. Following his graduate 
engineering work, my father contributed to our culture of 
innovation by filing three patents in the area of cooling 
refrigeration systems. Products carrying those technologies, 
built in my hometown of Trenton, New Jersey, Senator 
Lautenberg, are still in operations today. Senator, that sign 
on Route 1, ``Trenton Makes, The World Takes,'' is etched in my 
mind.
    [Laughter.]
    Mr. Chopra. I draw inspiration from my father, who 
instilled in me the values of intellectual rigor, personal 
excellence and public service. His decision to bring me to 
Congressman Chris Smith's town hall meeting in Plainsboro, New 
Jersey at the age of 11, sparked my passion for public service. 
If confirmed by the Senate, I intend to channel that passion to 
execute on the President's vision for a 21st Century economy, 
one where jobs are more plentiful, American firms more 
competitive, communications more affordable, broadband more 
abundant, families more connected, and Americans more safe and 
secure.
    And we must also apply that vision to government itself. 
Built on the President's core principles of transparency, 
participation, and collaboration, we will apply the most 
innovative technologies to bend the healthcare cost curve, as 
Peter Orszag refers to it, optimize the energy grid, deliver an 
educational system focused on student excellence, with special 
emphasis on science, technology, engineering, and mathematics; 
protect our Nation's critical infrastructure, and build the 
high-wage, high-growth jobs in all corners of our country.
    I have seen the benefits of this approach, as Virginia's 
Secretary of Technology under Governor Tim Kaine, ranked by 
Governing magazine--two surveys in a row--as the Nation's top-
performing State, tied with Utah and Washington.
    We championed broadband and telework policies that brought 
good jobs to our more rural communities, hard-hit by an 
increasingly competitive global market. We work to build a 
culture of innovation in the public sector that saw State 
employees translate simple ideas into funded prototypes, 
expected to deliver a four-to-one return on taxpayer 
investment, and directly aligned with both legislative, and 
executive priorities.
    Two years ago, I joined in the celebration of the 400th 
anniversary of the Jamestown Settlement, and was reminded of 
the spirit of Commonwealth that continues to call on us to work 
together for the advancement of our common good. For many, the 
government we elect is the embodiment of that spirit. For 
others, it is a sense of neighborhood when we chip in to 
improve our communities, or mentor a child striving for 
excellence in school.
    Modern technologies are closing the distance between these 
views, and unleashing a new wave of entrepreneurship, 
involvement, and service.
    If confirmed by the Senate, I look forward to working with 
this world-class team assembled before us today, in 
collaboration with our Congress, and particularly members of 
the Committee, to harness the power and potential of technology 
and innovation, to advance our Nation's goals.
    I would welcome any questions the Committee may have.
    [The prepared statement and biographical information of Mr. 
Chopra follows:]

 Prepared Statement of Aneesh Chopra, Associate Director-Designate for 
 Technology, Office of Science and Technology Policy, Executive Office 
                            of the President
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
Members of the Committee, it is indeed a great honor to appear before 
you today. Compounding this honor is the opportunity to appear before 
my mentor, Senator Mark Warner, who has led the way in harnessing the 
power of technology to advance our public priorities.
    I am grateful for President Obama's confidence in me to fulfill an 
important role and to Office of Science and Technology Policy (OSTP) 
Director Dr. John Holdren for his leadership in support of my 
nomination for Associate Director for Technology in OSTP within the 
Executive Office of the President. If confirmed, I look forward to 
working with all of you to ensure every American can participate in our 
vibrant technology-based economy and that we thoughtfully apply 
emerging technologies to address our Nation's most pressing challenges.
    With your permission, I would like to introduce the Members of this 
Committee to my wife Rohini and our daughters Naya and Devan. Next to 
them are my parents, Ram and Neelam Chopra, who, like so many 
immigrants, came to this country to live the American Dream. Following 
his graduate work in engineering at Villanova University and within his 
first decade of employment, my father contributed to our culture of 
innovation by filing three patents in the area of cooling refrigeration 
systems. Products carrying those technologies, built in my hometown of 
Trenton, NJ, are still in operations today.
    I draw inspiration from my father who instilled in me the values of 
intellectual rigor, personal excellence and public service. His 
decision to bring me to Congressman Chris Smith's town hall meeting in 
Plainsboro, NJ, where I asked my first policy question at the age of 
11, sparked my passion for service.
    If confirmed by the Senate, I intend to channel that passion to 
execute on the President's vision for a 21st Century economy--
harnessing the power and potential of new technologies to extend new 
opportunity to more Americans. Technology and innovation are hallmarks 
of the American story. They can often offer us powerful new 
opportunities of doing things never before possible or even imagined. 
By stewarding pragmatic policy choices, I believe we can make jobs more 
plentiful, America more competitive, communications more affordable, 
broadband more abundant, families more connected, and Americans more 
safe and secure. To do this we need to build on the President's vision 
for a 21st Century government, one that builds on his core principles 
of transparency, participation and collaboration. We will apply the 
most innovative technologies to our most important challenges----
bending the healthcare cost curve, optimizing the energy grid to reduce 
our dependence on foreign oil, delivering an educational system focused 
on student excellence with special emphasis on science, technology, 
engineering and mathematics, protecting our Nation's critical 
infrastructure, and building the high-wage, high-growth jobs in all 
corners of our country.
    I have seen the benefits of this approach in my most recent 
capacity serving as Virginia's Secretary of Technology under Governor 
Tim Kaine, ranked for the 2nd survey in a row by Governing magazine as 
the Nation's top performing state, tied with Utah and Washington. We 
championed broadband and telework policies that brought good jobs to 
our more rural communities hard hit by an increasingly competitive 
global market. We invested in our universities to commercialize high 
value R&D and sought new collaborations across state boundaries to 
deliver a more productive regional approach.
    But far more impactful, we worked to build a culture of innovation 
in the public sector that saw employees translating simple ideas into 
funded prototypes that aligned directly with legislative and executive 
priorities. Our Productivity Investment Fund channeled modest resources 
into 30+ projects that will deliver 4-1 returns on taxpayer investment 
over 3 years.
    In Virginia, I was particularly struck by a bold proposition from 
our adult education community called PlugGED In. Nearly a million 
Virginians lack a high school diploma with a higher percentage in some 
of our more rural communities. Job prospects for dropouts are modest in 
today's skills-based economy but our spirit of innovation compelled one 
team to conceive of a new training program that would connect high 
school dropouts to technology jobs within 6 months. Typically, such a 
career path might take two or even 3 years at great cost and with 
modest probability of securing any job interviews. I knew we could do 
better.
    With the Governor's support, our team reached out to a broader set 
of stakeholders--high schools, community colleges, 4-year institutions, 
and even technology companies interested in the results of such a 
model. Within 6 months of conceiving the idea and through a modest 
amount of seed funding, our innovative team built an entirely new 
curriculum combining the GED, a Microsoft certification, and a project 
assignment, recruited our first class of students in Southwest 
Virginia, and secured a commitment from one of our Nation's premier 
technology companies to guarantee entry-level job interviews for every 
graduate. I eagerly await that ceremony later this summer but the 
experience reminds us that every American, regardless of background, 
deserves the chance to compete and win in our technology-based economy.
    Two years ago, I joined in a celebration of the 400th Anniversary 
of the Jamestown settlement and was reminded of the spirit of 
Commonwealth that continues to call on us to work together for the 
advancement of our common good. For many, the government we elect is 
the embodiment of that spirit. For others, it is a sense of 
neighborhood when we chip in to improve our communities or mentor a 
child striving to excel in school. Our modern technologies are 
collapsing the distance between idea and action. They are unleashing a 
new wave of entrepreneurship, involvement and service. It's this 
ability to connect and empower people by putting more power into 
people's hands that holds some of the greatest promise for solving 
America's challenges.
    Shortly after the President's weekly address announcing his 
intention to nominate me, my third grade teacher, Ms. Linda Bruschi, 
``friended'' me on Facebook, sharing her excitement for an old student 
she helped nurture through school. When I was still a child, she 
empowered me by taking a chance when it appeared I could push harder on 
more advanced mathematics. Because of her efforts, she helped me see 
the future and opened up a door for an exciting new world of 
opportunity. In the way she opened a door for me, I want to open a door 
for others. It's this wondrous idea of extending personal opportunity, 
fueled by new technologies, which especially excites me because it can 
help unlock the next chapter in America's grand story.
    If confirmed by the Senate, I look forward to working with the 
world-class team assembled by President Obama, with the Congress, and 
particularly with the Members of this Committee to harness the power 
and potential of technology and innovation to advance our Nation's 
goals.
    I welcome any questions that the Committee may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Aneesh Chopra.

        Nickname: Aneesh Paul Chopra.

    2. Position to which nominated: Associate Director for Technology, 
Office of Science and Technology Policy (Chief Technology Officer).
    3. Date of Nomination: May 14, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 1111 East Broad Street #4076, Richmond, VA 23219.

    5. Date and Place of Birth: July 13, 1972; Trenton, NJ.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Rohini Dhir Chopra, Stay-at-Home Mom.
        Children: daughter, Naya Leigh Chopra (2 years); daughter, 
        Devan Rose Chopra (4 months).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Johns Hopkins University, Bachelor of Arts, 1994.

        John F. Kennedy School, Harvard University, Masters in Public 
        Policy, 1997.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        1994-1995--Morgan Stanley Investment Banking Analyst (New York, 
        NY).

        1996--JP Morgan Investment Banking Summer Associate (New York, 
        NY).

        1997-2006--The Advisory Board Company (Washington, D.C.), 
        Managing Director; in this capacity, I assisted in the launch 
        of our firm's first software service as well as the launch of 
        the firm's healthcare CIO membership program; I held a 
        managerial position leading the firm's Financial Leadership 
        Council (research membership of 300+ hospital Chief Financial 
        Officers).

        2006-April 2009--Secretary of Technology, Commonwealth of 
        Virginia; in this capacity, I advised the Governor on policies 
        that promote growth in the technology industry, increased the 
        performance of public services, and leveraged technology in 
        healthcare, education, energy and transportation.

    9. Attach a copy of your resume. Attached as Appendix A.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.

        2002-2004--Governor Warner appointed me to serve as Co-Chair of 
        the Southern Technology Council, a committee of the Southern 
        Growth Policies Board.

        2004-2006--Governor Warner appointed me to serve on the Board 
        of Medical Assistance Services, which oversees Medicaid for 
        Virginia 2005-2006--Governor Warner appointed me to serve as a 
        member of Virginia's first Electronic Health Records Task 
        Force.

        In my previous capacity as Virginia's Secretary of Technology, 
        I also served on the Boards and Commissions listed in Appendix 
        B, for which my service ended on April 28, 2009.

        11/2008-1/09--Member of Technology, Innovation and Government 
        Reform Committee of President-elect Obama Transition Team.

    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, film, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Policy Committee Member, the Advisory Board Company (NASD: 
        ABCO), 2003-2005.

        Northern Virginia Conservation Trust Board Member (2005-
        present).

        Board of Directors Member, Health Axis (NASD: HAXS), 2005-2006.

        Partner, Avatar Capital-Navic Systems, LLC (Angel Investment); 
        1999-present.

        Partner, Avatar-eLaunchpad, LLC (Angel Investment); 1999-
        present.

        Partner, Avatar-Appfluent/Infocruiser, LLC (Angel Investment); 
        1999-present.

        Co-President, The Indus Entrepreneurs--Washington, DC Chapter, 
        (2004-2005).

        Co-Chair, Johns Hopkins Class of 1994 Reunion Committee, 
        (2009).

        Board of Directors, Northern Virginia Conservation Trust, (12/
        11/04-present).

        Indian American Policy Institute (Co-Founder, 2003-2004).

        Blue Dominion Majority PAC (Co-Founder, 2005-present).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Network of South Asian Professionals--Washington, DC Chapter 
        (President, 1999; Member 1997-2005).

        Northern Virginia Conservation Trust Board Member (2005-
        present).

        The Indus Entrepreneurs--Washington, DC Chapter/Indian CEO 
        Council (Co-President, 2004-2005; Charter Member, 2002-
        present).

        Democratic Party of Virginia Member (1998-present).

        Leadership Arlington, Member (2004-present).

        Indian American Policy Institute (Co-Founder, 2003-2004).

        Blue Dominion Majority PAC (Co-Founder, 2005-present).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.
    Yes, though I have never been a candidate for office. I was 
appointed by Governor Kaine to serve as Secretary of Technology in 
Virginia in January 2006.
    Please see answers in question #10 for additional political 
appointments.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

 
 
 
 
    $2,750                Obama for America (2007-8)
 
    $1,000                Jones for Mayor of Richmond--Dwight (D-VA)
                           (2008)
 
    $501                  Moran for Governor--Brian (D-VA) (2008)
 
    $1,000                Gerry Connolly (D-VA) (2008)
 
    $1,450                Mark Warner (D-VA) (2008)
 
    $2,500                Democratic Party of Virginia (2008)
 
    $1,000                Mark Warner (D-VA) (2007)
 
    $2,500                A Strong Majority PAC (VA) (2007)
 
    $1,000                Leadership for Virginia's Future (VA) (2007)
 
    $2,500                Democratic Party of Virginia (2007)
 
    $1,000                Jamie Eldridge (D-MA) (2007)
 
    $1,000                Arlington Democratic Joint Federal Campaign
                           (VA) (2006)
 
    $1,000                Moving Virginia Forward (VA) (2006)
 
    $500                  Forward Together PAC (VA) (2006)
 
    $1,000                Forward Together PAC (VA) (2005)
 
    $1,600                Supriya Christopher for Delegate (D-VA) (2005)
 
    $2,850                Kaine for Governor (D-VA) (2005)
 
    $1,000                Hillary Clinton for Senate (D-NY) (2005)
 
    $500                  Independent Action (2005)
 
    $500                  Joe Crowley (D-NY) (2005)
 
    $500                  Bob Brink for Delegate (D-VA) (2005)
 
    $3,500                Blue Dominion Majority PAC (2005-6)--I co-
                           founded this organization in 2005 focused on
                           electing moderate Democrats in Northern
                           Virginia
 
    $1,500                Kaine for Governor (D-VA) (2004)
 
    $1,000                John Kerry (D-MA) (2004)
 
    $1,000                Bobby Jindal (R-LA) (2004)
 
    $1,000                Howard Dean for President (2003)
 
    $1,000                US-INPAC (2003)
 
    $1,000                One Virginia PAC (VA) (2002)
 
    $1,000                Kaine for Governor (D-VA) (2002)
 
    $1,095                Warner for Governor (D-VA) (2001)
 
    $500                  Diamonstein for Lt. Governor (D-VA) (2001)
 
    $1,000                Kumar Barve (D-MD) (2001)
 
    $533                  reimbursement for my lodging at the Democratic
                           Party Retreat--Commonwealth Victory Fund
                           (2007)
 
                          Volunteered to serve as a Precinct Captain for
                           Arlington Democratic Party (2004-2004)
 

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        National Merit Special Scholarship (High School).

        Healthcare Information Management Systems Society's State 
        Advocacy Award (2007).

        Government Technology Magazine's ``Top 25 Doers, Dreamers and 
        Drivers'' (2008).

        Center for Multicultural Human Services (CMHS) Civic Leader 
        Award (2007).

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``U.S.-Based Global Intellectual Property Creation: An 
        Analysis,'' Wadhwa, Rissing, Chopra, Balasubramanian, Freilich 
        (Kauffman Foundation, 2007).

        ``Survey on the Public Policy Concerns of the Indian-American 
        Community,'' Chopra, Kuntamukkula (Asian American Policy 
        Review, Harvard, 1997).

    In my capacity as Governor Kaine's cabinet member responsible for 
technology policy, I am often delivering public extemporaneous 
presentations, typically with the aid of PowerPoint slides but without 
written speech text. Please see Appendix C for an itemized list of all 
public speeches.
    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: Not Applicable.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I previously served as Virginia's Secretary of Technology, a first-
in-the-nation position created in 1999 (I was the 4th) to both advocate 
public policy in support of the technology economy, and to promote the 
role of technology in transforming the delivery of public services. 
President Obama has called for a similar role at the Federal level and 
it would be an honor to serve.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    It is critical that the Office of Science at Technology Policy 
implements all proper management and accounting controls. In my 
capacity as Chief Technology Officer, I will encourage the effective 
and efficient provision of government services.
    In my previous capacity as Virginia's Secretary of Technology, I 
served as policy champion for a 10-year, $2BN public-private 
partnership to modernize the Commonwealth's IT infrastructure. I served 
on the Governor's Performance Management Team responsible for achieving 
Virginia's ``Top Performing State'' ranking in 2008. We focused on a 
three-component methodology to ensure proper management: a publicly-
available management scorecard focused on accounting controls, outcomes 
measures focused on results and productivity measures to promote a 
culture of continuous improvement.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    My response will focus on the Technology Division within OSTP.
    Technology and Innovation play an ever increasing role in our civic 
life and serve as an important foundation for the Nation's economic 
growth. Harnessing the full power and potential of emerging 
technologies can improve the lives of all Americans and ensure a more 
effective, efficient government. Nurturing a policy environment that 
fosters technological innovation can help create new jobs, improve the 
environment, address our energy crisis, reduce health care costs, 
extend opportunities to a new generation of Americans, and help make 
the United States safer and more secure.
    Our first challenge in the Office of Science and Technology 
Policy's Technology Division is to embed the President's Open 
Government principles of greater transparency, public participation and 
collaboration throughout government with limited resources. We will 
begin to address this challenge by attracting the right personnel and 
establishing collaborative partnerships using a strong interagency 
mechanism to deliver results.
    Our second challenge is to effectively collaborate among the White 
House, the Congress, private industry and the general public, to 
address a broader set of policy priorities informed by technology and 
innovation, including proper protections for privacy and security.
    Our third challenge is to establish an effective governance model 
to ensure a strong return on taxpayer innovation investment. The most 
pressing problems we face--in healthcare, energy, the economy, 
education and public safety--require investments in emerging 
technologies and R&D. Our priority will be to ensure those investments 
are targeted and will yield measurable results.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    In my capacity as Virginia's Secretary of Technology, I have an 
account with the Virginia Retirement System which I intend to rollover 
to an existing IRA when eligible.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee. I 
am not aware of any other potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my capacity as Virginia's Secretary of Technology, I 
participated in the Governor's annual Congressional Delegation 
briefing. At that meeting the Governor presents his annual legislative/
appropriations/budgetary priorities to the Virginia Congressional 
Delegation on behalf of the Commonwealth. In addition, I worked closely 
with Virginia's Federal Liaison office to ensure Virginia's 
Congressional Delegation is properly briefed on technology policy 
issues. Most recently, I served as a member of the Obama Transition 
Team working on technology, innovation and government reform policy 
memoranda.
    In 2008, I served as a Co-Chair for National Health IT Week 
Honorary Steering Committee to promote the advancement of health IT. 
From June 9-13, a collaboration of public, private and non-profit 
stakeholders urged policymakers to support the widespread adoption of 
Health IT to improve patient safety, quality and lower costs.
    In 2003, I helped found a bi-partisan think tank to address issues 
of concern on behalf of the Indian American community--``Indian 
American Policy Institute.'' While we did not advocate any specific 
legislation, we convened meetings with Congressional leaders to 
encourage a stronger relationship with the Indian American community.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and OSTP's designated agency ethics 
official to identify potential conflicts of interest. Any potential 
conflicts of interest will be resolved in accordance with the terms of 
an ethics agreement that I have entered into with OSTP's designated 
agency ethics official and that has been provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                               Appendix A
                       resume of aneesh p. chopra
Experience
    Jan. 2006-April 2009--Commonwealth of Virginia--Richmond, VA

        Secretary of Technology. Report directly to Governor Tim Kaine 
        (D-VA) on the efficient and effective use of information 
        technology to simplify government operations, innovative 
        applications to improve public services, and the performance of 
        Virginia's thriving technology economy.

        Board Member, Council on Virginia's Future. One of 2 cabinet 
        members to serve on public-private board to advance the 
        Nation's top-ranked performance management system (tied with 3 
        states in Governing Magazine).

        Chair, Productivity Investment Fund Oversight Board. Launched 
        first-of-its-kind $3M ``venture government'' vehicle to 
        stimulate ``proof-of-concept'' innovative services to lower 
        costs, improve customer service and advance key outcomes goals; 
        initial $2.3M investment expected to deliver 4-1 returns and 
        decrease transaction time 40-50 percent.

        Co-Chair, Office of Health IT. 2008 National Health IT Honorary 
        Co-Chair; responsible for advancing two Executive Orders to 
        stimulate investments to lower costs, improve quality and 
        increase patient satisfaction.

        Co-Founder, Virginia Health Exchange Network (``VHEN''). Led 
        the formation of a voluntary payer-provider collaborative to 
        address rising transaction costs; active solicitation underway 
        to enable multi-payer transaction tools.

        Vice Chairman, IT Investment Board. Governor's lead 
        representative to independent IT authority governing 10-year, 
        $1.9BN IT infrastructure services partnership and $850+M 
        application investment portfolio.

        Chair, Solutions Committee. Govern nation's first Chief 
        Applications Officer to establish data standards, launch 
        enterprise applications, and increase portfolio return on 
        investment.

        Steering Committee, Chesapeake Crescent. Governor's lead 
        cabinet member to multi-state (MD, DC, VA) public-private 
        collaborative to promote regional economic development.

        Co-Founder, Innovation Alliance. In June, 2008, the 
        Universities of MD, VA, VT, GWU, GMU formed a regional alliance 
        commited to achieve top 5 commercialization performance in the 
        country.

    April 1997-Jan. 2006--The Advisory Board Company--Washington, D.C.

        Managing Director. Led two research membership programs as an 
        elected Policy Committee member of a publicly-traded healthcare 
        consultancy serving 2,500 hospital and health systems; helped 
        launch firm's first software service in ``business 
        intelligence'' attracting 100+ members in the first year; in 
        2000, reported directly to Chairman on exploring potential 
        early-stage equity investments to accelerate Internet strategy.

        Financial Leadership Council. Managed best practice research 
        studies for 300+ CFO members focused on instilling fiscal 
        discipline, maximizing health system revenues, and prioritizing 
        capital investments; served as national speaker.

    1994-1995--Morgan Stanley & Company, Inc.--New York, NY.

        Financial Analyst, Health Care/Public Finance. Provided 
        valuation analysis to non-profit hospitals considering a sale 
        to for-profit national chains; assisted in financings including 
        over $50 million in derivative products (swaps).

Leadership
    1999-present--Avatar Capital, LLC--Washington, D.C.

        Co-Founder. Led the formation of $11+ million angel investor 
        network with investments in 16 early-stage technology 
        companies; Microsoft's investment in Navic Networks (Boston, 
        MA) for an undisclosed sum generated a 10-1 return on 
        investment (July, 2008).

    2004-5--The Indus Entrepreneurs--Washington, D.C.

        Co-President, DC-Chapter. Managed 2,000+ technology executive 
        membership organization committed to growing entrepreneurship 
        in the region; helped launch the TiE-Smith Fellows program at 
        the University of Maryland Smith School of Business to inspire 
        12 highly selective startup CEOs through a 14-week management 
        intensive.
Education
    1995-1997--Harvard University, Kennedy School of Government--
Cambridge, MA.

    Master in Public Policy with a concentration in Health Care Policy 
awarded 1997; master's thesis on strategic implications of intranet 
technology for academic medical centers; selected as Course Assistant 
to Information Technology, Business Strategy, and Public Policy course 
jointly offered by Business, Law and KSG (1996, 1997).

    1990-1994--The Johns Hopkins University--Baltimore, MD.

    B.A. in Public Health with a concentration in Health Care Policy 
awarded 1994; elected President, Class of 1994 (1991-92); raised 
$55,000 as Co-Chair for the Milton S. Eisenhower Symposium (1992-93).
Awards
    2008--Government Technology Magazine's Top 25 ``Doers, Dreamers and 
Drivers.''

    2007--Healthcare Information and Management Systems Society's State 
Leadership Advocacy Award.
                                 ______
                                 
                Appendix B--Board and Council Positions

  Ex officio positions held through service as Secretary of Technology,
                        Commonwealth of Virginia
------------------------------------------------------------------------
    Organization           Type         Position Held     From      To
------------------------------------------------------------------------
Information           State          Board Member          1/06    4/09
 Technology            Government     (Unpaid)
 Investment Board
------------------------------------------------------------------------
Innovative            State          Board Member          1/06    4/09
 Technology            Government     (Unpaid)
 Authority/Center
 for Innovative
 Technology Board of
 Directors
------------------------------------------------------------------------
Virginia Health       State          Co-Chair (unpaid)     7/06    4/09
 Information           Government
 Technology Council
------------------------------------------------------------------------
Secure Commonwealth   State          Panel Member          1/06    4/09
 Panel                 Government     (Unpaid)
------------------------------------------------------------------------
Virginia Geographic   State          Board Member          1/06    4/09
 Information Network   Government     (Unpaid)
 Advisory Board
------------------------------------------------------------------------
Virginia Wireless E-  State          Board Member          1/06    4/09
 911 Services Board    Government     (Unpaid)
------------------------------------------------------------------------
Virginia Research     State          Commission Member     1/06    4/09
 and Technology        Government     (Unpaid)
 Advisory Commission
------------------------------------------------------------------------
Modeling and          State          Council Member        7/07    4/09
 Simulation Advisory   Government     (Unpaid)
 Council
------------------------------------------------------------------------
Council on            State          Council Member        1/06    7/08
 Technology Services   Government     (Unpaid)
------------------------------------------------------------------------
State                 State          Committee Member      1/06    4/09
 Interoperability      Government     (Unpaid)
 Executive Committee
------------------------------------------------------------------------
Virginia Philpott     State          Board Member          1/06    4/09
 Manufacturing         Government     (Unpaid)
 Extension
 Partnership
------------------------------------------------------------------------
Public-Private        State          Commission Member     1/06    4/09
 Partnership           Government     (Unpaid)
 Advisory Commission
------------------------------------------------------------------------
Advisory Council on   State          Council Member        1/06    4/09
 Career and            Government     (Unpaid)
 Technical Education
------------------------------------------------------------------------
Productivity          State          Chair (Unpaid)       10/06    4/09
 Investment Fund       Government
 Oversight Board
------------------------------------------------------------------------
Governor's Energy     State          Council Member       12/07    4/09
 Policy Advisory       Government     (unpaid)
 Council
------------------------------------------------------------------------
Chesapeake Crescent   Non-Profit     Committee Member      2/08    4/09
 Initiative Steering   Economic       (Unpaid)
 Committee             Development
------------------------------------------------------------------------
Council on            State          Board Member          1/06    4/09
 Virginia's Future     Government     (Unpaid)
------------------------------------------------------------------------
Carespark             Non-profit     Ex-Officio Board      7/06    4/09
                       Health         Member
                       Information
------------------------------------------------------------------------
Aerospace Advisory    State          Council Member        7/07    4/09
 Council               Government     (Unpaid)
------------------------------------------------------------------------


                                          Appendix C--List of Speeches
----------------------------------------------------------------------------------------------------------------
  Date            Organization                 Event Title                 Audience             Speech Topic
----------------------------------------------------------------------------------------------------------------
1/26/06   Hampton Roads Technology     Technology Networking        HRTC members           Modeling and
           Council                      Luncheon                                            simulation
2/1/2006  Northern VA Technology       Titans of Technology         NVTC members           VA technology agenda
           Council                      Breakfast
2/16/     Virginia High Tech           Ninth Annual VHTP            students, tech         opportunities for
 2006      Partnership                  Internship and Job Fair      companies              minorities in the
                                                                                            tech economy
3/16/     Roanoke Technology Council   Roanoke Tech Council         Tech Council members;  VA technology agenda
 2006                                   breakfast meeting            tech community
3/24/     City of Alexandria           Alexandria Technology        Alexandria tech        innovation and
 2006                                   Achievement Week Luncheon    leaders; award         technology
                                                                     winners
3/29/     American Association of      AAPI Chapter meeting         AAPI members           brief remarks
 2006      Physicians of Indian
           Origin
3/30/     American Institute of        AIAA Hampton Roads section   AIAA, Aerospace        Technology outlook
 2006      Aeronautics and              luncheon                     community in Hampton   for VA
           Astronautics                                              Roads
4/4/2006  Mount Vernon-Lee Chamber of  Mt. Vernon-Lee Chamber       Chamber members        Intro to technology
           Commerce                     business lunch                                      priorities for Kaine
                                                                                            Admin
4/21/     Center for Digital           The Classroom of             K-12 education         welcoming remarks
 2006      Education and Intel          Distinction Interactive      leaders
                                        Forum
4/21/     Northern VA Conservation     NVCT dinner and silent       NVCT members;          Richmond experience;
 2006      Trust                        auction                      Northern VA            importance of
                                                                     community              preserving land in
                                                                                            Northern VA
4/25/     ExecutiveBiz                 ExecutiveBiz breakfast       ExecutiveBiz members;  SecTech role; IT
 2006                                                                Potomac Officers       spending in VA; tech
                                                                     Club                   industry future
4/26/     Shenandoah Valley            SVTC annual banquet          SVTC members; tech     technology in
 2006      Technology Council                                        community in           education,
                                                                     Shenandoah             healthcare,
                                                                                            transportation
5/4/2006  U.S. Department of           Asian Pacific Heritage       Asian American and     SecTech role; VA
           Agriculture                  Month Celebration            Pacific Islanders      experience
5/4/2006  Southwest VA Technology      SWVTC annual awards banquet  SWVTC members;         technology in
           Council                                                   technology community   education,
                                                                     in Southwest VA        healthcare,
                                                                                            transportation
5/11/     Harvard Business School/     Harvard Business School      Health IT community/   panel discussing
 2006      Accenture                    Publishing/Accenture         leaders                RHIOs, other
                                        Government Health Series                            regional, state,
                                                                                            local efforts
                                                                                            relating to NHIN
5/11/     Virginia Piedmont            VPTC annual awards banquet   VPTC members; tech     VA technology agenda
 2006      Technology Council                                        community in
                                                                     Piedmont region
5/17/     Greater Richmond Technology  GRTC Awards Gala             GRTC members;          VA technology agenda
 2006      Council                                                   Richmond tech
                                                                     community
5/19/     Virginia Commonwealth        VCU School of Engineering    graduates of VCU       graduation/
 2006      University                   Diploma Ceremony             School of              motivational speech
                                                                     Engineering and
                                                                     guests
5/25/     Region 2000 Technology       Region 2000 Tech Council     Region 2000 members    VA technology agenda
 2006      Council                      Annual Awards banquets
6/8/2006  Greater Norfolk Corporation  Greater Norfolk Corporation  Greater Norfolk Corp   technology and
                                        event                        members; Norfolk       economic development
                                                                     community leaders
6/10/     ECPI College of Technology   ECPI Graduation              ECPI graduates and     graduation/
 2006                                                                guests                 motivational speech
6/12/     Southwest Virginia           Southwest VA Regional        Gov's school           Competing in a
 2006      Community College            Governor's School for        attendees and guests   ``Flat'' World:
                                        Science and Tech Opening                            Lessons for
                                        Day                                                 Tomorrow's Leaders
6/12/     Southern Piedmont            SPTC annual dinner           SPTC members; tech     VA technology agenda
 2006      Technology Council                                        community in
                                                                     Southside VA
6/22/     New VA Corridor Technology   NCTC Board meeting           NCTC board members     opening remarks
 2006      Council
6/23/     Thomas Jefferson Institute   TJ Institute Innovations in  government and         technology
 2006                                   Government Conference '06    private sector         initiatives in VA
                                                                     leaders
6/27/     Northern VA Technology       NVTC Business to Government  NVTC members; tech     procurement and
 2006      Council                      event on SWAM                community in           involving small
                                                                     Northern VA            businesses
6/29/     Arlington Economic           Arlington Economic           Arlington-based execs  technology economy
 2006      Development                  Development Executive
                                        Luncheon
8/2/2006  VA Technology Education      VTEA annual conference       VTEA members;          technology in
           Association                                               education leaders      education, VA's
                                                                                            technology future
8/16/     VA Public Broadcasting       VA Public Broadcasting       VA Public              technology
 2006                                   Board meeting                broadcasting board     initiatives in VA,
                                                                                            specifically
                                                                                            education related
                                                                                            initiatives
9/14/     INPUT                        INPUT Executive Breakfast    Northern VA execs      technology
 2006                                                                                       opportunities,
                                                                                            changes, and current
                                                                                            challenges in the
                                                                                            Commonwealth
9/20/     Executive Biz                Web 2.0 conference           Tech conference        Web 2.0 in the
 2006                                                                                       Commonwealth
9/21/     HIMSS (Healthcare            Health IT: A View from the   health IT community    VA Health IT
 2006      Information and Management   Hill and Beyond                                     initiatives
           Systems Society)
9/26/     Hampton Roads Technology     From Laboratory to           Hampton Roads tech,    university R&D
 2006      Council                      Marketplace: Bridging the    university community
                                        University, Industry Gap
10/6/     VA Manufacturers             2006 Governor's              manufacturing leaders  How Technology
 2006      Association                  Manufacturing Summit                                Transforms the
                                                                                            Business Climate in
                                                                                            VA
10/16/    Center for Rural VA          2006 Rural Summit            rural leaders          VA technology
 2006                                                                                       initiatives, rural
                                                                                            initiatives/goals
10/20/    Northern VA Technology       NVTC Sprint R&D event        NVTC members; tech     welcoming remarks
 2006      Council                                                   community in
                                                                     Northern VA
10/25/    George Washington            University Start-ups         university community   university R&D;
 2006      University                   conference                                          importance of
                                                                                            commercialization
11/10/    Greater Richmond Technology  GRTC breakfast series        GRTC members;          VA technology
 2006      Council                                                   Richmond tech          initiatives
                                                                     community
11/13/    Virginia Business Council    VA Business Council meeting  VA Business Council    Economic development
 2006                                                                                       surrounding tech
                                                                                            community
11/15/    Virginia International       VIU Scholarship Fundraising  VIU community; donors  Innovation Imperative
 2006      University                   Dinner
12/14/    VA Economic Developers       VA Economic Developers       VA Econ Developers     Technology and
 2006      Association                  Assoc Annual meeting                                Economic Development
2/27/     HIMSS (Healthcare            HIMSS 5th Annual Advocacy    health IT community    VA Health IT
 2007      Information and Management   and Public Policy                                   initiatives
           Systems Society)             breakfast
3/2/2007  Northern VA Democratic       Northern VA Democratic       NVDBC members          building the
           Business Council             Business Council meeting                            innovation agenda
3/6/2007  Northern VA Technology       NVTC Healthcare event        NVTC                   Health IT in VA
           Council
3/14/     Business Software Alliance   Business Software Alliance   northern VA            Health IT and VA's
 2007                                   Dinner                       technology leaders/    innovation agenda
                                                                     BSA members
3/19/     Government Technology;       Beyond the Beltway           IT community           VA's technology
 2007      Center for Digital Govt                                                          priorities
3/28/     TiE Carolinas                TiE Carolinas meeting        TiE membership in NC   Lessons from Virginia
 2007
4/9/2007  Hampton University           Hampton Univ Information     Hampton students;      Building Info
                                        Assurance Symposium          faculty                Assurance capacity
                                                                                            and improving
                                                                                            infrastructure at
                                                                                            minority serving
                                                                                            institutions
4/17/     VA Healthcare Foundation     VA Consortium for Health     Consortium members     Health IT in the
 2007                                   Philanthropy meeting                                Commonwealth
4/19/     VA Modeling and Simulation   VMASC 2007 Modeling,         VMASC/ODU students,    M&S importance
 2007      Center                       Simulation, and Gaming       faculty
                                        Student Capstone Conf
5/19/     VA Lions Club                Lions Club State Convention  VA Lions Club members  VA technology
 2007                                                                                       initiatives;
                                                                                            innovation
5/24/     Southwest VA Technology      SWVTC annual awards banquet  SWVTC members;         keynote--technology
 2007      Council                                                   technology community   in the Commonwealth
                                                                     in Southwest VA
5/31/     Governing Magazine           Managing Technology:         executives,            Outsourcing Update
 2007                                   Policy, Politics and         legislators, agency
                                        Leadership                   heads
6/6/2007  VA Piedmont Technology       VPTC annual awards banquet   VPTC members; tech     keynote--technology
           Council                                                   community in           in Commonwealth
                                                                     Piedmont region
6/25/     VA Workforce Council         VA Workforce Council annual  workforce council      VA technology
 2007                                   retreat                      members                initiatives;
                                                                                            economic development
8/1/2007  U.S. Joint Forces Command    USJFCOM Industry Symposium   Joint Forces Command   technology,
                                                                                            innovation
8/3/2007  Indian American Leadership   Indian-American Democratic   Indian-American        opportunities in
           Initiative                   Dialogue                     democrats              state government
8/7/2007  State Board of Elections     State Board of Elections     VA General Registrars  The Innovation
                                        Registrars conference                               Imperative
8/22/     Old Dominion University      ODU State of the University  ODU faculty, staff,    The Innovation
 2007                                                                community              Imperative
8/30/     Cape Henry Collegiate        Cape Henry donor and         donors and students    technology in
 2007      School                       student event                                       education;
                                                                                            innovation
9/10/     Center for Rural VA          Rural Summit                 VA rural community     Status of the Rural
 2007                                                                leaders                South: Where Does VA
                                                                                            Fit
9/24/     VA Tech                      Outreach NOW                 VT community           The University Role
 2007                                                                                       in Univ-Community
                                                                                            Partnerships in
                                                                                            Economic and
                                                                                            Community
                                                                                            Development
9/27/     Congressional Black Caucus   Health IT and Reducing       Congressional Black    Health IT
 2007      Foundation                   Health Disparities session   Caucus members;
                                                                     health IT interested
                                                                     parties
10/2/     Intel Digital Health         Intel Health IT event        health IT leaders      Health IT in the
 2007                                                                                       Commonwealth
10/11/    Governing                    NYC: Governing LIVE          The Innovation
 2007                                                                Imperative
10/12/    VA Assoc for Adult and       VAACE conference             adult ed leaders       GED on Demand
 2007      Continuing Education                                                             announcement
10/25/    VA HIMSS (Healthcare         VA HIMSS annual conference   VA HIMSS community     Health IT in the
 2007      Information and Management                                                       Commonwealth
           Systems Society)
10/25/    VA Hospital and Healthcare   VHHA annual conference       health IT community;   Leveraging IT for
 2007      Association                                               VHHA members           Quality and Value
                                                                                            Panel
10/27/    Medical Society of VA        MSV conference               MSV members            Health Care IT: The
 2007                                                                                       Commonwealth's
                                                                                            Perspective
11/2/     George Mason University      VA Innovation Showcase       university community;  university R&D;
 2007      Business Alliance                                         entrepreneurs          commercialization,
                                                                                            innovation
11/7/     HRSA                         HRSA grantee meeting         HRSA grantees          Innovation through
 2007                                                                                       Collaboration
11/7/     Germanna Center for          VA IT Workforce Summit       IT leaders; IT         Importance of
 2007      Advanced Technology                                       workforce members      technology in econ
                                                                                            development
11/12/    VA Association of Counties   VACo Broadband Deployment    local leaders          VACo Broadband
 2007                                   conference                                          session
11/14/    VA P-16 Council              Flat World/Round Students P- education leaders      The Innovation
 2007                                   16 Forum                                            Imperative:
                                                                                            Education's Role in
                                                                                            VA's 21st century
                                                                                            economy
11/26/    Virginia Commonwealth        VCU Literacy Institute       Literacy Institute     Technology Literacy
 2007      University Literacy Board    Advisory Board meeting       Advisory Board         in the 21st century
12/6/     Fredericksburg Technology    FredTech Awards Banquet      Fredericksburg Tech    technology
 2007      Council                                                   Council members        initiatives in VA
1/25/     State Board of Health        State Board of Health Lunch  State Board of Health  current status of
 2008                                                                                       Health IT in
                                                                                            Commonwealth
1/29/     VA Association of Planning   VAPD annual meeting          Planning district      technology
 2008      Districts                                                 commission members     initiatives in VA;
                                                                                            innovation
2/20/     Community Care Network of    CCNV 12th annual             CCNV shareholders      health IT in
 2008      VA                           shareholder meeting                                 Commonwealth
2/29/     VA Technology Education      Children's Engineering       VA technology          technology in
 2008      Association                  Convention                   teachers; leaders      education
3/7/2008  Northern VA Democratic       NVDBC meeting                NVDBC members          VA technology
           Business Council                                                                 initiatives
3/14/     VA Economic Developers       VEDA Spring Conference       VEDA members           keynote--technology
 2008      Association                                                                      and econ development
4/8/2008  National Capital Healthcare  NCHE event                   NCHE                   health IT
           Executives
4/9/2008  American Museum of Natural   AMNH STEM event              STEM community/        panel
           History                                                   leaders
4/16/     VA Career Education          VA Career Education          education leaders      Partnerships to Fuel
 2008      Foundation                   Foundation dinner                                   VA's Innovative
                                                                                            Economy
4/22/     ICGGov                       Govt Business Executive      govt/technology        Richmond as a
 2008                                   Focus Forum                  leaders                Catalyst: Making the
                                                                                            Federal-state
                                                                                            relationship work--
                                                                                            identity mgmt case
                                                                                            study
4/24/     WCA                          WCA Public Safety Govt       govt/public safety     public safety
 2008                                   Roundtable                   leaders                interoperability
5/1/2008  Hampton Roads Technology     HRTC Tech Night              HRTC members           The Innovation
           Council                                                                          Imperative
5/5/2008  VA Assoc of School           VASS annual conference       VA superintendents     Technology in
           Superintendents                                                                  Education;
                                                                                            importance of STEM;
                                                                                            VA initiatives
5/15/     Prince William County        PWC Technology Achievement   Prince William gov't   technology and
 2008                                   Awards luncheon              award winners          innovation,
                                                                                            importance in govt
5/20/     Old Dominion University      ODU Summer Institute         ODU faculty, staff,    The Innovation
 2008                                                                community              Imperative
5/22/     Charlottesville Tech         Charlottesville Innovation   Charlottesville        technology
 2008      Council                      Awards                       technology community   initiatives in VA;
                                                                                            innovation
5/28/     Southwest VA Technology      SWVTC annual awards banquet  SWVTC members;         technology
 2008      Council                                                   technology community   initiatives in VA;
                                                                     in Southwest VA        innovation
5/29/     Leadership Arlington         Leadership Arlington 10th    Leadership Arlington   keynote--The
 2008                                   anniversary celebration      alumni                 Innovation
                                                                                            Imperative
6/11/     Monroe Technology Center     Monroe Technology Center     Monroe Technology      graduation/
 2008                                   Graduation                   Center graduates,      motivational speech
                                                                     guests
6/26/     California Little Hoover     CA Little Hoover Commission  Little Hoover          Leveraging Technology
 2008      Commission                   hearing                      Commission members,    to Measure and
                                                                     guests                 Report Performance
6/30/     VA Assoc of Secondary        VASSP annual conference      school principals      The Innovation
 2008      School Principals                                                                Imperative
7/8/2008  University of VA             Tapestry 2008 Workshop       computing and IT       Technology in
                                                                     teachers               Education;
                                                                                            importance of STEM
7/18/     VA Association of Planning   VAPDC summer conference      planning districts     Importance of
 2008      District Commissions                                                             technology in econ
                                                                                            development
7/24/     Northern VA Regional         NVRC meeting                 NVRC                   Innovation
 2008      Commission                                                                       Imperative:
                                                                                            Organizing the
                                                                                            Region for Global
                                                                                            Competitiveness
8/6/2008  MathScience Innovation       Building for the Future: 3-  Educators              Technology in
           Center                       5 Math & Science                                    Education;
                                        Conference                                          importance of STEM
8/19/     Richmond City Public         Opening Convocation for      Richmond City Career   Technology in
 2008      Schools                      Richmond City CTE teachers   and Tech Ed teachers   Education;
                                                                                            importance of STEM
9/20/     VA Health Quality Center     VA Health Quality Center     VHQC BOD               Health IT--Vision for
 2008      Board of Directors           BOD retreat                                         the Future
9/30/     Virginia Geographic          GIS annual conference        GIS leaders,           Role of GIS in
 2008      Information Network                                       companies              Technology Agenda
10/1/     Center for Innovative        Energy Technology Forum      energy, business       VA Energy
 2008      Technology                                                leaders                initiatives;
                                                                                            Chesapeake Crescent
10/3/     VA School Boards             VA School Boards Assoc       School Board members,  Building Intellectual
 2008      Association                  Leadership Conf              leaders from across    Capital in VA
                                                                     VA
10/6/     The Renaissance Group        The Renaissance Group Fall   education leaders      Building Intellectual
 2008                                   Conference ``Addressing                             Capital in VA
                                        Societal Challenges
                                        through Education''
10/13/    RHIOhio/Ohio University      RHIOhio Conference           Health IT leaders/     The Future of Rural
 2008                                                                community in Ohio      Healthcare
10/15/    Telework Exchange            Telework Exchange Town Hall  Telework Exchange      telework in VA
 2008                                   meeting                      members/leaders in
                                                                     Northern VA/DC area
10/15/    Da Vinci Group of VA         Da Vinci Group meeting       small group of VA      Transforming K-12
 2008      Superintendents                                           superintendents
10/17/    VA HIMSS                     VA HIMSS annual conference   members of VA HIMSS;   Health IT
 2008                                                                Health IT community
10/20/    National Governor's          NGA Experts Roundtable on    government leaders     panel member
 2008      Association                  State Investment Decision
                                        for Science and Innovation
10/22/    Open Source Lab/Oregon       Government Open Source       gov't leaders; open    Building a Culture of
 2008      State University             Conference (GOSCON)          source leaders         Innovation and
                                                                                            Productivity through
                                                                                            Collaboration
10/25/    CHIME (College of            CHIME Fall CIO Forum         nation's top           Leading the Way:
 2008      Healthcare Information                                    healthcare CIOs and    Health IT Strategy
           Management Executives)                                    Health IT execs        for the Modern State
11/5/     James Madison University     Rocco Forum on the Future    JMU leaders; Board;    technology in
 2008                                                                educators              education
11/14/    George Mason University      Innovation Showcase          University faculty,    Spotlighting Regional
 2008      Business Alliance                                         researchers from VA;   Innovation
                                                                     entrepreneurs
12/1/     HIMSS                        HIMSS Government Relations   HIMSS members          Health IT Initiatives
 2008                                   Roundtable                                          in VA
12/12/    Medical Automation           Medical Automation           healthcare             Telehealth in VA
 2008                                   Conference `08               professionals,
                                                                     leaders
4/7/2009  HIMSS                        HIMSS National Conference    health IT leaders/     The Effect of
                                                                     community              Economic Stimulus on
                                                                                            State HIT projects
----------------------------------------------------------------------------------------------------------------


    Senator Warner. Thank you, Mr. Chopra.
    Now, I'd like to call upon Rebecca M. Blank, who is up for 
Under Secretary of Economic Affairs, and has enormous 
challenges, as well, including the Census.
    So, Ms. Blank, thank you for being here.

               STATEMENT OF DR. REBECCA M. BLANK,

        UNDER SECRETARY-DESIGNATE FOR ECONOMIC AFFAIRS,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Blank. Thank you, Senator Warner, Ranking Member 
Hutchison, and distinguished Members of the Committee. I 
appreciate the opportunity to be here today as nominee for 
Under Secretary for Economic Affairs at the Department of 
Commerce. It's an honor to be nominated for this job by 
President Obama, and I look forward to working with Secretary 
Locke and others at the Department.
    With your permission, if I could introduce my family? My 
husband, Hanns Kuttner, is back there in the third row. Sitting 
next to him is my brother, Grant Blank, and in the front row, 
in the red skirt, is my daughter, Emily, who is a seventh 
grader at Westland Middle School in Bethesda. And I know I've 
got a number of other friends and colleagues around the 
audience, as well.
    There are two parts to the Under Secretary's job. The first 
is the management and oversight of the two top statistical 
agencies in the United States--the Census Bureau, and the 
Bureau of Economic Analysis.
    This management role is particularly important in this 
year, as the Census Bureau undertakes its 2010 Decennial 
Census. I realize that one of the most important and immediate 
responsibilities of this position is focused oversight and 
guidance to ensure that the 2010 Census is complete and 
accurate.
    Of course, the Census Bureau and the BEA collect and 
disseminate a wide range of data, and my role as Under 
Secretary would be to work with these agencies to develop a 
long-term strategic plan for improving America's statistics, 
and to make sure that those agencies have the expertise and the 
resources they need to implement that plan.
    The second part of the Under Secretary's job is to serve as 
head of the Economic and Statistics Administration, providing 
high-quality economic analysis inside the Department of 
Commerce. If confirmed, I would work with the excellent group 
of economists at ESA, to make sure the Secretary had the best 
possible economic information to track important trends in the 
economy, and to work with economists elsewhere around the 
Administration, to develop and analyze the policies that will 
define President Obama's Administration.
    I've worked in a number of different jobs in the past--I'm 
an economic researcher, deeply interested in the ways in which 
the U.S. economy interacts with government policy. As a 
researcher, I've used Census and BEA data for years, and have 
consulted regularly with those agencies about measurement 
issues. I know these organizations, and I deeply appreciate 
what they do, and how well they do it.
    Second, I've been a higher education administrator and 
manager. I spent 8 years as Dean of the Gerald R. Ford School 
of Public Policy at the University of Michigan, and in that 
job, I managed a growing educational and research enterprise 
inside a very large university that provided the hands-on 
management experience that I suspect will be important to the 
job of Under Secretary.
    Third, I've been a public servant, and a government 
employee. I worked for one year as Senior Staff Economist at 
the Council of Economic Advisors during the first President 
George Bush Administration, and returned as one of three 
members of the CEA during the second term of President 
Clinton's Administration.
    I know how to write one-page policy memos, and I know how 
to provide the wide-ranging economic analysis that's constantly 
in demand inside government.
    While it is an honor and a privilege to work in the White 
House, when I left the CEA job I decided, ``If I ever go back 
into an Administration, I want to be in one of the agencies 
that actually run programs.'' This nomination gives me the 
opportunity to do that. The Under Secretary for Economic 
Affairs is one of the best agency jobs available to an 
economist, and I'm grateful for the privilege of being 
considered for this position.
    I appreciate the opportunity to come before you today. If 
approved by this Committee and confirmed by the full Senate, I 
would look forward to working with you and with your staff on 
all items of shared interest and concern.
    Thank you.
    [The prepared statement and biographical information of Dr. 
Blank follows:]

 Prepared Statement of Dr. Rebecca M. Blank, Under Secretary-Designate 
           for Economic Affairs, U.S. Department of Commerce
    Chairman Rockefeller, Ranking Member Hutchison, and distinguished 
Members of the Committee, I appreciate the opportunity to appear before 
you today as the nominee for the position of Under Secretary for 
Economic Affairs at the Department of Commerce. It is an honor to be 
nominated for this job by President Obama, and I look forward to the 
possibility of working with Secretary Locke, and with the others in 
leadership at the Department of Commerce. I'm also pleased that my 
husband, Hanns Kuttner could be here today, as well as my daughter 
Emily.
    There are really two parts to the Under Secretary job. The first is 
management and oversight of two of the top statistical agencies in the 
United States--the Census Bureau and the Bureau of Economic Analysis 
(BEA). This management role is particularly important in the next year, 
as the Census Bureau undertakes its 2010 decennial census. I realize 
that one of the most important and immediate responsibilities of this 
position is to become completely conversant with the Decennial Census 
plans in order to provide focused oversight and guidance to ensure the 
2010 Census is complete and accurate. But the Census Bureau does much 
more than conduct the Decennial Census. It and the BEA collect and 
disseminate a wide range of data, and my role as Under Secretary would 
be to work with both of these agencies to develop a long-term strategic 
plan for improving America's statistics, and to make sure that these 
agencies have the expertise and the resources needed to implement that 
plan.
    The second part of the Under Secretary's job is to serve as head of 
the Economics and Statistics Administration (ESA), providing high 
quality economic analysis inside the Department of Commerce. I 
understand there is an excellent group of career economists at ESA. If 
confirmed as Under Secretary, we would make sure the Secretary had the 
best possible economic information as he interacts with industry and 
community leaders. ESA also track important trends and changes in the 
economy, and works with economists elsewhere around the Administration 
to develop and analyze the policies that will define President Obama's 
Administration.
    Particularly in the current economic environment, as we deal with 
the worst recession in the past 60 years, good economic analysis is in 
high demand. I look forward to taking on some questions that are 
particularly relevant to the Department of Commerce and its interests; 
questions such as ``How is the current recession leading to 
restructuring in manufacturing industries in the U.S. and abroad and 
what are the implications for jobs, productivity, and profits among 
U.S. manufacturers?'' ``Is the U.S. as competitive as it should be? 
Which industries are leading in productivity, innovation, and 
competitiveness in the U.S., as we come out of the current recession?'' 
or ``What would rapid growth in environmentally-focused products mean 
in terms of industry and job expansion?''
    In the past, I have had the pleasure of working in the public, 
private, and not-for-profit sectors. Many years ago, I worked with a 
variety of heavy manufacturing industries as a consultant with an 
economic forecasting company, a job which taught me a great deal about 
the real world of business. I went on to acquire a Ph.D. in economics 
and in the years since I've held three types of positions.
    First, I am an economic researcher and am deeply interested in the 
ways in which the U.S. economy interacts with government policy. My 
work has focused on labor markets, on the well-being of American 
families, on effective measurement of key economic concepts, and on the 
impact and evaluation of government policy efforts. I have worked on a 
variety of measurement issues and interacted with the staff at Census 
and BEA on a regular basis for years. I have used their data and have 
consulted with them about measurement issues. As a result, I know those 
organizations and deeply appreciate what they do and how well they do 
it.
    Second, I have been an administrator and manager in the field of 
Higher Education. I have run two major research centers and spent 8 
years as Dean of the Gerald R. Ford School of Public Policy at the 
University of Michigan. That job gave me the opportunity to oversee and 
manage a growing educational and research enterprise, inside a very 
large University, and provided me with the hands-on management 
experience that I know will be very important background experience for 
my job as Under Secretary.
    Third, I have been a public servant and government employee. I 
worked for a year as a Senior Staff Economist at the Council of 
Economic Advisers (CEA) during the President George H.W. Bush 
Administration, and I returned as one of the three members of the CEA 
during the second term of President Clinton. In these jobs I learned 
how to write one-page policy memos and how to produce the wide-ranging 
economic analysis that is constantly in demand inside government. While 
it is an honor and a privilege to work in the White House, when I left 
that job I thought to myself, ``If I ever come back into an 
Administration job, I want to be in one of the agencies actually 
running programs.'' This nomination gives me the opportunity to do 
that. I believe the Under Secretary for Economic Affairs to be one of 
the best agency jobs available, and I am grateful for the privilege of 
being considered for this position.
    In this economy, we need good data--collected in a timely and 
reliable way by the Census Bureau and the Bureau of Economic Analysis--
so we can understand how businesses and families are faring. We also 
need high quality economic analysis, analyzing the trends and patterns 
that indicate both where there is economic pain and where there are 
signs of recovery. We particularly need to keep track of industry 
shifts and how they affect American competitiveness in a global 
economy. Finally, we need high quality policy analysis, looking at the 
impacts of existing and proposed policies on American businesses, 
American families and on the competitiveness and health of the U.S. 
economy. The Under Secretary position would give me the opportunity to 
work on all of these issues.
    I appreciate the opportunity to come before you today. If my 
nomination is approved by this Committee and confirmed by the full 
Senate, I look forward to working with you and your staff members on 
all items of shared interest and concern. Thank you.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Rebecca 
Margaret Blank; Rebecca M. Blank; Becky Blank.
    2. Position to which nominated: Under Secretary for Economic 
Affairs, Department of Commerce.
    3. Date of Nomination: April 28, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: The Brookings Institution, 1775 Massachusetts Ave., NW, 
        Washington DC 20036.

    5. Date and Place of Birth: September 19, 1955; Columbia, Missouri.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Johannes (Hanns) C. Kuttner, Visiting Fellow, The 
        Hudson Institute; daughter: Emily C. Kuttner, age 13.

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S. in Economics, 1976, University of Minnesota.

        Ph.D. in Economics, 1983, Massachusetts Institute of 
        Technology.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.
    All of my previous positions are relevant, since all of them have 
helped me acquire the substantive knowledge, policy experience and 
management skills that are necessary for the Under Secretary job.
    Brookings Institution, July 2008-present.

        Robert S. Kerr Senior Fellow, Economic Studies.

        Robert S. Kerr Visiting Fellow, Economic Studies (2007-08).

    University of Michigan, August 1999 to June 2008.

        Joan and Sanford Weill Dean of Public Policy, Gerald R. Ford 
        School of Public Policy, 1999-2007.

        Henry Carter Adams Collegiate Professor of Public Policy, 
        Gerald R. Ford School of Public Policy.

        Professor of Economics, Department of Economics.

        Co-Director, National Poverty Center, 2002-2008.

    Council of Economic Advisers, Washington, D.C., October 1997 to 
July 1999.

        Member-nominee, October 1997-October 1998; Member, October 1998 
        to July 1999.

    Northwestern University, September 1989 to July 1999.

        Professor of Economics, 1994-1999; Associate Professor of 
        Economics, 1989-94.

        Director, Joint Center for Poverty Research, 1996-97.

        Research Faculty, Center for Urban Affairs and Policy Research, 
        1989-99.

        Associate Professor, School of Education and Social Policy, 
        1989-93.

        Co-Director, Northwestern/University of Chicago 
        Interdisciplinary Training Program in Poverty, Race, and 
        Underclass Issues, 1991-96.

    Council of Economic Advisers, Washington, D.C., August 1989 to July 
1990.

        Senior Staff Economist.

    Princeton University, September 1983 to August 1989.

        Assistant Professor of Economics and Public Affairs.

        Department of Economics and Woodrow Wilson School of Public and 
        International Affairs.

    Massachusetts Institute of Technology, September 1988 to May 1989.

        Visiting Assistant Professor of Economics.

    University of Wisconsin-Madison, Fall 1985.

        Visiting Fellow, Department of Economics and Institute for 
        Research on Poverty.

    Data Resources, Inc., June 1976 to August 1979.

        Consultant and Educational Coordinator, Chicago Office.

    9. Attach a copy of your resume. Attached as appendix.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years.
    Consultant for the State of Connecticut, Commission on Children, 
Nov-Dec 2007.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Board of Directors, MDRC (formerly Manpower Demonstration 
        Research Corporation), 2001-present.

        Board of Trustees, Urban Institute, 2007-present.

        Board of Directors, Economic Policy Institute, 2008-present.

        Board of Directors, Citizens' Research Council of Michigan, 
        2000-2008.

        Visiting Committee, Kennedy School of Government, Harvard 
        University, 2004-present.

        Advisory Council, Spotlight on Poverty and Opportunity, 2007-
        present.

        National Academy of Sciences

                Division Committee for the Behavioral and Social 
                Sciences and Education (DBASSE), National Research 
                Council, 2003-08.

                DBASSE Executive Committee member, 2005-08.

                Committee on the Fiscal Future of the United States, 
                2008-present.

                Chair, Workshop to Reconsider the Federal Poverty 
                Measure, Committee on National Statistics, 2004-05.

                Chair, Panel on Methods for Assessing Discrimination, 
                Committee on National Statistics, 2001-2004.

        DIW (a research/policy think tank), Berlin, Germany.

                Scientific Advisory Committee, 2001-2004.

                Honorary Advisory Council, DIW-DC, 2008-present.

        Association for Public Policy Analysis and Management

                President, 2007.

                Executive Committee member, 2006-08.

                Policy Council member, 2001-04.

        Board Chair, Public Policy and International Affairs Program, 
        2003-06.

        Vice President, American Economic Association, 2007.

        Board of Editors, American Economic Journal: Economic Policy, 
        2007-present.

        Co-Editor, Labour Economics, 2004-2007; Associate Editor, 2007-
        present.

        Advisory Board, Journal of Economic Education, 2002-present.

        National Advisory Board and Senior Research Affiliate, National 
        Poverty Center, University of Michigan, 2008-present.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

 
------------------------------------------------------------------------
                                                          Restrictive
    Social Club/          Dates      Position (Member/     Membership
    Organization                         Officer)      Policies (Yes/No)
------------------------------------------------------------------------
Bread for the        1976-present    Member            No
 World, Washington,
 D.C.
Amnesty              Around 2001-    Member            No
 International, New   present
 York, NY
Westmoreland         2008-present    Member            Expects members
 Congregational                                         to generally
 Church, UCC,                                           accept the
 Bethesda, MD                                           religious
                                                        precepts of the
                                                        United Church of
                                                        Christ.
First Presbyterian   2000-2008       Member and Elder  Expects members
 Church, Ann Arbor,                   (2004-2008)       to generally
 MI                                                     accept the
                                                        religious
                                                        precepts of the
                                                        Presbyterian
                                                        Church.
St. Pauls United     1990-2000       Member and        Expects members
 Church of Christ,                    Church Council    to generally
 Chicago, IL                          member (1994-     accept the
                                      97)               religious
                                                        precepts of the
                                                        United Church of
                                                        Christ.
First Church         1989-90 and     Associate member  Expect members to
 Congregational,      1997-99                           generally accept
 UCC, Washington,                                       the religious
 D.C.                                                   precepts of the
                                                        United Church of
                                                        Christ.
Economic Dinner      1999-2008       Member            None
 Club, Ann Arbor,
 MI
American Economic    1981-present    Member, Exec.     None
 Association                          Committee
                                      member (1995-
                                      97) and Vice-
                                      President
                                      (2007)
Labor and            1983-present    Member            None
 Employment
 Relations
 Association
Midwest Economics    1990-2005       Member,           None
 Association                          President (2001-
                                      02)
Committee on the     1981-present    Member, Exec      None
 Status of Women in                   Comm member
 the Economics                        (1990-94),
 Profession                           Chair (1994-96)
National Poverty     2008-present    Senior research   None
 Center, University                   affiliate and
 of Michigan                          member,
                                      National
                                      Advisory Board
Angell School PTO,   2001-2007       Member            None
 Ann Arbor, MI
Westland Middle      2007-present    Member            None
 School PTA,
 Bethesda, MD
Oxbridge             1999-2008       Member            None
 Neighborhood
 Association, Ann
 Arbor, MI
Association for      1985-present    Member,           None
 Public Policy                        President
 Analysis and                         (2007),
 Management (APPAM)                   Executive
                                      Committee (2006-
                                      08), Policy
                                      Council (2001-
                                      04)
Ann Arbor Art        2001-present    Member            None
 Center
Friends of the       1997-99; 2007-  Member            None
 National Zoo         present
Economists for       About 1990-     Member            None
 Peace and Security   present
 (earlier
 Economists Against
 the Arms Race)
------------------------------------------------------------------------

    13. Have you ever been a candidate for and/or held a public office 
(elected, nonelected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period: None.
    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Phi Beta Kappa, 1975.

        National Science Foundation Graduate Fellowship, 1989-92.

        Sloan Foundation Graduate Fellowship, 1992-93.

        National Fellowship for Women in the Sciences, National Science 
        Foundation, 1988-89.

        David Kershaw Award, 1993, Association for Public Policy 
        Analysis and Management (awarded to the young scholars whose 
        research has had the most impact on the public policy process).

        Faculty research associate, National Bureau of Economic 
        Research, 1990-present.

        Faculty Affiliate, Institute for Research on Poverty, 1994-
        present.

        Member (an elected honorary position), National Academy of 
        Social Insurance, 1996-present.

        Richard A. Lester Prize for the Outstanding Book in labor 
        Economics and Industrial Relations, 1997 (for the book It Takes 
        A Nation: A New Agenda for Fighting Poverty).

        Senior Research Affiliate, National Poverty Center, 2002-
        present.

        Lifetime National Associate, National Academy of Sciences, 
        2004-present.

        Fellow, Society of Labor Economics, 2006-present.

        Fellow, American Academy of Arts and Sciences, 2005-present.

        Research Fellow, IZA (Institute for the Study of Labor), 2007-
        present.

        Outstanding Alumni Achievement Award, University of Minnesota, 
        2008.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    Because of the number of publications, rather than listing them all 
here I list only my books. The remainder of publications (journal 
articles, book chapters, book reviews, articles for a broader public, 
and unpublished working papers) are all listed in full in the Appendix 
as part of my CV.
Publications--Books
        Insufficient Funds: Savings, Assets, Credit and Banking Among 
        Low-Income Households (with Michael S. Barr). New York: Russell 
        Sage Foundation, 2009. (Co-editor and co-author on one article 
        in the volume.)

        Working and Poor: How Economic and Policy Changes are Affecting 
        Low Wage Workers (with Sheldon Danziger and Robert Schoeni). 
        New York: Russell Sage Foundation, 2006. (Co-editor and co-
        author on two articles in the volume.)

        Measuring Racial Discrimination (with Marilyn Dabady and Connie 
        Citro). Washington, D.C.: National Research Council, National 
        Academy Press, 2004.

        Is the Market Moral? A Dialogue on Religion, Economics, and 
        Justice (with William McGurn). Washington, D.C.: Brookings 
        Institution, 2004.

        The New World of Welfare. Washington, D.C.: Brookings 
        Institution, 2001. (Co-editor with Ron Haskins and co-author of 
        two articles in the volume.)

        Finding Jobs: Work and Welfare Reform. New York: Russell Sage 
        Foundation, 2000. (Co-editor with David Card and co-author of 
        two articles in the volume.)

        It Takes A Nation: A New Agenda for Fighting Poverty. 
        Princeton: Princeton University Press, 1997.

        Social Protection vs. Economic Flexibility: Is There a 
        Tradeoff? Chicago: University of Chicago Press, 1994. (Editor 
        and author of two articles in the volume.)

        Do Justice: Linking Christian Faith and Modern Economic Life. 
        Cleveland, OH: Pilgrim Press, 1992.
Speeches
    I typically have given seminars, speeches, served as a panelist, or 
was in a public discussion multiple times each week over the past year 
and half. Prior to this, I gave public speeches and made other public 
comments at least twice each month, and this has been true for many 
years. Many of these talks (particularly in the last year) specifically 
address the current economic situation, which is something that I will 
be addressing regularly in my new job. I occasionally talk about the 
need for good data as part of this.
    Among the most visible talks that I have given are a series of 
named lectures, which I list here:

        Distinguished Public Policy Lecture, Institute for Policy 
        Research, Northwestern University, April 2009.

        Aaron Wildaysky Lecture, Goldman School of Public Policy, UC-
        Berkeley, March 2009.

        Sulzberger Lecture, Sanford Institute of Public Policy, Duke 
        University, September 2008.

        McMylar Lecture, Department of Economics, Case Western Reserve 
        University, April 2007.

        American Enterprise Lecture, Furman University, March 2007.

        Alice Cook Lecture, School of Industrial and Labor Relations, 
        Cornell University, October 2006.

        Kurt W. Rothschild Lecture. Department of Economics, Johannes 
        Kepler University, Linz, Austria, November 2005.

        Bazzani Lecture, Institute for Government and Public Affairs, 
        University of Illinois, October 2004.

        Monroe-Paine Lecture, Truman School, University of Missouri, 
        March 2003.

        Wellington-Burnham Lecture. Department of Economics, Tufts 
        University, October 2002.

        Merrick Lecture. Department of Economics, University of 
        Virginia, April 2002.

        Adam Smith Lecture. European Association of Labour Economists, 
        September 2001.

        J. Douglas Gibson Lecture. School of Policy Studies, Queen's 
        University, Canada, March 2000.

        Distinguished Lecture on Economics in Government, Society of 
        Government Economists, January 2000.

        Frank Paish Lecture, Royal Economic Society, April 1999.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.

        ``What Do the Recently-Released U.S. Poverty Numbers Tell Us?'' 
        Testimony to the Joint Economic Committee, U.S. Congress, 
        September 25, 2008.

        ``Why the United States Needs an Improved Measure of Poverty.'' 
        Testimony to the Subcommittee on Income Security and Family 
        Support, House Ways and Means Committee, U.S. Congress, July 
        17, 2008.

        ``What Does the Unemployment Rate Indicate about the Weak Labor 
        Market?'' Testimony to the Subcommittee on Income Security and 
        Family Support, House Ways and Means Committee, U.S. Congress, 
        April 10, 2008.

        ``If the Economy's So Bad, Why is the Unemployment Rate So 
        Low?'' Testimony to the Joint Economic Committee, U.S. 
        Congress. Hearings on the Release of the February 2008 
        Unemployment Numbers, March 7, 2008.

        ``Employment, Job Opportunities, and Inequality among Workers 
        in the U.S. Economy,'' Testimony to the House Financial 
        Services Committee. U.S. House of Representatives, Hearings on 
        the State of the Economy, the State of the Labor Market and 
        Monetary Policy, February 16, 2007.

        ``The Causes and Consequences of Rising Out-of-Wedlock 
        Birthrates.'' Testimony to the Subcommittee on Human Resources, 
        Ways and Means Committee, U.S. House of Representatives, 
        Hearings on Welfare Reform, January 13, 1995.

        ``Current Trends in the Poverty and Income Statistics.'' 
        Testimony to the Subcommittee on Human Resources, Ways and 
        Means Committee, U.S. House of Representatives, September 10, 
        1992.

        Growth is Not Enough: Why The Recovery of the 1980s Did So 
        Little to Reduce Poverty. Report to the Joint Economic 
        Committee, Congress of the United States. Washington, D.C.: 
        Joint Economic Committee Reports, September 26, 1991.

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    This position has two important aspects to it: Overseeing the 
operations of the Bureau of Economic Analysis and the Census Bureau, 
and serving as a source of economic information and statistics within 
the Department of Commerce. I am interested in this position because 
both of these duties are closely related to my long-term interests and 
expertise. Let me address each of them in turn.
    Serving as a source of economic information and statistics within 
the Department of Commerce: I am an economist by training, and have 
spent much of my professional life evaluating the effects of U.S. 
policy and the macroeconomy on the well-being and behavior of families. 
I have worked on these issues within University settings, as a 
researcher and a teacher. I served in two previous administrations 
within the White House as an economist dealing with current economic 
issues. I was a Senior Staff economist for a year at the Council of 
Economic Advisers (CEA) in the George H.W. Bush Administration. In the 
Clinton Administration I returned as a member of the CEA and worked for 
2 years as a senior advisor and participant in the discussions about 
domestic economic issues and related policies within the White House.
    Overseeing the operations of the BEA and Census: I am deeply 
familiar with the functions of both of these agencies, having worked 
closely with their data throughout my career. I have served in various 
capacities with the National Research Council of the National Academy 
of Sciences, which is regularly asked to write reports about the data 
issues that these agencies deal with, and I have served on or written 
papers for several of these research panels. I have participated in 
panels at professional associations that discussed data issues within 
these agencies. I know many of the senior career employees at these 
agencies.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I have served in senior management positions and understand the 
necessity for management and accounting controls and the value that 
they can provide by reducing risk and improving the overall functioning 
of an organization when effectively utilized.
    From 1999-2007, I served as Dean of the Gerald R. Ford School of 
Public Policy within the University of Michigan. At the Ford School I 
was responsible for overseeing all faculty and staff hiring, student 
and curricular issues, communication and outreach functions, budgets, 
and building issues. My entire time there was spent implementing a 
long-term strategic plan for the Ford School, a unit that had been 
created from a much smaller program several years before I arrived. 
During my time at the Ford School, the organization quadrupled in size, 
initiated two major new educational degree programs, established three 
new research centers, built a new building, and established a 
significant endowment. Much of my management work was spent dealing 
with the sort of organizational change that rapid growth can induce.
    While serving as Dean of the Ford School, I was also part of the 
leadership team at the University of Michigan, a very large educational 
and research organization with 32,000 faculty and staff and over 40,000 
students. I worked within the budget, human resource, and planning 
systems of that University, making sure that they were effectively 
implemented within my unit and occasionally working to improve these 
systems when needed.
    In addition, I have worked on the Boards of Directors of a number 
of non-profit organizations, with responsibility for overseeing the 
financial and management decision-making within these organizations. I 
have run two major research centers, effectively overseeing their 
staffing, finances, and program. And I have worked previously in a 
senior position inside government, as a Member of the Council of 
Economic Advisers, which provided me with some familiarity with Federal 
personnel and oversight systems.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    My answer focuses on the top three challenges facing the person who 
will serve as Under Secretary for Economic Affairs and head of the 
Economics and Statistics Administration within the Department of 
Commerce:

        1. Ensuring as accurate a count in the 2010 Census as possible. 
        Given how close we are to the 2010 Census, it must be a top 
        priority to assist the Census Bureau in executing the strategic 
        and logistic plans that will make the 2010 Census as complete 
        as possible. This includes effective outreach to historically 
        undercounted populations, well-run logistics to hire and train 
        more than a million enumerators, and the management of 
        effective systems to gather and process this data as it 
        arrives.

        2. Serving as an effective resource and voice from the 
        Department of Commerce to those interagency task groups that 
        are working inside the Administration on issues of economic 
        import where the Department of Commerce has clear interests. 
        This includes the range of issues that will affect U.S. 
        businesses and consumers, from the automobile bailout to health 
        care reform to climate change. There are a number of major 
        policy challenges that this Administration is working to 
        address. The Department of Commerce should be involved in these 
        discussions to make sure that the impact of any new policy 
        proposals on the competitiveness and productivity of the U.S. 
        economy is thoroughly understood.

        3. In a deepening economic recession, providing timely 
        information and advice to the Secretary and to others inside 
        and outside the Department of Commerce who look to data 
        produced within the Department of Commerce for current economic 
        news. In the current uncertain economic climate, the leadership 
        within Commerce has to be able to speak effectively about the 
        risks and possibilities facing the Nation and U.S. businesses 
        and consumers. The Economics and Statistics Administration is 
        in a particularly important position since it oversees two of 
        the agencies that produce many of the most closely-followed 
        economic statistics. ESA must work with the Census Bureau and 
        the Bureau of Economic Analysis to make sure these data are of 
        as high quality as possible and are produced in as timely a 
        manner as possible, and should seek ways to present this data 
        in the clearest and most usable forms.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    When hired at Brookings (7/1/08), I was given a bonus as prepayment 
for expected bonuses in the first 2 years of employment, income which 
is included in my reported 2008 income. My offer letter explicitly 
indicated that I was to repay this bonus (on a pro-rated basis) if I 
left Brookings prior to 6/30/2010. If I am confirmed, I will make the 
appropriate repayment prior to joining the Department of Commerce. 
Depending on how Brookings chooses to deal with this repayment, it will 
affect the income that is reported in section E below (not available to 
the public).
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain.
    I have no commitments or agreements about maintaining an 
affiliation with any organization. I expect to maintain my membership 
with a set of professional organizations that reinforce my credibility 
as an economist and policy analyst. This includes the following 
organizations:

        American Economic Association

        Labor and Employment Relations Association

        Association for Public Policy Analysis and Management

    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee. I am not aware of any other 
potential conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    I have signed several petitions that gathered signatures from 
economists to support specific legislative initiatives. To the best of 
my recollection, this includes a petition in favor of increasing the 
minimum wage, a petition supporting revisions to the official poverty 
measure, and a petition in favor of the Employee Free Choice Act. I 
also recently signed a statement by a group of economists urging states 
to do everything possible to limit their cuts to human services in the 
current budget crisis.
    I have regularly engaged in written and verbal discussions of the 
current economy, analyzed policy options and stated my support for a 
variety of economic policy approaches. Over the past year, I have been 
particularly active in a series of conversations with interested 
parties about improved ways to measure U.S. poverty (the poverty 
statistics are produced within the Census Bureau.) I have written about 
this and spoken about it. There was legislation introduced last year in 
the House and Senate to implement an improved poverty measure, which I 
verbally endorsed on a number of public occasions.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department's designated agency ethics official and that 
has been provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I have never been personally involved in any litigation or 
administrative agency proceeding. In their long history, the 
Universities for which I have worked have been regularly involved in 
various litigation and administrative proceedings.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    I. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                                Appendix
                      Curriculum Vitae--April 2009
                       resume of rebecca m. blank
Education
        Ph.D. in Economics, Massachusetts Institute of Technology, June 
        1983.

        B.S. in Economics, Summa Cum Laude, University of Minnesota, 
        June 1976.
Employment and Academic Appointments
    Brookings Institution, July 2008-present.

        Robert S. Kerr Senior Fellow, Economic Studies.

        Robert S. Kerr Visiting Fellow, Economic Studies (2007-08).

    University of Michigan, August 1999-2008.

        Henry Carter Adams Collegiate Professor of Public Policy, 
        Gerald R. Ford School of Public Policy Professor of Economics, 
        Department of Economics.

        Co-Director, National Poverty Center, 2002-2008.

        Joan and Sanford Weill Dean of Public Policy, Gerald R. Ford 
        School of Public Policy, 1999-2007.

    Council of Economic Advisers, Washington, D.C., October 1997-July 
1999.

        Member-nominee, October 1997-October 1998; Member, October 
        1998-July 1999.

    Northwestern University, September 1989-July 1999.

        Director, Joint Center for Poverty Research, 1996-97.

        Professor of Economics, 1994-1999; Associate Professor of 
        Economics, 1989-94.

        Research Faculty, Center for Urban Affairs and Policy Research, 
        1989-99.

        Associate Professor, School of Education and Social Policy, 
        1989-93.

        Co-Director, Northwestern/University of Chicago 
        Interdisciplinary Training Program in Poverty, Race, and 
        Underclass Issues, 1991-96.

    Council of Economic Advisers, Washington, D.C., August 1989-July 
1990.

        Senior Staff Economist.

    Princeton University, September 1983-August 1989.

        Assistant Professor of Economics and Public Affairs.

        Department of Economics and Woodrow Wilson School of Public and 
        International Affairs.

    Massachusetts Institute of Technology, September 1988-May 1989.

        Visiting Assistant Professor of Economics.

    University of Wisconsin-Madison, Fall 1985.

        Visiting Fellow, Department of Economics and Institute for 
        Research on Poverty.

    Data Resources, Inc., June 1976-August 1979.

        Consultant and Educational Coordinator, Chicago Office.
Honors
    Outstanding Alumni Achievement Award, University of Minnesota, 
2008.

    Winter Commencement speaker, College of Liberal Arts, University of 
Minnesota, December 2008.

    Fellow, American Academy of Arts of Sciences, 2005.

    Fellow, Society of Labor Economists, 2006.

    Lifetime National Associate, National Academies of Sciences, 2004.

    Elected member, National Academy of Social Insurance.

    Selected Named Lectures:

        Distinguished Public Policy Lecture, Institute for Policy 
        Research, Northwestern University, April 2009.

        Aaron Wildaysky Lecture, Goldman School of Public Policy, UC-
        Berkeley, March 2009.

        Sulzberger Lecture, Sanford Institute of Public Policy, Duke 
        University, September 2008.

        McMylar Lecture, Department of Economics, Case Western Reserve 
        University, April 2007.

        American Enterprise Lecture, Furman University, March 2007.

        Alice Cook Lecture, School of Industrial and Labor Relations, 
        Cornell University, October 2006.

        Kurt W. Rothschild Lecture, Department of Economics, Johannes 
        Kepler University, Linz, Austria, November 2005.

        Bazzani Lecture, Institute for Government and Public Affairs, 
        University of Illinois, October 2004.

        Monroe-Paine Lecture, Truman School, University of Missouri, 
        March 2003.

        Wellington-Burnham Lecture, Department of Economics, Tufts 
        University, October 2002.

        Merrick Lecture, Department of Economics, University of 
        Virginia, April 2002.

        Adam Smith Lecture, European Association of Labour Economists, 
        September 2001.

        J. Douglas Gibson Lecture, School of Policy Studies, Queen's 
        University, Canada, March 2000.

        Distinguished Lecture on Economics in Government, Society of 
        Government Economists, January 2000.

        Frank Paish Lecture, Royal Economic Society, April 1999.

    1997 Richard A. Lester Prize for the Outstanding Book in Labor 
Economics and Industrial Relations.

    1993 David Kershaw prize winner. Awarded bi-annually by the 
Association of Public Policy Analysis and Management to the young 
scholar (under age 40) whose research has had the most impact on the 
public policy process.

    1985 Junior Faculty Teaching Award, Department of Economics, 
Princeton University.

    President, M.I.T. Graduate Economics Association, 1980-1982.

    Summa Cum Laude degree in Economics, B.S., University of Minnesota, 
1976.

    Phi Beta Kappa, 1975.
Publications--Books
    Insufficient Funds: Savings, Assets, Credit and Banking Among Low-
Income Households (with Michael S. Barr). New York: Russell Sage 
Foundation. 2009, forthcoming. (Co-editor and co-author on one article 
in the volume.)

    Working and Poor: How Economic and Policy Changes are Affecting Low 
Wage Workers (with Sheldon Danziger and Robert Schoeni). New York: 
Russell Sage Foundation. 2006. (Co-editor and co-author on two articles 
in the volume.)

    Measuring Racial Discrimination (with Marilyn Dabady and Connie 
Citro). Washington, D.C.: National Research Council, National Academy 
Press. 2004.

    Is the Market Moral? A Dialogue on Religion, Economics, and Justice 
(with William McGurn). Washington, D.C.: Brookings Institution. 2004.

    The New World of Welfare. Washington, D.C.: Brookings Institution. 
2001. (Co-editor with Ron Haskins and co-author of two articles in the 
volume.)

    Finding Jobs: Work and Welfare Reform. New York: Russell Sage 
Foundation. 2000. (Co-editor with David Card and co-author of two 
articles in the volume.)

    It Takes A Nation: A New Agenda for Fighting Poverty. Princeton: 
Princeton University Press. 1997.

    Social Protection vs. Economic Flexibility: Is There a Tradeoff? 
Chicago: University of Chicago Press. 1994. (Editor and author of two 
articles in the volume.)

    Do Justice: Linking Christian Faith and Modern Economic Life. 
Cleveland, OH: Pilgrim Press. 1992.
Publications--Journal Articles and Book Chapters
    ``Economic Change and the Structure of Opportunity for Less-Skilled 
Workers.'' In Changing Poverty, Maria Cancian and Sheldon H. Danziger, 
eds. New York: Russell Sage Press. Forthcoming.

    ``A Cautionary Tale About the Use of Administrative Data: Evidence 
from Age of Marriage Laws.'' (with Kerwin Charles and James M. Sallee). 
American Economic Journal: Applied Economics. 2009, forthcoming.

    ``The Growing Problem of Disconnected Single Mothers'' (with Brian 
K. Kovak). In Making the Work-Based Safety Net Work Better, Carolyn J. 
Heinrich and John Karl Scholz, eds. New York: Russell Sage Press. 2009, 
forthcoming.

    ``What We Know, What We Don't Know, and What We Need to Know About 
Welfare Reform.'' In Welfare Reform and Its Long-term Consequences for 
America's Poor. James Ziliak, ed. Cambridge, UK: Cambridge University 
Press. Forthcoming.

    ``The New American Model of Work-Conditioned Public Support.'' In 
United in Diversity? European and American Social Models, Jens Alber 
and Neil Gilbert, eds. Oxford, UK: Oxford University Press. 
Forthcoming.

    Improving the Measurement of Poverty (with Mark H. Greenberg). The 
Hamilton Project Discussion Paper 2008-17. December 2008.

    ``A Christian Perspective on the Role of Government in a Market 
Economy.'' In Global Neighbors: Christian Faith and Moral Obligation in 
Today's Economy, Douglas A. Hicks And Mark Valeri, eds. Grand Rapids, 
MI: Eerdmans. 2008.

    ``The Changing Incidence and Severity of Poverty Spells Among 
Single Mothers'' (with David Card). American Economic Review. Vol 
98(2): 387-91. May 2008.

    ``How to Improve Poverty Measurement in the United States.'' 
Journal of Public Analysis and Management. Vol 27(2): 233-54. Spring 
2008.

    ``Improving the Safety Net for Single Mothers Who Face Serious 
Barriers to Work.'' Future of Children, Vol 17(2): 183-97. Fall 2007.

    ``Assessing Racial Discrimination: Methods and Measures'' (with 
Douglas S. Massey). In Fragile Rights Within Cities: Government, 
Housing, and Fairness. John Goering, ed. Lanham, MD: Rowman and 
Littlefield. 2007.

    ``Introduction'' and editor of the special issue, ``Evaluating 
Social Policy Changes in EU Countries.'' Journal of Labour Economics. 
Vol 13(6):665-6. December 2006.

    ``Was Welfare Reform Successful?'' The Economists' Voice. Vol 
3(4):Article 2. (http://www/bepress.com/ev/vol3/iss4/art2). March 2006. 
Reprinted in The Economists' Voice: Top Economists Take on Today's 
Problems, Joseph E. Stiglitz, Aaron S. Edlin, and J. Bradford DeLong, 
eds. New York: Columbia University Press. 2008.

    ``Are Less-Educated Women Crowding Less-Educated Men Out of the 
Labor Market?'' (with Jonah Gelbach). In Black Males Left Behind, 
Ronald B. Mincy, ed. Washington, D.C., Urban Institute Press. 2006.

    ``What Did the 1990s Welfare Reforms Accomplish?'' In Public Policy 
and the Income Distribution, Alan J. Auerbach, David Card, and John M. 
Quigley, eds. New York: Russell Sage Foundation. 2006.

    ``Market Behavior and Christian Behavior.'' In Faithful Economics: 
The Moral Worlds of a Neutral Science, James W. Henderson and John 
Pisciotta, eds. Waco, TX: Baylor University Press. 2005.

    ``Poverty, Policy and Place: How Poverty and Policies to Alleviate 
Poverty are Shaped by Local Characteristics.'' International Regional 
Science Review. Vol 28(4):441-64. October 2005.

    ``An Overview of Welfare-to-Work Efforts.'' CESifo DICE Report, 
Journal of Institutional Comparisons. Vol 3(2): 3-7. Summer 2005.

    ``Tracing the Economic Impact of Cumulative Discrimination.'' 
American Economic Review. Vol 95(2):99-103. May 2005.

    Comment on ``Assessing the Impact of Welfare Reform on Single 
Mothers.'' Brookings Papers on Economic Activity. 2004(1):.96-102. 
2004.

    ``Selecting Among Anti-Poverty Policies: Can an Economist be Both 
Critical and Caring?'' Review of Social Economy. Vol 61(4):447-69. 
December 2003.

    ``Economics, Policy Analysis, and Feminism'' (with Cordelia W. 
Reimers). In Feminist Economics Today: Beyond Economic Man, Marianne 
Ferber and Julie Nelson, eds. Chicago: University of Chicago Press. 
2003.

    ``The Less Skilled Labor Market in Michigan.'' In Michigan at the 
Millennium, Chapter 18, Charles L. Ballard, Paul N. Courant, Douglas C. 
Drake, Ronald C. Fisher, and Elisabeth R. Gerber, editors. East 
Lansing, MI: Michigan State University Press. 2003.

    ``Changes in the Distribution of Children's Family Income Over the 
1990s'' (with Robert Schoeni). American Economic Review. Vol 93(2):304-
8. May 2003.

    ``U.S. Welfare Reform: What's Relevant for Europe?'' CESifo 
Economic Studies. Vol 49(1):48-74. 2003. Reprinted in Hacienda Publica 
Espanola, Monografia 2003, pp. 15-36.

    ``What Do Economists Have to Contribute to Policy Decision-
Making?'' Quarterly Review of Economics and Finance. Vol 42(5):817-26. 
Winter 2002.

    ``Evaluating Welfare Reform in the U.S.'' Journal of Economic 
Literature. Vol 40(4): 1105-66. December 2002.

    ``Can Equity and Efficiency Complement Each Other?'' Labour 
Economics. Vol 9(4): 451-68. September 2002.

    ``Comments on Promoting Economic Literacy.'' American Economic 
Review. Vol 92(2): 476-77. May 2002.

    ``The Clinton Legacy for America's Poor'' (with David T. Ellwood). 
In American Economic Policy in the 1990s. Jeffrey A. Frankel and Peter 
R. Orszag, eds. Cambridge, MA: MIT Press. 2002.

    ``The Economics of Welfare Programs.'' In International 
Encyclopedia of the Social and Behavioral Sciences, Neil J. Smelser and 
Paul B. Baltes, eds. Oxford: Pergamon. 2001.

    ``Labor and the Sustainability of Output and Productivity Growth'' 
(with Matthew Shapiro). In The Roaring Nineties: Can Full Employment be 
Sustained? Alan B. Krueger and Robert Solow, eds. New York: Russell 
Sage. 2001.

    ``What Can Other Countries Learn About Fighting Poverty from U.S. 
Welfare Reform?'' Zeitschrift fur Sozialreform. Volume 47(4):464-80. 
July/August 2001.

    ``Declining Caseloads/Increased Work: What Can We Conclude About 
the Effects of Welfare Reform?'' Economic Policy Review. Vol 7(2):25-
36. 2001.

    ``What Causes Public Assistance Caseloads to Grow?'' Journal of 
Human Resources. Vol 36(1):85-118. Winter 2001.

    ``An Overview of Trends in Social and Economic Well-Being, by 
Race.'' In America Becoming: Racial Trends and Their Consequences, Neil 
J. Smelser, William J. Wilson and Faith Mitchell, eds. Washington, 
D.C.: National Academy Press. 2001.

    ``Strong Employment, Low Inflation: How Has the U.S. Economy Done 
So Well?'' Canadian Public Policy. Vol 26( Supplement):S175-86, July 
2000.

    ``Enhancing Opportunities, Skills, and Security of American 
Workers.'' In A Working Nation: Workers, Work and Government in the New 
Economy, with David T. Ellwood, Rebecca M. Blank, Joseph Blasi, Douglas 
Kruse, William A. Niskanen, and Karen Lynn-Dyson. New York: Russell 
Sage Foundation. 2000.

    ``Comment: The State of British Economics.'' Economic Journal. Vol 
110(464):350-54. June 2000.

    ``Fighting Poverty: Lessons from Recent U.S. History.'' Journal of 
Economic Perspectives. Vol 14(2):3-19. Spring 2000. Reprinted in Race, 
Poverty and Domestic Policy, C. Michael Henry, ed. New Haven: Yale 
University Press. 2004.

    ``When Can Public Policy Makers Rely on Private Markets? The 
Effective Provision of Social Services.'' Economic Journal. Vol 
110(462):C34-C49. March 2000.

    ``Gender and Race in the Labor Market'' (with Joseph Altonji). In 
Handbook of Labor Economics, Volume 3C. Orley C. Ashenfelter and David 
Card, eds. New York, NY: Elsevier Science Press. 1999.

    ``What Goes Up Must Come Down? Explaining Recent Changes in Public 
Assistance Caseloads'' (with Geoffrey Wallace). In Economic Conditions 
and Welfare Reform. Sheldon Danziger, ed. Kalamazoo, MI: Upjohn 
Institute. 1999.

    ``Labor Market Dynamics and Part-time Work.'' In Research in Labor 
Economics. Vol 17. Solomon W. Polachek, ed. Greenwich, CN: JAI Press. 
1998.

    ``Trends in the Welfare System.'' In Welfare, the Family, and 
Reproductive Behavior: Research Perspectives. National Research 
Council, Robert Moffitt, ed. Washington, D.C.: National Academy Press. 
1998.

    ``Contingent Work in a Changing Labor Market.'' In Generating Jobs: 
How to Increase Demand for Less-Skilled Workers. Richard B. Freeman and 
Peter Gottschalk, eds. New York: Russell Sage Foundation. 1998.

    ``Why Has Economic Growth Been Such an Ineffective Tool Against 
Poverty in Recent Years?'' In Poverty and Inequality: The Political 
Economics of Redistribution, Jon Neill, ed. Kalamazoo, MI: W.E. Upjohn 
Institute for Employment Research. 1997.

    ``Research and Policy Reflections on the Structural Changes 
Occurring in North American Labour Markets.'' In Transition and 
Structural Change in the North American Labour Market, Michael G. 
Abbott, Charles M Beach and Richard P. Chaykowski, eds. Kingston, 
Ontario: IRC Press at Queen's University. 1997.

    ``Policy Watch: The 1996 Welfare Reform.'' Journal of Economic 
Perspectives. Vol 11(1): 169-77. Winter 1997.

    ``The Misdiagnosis of Eurosclerosis.'' The American Prospect. No. 
30:81-85. January-February 1997.

    ``State Abortion Rates: The Impact of Policies, Providers, 
Politics, Demographics, and Economic Environment'' (with Christine C. 
George and Rebecca A. London). Journal of Health Economics. Vol 15:513-
53. Fall 1996.

    ``Trends in the Working Poor: The Impact of Economy, Family, and 
Policy'' (with Rebecca London). In America's Working Poor. Thomas R. 
Swartz and Kathleen Maas Weigert, eds. Notre Dame, IN: University of 
Notre Dame Press. 1996.

    ``When Do Women Use AFDC and Food Stamps? The Dynamics of 
Eligibility vs. Participation'' (with Patricia Ruggles). Journal of 
Human Resources. Vol 31(1):57-89. Winter 1996.

    ``Trends in Poverty in the United States.'' In The State of 
Humanity, Julian L. Simon, editor. Cambridge, MA: Blackwell. 1995.

    ``Teen Pregnancy: Government Programs Are Not the Cause.'' Feminist 
Economics. Vol 1(2):47-58. Summer 1995.

    ``Poverty and Public Policy in the 1990s.'' In Populations at Risk 
in America. George J. Dekko and Michael G. Jackson, eds. Boulder, CO: 
Westview Press. 1995.

    ``Changes in Inequality and Unemployment Over the 1980s: 
Comparative Cross-National Responses.'' Journal of Population 
Economics. Vol 8(1):1-21. February 1995.

    ``Outlook for the U.S. Labor Market and Prospects for Low-Wage 
Entry Jobs.'' In The Work Alternative: Welfare Reform and the Realities 
in the Job Market. Demetra S. Nightingale and Robert H. Haveman, eds. 
Washington, D.C.: Urban Institute Press. 1995.

    ``Policy Watch: Proposals for Time-Limited Welfare.'' Journal of 
Economic Perspectives, Vol 8(4):183-93. Fall 1994.

    ``The Employment Strategy: Public Policies to Increase Work and 
Earnings.'' In Confronting Poverty: Prescriptions for Change. Sheldon 
H. Danziger, Gary D. Sandefur, and Daniel H, Weinberg, eds. Cambridge, 
MA: Harvard University Press. 1994.

    ``Does a Larger Social Safety Net Mean Less Economic Flexibility?'' 
In Working Under Different Rules, Richard B. Freeman, ed. New York: 
Russell Sage Foundation. 1994.

    ``Short-term Recidivism Among Public Assistance Recipients.'' 
American Economic Review. Vol 84(2):49-53. May 1994.

    ``The Widening Wage Distribution and its Policy Implications.'' In 
Aspects of Distribution of Wealth and Income. Dimitri B. Papadimitriou, 
ed. New York: St. Martin's Press. 1994.

    ``Poverty, Income Distribution, and Growth: Are They Still 
Connected?'' (with David Card). Brookings Papers on Economic Activity. 
Vol 1993(2):285-325. 1993.

    ``Why Were Poverty Rates So High in the 1980s?'' In Poverty and 
Prosperity in the Late Twentieth Century, Dimitri B. Papadimitriou and 
Edward N. Wolff, eds. London: Macmillan Press. 1993.

    ``Responding to Need: A Comparison of Social Safety Nets in the 
U.S. and Canada'' (with Maria Hanratty). In Small Differences that 
Matter, David Card and Richard Freeman, eds. Chicago: University of 
Chicago Press. 1993.

    ``What Should Mainstream Economists Learn from Feminist Theory?'' 
In Beyond Economic Man: Feminist Theory and Economics, Marianne A. 
Ferber and Julie A. Nelson, eds. Chicago: University of Chicago Press. 
1993.

    Multiple Program Use in a Dynamic Context: Data From the SIPP (with 
Patricia Ruggles). Report to the U.S. Bureau of the Census, No 9301. 
December 1992.

    ``Using the Survey of Income and Program Participation to 
Understand Poverty and Economic Need,'' (with Patricia Ruggles). 
Journal of Economic and Social Measurement. Vol 18:155-76. 1992.

    ``Down and Out in North America: Recent Trends in Poverty in the 
U.S. and Canada'' (with Maria Hanratty). Quarterly Journal of 
Economics. Vol 107(1):233-54. February 1992.

    ``A Feminist Perspective on Economic Man?'' In Revolutions in 
Knowledge: Feminism in the Social Sciences, Susan R. Zalk and Janice 
Gordon-Kelter, eds. Boulder, CO: Westview Press. 1992.

    ``The Effects of Double-Blind versus Single-blind Reviewing: 
Experimental Evidence from the American Economic Review.'' American 
Economic Review. Vol 81(5):1041-67. December 1991. Reprinted in 
Publishing Economics: Analyses of the Academic Journal Market in 
Economics, Joshua Gans, ed. Cheltenham, UK: Edward Elgar. 2000.

    ``Recent Trends in Insured and Uninsured Unemployment: Is There an 
Explanation?'' (with David Card). Quarterly Journal of Economics. Vol 
106(4):1157-89. November 1991.

    ``Understanding Part-time Work.'' In Research in Labor Economics, 
Volume 11, Lauri J. Bassi and David L. Crawford, eds. Greenwich, CN: 
JAI Press. 1990.

    ``Are Part-time Jobs Bad Jobs?'' In A Future of Lousy Jobs? The 
Changing Structure of U.S. Wages, Gary Burtless, editor. Washington, 
D.C.: The Brookings Institution. 1990.

    ``Recent Trends in Housing Conditions Among the Urban Poor'' (with 
Harvey S. Rosen). In Research in Urban Economics, Volume 8, Mark A. 
Hughes and Therese J. McGuire, eds. Greenwich, CN: JAI Press. 1990.

    ``Linking Faith and Economics: The UCC Experience'' (with Audrey R. 
Chapman). PRISM: A Theological Forum for the United Church of Christ. 
Vol 5(1):5-14. Spring 1990.

    ``Why Are Wages Cyclical in the 1970s?'' Journal of Labor 
Economics. Vol 8(1):16-57. January 1990.

    ``Analyzing the Duration of Welfare Spells.'' Journal of Public 
Economics. Vol 39(3):245-73. August 1989.

    ``Women and the Economics of Military Spending'' (with Lourdes 
Beneria). In Rocking the Ship of State: Toward A Feminist Peace 
Politics, Adrienne Harris and Ynestra King, eds. Boulder, CO: Westview 
Press. 1989.

    ``Disaggregating the Effect of the Business Cycle on the 
Distribution of Income.'' Economica. Vol 56(2):141-63. May 1989.

    ``The Role of Part-Time Work in Women's Labor Market Choices Over 
Time.'' American Economic Review. Vol 79(1):295-99. May 1989.

    ``The Effect of Medical Need and Medicaid on AFDC Participation.'' 
Journal of Human Resources. Vol 24(1):54-87. Winter 1989.

    ``Poverty and Policy: The Many Faces of the Poor.'' In Prophetic 
Visions and Economic Realities: Protestants, Jews, and Catholics 
Confront the Bishops' Letter on the Economy, Charles R. Strain, editor. 
Grand Rapids, MI: William B. Eerdmans Publishing Co, 1989.

    ``Women's Paid Work, Household Income, and Household Well-Being.'' 
In The American Woman 1988-89: A Status Report, Sara E. Rix, editor. 
New York, NY: W.W. Norton & Co, 1988. p123-61.

    ``The Effect of Welfare and Wage Levels on the Location Decisions 
of Female-Headed Households.'' Journal of Urban Economics. Vol 
24(2):186-211. September 1988.

    ``Simultaneously Modeling the Supply of Weeks and Hours of Work 
Among Female Household Heads.'' Journal of Labor Economics. Vol 
6(2):177-204. April 1988.

    ``Welfare Payment Levels and the Migration of Female-Headed 
Families.'' In Readings, Issues, and Questions in Public Finance, 
Eleanor Brown, editor. Homewood, IL: Richard D. Irwin, Inc, 1988.

    ``Part-Time Work and Wages Among Adult Women.'' Industrial 
Relations Research Association Series, Proceedings of the 39th Annual 
Meeting. Madison, WI: Industrial Relations Research Association, May 
1987. p479-86.

    ``Macroeconomics, Income Distribution and Poverty'' (with Alan S. 
Blinder). In Fighting Poverty: What Works and What Doesn't, Sheldon H. 
Danziger and Daniel H. Weinberg, eds. Cambridge, MA: Harvard University 
Press, 1986.

    ``The Effect of U.S. Defense Spending on Employment and Output'' 
(with Emma Rothschild). International Labour Review. Vol 124(6):677-97. 
December 1985.

    ``The Impact of State Economic Differentials on Household Welfare 
and Labor Force Behavior.'' Journal of Public Economics. Vol 28(1):25-
58. October 1985.

    ``An Analysis of Worker Sectoral Choice: Public vs. Private 
Employment.'' Industrial and Labor Relations Review. Vol 38(2):211-24. 
January 1985.
Book Reviews
    ``A Review of America Works.'' Industrial and Labor Relations 
Review. Vol 62(2):252-253. January 2009.

    ``A Review of the Labor Market Discussion in the 2006 Economic 
Report of the President.'' Journal of Economic Literature. Vol 
44(3):669-73. September 2006.

    ``A Review of The Moral Ecology of Markets.'' International Journal 
of Social Economics Vol 33(11-12): 862-63. Fall 2006.

    ``Worker Needs and Government Response: A Comment on Working in 
America: A Blueprint for the New Labor Market.'' Industrial and Labor 
Relations Review. Vol 55(4): 733-36. July 2002.

    ``A Review of The Color of Opportunity: Pathways to Family, 
Welfare, and Work.'' Journal of Economic Literature. Vol 40(2):550-51. 
June 2002.

    ``A Review of Does Training for the Disadvantaged Work?, What 
Employers Want, and Job Creation and Destruction.'' Journal of Policy 
Analysis and Management. Vol 16(1): 311-4. Fall 1997.

    ``A Review of Welfare Realities.'' Journal of Economic Literature. 
Vol 33(3):1363-4. September 1995.

    ``A Review of The Evaluation of the Washington State Family 
Independence Program.'' Industrial and Labor Relations Review. Vol 
48(4):860-1. July 1995.

    ``A Review of Impostors in the Temple,'' Journal of Economic 
Education. Vol 24(3): 283-6. Summer 1993.

    ``A Review of Evaluating Employment and Training Programs,'' 
Journal of Policy Analysis and Management. Vol 12(3):596-8. Summer 
1993.

    ``A Review of Understanding the Gender Gap,'' Economica. Vol 
59(233):123-4. February 1992.

    ``A Review of Dollars and Dreams,'' Journal of Economic Literature. 
Vol 27(1):92-3. March 1990.

    ``A Review of Working but Poor,'' Journal of Economic Literature. 
Vol 26(4):1795-6. December 1988.

    ``A Review of Work, Health and Income Among the Elderly,'' Journal 
of Human Resources. Vol 23(3):397-411. Summer 1988.

    ``A Review of Gender in the Workplace,'' Journal of Economic 
Literature. Vol 26(2): 728-9. June 1988.
Congressional Testimony and Articles for a Broader Public
    ``Counting the Cost.'' Sojourners. Commentary. Vol 38(4):7. April 
2009.

    ``Poverty and Economic Stimulus'' (with Mark H. Greenberg.) Real 
Clear Politics, On-line opinion piece. February 10, 2009.

    ``Promoting Banking Services among Low-Income Customers.'' New 
England Community Developments. Federal Reserve Bank of Boston. 2008, 
Issue 3.

    ``Fighting Poverty in the Land of Opportunity.'' Charlotte 
Observer, editorial. Wednesday, December 17, 2008.

    ``Decreasing Poverty and Increasing Opportunity in America.'' A 
memo to President-Elect Obama. The Brookings Institution. November 24, 
2008.

    ``What Do the Recently-Released U.S. Poverty Numbers Tell Us? 
Testimony to the Joint Economic Committee, U.S. Congress. September 25, 
2008.

    ``Remeasuring Poverty.'' Los Angeles Times, editorial. Sunday, 
September 25, 2008.

    ``Why the United States Needs an Improved Measure of Poverty.'' 
Testimony to the Subcommittee on Income Security and Family Support, 
House Ways and Means Committee, U.S. Congress. July 17, 2008.

    ``What Does the Unemployment Rate Indicate about the Weak Labor 
Market?'' Testimony to the Subcommittee on Income Security and Family 
Support, House Ways and Means Committee, U.S. Congress. April 10, 2008.

    ``If the Economy's So Bad, Why is the Unemployment Rate So Low?'' 
Testimony to the Joint Economic Committee, U.S. Congress. Hearings on 
the Release of the February 2008 Unemployment Numbers. March 7 , 2008.

    ``How to Wage the Next War on Poverty: Advising and Grading the 
Candidates.'' Pathways: a magazine on poverty, inequality and social 
policy. Issue 1: 17-20. Winter 2008.

    ``Employment, Job Opportunities, and Inequality among Workers in 
the U.S. Economy,'' Testimony to the House Financial Services 
Committee. U.S. House of Representatives, Hearings on the State of the 
Economy, the State of the Labor Market and Monetary Policy. February 
16, 2007.

    ``Should Michigan Raise the Minimum Wage?'' Detroit Free Press, 
editorial. Sunday, March 5, 2006.

    ``Living Faithful Lives in a Market Economy,'' Church and Society, 
Presbyterian Church (U.S.A.) Vol 96(4): 12-17, March/April 2006.

    ``Wege aus der Armutsfalle: Lehren aus der Reform der offentlichen 
Fursorge in den USA.'' Neue Zurcher Zeitung, (Zurich, Switzerland), 
special section on economic issues. Sunday, August 31, 2003.

    ``Welfare Reform Reauthorization'' (with Ron Haskins). Poverty 
Research News. Joint Center for Poverty Research. Vol 5(6). November-
December 2001.

    ``Welfare and the Economy.'' Welfare Reform and Beyond, Policy 
Brief No. 7. Washington, D.C., Brookings Institution. September 2001.

    ``Economy Poses Challenge to State's Welfare System.'' Detroit Free 
Press, editorial. Tuesday, September 11, 2001.

    ``Revisiting Welfare'' (with Ron Haskins). Washington Post, 
editorial. February 14, 2001.

    ``A Helping Hand Isn't Enough.'' Chicago Tribune, editorial. May 
29, 1997.

    ``Welfare Recipients Aren't the Only Ones with Plenty of Hard Work 
Ahead.'' Chicago Tribune, Sunday Perspective. January 12, 1997.

    ``Uncertain Days Ahead for America's Poor.'' Chicago Tribune, 
editorial. November 17, 1995.

    ``Unwed Mothers Need Role Models, Not Roll Backs.'' Wall Street 
Journal, editorial. March 7, 1995.

    ``Block Grants Ignore Feds' Welfare Role.'' Newsday, editorial. 
February 16, 1995.

    ``The Causes and Consequences of Rising Out-of-Wedlock 
Birthrates.'' Testimony to the Subcommittee on Human Resources, Ways 
and Means Committee, U.S. House of Representatives, Hearings on Welfare 
Reform. January 13, 1995.

    ``The Welfare Pit: The Climb Out Isn't Easy or Cheap.'' Chicago 
Tribune, editorial. March 23, 1994.

    ``The New Model Democrat: Can We Look to Clinton for a New Model of 
Economic Activism?'' New Economy. Autumn 1993. p32-5.

    ``Assisting Low Income Women into the Labor Market.'' Testimony to 
the Clinton Administration Task Force on Welfare Reform. August 11, 
1993.

    ``Current Trends in the Poverty and Income Statistics.'' Testimony 
to the Subcommittee on Human Resources, Ways and Means Committee, U.S. 
House of Representatives. September 10, 1992.

    ``Social Scientists and the Problem of Poverty,'' The Chronicle of 
Higher Education. Vol 38(48):B1. August 5, 1992.

    Growth is Not Enough: Why The Recovery of the 1980s Did So Little 
to Reduce Poverty. Report to the Joint Economic Committee, Congress of 
the United States. Washington, D.C.: Joint Economic Committee Reports, 
September 26, 1991.

    ``Families Must Be our Priority.'' Chicago Tribune, editorial. 
September 30, 1991.

    ``Poor Kids Might Want to Go North.'' (joint with Maria Hanratty). 
Cleveland Plain Dealer, editorial. August 28, 1991.
Current Working Papers
    ``Changing Inequality.'' Paper prepared for the Aaron Wildaysky 
Lecture. March 2009.

    ``The Impact of Earnings Disregards on the Behavior of Low Income 
Families'' (with Jordan Matsudaira). National Bureau of Economic 
Research Working Paper #14038. May 2008.

    ``Public Policies to Alter the Use of Alternative Financial 
Services Among Low-Income Households.'' Paper prepared for the Federal 
Reserve Board of Governors. April 2008.

    ``Labor Markets and Human Capital Investment in Michigan: 
Challenges and Strategies'' (with James M. Sallee). Paper prepared for 
the conference Where Do We Go From Here? An Agenda-Setting Conference 
for the Economic Issues Facing Michigan. March 2006.

    ``What Has Welfare Reform Accomplished? Impacts on Welfare 
Participation, Employment, Income, Poverty, and Family Structure,'' 
(with Robert Schoeni). National Bureau of Economic Research Working 
Paper No. 7627. Cambridge, MA: NBER. March 2000.
Grants Received (excludes institutional grants solicited while Dean)
    Charles Stewart Mott Foundation. ``Poverty Reduction Strategies for 
the Next Decade.'' June 2008-December 2008.

    Joint funding from the Russell Sage Foundation and Spencer 
Foundation. ``Social Inequality and Educational Disadvantage.'' July 
2008-December 2010.

    U.S. Department of Health, Education and Welfare, Office of the 
Assistant Secretary for Planning and Evaluation. ``Funding to renew the 
National Poverty Center.'' September 2007-August 2010. (Sheldon 
Danziger, co-PI).

    Ford Foundation, ``Access, Assets and Poverty: The Role of 
Financial Services Among Low And Moderate-Income Households.'' January 
2007-December 2008.

    Charles Stewart Mott Foundation. ``Shifting Resources: Research 
Project and Conference.'' January 2004-December 2005.

    Joyce Foundation. ``Michigan Conference to Prepare for Welfare 
Reform Reauthorization.'' September 2001-January 2002.

    U.S. Department of Health, Education and Welfare, Office of the 
Assistant Secretary for Planning and Evaluation. ``Funding to establish 
the National Poverty Center.'' September 2002-August 2007.

    Joint funding from the Annie E. Casey Foundation and Charles 
Stewart Mott Foundation. ``The New World of Welfare.'' September 1999-
December 2001.

    Russell Sage Foundation. ``Race and Gender in the Labor Market.'' 
Joint with Joseph Altonji. March 1997-December 1997.

    U.S. Department of Health, Education and Welfare, Office of the 
Assistant Secretary for Planning and Evaluation. ``Funding to establish 
the Joint Center for Poverty Research at Northwestern University and 
the University of Chicago.'' July 1995-June 2000 (Robert Michael, co-
PI).

    National Science Foundation Research Grant #SBR95-11090. ``An 
Analysis of Changing Patterns in Public Assistance Use.'' August 1995-
July 1997.

    Joint funding from the Rockefeller Foundation and the Russell Sage 
Foundation. ``Changing Poverty/Changing Jobs.'' September 1994-August 
1995.

    National Science Foundation Research Grant #SES-9209245, ``Labor 
Market Dynamics and the Use of Part-time Work.'' November 1992-October 
1994.

    Joint Statistical Agreement, U.S. Bureau of The Census, ``Multiple 
Program Use in a Dynamic Context in the Survey of Income and Program 
Participation.'' September 1991-August 1992.

    Jerome Levy Economics Institute, Research Project on the 
Distribution of Income and Wealth, ``Why Are Poverty Rates So High in 
the 1980s?'' September 1990-July 1991.

    National Science Foundation, Visiting Professorships for Women 
Award, ``Exploring Income Opportunities for Low-Income Households,'' 
September 1988-July 1989.

    National Science Foundation Research Grant #SES-8606456, 
``Analyzing the Nature and Extent of Welfare Income Dependency,'' 
August 1986-July 1988.

    Small Grants Program Award, Institute for Research on Poverty, 
University of Wisconsin, 1984.

    Sloan Foundation Graduate Fellowship, 1982-1983.

    National Science Foundation Graduate Fellowship, 1979-1982.
Selected Professional Activities
Within Professional Organizations in the Social Sciences or Policy
    National Academy of Sciences

        Member, Division Committee for the Behavioral and Social 
        Sciences and Education (DBASSE), National Research Council, 
        2003-08.

        DBASSE Executive Committee member, 2005-08.

        Member, Committee on the Fiscal Future of the United States, 
        2008-present.

        Chair, Workshop to Reconsider the Federal Poverty Measure, 
        Committee on National Statistics, 2004-05.

        Chair, Panel on Methods for Assessing Discrimination, Committee 
        on National Statistics, 2001-2004.

        Member, Panel on Poverty Measurement and Family Assistance, 
        Committee on National Statistics, 1992-95.

    Association for Public Policy Analysis and Management

        President, 2007.

        Executive Committee member, 2006-08.

        Policy Council member, 2001-04.

    Public Policy and International Affairs Program

        Board Chair, 2003-06.

        Vice Chair, 2001-03.

    American Economic Association

        Vice President, 2007.

        Executive Committee member, 1995-97.

        Committee on the Status of Women in the Economics Profession (a 
        subcommittee of the American Economic Association). Chair, 
        1993-96. Executive Board Member, 1990-96.

    Midwest Economic Association

        President, 2001-02.

        Vice-President, 1994-95.
Within Research Organizations
    Faculty Research Associate, National Bureau of Economic Research, 
1990-present. Faculty Research Fellow, 1985-1990.

    Faculty Associate, National Academy of Sciences, 2004-present.

    Research Fellow, IZA, Bonn. 2007-present.

    Faculty Affiliate, Institute for Research on Poverty, 1994-present.
Journal Affiliations
    Board of Editors, American Economic Journal: Economic Policy, 2007-
present.

    Co-Editor, Labour Economics, 2004-2007. Associate Editor, 2007-
present.

    Co-editor, Journal of Human Resources, 1995-97.

    Board of Editors, American Economic Review, 1993-97.

    Advisory Board, Journal of Public Economics, 1993-97.

    Advisory Board, Journal of Economic Education, 1992-97, 2002-
present.

    Advisory Board, Feminist Economics, 1994-97.
Selected Advisory Committees and Board involvement
    Board of Directors, MRDC (formerly Manpower Demonstration Research 
Corporation.) 1993-97, 2000-present.

    Board of Trustees, Urban Institute, 2007-present.

    Board of Directors, Economic Policy Institute, 2008-present.

    Visiting Committee, Kennedy School of Government, Harvard 
University, 2004-present.

    Advisory Council, Spotlight on Poverty and Opportunity, 2007-
present.

    Scientific Advisory Committee, DIW (a research/policy think tank), 
Berlin, Germany, 2001-2004.

    Honorary Advisory Council, DIW-DC, 2008-present.

    Board of Directors, Center for Budget and Policy Priorities, 1994-
97.

    Advisory Committee, New Hope Project (a job training and employment 
program), Milwaukee, WI, 1992-97.

    Advisory Committee, Job Corps Evaluation being run by Mathematica 
Policy Research, under contract for the Department of Labor, 1993-97.

    Advisory Committee on Poverty Research, Russell Sage Foundation, 
1994-97.

    Research Advisory Committee, W.E. Upjohn Institute for Employment 
Research, 1995-96, 2000.

    Senator Warner. Thank you, Ms. Blank, thank you for your 
testimony. And I think we all love those one-page analysis 
papers.
    [Laughter.]
    Senator Warner. Mr. Babbitt?

        STATEMENT OF J. RANDOLPH BABBITT, ADMINISTRATOR-

          DESIGNATE, FEDERAL AVIATION ADMINISTRATION,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Babbitt. Thank you, Mr. Chairman, Ranking Member 
Hutchison, and Members of the Committee for the privilege of 
being able to address you today. It's an honor for me to appear 
before you today as President Obama's nominee for the 
Administrator of the Federal Aviation Administration. And I 
must admit that I'm flattered, and quite honestly, humbled by 
this nomination, and the opportunity to serve our Nation, 
Secretary LaHood, and the President.
    Senator Warner, thank you, sir, for your kind introduction 
as we got underway.
    I, too, would ask for your indulgence to allow me to take a 
moment to introduce my family. I have a couple of family 
members here with me today. My wife, Kathy Babbitt, along with 
my daughter and son-in-law, Heather and Mike Warstler. I have a 
contingency in Illinois watching, too, I believe.
    By way of background, I have been involved in flying since 
I was 16 years old, when I soloed. I began flight instructing 
while I was in college, and I left college early to pursue my 
goal of becoming an airline pilot back in 1966. And while 
flying professionally, I became active in the Air Line Pilots' 
Association, involved in both representation and labor 
relations.
    In 1990, my work in the Air Line Pilots' Association, led 
to my election as its president, and I remained in office there 
until 1998. Afterwards, I continued to pursue my passion in 
aviation as a private consultant.
    In 1999, I had the honor of being nominated by President 
Clinton, to serve as a member of the FAA's Management Advisory 
Council, and last summer I had the privilege of serving on the 
Department of Transportation's Internal Review Team at the 
request of the former Secretary, Mary Peters.
    This team consisted of 5 members that had aviation, safety 
and risk management backgrounds. Our task was to review and 
report, on the background and the situation surrounding the 
groundings of two major carriers' aircraft at great expense to 
carriers, and at great inconvenience to their passengers.
    During my aviation career of more than 40 years, I have had 
the opportunity to work closely with the FAA, with industry 
leaders, and with Members of Congress on major aviation safety 
issues, including one of which I'm personally most proud, ``One 
Level of Safety.''
    I led this project in 1993 while I was President of ALPA. 
This program required regional carriers to begin to operate 
under the same rules, and at the same level of safety as their 
major carrier counterparts. If confirmed, I intend to build on 
my extensive experience in this industry to meet the Agency's 
current and future challenges. And our challenges are not 
small. We need to ensure that the world's safest skies become 
even safer, and that we continue to be recognized as the world 
leader of aviation safety. We need to move quickly and 
efficiently to implement our Next Generation Air Transportation 
(NextGen) to maximize our aviation systems' efficiency.
    We can move our aircraft more quickly, and we can move them 
more efficiently with less carbon impact and smaller footprints 
and less noise with our new technology. But we need to move 
aggressively with implementation jointly by all of our 
stakeholders.
    And within the FAA, we need to regain internal labor 
stability, neutral trust, and build on the can-do spirit of the 
entire FAA workforce, and we need to ensure the FAA's 
accountability and credibility in the delivery of its goals, 
its budgetary compliance, and its safety standards.
    Mr. Chairman, I am honored by the trust that the President 
has placed in me as his nominee, and if confirmed, I pledge to 
do my utmost to guide the FAA through the many challenges that 
lie ahead, and I hope to use my experience to take our aviation 
system to a new peak of safety and efficiency with the same 
skill and judgment as shown by my colleagues in aviation.
    I'd also like to thank this Committee, again, for its 
consideration of my nomination, and I look forward to working 
with you closely should the Senate act favorably.
    I also would be happy to take any questions that you might 
have.
    [The prepared statement and biographical information of Mr. 
Babbitt follows:]

  Prepared Statement of J. Randolph Babbitt, Administrator-Designate, 
   Federal Aviation Administration, U.S. Department of Transportation
    Thank you Mr. Chairman, Ranking Member Hutchison, and Members of 
the Committee for the privilege of addressing you today. It is an honor 
to appear before you as President Obama's nominee for the Administrator 
of the Federal Aviation Administration, and I must admit that I am 
flattered and, quite honestly, humbled by this nomination and the 
opportunity to serve our Nation, Secretary LaHood and the President.
    Before I begin, if I may, I would like to take a moment to 
introduce some of my family that have joined me today, my wife, Kathy 
Babbitt and my daughter and son-in-law, Heather and Mike Warstler. I am 
grateful that they could be here with me today. The understanding and 
support of my family have reinforced me in some challenging times over 
the years.
    By way of background, I have been involved in flying since I was 16 
years old when I first soloed. I continued flying and began flight 
instructing while in college. I left college early to pursue my goal of 
becoming an airline pilot in 1966. While flying professionally I became 
active in the Air Line Pilots Association, both in representation and 
labor relations. In 1990, my years of work with ALPA led to my election 
as President. I remained in office until 1998. AL PA itself is a large 
organization and represented at the time, over 40,000 professional 
pilots with a staff of almost 500 employees, a majority of whom were 
represented by unions.
    After I left ALPA, due to the bankruptcy of my carrier, Eastern 
Airlines, I continued to pursue my passion in aviation as a private 
consultant.
    In 1999, I had the honor of being nominated by President Clinton to 
serve as a member of FAA's Management Advisory Council and in 2006 I 
was elected Chairman of the Council. Last summer I had the privilege of 
serving on DOT's Internal Review Team at the request of former 
Secretary Mary Peters. This team consisted of five members with 
aviation safety and risk management backgrounds who were asked to 
review and report on the events surrounding the grounding of two major 
airlines' aircraft that resulted in enormous expense to those carriers 
and major disruptions to their passengers.
    During my more than 40 years in aviation, I have had the 
opportunity to work closely with the FAA, industry leaders, and airport 
officials. I have worked in labor relations with airline management and 
their labor unions. I have worked with Members of Congress on major 
aviation safety issues, including one of which I am most proud, ``One 
Level of Safety.'' I led this project in 1993 while I was President of 
ALPA. This program resulted in a major reworking of Federal regulations 
that required Regional Carriers to operate under the same rules and at 
the same level of safety as their Major Carrier counterparts.
    I have seen first-hand the importance of cooperation and 
partnership between the stakeholders in advancing safety. I am quite 
proud of signing the first Flight Operations Quality Assurance (FOQA) 
letter with FAA Administrator, David Hinson, in 1995.
    If confirmed, I intend to build on my extensive experience to meet 
the agency's current and future challenges by working to foster better 
communication within the aviation community including the flying-
public, the manufacturers, the airlines, labor, the general aviation 
community and transportation leaders.
    But our challenges are not small:

  <bullet> We need to ensure that world's safest skies become even 
        safer and that we are recognized as the world leader of 
        aviation safety.

  <bullet> We need to move quickly and efficiently to implement our 
        NextGen Air Traffic Modernization program to maximize the 
        aviation system's efficiency and to accommodate anticipated 
        increases in traffic.

  <bullet> We can move our aircraft more quickly, more efficiently with 
        less carbon impact with our new technology, but we need to move 
        aggressively with implementation jointly with all of our 
        stakeholders.

  <bullet> Within the FAA, we need to regain internal labor stability, 
        mutual trust and build on the ``can do'' spirit of the entire 
        FAA workforce.

  <bullet> We need to work to ensure the FAA's accountability and 
        credibility in delivery of its goals, budgetary compliance and 
        safety standards.

    I appreciate that later this year this Committee will consider the 
reauthorization of the FAA's programs. It will be a time to assess the 
agency's performance, set priorities, and support its missions with the 
necessary funding. If confirmed as Administrator, I will work closely 
with the Committee to help ensure that FAA's reauthorization process 
provides a platform to take our system to a new peak of safety and 
efficiency and provides wise use of the monies paid by our taxpayers 
and traveling public.
    Mr. Chairman, I am honored by the trust the President has placed in 
me as his nominee. If confirmed, I pledge to do my utmost to guide the 
FAA through the many challenges that lie ahead and I hope to use my 
experience with the same level of skill and judgment shown by my 
colleagues in aviation. I would like to thank this Committee again for 
its consideration of my nomination, and I look forward to a close 
working relationship should the Senate confirm me. I would be pleased 
to answer any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Jerome Randolph Babbitt, J. Randolph Babbitt, Randy Babbitt.

    2. Position to which nominated: Administrator of the Federal 
Aviation Administration.
    3. Date of Nomination: May 11, 2009.
    4. Address (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 10780 Parkridge Blvd, Suite 75, Reston, VA 20191.

    5. Date and Place of Birth: June 9, 1946; Miami, FL.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Katherine Hepfner Babbitt, Self employed Fitness 
        Instructor; children: Tiffany Lane (Babbitt) Shuster, age 40 
        and Heather Leigh (Babbitt) Warstler, age 37.

    7. List all college and graduate degrees. Provide year and school 
attended.

        No College degrees.

        Attended University of Georgia--1964-65.

        University of Miami (FL)--1965-66.

        George Mason University--1983-84.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

        Pilot, Eastern Airlines (1966-1991).

        Executive Administrator, Air Line Pilots Association (1985-
        1990).

        President, Air Line Pilots Association (1991-1998).

        Principal of Babbitt & Associates (1999-2001).

        Founder, Chairman and CEO of Eclat Consulting (2001-2007).

        Partner, Oliver Wyman (2007 to present).

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years:

        Member and past Chairman of the FAA Management Advisory Council 
        Member since September of 2000 and was Chairman in 2006.

        Member of the 2008 DOT Internal Review Team appointed by 
        Secretary Peters, May through August of 2008.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        Eclat Consulting, Chairman and CEO (Mar. 2001 to Sep. 2007).

        Oliver Wyman, Partner, (Sep. 2007 to present).

        Access National Holding Company, Director, (Dec. 1999 to 
        present).

        National Capital Area Council, BSA, Executive Board Member, 
        (2000 to present).

        Edge City Holdings & eCitie Restaurant, Limited Partner, (2000 
        to present).

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Saint Marks Church, Oakton, VA (1995 to present)--While this is 
        a Catholic Church, people of all religious beliefs are welcome 
        and membership is not based on religion.

        National Capital Area Council (NCAC), Executive Board Member--
        Boy Scouts of America (2000 to present)--The Boy Scouts 
        restrict membership based on sex and sexual orientation. (If 
        confirmed, in accordance with my ethics agreement, I will 
        resign from the NCAC Executive Board).

        Lake Anna Civic Association (1992 to present)--There are no 
        restrictions on membership.

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        Friends of Senator Rockefeller--May 2004--$500.

        Nikki Tinker for Congress--Feb. 2006--$500.

        Nikki Tinker for Congress--July 2006--$500.

        Dean Scontras for Congress--Sept. 2007--$500.

        Nikki Tinker for Congress--June 2007--$500.

        Nikki Tinker for Congress--Sept. 2007--$500.

        Nikki Tinker for Congress--June 2008--$1,000.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.
    Recognized in 1998 by Aviation Week & Space Technology with the 
Laurels Award for outstanding achievement in the field of Commercial 
Air Transport.
    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Panelist at 4th Annual FAA International Aviation Safety 
        Forum--DCA (November 2007).

        Speaker and Presenter at the FAA Forecast Conference--DCA 
        (April 2006).

        Speaker and Presenter at the NBTA Business Travel Financial 
        Forum--NYC (March 2008).

        Speaker and Presenter at the Environmental Business Coalition--
        Wind Energy Conference--BOS (May 2008).

        Report of the DOT Independent Review Team--Charged by Secretary 
        of Transportation Mary Peters to ``Examine the FAA's Safety 
        Culture and Approach to Safety Management''--(Sep 2008).

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
    I have testified before Congress numerous occasions during my 
tenure as President of ALPA from 1991 through 1998. The testimony in 
this time-frame generally was focused on aviation safety and regulatory 
oversight issues. I also testified in my nomination to the Federal 
Aviation Management Advisory Council.

        Title: Nominations to the Federal Aviation Management Advisory 
        Council
        Date: May 4, 2000
        Committee on Commerce, Science, and Transportation. Senate

        Title: Reauthorization of the FAA and Airport Improvement 
        Program in Light of the Recommendations of the National Civil 
        Aviation Review Commission
        Date: Mar. 12, 18, 19, 25, 1998
        Committee on Transportation and Infrastructure. House

        Title: Aviation Competition Enhancement Act of 1997
        Date: Oct. 28, 1997
        Committee on Commerce, Science, and Transportation. Senate

        Title: H.R. 991, To Apply the Railway Labor Act to Pilots 
        Engaged in Flight Operations Outside the U.S.
        Date: Sept. 9, 1997
        Committee on Transportation and Infrastructure. House

        Title: Proposal To Require Traffic Alert and Collision 
        Avoidance Systems on Cargo Aircraft
        Date: Feb. 26, 1997
        Committee on Transportation and Infrastructure. House

        Title: Aviation Safety: Should Airlines Be Required To Share 
        Pilot Performance Records
        Date: Dec. 13, 14, 1995
        Committee on Transportation and Infrastructure. House

        Title: Restructuring Air Traffic Control As a Private or 
        Government Corporation
        Date: Feb. 14, 15, 23, 1995
        Committee on Transportation and Infrastructure. House

        Title: Oversight Hearing on Aviation Safety
        Date: Jan. 12, 1995
        Committee on Commerce, Science, and Transportation. Senate

        Title: H.R. 4957, To Amend the Railway Labor Act Concerning the 
        Applicability of Requirements of That Act to U.S. Air Carriers 
        and Flight Crews Engaged in Flight Operations Outside the U.S.
        Date: Oct. 5, 1994
        Committee on Public Works and Transportation. House

        Title: Adequacy of Commuter Airline Safety Regulations
        Date: Feb. 9, 1994
        Committee on Public Works and Transportation. House

        Title: To Amend the National Labor Relations Act and Railway 
        Labor Act To Prevent Discrimination Based on Participation in 
        Labor Disputes
        Date: May 5, 1993
        Committee on Public Works and Transportation. House

        Title: Financial Condition of the Airline Industry
        Date: Feb. 17, 18, 24, 1993
        Financial Condition of the Airline Industry

        Title: Government and Industry Programs Related to Aircraft 
        Deicing and Other Safety Matters
        Date: Aug. 4, 1992
        Committee on Public Works and Transportation. House

        Title: Commuter Airline Safety
        Date: Mar. 17, 1992
        Committee on Public Works and Transportation. House

        Title: Airline Competition and Consumer Protection Legislation
        Date: May 15, 22, 1991
        Committee on Public Works and Transportation. House

        Title: Prohibiting Permanent Replacement of Striking Workers
        Date: Apr. 10, 1991
        Committee on Public Works and Transportation. House

        Title: Review of U.S. International Aviation Policy and 
        Bilateral Agreements
        Date: Mar. 19, 21, May 9, 1991
        Committee on Public Works and Transportation. House

        Title: Our Nation's Transportation and Core Infrastructure
        Date: Feb. 20, Mar. 5, 20, Apr. 17, May 16, 1991
        Committee on Public Works and Transportation. House

        Title: Foreign Investment and International Route Sales
        Date: Feb. 19, 1991
        Committee on Commerce, Science, and Transportation. Senate

        Title: Financial Condition of the Airline Industry and the 
        Adequacy of Competition
        Date: Feb. 5, 6, 1991
        Committee on Public Works and Transportation. House

        Title: Pension Benefit Guaranty Corporation: Does the Federal 
        Government Protect Retirement Income
        Date: Mar. 26, 1990
        Committee on Government Operations. House

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe my background and previous employment have prepared me 
well to lead the FAA. This includes 14 years at the Air Line Pilots 
Association, with 6 years as its Executive Administrator and 8 years as 
its President and CEO. ALPA's total revenue was approximately $80 
million annually. Additionally ALPA had over 40,000 members and a staff 
of almost 500 employees during my tenure. Employees were represented by 
two different professional unions.
    I also was a founding partner of Eclat Consulting where I served as 
Chairman and CEO. Eclat grew to employ 15 full time professionals and 
generated approximately $5 million in annual revenues. In September of 
2007, Eclat Consulting was purchased by Oliver Wyman, a subsidiary of 
March McLennan.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    It is critical that the FAA have proper management and accounting 
controls. If confirmed, I would like to review all ongoing and future 
projects to ensure that they all have clear lines of responsibility, 
authority, and accountability. Additionally, clear parameters should be 
established and budgetary expectations set forth for each project's 
manager.
    My background includes managing ALPA, which had an $80 million 
dollar budget and close to 500 employees. I also founded and was the 
majority partner of Eclat Consulting. My tenure in the consulting world 
has provided me substantial experience in analyzing and evaluating the 
cost and operational structures of major U.S. and foreign corporations. 
``Process Improvement'' and ``Lean'' evaluations are major components 
of the professional team at Oliver Wyman where I have been employed as 
a Partner.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        a. Maintaining and improving the public's and stakeholder's 
        confidence in FAA's ability to provide oversight of aviation 
        including oversight of air carrier operations, external repair 
        facilities and runway safety initiatives.

        b. Establishing priorities for NextGen, benchmarking 
        commitments with stakeholders, and proceeding to align them in 
        budget requests and final plans. The final plans should be 
        implemented transparently and responsibility, with 
        accountability clearly defined.

        c. Ensure the proper staffing of the safety work forces 
        including Air Traffic Controllers, Safety Inspectors and 
        assuring that human factor issues are addressed for all safety 
        related personnel.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    If confirmed, I plan to sever my employment with Oliver Wyman. 
Effective with my resignation, I will receive a prorated portion of my 
2009 guaranteed bonus. However, as set out in my ethics agreement 
referenced below, I will forfeit rights to any other payments from 
Oliver Wyman.
    I currently receive pension plan payments from two previous 
employers:

        Eastern Airlines (Obligation assumed and paid by the PBGC).

        Air Line Pilots Association (Obligation was satisfied by a 
        purchased by MetLife) Annuity now in my name and thus paid 
        directly.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.
    In my capacities as the President of the Air Line Pilots 
Association (ALPA), I advocated for regulatory changes as well as 
policies and legislation at the Federal level. All activities were on 
behalf of ALPA and the pilots represented by ALPA. I advocated for 
increased aviation infrastructure funding, as well as program funding 
and research to improve safety of both airline employees and the 
traveling public. I have also testified before Congress on specific 
topics such as: regulatory changes to ensure ``one level of safely'' 
for commercial airline transportation; funding of the Airport and 
Airways Trust Fund; pension reform; Extraterritorial application of the 
Railway Labor Act; support for airborne Traffic Alert and Collision 
Avoidance Systems; Commuter Airline Safety and Reauthorization of the 
FAA and Airport Improvement Program.
    Earlier this year I volunteered time and thoughts for the Obama 
Labor Policy Transition Team on the subject of the Railway Labor Act 
and where and how the Act itself or the implementation of the policies 
set by the National Mediation Board might be modified to ensure the 
goals of the Act are achieved.
    In my current role as a Partner for Oliver Wyman I have assisted 
clients to help analyze data to represent their own interests in 
Legislative or administrative proceedings. For example, my former firm 
(Eclat Consulting) was retained by American Airlines in 2006 to 
evaluate and model the traffic and financial effect of proposed 
modifications to the Wright Amendment and the potential impact on hub 
flow and small city connections if passengers diverted from Dallas-Fort 
Worth Airport to Love Field. Any potential conflicts of interest 
stemming from my work with these clients will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Transportation's 
ethics official to identify potential conflicts of interest. Any 
potential conflicts of interest will be resolved in accordance with the 
terms of an ethics agreement that I have entered into with the 
Department's designated agency ethics official and that has been 
provided to this Committee.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    I was a party in the divorce settlement, a civil proceeding, in 
1978 from Paulette Peyton Babbitt, Mrs. Paulette Craft today.
    As President of the Air Line Pilots Association (ALPA) I was 
involved in numerous civil proceedings both as a Defendant and as a 
Plaintiff in cases that would be considered routine in pilot 
representation. I have also been called upon to testify in arbitration 
cases of collective bargaining disputes and also as a witness in both 
civil and labor disputes in Federal courts.
    My former company, Eclat Consulting was party to civil litigation 
(Eclat vs. PA Consulting) where my company and my partners and I were 
Defendants in a dispute during 2002. PA Consulting alleged that we were 
aware that one of their employees was going to breach his contract with 
the firm. This case was settled by the parties out of court.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                                 ______
                                 
                     resume of j. randolph babbitt
    Oliver Wyman, Partner (2007 to present)

        I lead a highly qualified and experienced team in serving 
        Oliver Wyman's global client base, providing a broad spectrum 
        of practical expertise and consulting.

    Eclat Consulting, Founder, Chairman and CEO (2001-2007)

        I was the founding partner of Eclat Consulting, a highly 
        successful aviation consultancy, in 2001 and was the President 
        and CEO until Eclat was acquired by Oliver Wyman in 2007.

    Babbitt & Associates, Principal (1999-2001)

        I was the founder and principal of Babbitt & Associates in 
        1999, a small but successful boutique consultancy specializing 
        in labor relations and labor cost evaluation and financial 
        modeling. Clients included both domestic and international with 
        substantial work done in both Argentina and Belgium.

    Air Line Pilots Association, Executive Administrator (1985-1990), 
President (1991-1998)

        I served as President and CEO for U.S. ALPA, the world's 
        largest professional organization of airline pilots. I 
        developed strategies to address the impact of competition, 
        consolidation and globalization on the airline industry and its 
        workforce.

    Pilot, Eastern Airlines (1966-1991)

    FAA Management Advisory Council, Past Chairman and Current Member 
(2000-Present)

        I helped direct and achieve improvements in aviation safety and 
        regulatory policy.
Appointments and Awards
    The Laurels Award for outstanding achievement in the field of 
Commercial Air Transport from Aviation Week & Space Technology
    Appointed to the special Internal Review Team in 2008 by DOT 
Secretary Mary Peters to assess safety oversight within the airline 
industry and the FAA.

    Senator Warner. Thank you, Mr. Babbitt.
    And let me, again, thank all of the nominees--one, for 
their willingness to serve; two, you all have extraordinarily 
important challenges in front of you. I hope this Committee 
will act quickly on your nominations.
    I have to apologize and head off to another session, so I 
believe I'm supposed to be turning over the gavel to Senator 
Udall. As somebody who has only been here for 127 days, to get 
the gavel for 45 minutes and have to turn it over after 45 
minutes, it's a little challenging.
    [Laughter.]
    Senator Warner. I will submit my questions for the record, 
and I look forward to working with all of you.
    And Senator Udall, I'd ask you to step into the chair, 
thank you. Begin the first round of questions.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Senator Warner, I'm going to defer and allow 
Senator Begich to take over here, if that's all right with you.
    [Laughter.]
    Senator Warner. Well, it might be all right with me, we'd 
better make sure it's all right with Senator Lautenberg, too, 
though.
    [Laughter.]
    Senator Lautenberg. With this group of excellent 
candidates, Mr. Chairman, handling the gavel would be a 
pleasure. I assume that I speak for both sides, but each one 
can make their choices individually.
    So, I thank you, I decline the honor if I might, and 
suggest that that person who would know something about 
aviation and distance and so forth.
    Senator Warner. Thank you. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich [presiding]. You know, I don't know if it's 
because I'm the last one on the row here, but I'll be happy to 
chair. I think we all have other meetings we're rushing back 
and forth to.
    I'm not sure where the list is, I'm looking to staff to see 
who the first is, but I'm going to go to Senator Lautenberg 
because he graciously allowed me to be Chair for a second--then 
I'll flip it over. I'm waiting for the list, here, in a second. 
Just to be fair, I have a feeling I might have been first here. 
I was, but I'm going to first give it to Ranking Member 
Hutchison. And, I'll turn to you first, if that's OK, Senator 
Lautenberg, and then I'll come back.
    Senator Hutchison, or--?
    Senator Lautenberg. Senator Hutchison?
    Senator Hutchison. I'd be happy to for you to go first.
    Senator Begich. There we go.
    Senator Lautenberg, you're on. Rock and roll.
    [Laughter.]
    Senator Lautenberg. You know, you've brought us all 
together. You didn't just bring the largest number of people I 
have ever seen at a hearing in this room, and we've been 
through war and peace, and economic disruption, but the 
popularity that each of you brings to this is really 
astounding.
    And, with that, I want to say that this handoff is not one 
that has anything to do with your interest here, or ability, it 
has to do with overcrowded schedules.
    Mr. Babbitt, the FAA has taken a major Airspace Redesign 
Project in New Jersey, New York, and the Philadelphia region, 
and it's going to result in a major overhaul of flight patterns 
there.
    Unfortunately, the FAA has not adequately included the 
front-line air traffic controllers in the FAA's plan, in my 
view. Would you hold the implementation of the Airspace 
Redesign Project until you see that the interested parties, who 
have value to contribute, will be included?
    Mr. Babbitt. Senator, I'm not exactly certain where that 
process stands at this point in time. I do understand there is 
some litigation surrounding it, so I'm not sure legally just 
what I could agree to do and not do.
    But I would suggest to you that--on a personal basis--I 
would really like to solicit the input from all of the 
stakeholders in that area. The Secretary has announced a 
program to resolve some outstanding issues with the air traffic 
controllers. At this point in time, they haven't been active 
participants in this Redesign. I think it's very important--
that they do play a role in this.
    So, I can assure you that I would certainly pursue, and try 
and get the input of everybody, to the extent the law allows 
me, at this point.
    Senator Lautenberg. I'm happy to hear you say it, and we're 
not being presumptive--there is an automatic that says, ``If 
you are confirmed,'' everybody understands it. If you're not, 
it'll be a miracle.
    Mr. Porcari, you had your advocates here really in tune. It 
was among the most glowing endorsements that I've heard for a 
nominee. And so when you hear what Senator Mikulski and Senator 
Cardin had to say, you come with excellent credentials 
supported by the momentary Chairman.
    Now, last week Senator Rockefeller and I introduced 
legislation that would establish a long-overdue National 
Surface Transportation Policy, as well as set performance goals 
for the Nation's surface transportation system.
    Do you believe that we need a national transportation plan 
that puts performance-based measures on our Federal 
transportation programs? I mean, to me, it's quite obvious that 
we have neglected to make the same investments in rail, for 
instance, that we have in highways and aviation. None of those 
three legs has had sufficient investment, and it's something 
that we're going to have to look forward to fixing in the years 
ahead.
    But is there a performance-based test that you see, that 
will help us measure how much of an investment, how much of an 
effort that we put into each of these legs?
    Mr. Porcari. Senator, first, Secretary LaHood and his team 
have been very strong advocates of a balanced transportation 
system that includes all modes, and that balance, obviously, 
means different things in different places--urban, rural and 
suburban areas. Also, performance measures fit very closely 
into that paradigm, as well.
    If confirmed, I look forward to working closely with 
Secretary LaHood and his team, to help build that balance, and 
maintain that balanced system, including a fresh look at all of 
the modes, and the increasing capacity constraints that we have 
in some of them, and again, the different solutions that are 
needed in different places.
    Senator Lautenberg. I would, again, ask you a question, Mr. 
Babbitt. In 2006, the former FAA Administrator informed me that 
Newark Liberty air traffic control tower needed at least 35 
full-performance controllers to move the traffic safely. Now, 
there are only 26 certified controllers and 7 trainees.
    This airport is a very busy and very cumbersome airport in 
terms of delays. I think we have the crown, unfortunately, for 
being the most belated airport.
    If confirmed, can you assure us that the Newark tower will 
be staffed to the volume of performance that we require there?
    Mr. Babbitt. Senator, it's my hope that every tower in this 
country will be staffed and manned to the highest possible 
degree.
    As you recall there were a number of controllers--a 
substantial number of controllers--hired in bulk at a certain 
period in time, and that has led to a bubble of a lot of the 
controllers being of a similar age, or in a band of age, which 
has resulted in a substantial number of retirements, and that's 
not going to go away in the next 2 or 3 years.
    So, I will give you my assurance that we're going to look 
at training facilities and mechanisms, centers of excellence, 
and the like, to get controllers, and, people in the TRACON, 
the en route centers--everyone--at a fully-qualified level, and 
not have to depend on trainees to supplement the staffing.
    Senator Lautenberg. Thank you.
    Thank you, Madame.
    Senator Begich. Senator Hutchison is next.
    Senator Hutchison. Thank you.
    I want to ask all of you to answer a question--this is my 
Ranking Member question: the Committee, and our members, have 
long-enjoyed a close and productive working relationship with 
agencies under our jurisdiction. We rely on the legal and 
technical expertise of the agency staff when we are drafting 
legislation. I would ask each of you to answer if you and your 
staff will respond to every member of the Committee on both 
sides of the aisle for this kind of help, as we are doing our 
job of oversight and drafting?
    Mr. Babbitt?
    Mr. Babbitt. Absolutely, Senator.
    Dr. Blank. Absolutely.
    Mr. Chopra. Yes.
    Mr. Porcari. Yes.
    Mr. Strickling. Yes, Senator, I think it's a critical part 
of each of our jobs.
    Senator Hutchison. Thank you, thank you. I appreciate that.
    Mr. Porcari, Secretary LaHood recently announced that he 
was moving forward with the antitrust immunity of two airline 
applications to the Department for alliances--the Continental-
Star alliance and the American Airlines-British Airways 
alliance, which are very important for the competitive 
landscape in America. I would ask you if you will commit to 
moving expeditiously in this process for those applications to 
be considered? I'm not asking you for the final conclusion, but 
just that the Department know that time is very important in 
these decisions. And I fear another merger mania if we don't 
have these kinds of opportunities for competitive alliances 
that would put off the need for mergers.
    So, my question is, really, will you move forward 
expeditiously in the process, so that a final decision can be 
made in a timely manner?
    Mr. Porcari. Yes, Senator. I understand that moving 
expeditiously--considering the antitrust immunity request--is 
important.
    I would point out, on a personal note, at BWI Thurgood 
Marshall Airport, the One World Alliance antitrust immunity 
antitrust application is an important part of that strategy, 
and I should note for the Committee that I am a party of 
record, in that case.
    Senator Hutchison. Thank you. That's very good. I really 
believe that our airlines are trying to stay independent, and 
that these alliances foster that goal. I think it's in the 
traveling public's best interests that they remain so. So, I 
thank you for that.
    Mr. Babbitt, NextGen implementation is, I hope, your 
highest priority. We have been working on this issue for a long 
time and I would ask you how you are going to proceed on that. 
All of the people in aviation--both the consumers, as well as 
the airline and aviation community want to see how this will 
benefit them; what do you consider to be your responsibility as 
you proceed?
    Mr. Babbitt. Well, first, of course I know we all accept 
that safety will be my number one priority. But, in terms of 
implementing NextGen, that is one of the highest priorities 
before us--the FAA, and myself, personally.
    Currently, there is an industry-wide task force under the 
umbrella of the RTCA that is looking at, what the users 
actually want. What technology do they have on-board their 
aircraft? What technology exists at airports that will allow us 
to begin to implement a lot of the key functions of the next 
generation of air navigation and aircraft separation?
    There is no need for new technology. We don't need a 
Manhattan Project to move forward. We have a carrier, right 
now, in Louisville, that has a wonderful program going, where 
they guide over 100 aircraft every night using the NextGen 
technology we have today. And they have continuous descent 
approaches, meaning they're saving 400 to 500 pounds of fuel, 
every arrival; that the noise footprint that they lay down over 
the City of Louisville is much smaller than it existed before. 
We have this technology, so we need to find where we can deploy 
it, and deploy it efficiently. Obviously, I'm going to be able 
to turn to some very helpful people, here, with the team that 
the President has assembled, and we can do this strategically.
    And what I mean by strategic implementation--there are 
places where we will gain the biggest advantage in terms of 
reducing delays, rather than doing things on a linear basis.
    Senator Hutchison. Mr. Strickling, I want to hear from you 
that DTV transition is your highest priority. As you know, this 
Committee agreed after much discussion and much dissention 
among all of the interest groups to delay the DTV transition, 
but a lot of people have had to make added investments and it 
has been a hardship in many ways. But we felt that there were 
not enough people aware of the transition, who would, all of a 
sudden, lose any kind of television reception.
    So, my question is, is it your highest priority, and what 
are your plans to move forward?
    Mr. Strickling. Yes, Senator. If confirmed, it absolutely 
will be our highest priority.
    As you know, the transition will take place in a little 
more than 3 weeks. The good news is that since the extension 
from February, over 3 million households have now become ready 
for the transition, that would not have been ready back in 
February. So, I think the Committee, the Senate and the 
Congress should take comfort in the fact that the extension has 
well served the American public.
    Between now and June 12, the NTIA is very closely 
monitoring the situation. As you know, with the coupon program, 
there were concerns in February about a backlog, and about the 
availability of funds to provide, to pay for the coupons that 
needed to be issued at that time.
    Today, as I understand it, there is no backlog. NTIA 
believes there are adequate funds available to provide coupons 
to the estimated number of un-ready households. And while it 
would not be surprising to see some upsurge in requests for 
coupons as we approach June 12, everything would indicate that, 
at most, it will mean a few days' delay in people getting 
coupons if, in fact, the daily processing capabilities of the 
system are taxed.
    And today, they are not. Today the system is processing 
fewer coupons than it has capacity to process.
    So, all signs look to be promising for a smooth transition 
on the 12th, in terms of the coupon program, but we--in NTIA 
and I, if I am confirmed, will certainly pay very close 
attention to that over the next several weeks.
    Senator Hutchison. Thank you.
    Mr. Chairman, it is my understanding that the Chairman of 
the Committee would like to consider these nominations tomorrow 
at our Executive Session. We have notified all of the 
Republicans and no one objects.
    But, I have questions for the record and I would like to 
ask that, for you to go forward, any written questions that you 
will get today need to be back in by 6 p.m. today for us to be 
able to have the full information for that consideration.
    So, we will notify all of the members of that, but I will 
agree to that expeditious voting on each of you, if you will 
agree to spend the rest of your day answering questions.
    [Laughter.]
    Senator Begich. Is there any objection from the five?
    Mr. Strickling. I will----
    Senator Begich. No objection.
    Mr. Strickling. We'll go sharpen our pencil, but----
    Senator Begich. They will be available. They will be 
available, Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Begich. Thank you.
    I know I'm next in line, but I'm going to move over to 
Senator Isakson, and also, then, Senator Brownback, and then 
I'll be last.
    Senator Isakson?

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you very much, Mr. Chairman. And 
congratulations to all of you on your appointment.
    Mr. Babbitt, as you know, in our discussion in my office, I 
have some concern with the slowness of the deployment of next-
generation as far as FAA is concerned. And I know you worked 
some with the previous Administrator in advising and 
consulting. What are you going to do to expedite next-
generation in the FAA, technology-wise?
    Mr. Babbitt. Well, I think the most important thing we can 
do is to work with the stakeholders to come up with a plan that 
makes sense to them. Currently, Senator, would a stakeholder, 
meaning an airline--is often being asked to put aboard equipage 
that in some cases is $700,000, $800,000 per aircraft. So, if 
you have a fleet of 700 airplanes, that's a very expensive 
undertaking. They need to understand that they're going to get 
a capital return off of that.
    And I have to say that they have some skepticism. However, 
one of the things that I have tried to set forth, is that I 
intend, as one of my highest priorities for the FAA to be as 
accountable and credible as we can be, so that when we ask 
someone to make that type of a capital commitment, that they 
are going to see a benefit that they are going to enjoy, in 
fact. If you make a million dollars over a period of years, 
you're going to save $2 million in fuel, and 5 minutes per leg, 
or some calculable amount of money.
    And in order to do that, in order to deploy that, we need 
to go to the places where the delays are the worst, and sort of 
work backward.
    Now, I'm not suggesting that we take the most delayed 
region in the Nation and start there. I'd suggest we probably 
should open, you know, Off-Broadway, if you would, where we 
understand the technology, deploy it, and once we're convinced 
it's up and running, I think it comes naturally that people 
will then want to provide the equipage on their aircraft, and 
we'll be able to provide the metering, the spacing and the 
reduced separation, and higher levels of safety that bring us 
the benefit that we hope we'll get from NextGen.
    Senator Isakson. You were very kind, about 2 weeks ago, to 
meet with the families that lost loved ones in the most recent 
crash. And I had asked you about the most wanted improvements 
that the NTSB has recommendations they've made with respect to 
air safety. What would be your plans, with regard to those 
recommendations?
    Mr. Babbitt. The Senator is talking about recommendations 
based on the Flight 3407 investigation. We don't have those 
recommendations yet, but we do have a number of 
recommendations, and I know that the NTSB keeps a list of their 
top 10. I'd like to undertake a review as quickly as possible, 
if confirmed, to understand those.
    I had the opportunity last summer, to be a member of a 
committee, that worked for the DOT, looking at oversight and 
risk management, with the former Chairman of the NTSB. And he 
acknowledged to me that often the NTSB puts forth a broad array 
of suggestions, because they don't want any stone unturned.
    However, I think we have an obligation to either adopt, 
modify and adopt or explain why we didn't adopt any particular 
recommendation from the NTSB.
    Senator Isakson. Well, I appreciate the answer. I think 
those families deserve, particularly on the qualification 
questions, with regard to that aircraft and the pilots, a 
response so that something like that does never happen again--
--
    Mr. Babbitt. Yes, sir.
    Senator Isakson.--if at all possible.
    Dr. Blank is a University of Georgia graduate. I'm very 
intimidated by doctors from MIT. Every time I turn around, 
there's another MIT Ph.D. like Christine Romer, that I'm 
talking to, and I am a little intimidated, but I do have two--I 
don't know whether these are questions or statements.
    Number one, on the economic advice that you will be giving 
statistically to the Secretary, one of the concerns I had in 
the waning months of the Bush Administration, when we went into 
the economic difficulties, beginning September 18, and quite 
frankly still experience now, I'm not sure how much government 
is reaching out to people who are actually out there running 
companies and doing business, to get some background before 
they make recommendations to try to address economic concerns. 
I know the Federal Reserve regions do that, they actually bring 
in businesses, homebuilders, and bankers, and manufacturers, 
and exporters, and importers. Do you--are you going to seek 
that kind of advice from people actually out there really doing 
the work, as you develop policy recommendations?
    Ms. Blank. Senator, thank you for the question. I think one 
of the roles of the Department of Commerce is to be in touch 
with some of its constituencies, which are private sector 
businesses and consumers, and I know that Secretary Locke is, 
on a regular basis, out talking to those groups. I certainly 
hope that in my role, I would have the opportunity to interact 
regularly with groups from the private sector, from various 
consumer groups, to talk about what their concerns are, 
particularly with regard to the current economy, and to bring 
that back into the analysis and advice that I do.
    Senator Isakson. Well, it's just my view that all the 
classical education in the world is no replacement for actually 
being out there and actually doing it. I really encourage that 
type of input to be brought in.
    My only other--I'll make it a comment since my time is up. 
The census is so important. I was, for 20 years, in State 
Government, everything ends up divided up based on what the 
census comes out looking like, from State Legislators to 
economic assistance, and I hope you'll work to make sure it's 
statistically accurate, fair, and it's a real count and not a 
model count.
    Ms. Blank. Yes. Thank you, Senator. I certainly take that 
as the most important part of my job.
    Senator Isakson. Thank you, ma'am.
    Senator Begich. Thank you very much.
    Senator Brownback is next. I'm going to hold my position 
and go to Senator Dorgan after that.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. My, you're nice and accommodating. Thank 
you very much.
    Senator Begich. Patience is a virtue.
    Senator Brownback. It certainly is. Soon we'll replace you 
with Rockefeller, Rockefeller with you.
    Senator Begich. I'm not here to cause any trouble.
    Senator Brownback. All right, all right, all right.
    Mr. Babbitt, general aviation is a huge industry for the 
country and certainly for my State, a $150 billion industry in 
the United States. We're having a lot of difficulty today, it's 
a big export industry, with 40 percent going overseas. But, 
with the global economy having trouble, we're having trouble 
with that industry, and certainly we are in my State.
    I'd also point out to you, and perhaps you know this, but 
many people don't, that only 10 percent of the airports in the 
United States are served by commercial air flights, 90 percent 
are not. And if you're going to access the places where the 90 
percent are--many across my State and others across the 
country--you need to do that through general aviation. So it's 
a key part of linking businesses, linking people across the 
country, and I just want to urge you to work with the general 
aviation industry, if you will, and I'm certain you would.
    I want to invite you, as well, to come to Wichita to see 
the hub of the manufacturing at General Aviation. We just--
we've got great people working there, building a wonderful 
product. We'd appreciate it if people wouldn't make fun of 
those using business aircraft for travel, because it hurts our 
business, and we think it's a good use of and a good resource 
for time savings and for linking these 90 percent of the 
airports in the country that don't get commercial service. So, 
I want to invite you to Wichita, we'll feed you a great steak, 
and we'll show you a nice aircraft if you're willing.
    Mr. Babbitt. I'll take you up on the visit and the steak.
    Senator Brownback. It will be--both will be--excellent, I 
can guarantee you.
    Mr. Babbitt. One thing I would just note is that of one of 
the byproducts of NextGen is the ability to have approaches 
into those other 90 percent of the airports that aren't served 
commercially, because we don't need to put in any ground 
facilities. These are approaches designed with satellite 
navigation to guide you in and provide guidance to hundreds, 
literally thousands of airports who currently don't have any 
navigational facilities. You'll have precision guidance to 
runways and airports, if nothing else, just to provide better 
surveillance and approach alignment for people just who would 
normally be flying visually.
    Senator Brownback. That's good, and I think it's very 
helpful and as you work on new air traffic control systems--
although there was one runway some years ago by Atlanta, that 
was a grass strip, my guess is you won't get NextGen into that 
one.
    I hope you will work with General Aviation on the air 
traffic controller system and on NextGen, and also on the how 
you pay for it. That's been the big issue that we've wrestled 
with a lot of times around here, is the cost-sharing. I know 
General Aviation is willing to pay its share, but not be 
penalized nor--and want it such that it's not on a transaction 
basis, so that every time you call the tower there's a--there's 
a charge, because I think that really could effect safety, if 
you do it that way. So, I'll hope you'll work with us, as well, 
on how you pay for NextGen and its implementation.
    Mr. Babbitt. Well, I certainly will, and I had a very good 
discussion with Senator Rockefeller on that issue. I obviously 
am not in any position to speak on how you all operate at the 
Committee level, but he seemed to think that the resolution was 
in sight--a compromise that everyone would be reasonably 
comfortable with.
    Senator Brownback. I think so. It's just--it's one that 
we're concerned about because if it's funded inappropriately, 
you're going to reduce the use of general aviation in the 
process, or you're going to hurt safety in the process, either 
of which I think are harmful to the United States and the 
United States economy, or to air traffic safety.
    Essential air service is another major issue for rural 
states, many of the rural areas like my state, and I hope in 
the Department of Transportation that you, as an Administrator, 
will lead the FAA to help and work with the rural communities 
on the EAS, which is a key program for us.
    Mr. Babbitt. That probably fall as much----
    Senator Brownback. Mr. Porcari?
    Mr. Porcari. Thank you, Senator. I'm very familiar with the 
essential air service program. I would point out that at the 
State level in Maryland, we have jurisdictions that avail 
themselves of the EAS Program, and I recognize that it is an 
economic lifeline to many communities. It is in a difficult 
period, in part because of the economy, but I look forward, if 
confirmed, to working with you and the Committee on that issue.
    Senator Brownback. Thank you.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    Senator Dorgan?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Senator Begich, thank you very much.
    Let me say to the--the four nominees, Mr. Strickling, Mr. 
Porcari, Mr. Chopra, and Ms. Blank, I intend to support all of 
you. I think you are well suited for the nominations that the 
President has given you and I know you're here with families 
and so on, and everyone's enormously proud of your service. So 
let me just say thank you, and to tell you I'm going to support 
you.
    I do want to ask some questions of Mr. Babbitt, with 
respect to the FAA, because I was chairing an Appropriations 
Subcommittee hearing all morning and wasn't able to be here at 
the start, and I have announced that as the Chairman of the 
Aviation Subcommittee, we're going to hold some hearings. We 
hope the first one will be June 10, but we'll be making notice 
of when the hearings will be, on the issue of aviation safety.
    And, I want to ask Mr. Babbitt a few questions if I might. 
And I especially want to refer you back to the stunning 
disclosures last week. This weekend I read the cockpit 
recordings that were released by the Transportation Safety 
Board.
    And, let me go through a couple of the facts that were 
stunning to me: Someone sitting in a cockpit of a commercial 
carrier making $16,500 a year in salary, and a second job at a 
coffee shop. Someone in the crew, in the cockpit, flying in icy 
conditions, and saying in the cockpit recorder, ``I've had no 
experience flying in icing conditions.'' Someone in the cockpit 
saying that she flew all night across the country--all night 
across the country--from Washington State to New York, just to 
get to the duty station to begin flying as a co-pilot on the 
commuter. A member of the cockpit crew failing five exams over 
a career.
    As I listen to this, I realize the passengers that got on 
that airplane, got on an airplane that was painted the same way 
as a trunk carrier--in this case it was Continental. And the 
question for all of us who fly commuter airlines versus trunk 
airlines and so on, is are there the same standards in the 
cockpit, and are the same standards enforced? And if so, what's 
the role of the FAA in that?
    Now, I was just--I was really staggered by trying to 
understand last week what was coming out of the National 
Transportation Safety Board hearings. And I think--these facts 
just make me furious--there's something wrong here. Is it just 
this airplane, just this crew, or is it a system that has 
developed and evolved over a lengthy period of time, in which 
we have different standards, dramatically different standards, 
in various cockpits on commercial planes?
    And, Mr. Babbitt, you have a breadth of experience in 
aviation. Give me your assessment of last week's disclosures.
    Mr. Babbitt. All right sir, I will do my best.
    In my opening remarks, Senator, I did go back and review a 
period of time when we introduced one level of safety when I 
was president of the Air Line Pilot's Association. And at that 
point in time, in 1993-94, there were literally two different 
sets of regulatory requirements, the aircraft were certified 
under rules, less stringent. The pilots were trained under less 
stringent rules. All of the flight time limitations were 
different and less favorable to the regional pilots, and we 
didn't think that was right. So, we came before this Committee 
and others and said when I buy a ticket on a given airline, and 
I walk out on the ramp, and it's a much smaller airplane, I 
would at least expect that it would, in fact, have the same 
level of safety, it would have the same well-trained crew.
    We made some changes in that period of time, and got those 
considerably better aligned, to develop one level of safety. 
Perhaps we need to go back and look and see if we've gone far 
enough.
    However, we have seen a dramatic shift, not that this is an 
excuse or anything of the like, but I'm simply observing the 
fact that the regional part of our industry has grown 
dramatically. We have new technology, we have small jets going 
into a lot of small cities, and the pilots are exposed to a lot 
more take-offs and landings, at airports that don't necessarily 
have the same equipment as a John F. Kennedy or some of the 
other airports. So all of this adds together to make an 
environment that exposes them to a lot higher risk level. And I 
think we're probably going to have to go back and look at some 
of this.
    Senator Dorgan. I understand your point, but I guess my 
question is, do you think equivalent standards now exist or 
does the disclosure last week suggest to you that something 
different has happened?
    Mr. Babbitt. The same level--the requirements are there, 
however----
    Senator Dorgan. I understand that, I'm asking about whether 
the standards exist and are enforced.
    Mr. Babbitt. The standards are there and they are enforced, 
but the difference is, the reality is, when you're hiring a 
pilot at a major carrier, you're probably going to get somebody 
who walks in the door with 5,000 hours. When you hire someone 
at a regional carrier, you're probably going to get someone 
with considerably less time.
    Senator Dorgan. But, Mr. Babbitt, how could they be 
enforced if you put a co-pilot on a plane flying into Buffalo, 
New York in the winter with icing, who says on the cockpit 
recorder, ``I've never flown in icing and I'm very nervous 
about this?'' That cannot possibly be a standard that is 
enforced by the FAA.
    Mr. Babbitt. And you're absolutely correct, Senator, that's 
not even a requirement. The idea is that you would have 
received training in it. I think we need to look at the 
training. We have, today, the ability to simulate in high 
definition, in high-fidelity simulators, anything that can 
happen in an airplane, and why we're not doing that, I think we 
need to all look at.
    Senator Dorgan. And, Mr. Babbitt, I raised about five 
questions, and we're going to get into them in the hearings of 
the Subcommittee. I assume the crew rest issue is not just 
something with commuters. I've sat with pilots on airplanes all 
over the country who are dead-heading across the country in 
order to reach their duty station, not unusual at all.
    In this case, someone goes from the State of Washington to 
the State of New York to get on an airplane to begin work, 
flying all night long. Clearly, that is not in anybody's 
interest, in terms of crew rest standards.
    I'm going to strongly support your nomination. I told you 
when we met in my office, I am very pleased you have decided to 
accept this opportunity, but we have not had consistent 
leadership. We've had an Acting Administrator now for some 
while, and so on. This is an agency that requires a lot of 
attention, a lot of good people, but requires a lot of 
attention. My own view--my own view is that I think these 
standards have waned and waxed, and I think what has happened 
is we have very different standards for commuter carriers than 
we do for the majors. At least--perhaps not with respect to 
what the rules require, but certainly with respect to 
enforcement. I can't believe anybody would say, ``Yes, go ahead 
and put people on an airplane that haven't flown in icing, or 
have flown all night to get to the duty station, or paid 
$16,000 and have to live with their parents in order to make 
ends meet.'' That's not a standard that I think anybody wants 
in the cockpit of an airplane they board to take a commercial 
flight. So, we're going to ask tough questions.
    We've been blessed that we have not had very many accidents 
in recent years. We have an unbelievable safety record, but the 
preponderance of the accidents have been commuters. I think 
we've gone a ways now without asking the really hard questions. 
Has our attention to detail here in enforcement of standards 
waned some and do we have some real work to do to bring these 
standards back up to par? I think a lot of this is about money, 
I would say to you, because you can put some very inexpensive 
pilots in some of those seats and save money, but I'm not sure 
that that's what the passengers and traveling public in this 
country would expect, boarding those airplanes.
    Mr. Babbitt. Yes, sir.
    Senator Dorgan. Thank you.
    Senator Begich. Senator Klobuchar, we have a vote that has 
been called now, and I'm going to turn to Senator Klobuchar, 
and then I'm going to close up.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. OK, thank you very much.
    Senator Hutchison. Mr. Chairman, if we have time for one 
more round, after the two of you, I'd like to ask it if we have 
time.
    Senator Klobuchar. I'll be quick here, Mr. Porcari. I have 
talked before to Secretary LaHood about legislation. There's a 
lot of interest to incorporate road construction projects with 
the deployment of broadband technology, with the idea that we 
can save taxpayer money and reduce disruptions to American's 
lives, if we dig once. And obviously, this is going to have be 
done with care and coordination with the State. People get sick 
and tired of just one ditch after another getting dug up on the 
roads, when there should be some kind of coordination. Do you 
have any comments on that?
    Mr. Porcari. Yes, Senator. It's an excellent point. There's 
a lot of opportunity, both with new construction and 
rehabilitation of the highway system, to incorporate fiber and 
other utility and telecommunication elements.
    I can tell you that at the State level in Maryland, it is 
one way that we've been able to bring broadband to every corner 
of the State, including some of the most rural parts of the 
State, by doing it as a package deal, and also getting a 
portion of the capacity as part of that overall agreement, as 
well. There are places where it is more difficult to do, but I 
think, by and large, there are many opportunities.
    Senator Klobuchar. OK, very good.
    Mr. Babbitt, I enjoyed our visit yesterday, and one of the 
things we talked about was legislation that Senator Snowe and I 
introduced last year, about FAA inspectors, particularly the 
supervisory inspectors. We talked about doing a cooling period 
when inspectors are assigned to a certain company, and then 
they go and they eventually go to that company. There's a 
revolving door situation, and there have been major concerns 
about it in the last few years.
    At the same time, we understand the importance of having a 
familiarity with an airline. Could you comment on that?
    Mr. Babbitt. Yes, Senator, I sure could, and likewise 
enjoyed the visit yesterday and found that enlightening.
    The issue was actually one that we covered pretty well in 
the internal review team. That was one of the subjects that we 
were to look at, and that is this relationship. It is a very 
difficult balance. On the one hand, to understand an airline 
and understand all of its operations, an inspector has to spend 
a fair amount of time there, but at what point in time does 
that time spent working with that carrier getting to know its 
people, its management, its line employees, when does that 
become a liability? When they become too friendly, too 
accepting--OK, you'll get it next time. And the answer is, that 
the second that safety of flight becomes an issue.
    And so we've got a position now that is in development. The 
FAA is in the process of adopting some of the recommendations, 
and in those recommendations are some ways to deal with that. 
Remember that you have turnover in the airlines too, so we 
probably want to look at both sides of that room. If the entire 
airline management is turned over, there's no sense to change 
the inspector, but conversely, if everybody's in a static 
environment, it probably makes some sense.
    There's a human aspect to it as well. You have someone who 
has made a home in Minnesota or some place----
    Senator Klobuchar. I understand--and to make the move.
    Mr. Babbitt. --and you say, well, you've been here 5 years.
    Senator Klobuchar. Because no one ever wants to leave 
Minnesota, Mr. Babbitt.
    Mr. Babbitt. That's right.
    Senator Klobuchar. OK, thank you.
    Mr. Chopra, one--just last, if you could just answer in 
about a minute, so I can pass this on to my colleagues. We had 
also had a good meeting, and one of the things I'm very focused 
on, as we look at the issue of long-term care, so many people, 
especially in rural areas, in their homes where we'd like them 
to stay, but needing to use more technology to do everything 
from monitor their healthcare, to make sure that technology is 
available to them. Could you talk about the potential role for 
your job with that?
    Mr. Chopra. Thank you, Senator, and I appreciated the 
chance to visit with you.
    This is an example of an opportunity to essentially address 
two of our challenges. One, to promote an innovation strategy 
that creates new jobs. We see a growth market in a lot of 
devices you're describing, which is a win for the economy. In 
addition, we see an opportunity to actually bend the curve on 
healthcare costs, improving quality of care for folks who want 
to be--living at home, but also to lower our cost structure in 
addressing their needs. So, it has the benefit of both, 
addressing cost concerns, as well as a potential platform for 
economic growth.
    As advisor to the President, Senator, it will be my 
challenge and responsibility to work to harness the power of 
this capacity on the President's priorities for healthcare 
reform and for economic growth.
    And I thank you for the question.
    Senator Klobuchar. Thank you so much, I appreciate it.
    Good luck to all of you.
    Senator Begich. Thank you very much, Senator Klobuchar.
    I'm going to ask a couple quick ones and then close out. We 
have 6 minutes before our vote closes out, so, Senator 
Hutchison, we won't have time for another question, based on 
what staff just told me.
    So, let me be real quick. I'll submit mine to you. If I 
can, Mr. Porcari, in regards to transportation, here's a simple 
question that I struggle with. As a former mayor, having to 
deal with the Federal Government and their inability to get 
projects done within a reasonable time is difficult, especially 
when they use Federal Highways Administration dollars.
    A simple idea, that if you have a State or a local 
community that can allocate their dollars or that they have a 
road project in mind that's federally funded, but they have not 
had any issues with the Federal Highways Administration, in 
other words, any environmental issues or anything over a period 
of time, three, five years. Why can't we just let them use 
their local regulation then, to implement it and cut the time 
in half?
    In Alaska, this is exactly how we can do it.
    Mr. Porcari. Senator, it's a good question. The National 
Environmental Policy Act and the National Historic Preservation 
Act are the guiding documents and requirements here. In some 
cases it is possible to get a categorical exclusion. In 
practice, many of the larger, more complicated projects do not 
permit that, it puts a premium----
    Senator Begich. It doesn't permit it by law, but we write 
the laws. So, the question is a very simple one, and that is, 
if you have a jurisdiction that has not had any issue with 
environmental violation around road projects or other types of, 
maybe NIPA, EIS, whatever the process might be from the Federal 
Government, for a period of time, let's just say 5 years, why 
can't you then substitute, let them use the Federal dollars and 
substitute with local regulation or State regulation?
    Mr. Porcari. Senator, Secretary LaHood and his team have 
made it clear that they're very much interested in streamlining 
processes. If confirmed, I would look forward to working with 
you on any idea.
    Senator Begich. That's all you need to say at this point.
    Mr. Porcari. Thank you.
    Senator Begich. Only because time is allowed only for me to 
ask very quickly.
    Let me just say, and for members and staff that are here, 
all the questions have to be submitted in by 6 p.m. today. For 
all of you that will get questions from the minority side that 
wants your answers by 6 p.m. today, I wish you best in that 
accomplishment. But, we will have all the questions submitted 
by 6 p.m.
    I want to say thank you all for being here. Thank you for 
your willingness to serve this country. Thank you.
    The meeting is adjourned.
    [Whereupon, at 12:27 p.m., the hearing was adjourned.]
                            A P P E N D I X

             Prepared Statement of Hon. Edward M. Kennedy, 
                    U.S. Senator from Massachusetts
    Chairman Rockefeller and Members of the Committee, I appreciate 
this opportunity to offer my strong support for President Obama's 
nomination of J. Randolph Babbitt to be Administrator of the Federal 
Aviation Administration.
    Randy is an outstanding choice for this important position. His 
strong background in aviation and labor relations makes him a 
particularly inspired choice for this Agency. As the airline industry 
continues to restructure to meet a changing market, Randy will provide 
a steady hand to guide the transition in a manner that ensures 
passenger safety, worker's rights, and global competitiveness. Randy's 
history in the cockpit and as the head of the world's largest pilot 
association makes him eminently well-qualified to be the FAA 
Administrator.
    As you know, this is an especially critical time as this Committee 
and others look to improve the air traffic system through the 
reauthorization of the FAA bill. Critical issues in this debate, such 
as the financing of the aviation trust fund, runway safety, and the 
NextGen air transport system, will require an experienced partner at 
the Agency. Furthermore, a first-class air traffic system is essential 
to ensuring that the United States remains at the forefront of 
international trade and tourism, and aeronautics research. Randy 
provides exactly the kind of experience and leadership the Agency and 
the Nation needs right now.
    I urge the Committee to approve Randy's nomination, and I look 
forward to working with him and the Committee on these fundamental 
issues in the coming weeks.
                                 ______
                                 
 Prepared Statement of Hon. Richard Durbin, U.S. Senator from Illinois
    I am pleased to support the nomination of Mr. Lawrence E. 
Strickling to serve as the next Assistant Secretary for 
Telecommunications and Information at the U.S. Department of Commerce.
    Mr. Strickling, who calls Chicago home, is ideally suited for this 
role. Over the last thirty years, he has developed a distinguished 
record in the telecommunications field in both the public and private 
sectors.
    He has helped a variety of private companies meet Federal and state 
telecommunication regulatory requirements. Early in his career he 
represented Ameritech in proceedings before the Federal Communication 
Commission (FCC) and state utility commissions. Not long into his 
career, he joined the Clinton Administration, working to improve 
consumer protections and increase competition and service in the 
telecommunications industry as Chief of the Common Carrier Bureau at 
the FCC. It was in his role at the FCC that he testified before 
Congress, which is where I first met Larry Strickling.
    Since then, I have learned more about his education, his career 
path and his dedication to the public good. I have full confidence in 
Mr. Strickling to lead the National Telecommunications and Information 
Administration (NTIA) during a period of great opportunity, but also 
great challenges.
    NTIA is the principal agency responsible for advising the President 
and implementing the President's telecommunications and information 
technology policy. NTIA is front and center in highly relevant and 
important changes in the country's telecommunications infrastructure, 
including the digital television transition and directing billions of 
dollars in broadband funding made available through the American 
Recovery and Reinvestment Act to help lay the foundation for our 
broadband policy for the future and to close the digital divide.
    I am confident that President Obama's nominee, Larry Strickling, is 
the right person to lead the NTIA as it addresses these and other 
emerging issues in telecommunications and information. I thank the 
Committee for the opportunity to offer these remarks and am pleased to 
publically support Mr. Strickling's nomination.
                                 ______
                                 
              Prepared Statement of Hon. John D. Dingell, 
    U.S. Representative from Michigan (15th Congressional District)
    Thank you, Chairman Rockefeller, for allowing me the courtesy of 
submitting a statement in support of the nomination of my good friend, 
Dr. Rebecca Blank, to the position of Under Secretary for Economic 
Affairs at the Department of Commerce. I can think of few other, more 
qualified candidates for this important office and would strongly urge 
you and your colleagues to vote in support of her nomination.
    Dr. Blank's distinguished career and accomplishment are reason 
alone to confirm her. She has been Dean of the Gerald R. Ford School of 
Public Policy at the University of Michigan, acted as Co-Director of 
the National Poverty Center, and served as a member of the President's 
Council of Economic Advisers from 1997-1999. Dr. Blank is currently the 
Robert S. Kerr Senior Fellow at the Brookings Institution, where she 
has continued in her laudable research on the interactions between the 
macro-economy, government policy, and the behavior and well-being of 
American families.
    As I have mentioned, these bona fides are eminently sufficient as 
to merit Dr. Blank's expeditious approval as Under Secretary for 
Economic Affairs. All the same, I implore the Committee to consider Dr. 
Blank's comments at a 2007 hearing before the Committee on Financial 
Services in the U.S. House of Representatives. She said, ``Lower-wage 
workers in today's economy find it hard to achieve those things that 
are part of the American dream: own a house, have a job with pension 
and health benefits, or the opportunity to send their children to 
college.'' Clearly, Dr. Blank understands the lamentably conspicuous 
rise in economic inequality and concurrent growth of social inequality 
that have plagued our Nation of late. If confirmed in this position, 
she will bring a wealth of knowledge and experience to a Federal agency 
well-positioned to combat these disquieting trends.
    Again, Mr. Chairman, thank you for your courtesy. Please vote in 
support of Dr. Blank's nomination, and do so with confidence in her 
remarkable talent and achievements.
    I yield back the balance of my time.
                                 ______
                                 
                         Air Carrier Association of America
                                       Washington, DC, May 14, 2009
Hon. Byron Dorgan,
Chairman,
Subcommittee on Aviation Operations, Safety and Security,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Dorgan:

    On May 19, the Senate Commerce Committee will hold a ``Nominations 
Hearing'' for several nominees including Randy Babbitt who is the 
Designate to be the Administrator of the Federal Aviation 
Administration. We fully support Randy's nomination and hope that we 
will soon see him lead the FAA.
    As you know, the continued growth and modernization of the Nation's 
aviation system is essential if the Administration is going to 
stimulate the Nation's economy and support travel and tourism. While 
these issues are addressed, it is also essential that steps be taken to 
continue to enhance the safety of the system. Our low-fare carriers and 
the communities they serve believe that Randy is the right person to 
take on these enormous challenges.
    We look forward to working with you, the Committee and 
Administrator Babbitt to put in place short and long-term enhancements 
that will continue to ensure that all communities and passengers can 
enjoy the world's most efficient and safest air carrier/air traffic 
system.
            Sincerely,
                                        Edward P. Faberman,
                                                Executive Director.
                                 ______
                                 
      Healthcare Information and Management Systems Society
                                          Chicago, IL, May 18, 2009

Hon. Bill Nelson,
Chairman,
Subcommittee on Science and Space,
U.S. Senate Commerce Committee,
Washington, DC.

Hon. David Vitter,
Ranking Member,
Subcommittee on Science and Space,
U.S. Senate Commerce Committee,
Washington, DC.

Dear Chairman Nelson and Ranking Member Vitter:

    On behalf of the Board of Directors and 20,000 individual and 350+ 
corporate members of the Healthcare Information and Management Systems 
Society (HIMSS), we are honored to offer HIMSS support for Mr. Aneesh 
Chopra's, nomination to be Chief Technology Officer and Associate 
Director for Technology at the White House Office of Science and 
Technology Policy in the Obama-Biden Administration.
    Given the convergence of healthcare reform and the acceleration of 
steps toward a Nationwide Health Information Network, Mr. Chopra is an 
exceptional choice to help lead the efforts in achieving the quality 
and cost-effective care delivery in the U.S. healthcare system.
    On July 20, 2006, Tim Kaine, Governor of the Commonwealth of 
Virginia, issued Executive Order 29 creating the Governor's Health 
Information Technology Council. Since then, serving as Secretary of 
Science and Technology for the Commonwealth of Virginia, Mr. Chopra has 
initiated a very aggressive approach to implement health IT projects 
across the state. Through his work, each geographical region of the 
Commonwealth is home to competitively selected health IT innovators to 
promote the widespread adoption of electronic health records (EHRs). 
Mr. Chopra was also awarded the prestigious HIMSS 2007 State Leadership 
Advocacy Award for his leadership in health IT activities in the 
Commonwealth.
    HIMSS is confident that Mr. Chopra will be able to translate the 
state-level effort into activities required to make the health IT 
components of the American Recovery and Reinvestment Act (ARRA) a 
reality. We are confident that Mr. Chopra's initiatives in Virginia are 
consistent with our December 2008 report, Enabling Healthcare Reform 
Using Information Technology, with particular emphasis on the 
importance of a properly defined objective for meaningful use of health 
IT solutions, as well as a continued role for the Healthcare 
Information Technology Standards Panel (HITSP) and Certification 
Commission for Healthcare Information Technology (CCHIT).
    As you move forward on Mr. Chopra's nomination, HIMSS is confident 
that he is best-suited to be the first Chief Technology Officer and 
Associate Director for Technology at the White House Office of Science 
and Technology Policy in the Obama-Biden Administration. We look 
forward to his confirmation and to working with the Senate and Mr. 
Chopra to ensure we deliver on health IT components of healthcare 
reform.
            Sincerely,
                                    H. Stephen Lieber, CAE,
                                               HIMSS President/CEO.
                      Charles E. Christian, FCHIME, FHIMSS,
                                       HIMSS Chairman of the Board,
                                              CIO and Director, IS,
                                               Good Samaritan Hospital.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                       to Lawrence E. Strickling
    Question 1. While consumer readiness has improved greatly since the 
digital television transition (DTV) was delayed earlier this year, 3.3 
million U.S. households remain unprepared according to the most recent 
data collected by the Nielsen Company. In the few weeks until June 12, 
what does the National Telecommunications and Information 
Administration (NTIA) plan to reach these remaining households and make 
certain that no consumers are left behind by the DTV transition?
    Answer. In the remaining weeks of the transition, educating 
consumers about the digital television transition and the TV Converter 
Box Coupon Program will be a top priority for NTIA if I am confirmed. 
My understanding is that NTIA is taking several steps to reach 
remaining unprepared households with the goal of minimizing the number 
of consumers left behind by the DTV transition. For example, NTIA 
continues to conduct media outreach, distribute DTV transition 
materials through its partners, place public transit public service 
announcements, support mobile assistance centers, fund partner-based 
advertising, and conduct a social media texting campaign.

    Question 2. The Charleston-Huntington market in West Virginia has 
been designated an ``at-risk'' area due to the large number of 
households that are currently unprepared for the DTV transition. 
Thousands of Charleston residents have ordered a DTV converter box 
coupon but it concerns me that less than half of these coupons have 
been redeemed. West Virginians must be provided the assistance they 
deserve to successfully prepare for the transition. Can you outline the 
NTIA's efforts in Charleston-Huntington as well as the rest of West 
Virginia?
    Answer. It is critically important that we reach the unprepared 
populations, including those within the Charleston-Huntington market, 
as well as the rest of West Virginia. If confirmed, I pledge that I 
will work with you and your staff to ensure that NTIA and its many 
partners will work to provide outreach and assistance in West Virginia 
to help unprepared households get ready for the June 12th DTV 
transition. In addition, I will make sure that NTIA continues its 
extensive awareness campaign working with the media and its partners as 
well as through trusted community institutions.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
            and Hon. Byron Dorgan to Lawrence E. Strickling
    Question 1. Mr. Strickling, the National Telecommunications and 
Information Administration (NTIA) is currently writing the contractual 
conditions for the broadband grants it will issue under the American 
Recovery and Reinvestment Act (ARRA) including mandatory conditions 
regarding nondiscrimination and interconnection. Similar 
nondiscrimination conditions to protect consumers on the Internet have 
been proposed in other contexts and often it has been stated outright 
that nondiscrimination protections on the Internet are to be applied 
exclusively to lawful content. Unfortunately, unlawful activity does 
occur over the Internet and efforts to prevent unlawful activities 
should be encouraged. If confirmed as Assistant Secretary of Commerce 
for the NTIA, would you commit to interpreting and enforcing the 
conditions to ensure that nondiscrimination protections apply 
exclusively to lawful content and do not apply to unlawful activity?
    Answer. The Recovery Act requires grant recipients to comply with 
all applicable Federal, state and local laws. Federal law prohibits 
copyright piracy. If confirmed, I look forward to working with you and 
members of the Committee to find the most appropriate way to prevent 
copyright piracy and other illegal activities over the Internet.

    Question 2. Mr. Strickling, the National Telecommunications and 
Information Administration (NTIA) is currently writing the contractual 
conditions for the broadband grants it will issue under the American 
Recovery and Reinvestment Act (ARRA) including mandatory conditions 
regarding nondiscrimination and interconnection. Similar 
nondiscrimination conditions to protect consumers on the Internet have 
been proposed in other contexts and often it has been stated outright 
that nondiscrimination protections on the Internet are to be applied 
exclusively to lawful content. Unfortunately, unlawful activity does 
occur over the Internet and efforts to prevent unlawful activities 
should be encouraged. If confirmed as Assistant Secretary of Commerce 
for the NTIA, would you commit to interpreting and enforcing the 
conditions to ensure that nondiscrimination protections apply 
exclusively to lawful content and do not apply to unlawful activity?
    Answer (Supplement to Answer submitted May 19). As you note, the 
Recovery Act requires NTIA--in its implementation of the Broadband 
Technology Opportunities Program (BTOP)--to publish non-discrimination 
obligations that are to be contractual conditions of any broadband 
grants it awards pursuant to the Act. These obligations must, at a 
minimum, adhere to the principles contained in the 2005 broadband 
policy statement adopted by the Federal Communications Commission. The 
first principle states that consumers are entitled to access the 
``lawful'' Internet content of their choice. Implicit in this statement 
is the common-sense notion that non-discrimination obligations should 
not apply to unlawful activity. If confirmed, I will ensure that 
purveyors of unlawful content find no legal immunity for their conduct 
under the non-discrimination obligations that the Recovery Act directs 
NTIA to impose.
    I am extremely troubled by the impact of copyright piracy on the 
American economy. I understand that the overall harm is measured in the 
billions of dollars. These figures would represent lost wages and lost 
jobs for American workers, as well as a threat to the creativity that 
our copyright laws are designed to protect and encourage.
    In March, NTIA and the Department of Agriculture's Rural Utilities 
Service released a Request for Information (RFI) that sought public 
comment on a number of important issues relevant to the broadband grant 
program, including the extent of non-discrimination obligations it 
should require of grant recipients. NTIA is in the process of reviewing 
the more than 1,000 responses it received to the RFI, and will 
incorporate these comments as appropriate into the Notice of Funds 
Availability (NOFA) it plans to release this summer. I am confident 
that through the public comment process and in conformance with the 
Recovery Act, NTIA will establish non-discrimination conditions that 
fully protect the rights of consumers to enjoy all of the lawful 
economic, creative, and social benefits that broadband services can 
help create, while providing no basis to justify the use of broadband 
services for illegal activity.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                         Lawrence E. Strickling
    Question 1. Unless action is taken before September, the Commerce 
Department will lose the authority to protect and advise the body that 
manages the Internet's global addressing system. Are you concerned 
about the implications of that historic separation?
    Answer. If confirmed, my goal will be to continue to preserve the 
security and stability of the Internet's domain name and addressing 
system (DNS) and my decision with respect to the future of the Joint 
Project Agreement (JPA) will be consistent with that goal. I understand 
that NTIA released on April 24th a Notice of Inquiry (NOI) seeking 
comments on these issues. The public record developed through this 
process will inform any decision made about the JPA's future and I look 
forward to working with you and the Committee on this important issue.

    Question 2. In 2005, the Commerce Department released a set of 
principles, which stated that the U.S. Government would do nothing to 
harm the stability and security of the Internet's addressing system. Do 
you think releasing ICANN from all relevant oversight is consistent 
with those principles?
    Answer. Regardless of whether the JPA is terminated, modified or 
extended, NTIA will continue to be an active participant in ICANN by 
representing the U.S. Government in ICANN's Governmental Advisory 
Committee (GAC) as well as filing comments, as needed, in ICANN's 
various public consultation processes. In addition, the Department's 
relationship with ICANN will continue as ICANN currently performs the 
Internet Assigned Names Authority (IANA) functions under contract to 
the Department. If confirmed, I can assure you that the views NTIA 
advocates will be based on the need to preserve the security and 
stability of the Internet's Domain Name and Addressing System (DNS).

    Question 3. In a 2008 review of ICANN's progress toward meeting the 
goals established under its Joint Project Agreement (JPA) with 
Commerce, a broad cross-section of the ICANN community, including 
business and public interest advocates, took the position that ICANN 
had not completed enough of its charter to safely end its relationship 
with the U.S. Government. If ICANN is indeed a bottom-up, consensus 
driven body, directed by its stakeholders, why are concerns expressed 
by a broad cross-section of the community routinely ignored?
    Answer. NTIA recently released a Notice of Inquiry soliciting 
comment on the JPA and ICANN's performance thereunder. The public 
record developed in response to the NOI will inform NTIA's decisions 
regarding ICANN. If confirmed, I will ensure that issues such as 
meaningful stakeholder participation are adequately addressed.

    Question 4. Members of the ICANN community have repeatedly demanded 
that ICANN create new accountability mechanisms to protect stakeholders 
against adverse decisions by the ICANN board. Under the current 
structure, ICANN is accountable only to itself and the Commerce 
Department. After September 2009, it will be accountable only to 
itself. Where does business turn for redress and representation 
regarding domain name issues after September 2009?
    Answer. NTIA recently released a Notice of Inquiry soliciting 
comment on these issues, specifically on whether there are sufficient 
safeguards in place to ensure that all stakeholder interests are 
adequately taken into account in ICANN's decision-making processes. If 
confirmed, I will work with you and the Committee to ensure that these 
important issues are satisfactorily addressed.

    Question 5. ICANN has emerged as the de facto regulator of the 
domain name industry. ICANN's decisions impact not only the hundreds of 
companies in that industry, but the thousands of companies worldwide 
that rely on the Internet for core business functions. Is it reasonable 
for a body with such a broad regulatory mandate to be answerable to no 
higher authority?
    Answer. ICANN is a U.S. not for profit organization that 
coordinates the Internet's unique system of identifiers. It is not a 
government agency and has no delegated government regulatory authority. 
The governance structure for ICANN must be one that preserves a robust, 
stable and secure underlying Internet infrastructure for the benefit of 
U.S. and global businesses and consumers. If confirmed, I will work 
with you and the Committee to ensure that these critical objectives 
continue to be met.

    Question 6. What serious organization would want to be free of any 
oversight if major parts of the community it serves are opposed to the 
uncertainty and total lack of accountability/redress imposed upon them? 
Would a sustainable, credible and responsible entity be comfortable 
with such a `transition'?
    Answer. NTIA, as the President's principal advisor on 
telecommunications and information policy, should committed to 
preserving the Internet as a global medium that supports economic 
growth and innovation, a tool to improve the human condition, and an 
enabler of the free flow of information. If confirmed, I will work to 
ensure that the Internet DNS is managed to meet these goals.

    Question 7. Under the terms of the JPA, ICANN has the right to walk 
away in 2009. But the JPA is only one of two agreements between the 
Commerce Department and ICANN. ICANN draws its authority from the 
procurement contract to operate the Internet Assigned Numbers Authority 
(IANA) function. If ICANN walks away from the JPA against the wishes of 
a broad cross-section of the ICANN community, should Commerce 
reconsider the terms of the IANA contract? What improvements or 
adjustments do you feel ICANN needs to make in order to reach a point 
where stakeholders would be comfortable in a scenario where this is no 
JPA?
    Answer. It is my understanding that the IANA functions contract is 
separate and distinct from the JPA and the Department's rights there 
under are not affected by any change in the status of the JPA. If 
confirmed, I will continue to evaluate ICANN's performance and consider 
the advisability of changes in the terms of the IANA functions 
contract.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Kerry to 
                         Lawrence E. Strickling
    Question 1. The American Recovery and Reinvestment Act of 2009 
(``ARRA'') expressly requires the Assistant Secretary of Commerce for 
Communications and Information, when allocating funding under the 
Broadband Technology Opportunities Program (``BTOP'') to ``consider 
whether an applicant is a socially and economically disadvantaged small 
business [``SDB''] as defined under section 8(a) of the Small Business 
Act.'' ARRA Sec. 6001(h)(3). How do you intend to implement this 
congressional directive?
    Answer. If confirmed, ensuring the participation of small and 
disadvantaged businesses in the BTOP program will be a top priority. It 
is my understanding that NTIA staff has already begun working with 
relevant departments and agencies, including the Minority 
Telecommunications Development Program within NTIA, as well as the 
Minority Business Development Agency and Office of Small and 
Disadvantaged Business Utilization within the Department of Commerce, 
to fully include small businesses in our program. In the workshops 
planned for potential grant applicants later this year, I would expect 
NTIA to accommodate the needs of small businesses, such as by creating 
opportunities to network and partner with other potential applicants.

    Question 2. With respect to the Broadband Technology Opportunities 
Program, can you tell me whether NTIA will be providing technical 
assistance to states during the application process? If so, will NTIA 
travel to states upon request? Are states going to be allowed or 
required to coordinate and vet all proposals for funding?
    Answer. It is my intention that, if confirmed, NTIA provide all 
prospective applicants with appropriate technical assistance after the 
release of the Notice of Funds Availability (NOFA) this summer. NTIA 
plans to hold workshops in public locations throughout the Nation that 
will also be made accessible over the Internet. I believe that the 
public and potential applicants should have as much information as 
possible in order that NTIA can receive the most innovative and cost-
effective proposals to expand broadband service throughout America. 
States are important partners of NTIA, as they have knowledge of local 
conditions that will be important to NTIA. If confirmed, I will work to 
define the precise role of the States in such a way that provides NTIA 
the greatest input consistent with its statutory obligations and 
responsibilities for the program.

    Question 3. Again, with respect to the Broadband Technology 
Opportunities Program, I believe that it is entirely possible to have 
two competitive broadband providers serving a geographic region and 
still have an underserved population living within that area because of 
the high price of service, or the limited speed of service. I do not 
believe that grant recipients should be limited purely as a function of 
geography, or based on what carrier provides service for an area. Will 
such factors as cost and speed of service be considered when assessing 
proposals from potential grant recipients?
    Answer. Yes, these factors should be considered in the evaluation 
of applications for BTOP funds, along with other criteria set forth in 
the Recovery Act.

    Question 4. The American Recovery and Reinvestment Act states that 
``not less than $250,000,000 shall be available for competitive grants 
for innovative programs to encourage sustainable adoption of broadband 
service''. I believe strongly that the amount cited within the Act 
should be viewed as a floor, and that strong consideration should be 
given to proposals that aim to increase demand for broadband even if 
the $250 million threshold has been surpassed. Do you agree that demand 
side initiatives should receive significant priority and should not be 
limited to a $250 million threshold?
    Answer. Demand-side projects will be a very important component of 
the BTOP program and its efforts to fulfill the President's goals of 
providing broadband service to every American. The Recovery Act makes 
clear that the funding amount for sustainable adoption of broadband 
service is a floor, and should NTIA receive qualifying proposals that 
surpass this amount, I am quite open to increasing the funding amounts 
provided for such demand-side efforts.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                         Lawrence E. Strickling
    Question 1. As you know, hundreds of entities have already 
expressed an interest in applying for a portion of the funds available 
under the Broadband Technology Opportunities Program (BTOP)--and it's 
pretty obvious that demand will far exceed the amount of available 
funds. This leaves NTIA with some tough decisions about where to best 
invest this grant money. In making those tough decisions, how do you 
think NTIA should weigh the question of access to broadband versus 
affordability of the service? Is one more important that the other in 
terms of considering grants--or are they co-equal factors?
    Answer. Congress tasked NTIA with addressing a number of very 
important goals and objectives to jump start the President's goal of 
bringing the benefits of broadband to all Americans. In establishing 
the Broadband Technology Opportunities Program (BTOP), NTIA must 
address the needs of unserved and underserved areas, strategic 
institutions such as schools, libraries and hospitals, public safety 
agencies, and stimulate demand. In awarding grants, Congress requires 
NTIA to consider such factors as whether the application will increase 
affordability of, and subscribership to, service to the greatest 
population of users in the area; and whether it will provide the 
greatest possible speed to the greatest population of users. Meeting 
these aggressive goals will require NTIA to encourage applications that 
represent the most innovative, cost-effective, and sustainable ideas 
that America has to offer. NTIA recognizes that both access and 
affordability will impact the number of Americans that choose to 
subscribe, and we intend to award grants that pursue both of these 
goals, along with each of the objectives outlined in the Recovery Act, 
in the most efficient and effective way possible.

    Question 2. One other area that I've been interested in for some 
time is Internet governance and cybersecurity.
    The Internet Corporation for Assigned Names and Numbers (ICANN) 
currently has the responsibility for managing and coordinating the 
Internet's Domain Name System (DNS)--which functions like the 
Internet's ``phone book,'' and translates common website names into the 
complex numbers required to locate a site on the Internet.
    Currently, the Department of Commerce and NTIA maintain an 
oversight role with ICANN through a Joint Project Agreement (JPA) that 
requires ICANN to provide periodic reports about its activities to the 
Department.
    The agreement, however, is scheduled to expire September 30 this 
year--and there is currently no oversight mechanism to replace it.
    Do you think the JPA should be extended, or allowed to expire? In 
the alternative, should we look toward some other type of oversight 
mechanism?
    Answer. If confirmed, my goal will be to continue to preserve the 
security and stability of the Internet's domain name and addressing 
system (DNS) and my decision with respect to the future of the Joint 
Project Agreement (JPA) will be consistent with that goal. I understand 
that NTIA released on April 24th, a Notice of Inquiry (NOI) seeking 
comments on these issues. The public record developed through this 
process will also inform any decision made about the JPA's future and I 
look forward to working with you and the Committee on this important 
issue.

    Question 3. The protection of intellectual property is a major 
issue for many content providers who distribute their materials over 
broadband networks. Do you see a role for NTIA in this area?
    Answer. Yes. I am very concerned with the protection of 
intellectual property distributed over the Internet. While NTIA is not 
the only Federal agency with an interest in this issue, if confirmed, I 
look forward to working with the other appropriate Federal agencies, as 
well as with you and members of the Committee, to find the most 
appropriate way to prevent copyright piracy and other illegal 
activities over the Internet.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Pryor to 
                         Lawrence E. Strickling
    Question. The Public Telecommunications Facilities Program (PTFP) 
which for over 40 years has helped to create and maintain the essential 
infrastructure needed to deliver the highest quality, reliable public 
broadcasting to all corners of this country has been proposed for 
elimination in the President's budget. In Arkansas alone over the past 
5 years, this program has provided our public broadcasters with nearly 
$1.5 million which leveraged locally raised funds to help with 
station's infrastructure investments that totaled nearly $5.5 million. 
This program has been essential in helping our Nation's public 
broadcasters meet all of their infrastructure needs including much 
needed upgrades and it is the primary source of emergency assistance 
for stations struck by natural or man-made disasters. As part of 
helping stations with infrastructure funding, this program has funded 
some very important digital equipment needed by public television 
stations to meet the federally mandated transition to digital. However, 
this program is not solely a digital transition program and the 
elimination of this program would mean the elimination of station's 
only source of assistance for ongoing maintenance needs such as help 
replace digital equipment when it has ages or fails. At a time when 
many of our Nation's public broadcasters are facing the greatest 
financial crisis in the history of the public broadcasting industry, 
and many are struggling to stay on the air, I'm concerned about a cut 
of funds that would maintain their infrastructure.
    I would like a commitment from you to further review the status of 
the PTFP, including input from public broadcasters that depend on this 
program, and to work with me on viable options to support the critical 
work of public broadcasters.
    Answer. I support the Administration's commitment to public 
broadcasting. The President's 2010 Budget proposed to consolidate 
funding through the Corporation for Public Broadcasting (CPB), and the 
2010 Budget provides an increase in funds for CPB. Projects previously 
funded by PTFP can be undertaken through CPB's main station grant 
program, and the 2010 funding will provide additional assistance to 
public broadcasters. CPB's grant programs are flexible and can serve 
most station needs, and the proposed $20 million increase in 2010 
(total resources of $481 million, including advance appropriations) 
will sustain the Federal investment in public broadcasting, including 
projects that previously would have been eligible for PTFP funding. If 
confirmed, I look forward to working with you and the public 
broadcasting community to ensure they continue to have adequate 
resources to provide important public programming and services.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Lawrence E. Strickling
    Question 1. Mr. Strickling, many public libraries now provide 
public computing centers in addition to books for library patrons. Yet 
public libraries and other non-profit institutions may be discouraged 
from applying for Broadband Technology Opportunity Program (BTOP) 
funding since they cannot afford the 20 percent matching funds under 
that program. NTIA, however, has the flexibility under the American 
Recovery and Reinvestment Act statute to waive the 20 percent matching 
requirement and to draft rules to implement the program. Will you, as 
NTIA Administrator, consider waiving the 20 percent match requirement 
so that public libraries can apply for funding?
    Answer. The Recovery Act states that the Assistant Secretary may 
increase the Federal share of a project if the applicant petitions NTIA 
for a waiver and the Assistant Secretary determines that the petition 
demonstrates financial need. If I am confirmed, I will work to ensure 
that important strategic institutions such as libraries are able to 
fully participate in the grant program.

    Question 2. Alternatively, will you allow libraries to satisfy the 
20 percent match by providing ``in-kind'' contributions, such as 
computers or broadband equipment? Or, would you consider waiving the 
requirement that the match come from ``non-Federal'' sources, so that 
libraries could use ``E-rate'' funds or LSTA funds for the match?''
    Answer. It is my understanding that in-kind contributions, which 
the Federal Government defines as non-cash donations to a project, may 
count toward satisfying the non-Federal matching requirement of a 
project's total budget. In the Notice of Funds Availability (NOFA), I 
expect NTIA will set forth the types of in-kind contributions that may 
be acceptable. To the extent that the libraries choose to file a waiver 
of the matching requirement instead, I am confident that it will be 
carefully evaluated to determine whether it demonstrates financial need 
as required by the statute.

    Question 3. What other ways will NTIA under your leadership support 
public computing centers at libraries and other places that allow low 
income and other users access the Internet?
    Answer. Support for public computing centers is a critical 
component of the BTOP Program as outlined in the Recovery Act. NTIA is 
required to provide at least $200 million for grants aimed and 
expanding broadband services for libraries, community colleges, and 
other public computing centers. This amount is a floor, not a ceiling. 
For many consumers that do not have access, or cannot afford access to 
broadband services in the home, public computing can provide the vital 
link to job search and training opportunities, access to government 
services, and education for their children. I am committed to ensuring 
that such institutions are strengthened by the BTOP program.

    Question 4. New Mexico is a rural state which faces difficult 
``digital divide'' issues. However, my state is developing an exciting 
broadband initiative and intends to apply for NTIA broadband funds with 
a coordinated, multi-partner proposal that includes state government, 
private telecom companies, rural and tribal communities, and nonprofit 
organizations.
    As New Mexico attempts to foster wholesale `open network' solutions 
for publicly-funded fiber infrastructure throughout the state, how 
should state broadband planners consider the limitations on public/
private shared networks which are imposed by E-Rate and the FCC 
Telehealth Program?
    Answer. I understand that there may be some requirements under the 
FCC's E-rate and Telehealth programs that could impair robust 
participation by these recipients in a larger BTOP application. If 
confirmed, I intend to work closely with Congress and the Federal 
Communications Commission on these important issues so that public 
funds are used to their full potential and that the goals of the 
Recovery Act are reached.

    Question 5. In rural states like New Mexico, obtaining permits and 
permission for building infrastructure essential to expanding broadband 
access, such as fiber networks, can pose particular challenges since 
multiple jurisdictions for Federal, state, and local lands often must 
approve projects. How should NTIA encourage Federal agencies to support 
broadband expansion efforts?
    Answer. It is my understanding that NTIA has already begun working 
with a number of relevant agencies to ensure that taxpayer funds are 
spent quickly, wisely, and efficiently. The Agency has already begun 
working with States and Federal agencies such as Housing and Urban 
Development, Transportation, and Health and Human Services to ensure 
that public investments are leveraging existing programs to maximize 
their benefit to the American public. If confirmed, I intend to 
continue this important work with our partners at the Federal, State 
and local level as NTIA implements the BTOP program.

    Question 6. Although NTIA is the National Telecommunications and 
Information Administration, it tends to focus on telecommunications 
issues. Yet, NTIA needs to grapple with some difficult issues such as 
online copyright. Do you think Internet Service Providers should be 
required to take more steps to prevent piracy of software, music, and 
movies?
    Answer. The Recovery Act requires grant recipients to comply with 
all applicable Federal, state and local laws. Federal law prohibits 
copyright piracy. If confirmed, I look forward to working with you and 
members of the Committee to find the most appropriate way to prevent 
copyright piracy and other illegal activities over the Internet.

    Question 7. Over the last 10 years, the U.S. has gone from being a 
world leader in Internet penetration to being 16th or 20th or worse, 
depending upon what statistics you read. Why did that happen? What can 
be done to reverse the trend?
    Answer. As the Nation that nurtured the creation of the Internet, 
the United States leadership position on Internet access penetration is 
extremely important to our economy, our society, and our culture. 
Recognizing its potential to enhance economic growth and address other 
key challenges facing our nation, such as improving health care 
delivery and deploying smart grid technology, increased deployment and 
adoption of broadband services is a top technology goal for the Obama 
Administration. Expanding access to broadband services is indeed 
critical to our Nation's economic competitiveness.
    The most recent ranking of broadband penetration per 100 
inhabitants compiled by the Organization for Economic Cooperation and 
Development (OECD) placed the United States 15th among the 30 OECD 
member countries. There are some methodological concerns with the OECD 
study and other studies do not show as great a decline. Nonetheless, 
the President has indicated this and similar rankings are unacceptable 
and he has called for our Nation to restore its position as the world's 
broadband leader. An important first step to address the lack of access 
to broadband services in unserved and underserved areas in the U.S. is 
the Broadband Technology Opportunities Program, established by the 
American Recovery and Reinvestment Act (P.L. 111-5). In addition to the 
$4.7 billion in grant support made available through this program and 
the companion program administered by the U.S. Department of 
Agriculture's Rural Utilities Service, the Recovery Act's provisions 
directing the Federal Communications Commission to develop a national 
broadband plan, and NTIA to develop and maintain a broadband map, will 
serve as critical sources of information to enable our Nation to 
reverse this trend.

    Question 8. During the campaign, President Obama said that 
reforming our universal service system will be a priority. I think that 
this essential if we are going to ensure affordable Internet access in 
the rural parts of my state. What principles should guide any effort to 
reform universal service? Which other countries might provide models?
    Answer. This country has a long tradition of ensuring that Rural 
America has access to connectivity on an affordable basis. Decades ago 
policymakers developed a ``Universal Service'' program to promote 
investment in rural areas and reasonably comparable telephone services 
at reasonably comparable rates to urban areas. This system has served 
us well in the past but as new technologies with new capabilities have 
emerged, it has become evident that a modernized program must be 
developed to serve the needs of all Americans in the Information Age. 
In the new global economy, our legacy support system must be replaced 
with one that fosters widespread availability and affordability of a 
broadband infrastructure of connectivity appropriate for the times. Key 
principles to reforming universal service include competitive 
neutrality, technological neutrality, affordability, and 
sustainability, balancing the goals of efficiency and equity. Any such 
program must be prudently combined and coordinated with other policy 
actions, such as pro-competition policies and--where markets fail and 
government intervention becomes necessary--an appropriate targeting of 
other types of support such as infrastructure grants or loans. NTIA 
will seek to work with the FCC and RUS, with the advice of major 
stakeholders, to develop an updated mix of policies to foster 
affordable connectivity in all areas. This examination should properly 
be wide-ranging, including a consideration of creative solutions and 
best practices wherever they may be found, regardless of country of 
origin. Other countries are just beginning to grapple with the issue of 
transforming their universal access/service programs to support 
broadband services and we will endeavor to learn from them just as they 
will be reviewing our actions in this area.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                         Lawrence E. Strickling
    Question 1. Alaska has extreme rural conditions, which make 
broadband access extremely difficult. Currently many rural villages 
depend on satellite services for Internet connection. This service is 
slow and expensive. In addition, it is taking up large amounts of 
spectrum needed for public safety and expanding demands on satellites 
for national security. Alaska lacks connection to the terrestrial 
Internet backbone and has to receive Internet access through satellite. 
Will the NTIA's definition of unserved areas include those areas, such 
as Alaska, with spotty service at best?
    Answer. I recognize that Alaska has unique challenges when it comes 
to the deployment and adoption of broadband service, and, if confirmed, 
I will work with you and your staff to ensure that the eligibility 
criteria and definitions take into account Alaska's unique situation 
and do not unintentionally preclude those in Alaska from participating 
in the program.

    Question 2. The short construction season in Alaska necessitates 
special consideration in grant funding. Will there be special 
provisions allowing for extended grant funding for those projects 
facing tight construction seasons?
    Answer. The Recovery Act requires that recipients of broadband 
grants substantially complete their projects within 2 years on an 
award. Where there are unique circumstances, such as shortened 
construction seasons due to climate, that could prevent a project from 
being completed, I look forward to working with you and your staff, as 
well as grant recipients, so that such anomalies do not unfairly hinder 
the opportunity of Alaskans to share in the benefits of the Recovery 
Act.

    Question 3. Another significant issue facing broadband deployment 
is the high cost of construction for the ``middle'' mile in Alaska. 
Currently most of rural Alaska depends on satellite for the long haul 
transport. A few providers in Alaska are working on fiber optics or 
microwave systems in order to provide service to the outlying areas. 
The only way these projects can come to fruition is with joint ventures 
and public private partnerships. Will the NTIA give priority to these 
types of partnerships to move these communities off satellite and onto 
broadband service?
    Answer. Joint ventures and public/private partnerships may well 
offer an efficient and effective way to deliver broadband service to 
rural Alaska. If confirmed, I look forward to receiving applications 
from such applicants in rural Alaska.

    Question 4. Will the NTIA require projects maintain their 
sustainability after the government funding ceases?
    Answer. In order to maximize the benefits of public dollars 
invested through the BTOP program, if confirmed, I intend to ensure 
that NTIA abides by the Recovery Act's provisions concerning 
sustainability. As Congress determined, sustainability is one of the 
critical factors in choosing which applications qualify for BTOP funds 
and, if confirmed, I will ensure that each project selected for funding 
has developed an appropriate and sustainable business case for the 
services to be offered.

    Question 5. Will there be any open access requirements for funded 
projects, allowing multiple providers to lease capacity on the grant-
funded system at reasonable rates?
    Answer. The Recovery Act requires that NTIA establish 
interconnection and non-discrimination obligations as contractual terms 
of any broadband infrastructure grants. If confirmed, I will work with 
NTIA to implement these obligations for potential grant applicants in a 
clear and straight-forward manner so as to ensure that the goals of the 
Recovery Act are fully implemented.

    Question 6. The Rural Utility Service statutory language stresses 
the importance of bringing competition into a service area. In Alaska, 
with sparse population in rural areas this policy is unrealistic. As 
the NTIA Administrator, will you recognize the needs of small 
communities and the importance of having at least one broadband 
provider?
    Answer. It is the President's goal that every community shall have 
access to broadband services at the highest speeds possible. As you 
know, NTIA is obligated to define such terms as ``unserved'' and 
``underserved'' so that broadband grant funds can be deployed in the 
most efficient and effective manner possible. If confirmed, it is my 
intention that the grant program be designed to further these statutory 
objectives.

    Question 7. Alaska Native and Village Corporations play an 
important role in providing infrastructure for their communities. Will 
tribal entities receive priority funding or incentives for providing 
service to tribal lands, or in the case of Alaska, villages?
    Answer. The Recovery Act states that tribes are among those public 
entities that are eligible to apply for broadband grants through the 
BTOP program. If confirmed, I will ensure that NTIA implements the 
statute to ensure that entities such as tribes and other political 
subdivisions have the fullest opportunity to apply for funding.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                         Lawrence E. Strickling
    Question 1. With regard to the broadband grant program, NTIA's 
primary focus must be on unserved communities. I understand that the 
program's rules are currently being formulated, but please describe how 
you ultimately intend to show that unserved communities benefit from 
this grant program.
    Answer. NTIA should develop metrics to accurately and demonstrably 
show whether taxpayer funds are being used well, and whether the BTOP 
program is achieving the goals established by Congress in the Recovery 
Act. There are a number of outcomes that could be used to show that 
unserved communities benefit from this program, including households 
passed with broadband service, speed of Internet service, jobs created, 
affordability of broadband offerings, and adoption of broadband 
service. As Congress wisely instructed, NTIA will require recipients of 
broadband grant funds to regularly report on progress and outcomes of 
their project. If confirmed, I will ensure that the appropriate 
measures are developed to accurately evaluate whether broadband 
investments are meeting these shared objectives.

    Question 2. Please describe your plans for effective oversight over 
the broadband program to avoid waste, fraud and abuse.
    Answer. The prevention of waste, fraud, and abuse is a key priority 
for me and the entire BTOP program. As you are aware, one of the 
program's first steps was to transfer $10 million to the Inspector 
General (IG), as required by the Recovery Act, to ensure that taxpayer 
dollars are wisely and ethically spent. If confirmed, I will work 
closely with the IG to meet these goals. Already NTIA has pursued 
transparency and openness to the greatest extent possible. It has 
hosted public meetings here in Washington and around the nation, and 
solicited public comment on questions related to the program 
implementation, all of which are posted on its website. I also intend, 
if confirmed, to ensure that we implement a robust program of 
inspection and audits in accordance with accepted government practices. 
As the program expands, I intend to provide as much information as 
possible--including information about grant applicants and recipients, 
quarterly reports, and more--to the public. President Obama believes, 
and I believe, that giving as much information to the public as 
possible can help ensure the effective and efficient expenditure of 
taxpayer dollars.

    Question 3. Concerning the broadband grant program, the statute 
requires the funded networks to adhere to, yet-to-be-determined, 
``openness'' requirements. Although the Internet has, of course, 
fundamentally altered our lives for the better, as you know, every year 
billions of dollars in stolen copyrighted works are exchanged over the 
Internet. How will you help ensure that any openness requirements do 
not have the unintended effect of facilitating copyright piracy, or 
curtailing enforcement against?
    Answer. The Recovery Act requires grant recipients to comply with 
all applicable Federal, state and local laws. Federal law prohibits 
copyright piracy. If confirmed, I look forward to working with you and 
members of the Committee to find the most appropriate way to prevent 
copyright piracy and other illegal activities over the Internet.

    Question 4. I cosponsored Senator Kerry's bill, the Radio Spectrum 
Inventory Act, because the time is overdue to reclaim unused spectrum 
and put it to more productive uses. Please describe how you plan to 
approach NTIA's spectrum program.
    Answer. I recognize the importance of wireless technologies to our 
economy, business productivity, and personal efficiency. Accordingly, 
if confirmed, I will devote a substantial amount of my time to spectrum 
policy and will support a spectrum inventory that accounts for the 
spectrum use of the Federal and non-Federal radio communities. At the 
same time, I am sensitive to the fact that Federal agencies have 
Congressional mandated missions and many of those missions require 
mobile communications and unhindered response. These pertain to 
defense, homeland security, transportation safety, and others. Many of 
the technologies used by the government require access to specific 
bands due to technical reasons.
    It is understandable that Federal agencies, in performing their 
defense, homeland security and law enforcement, and safety activities 
will be concerned regarding any requirement to make public the location 
and frequency of many of their operations. Recognizing these concerns, 
I will work to ensure that responsive information is provided while 
also protecting sensitive information.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                         Lawrence E. Strickling
    Question 1. NTIA has the primary responsibility of managing the 
U.S. Government's relationship with the ICANN. In early 2008, NTIA 
conducted a mid-term review of the Joint Project Agreement between the 
two entities and that agreement is set to conclude on September 30.
    Various concerns the domestic Internet community and businesses 
have raised during the mid-term review regarding the need for ICANN to 
make greater progress in the areas of accountability; responsiveness; 
stakeholder participation; increased contract compliance; and enhanced 
competition. Many also stressed the risks that might develop if the JPA 
and U.S. oversight of ICANN diminished prematurely--mainly in light of 
all the significant change that will be occurring such as expansion of 
generic top level domains, the introduction of internationalized domain 
names, the installation of a new CEO, and the ultimate migration from 
IPv4 to IPv6.
    When the JPA concludes in September, how can our government work 
with ICANN, our businesses, and the international community, post-JPA, 
to assist the organization in continuing its mission of ensuring the 
security and stability of the Internet and advancing the communal goals 
that were prescribed in the JPA by both parties?
    Answer. Regardless of whether the JPA is terminated, modified or 
extended, it is my belief that NTIA will continue to be an active 
participant in ICANN by representing the U.S. Government in ICANN's 
Governmental Advisory Committee (GAC) as well as filing comments, as 
needed, in ICANN's various public consultation processes. If confirmed, 
I can assure you that the views NTIA advocates will be based on robust 
and meaningful consultation with U.S. industry as well as our 
international partners and will be guided by the need to preserve the 
security and stability of the Internet's Domain Name and Addressing 
System (DNS).

    Question 2. Do you believe the Department of Commerce should stay 
involved with ICANN through a temporary extension of the JPA or a third 
iteration of an agreement, as some have suggested, until these key 
issues have been reviewed and settled? The JPA is in essence the fourth 
extension of the Memorandum of Understanding so it doesn't seems 
inappropriate to have those discuss about some type of extension or a 
new iteration of the agreement between the parties, does it? Or do we 
need to replace the JPA and U.S. government oversight with some other 
mechanism that ensures the appropriate level of accountability to the 
stakeholders of ICANN that is outside the traditional relationship 
between U.S. Government and ICANN?
    Answer. It is my understanding that irrespective of the Joint 
Project Agreement (JPA), the Department's relationship with ICANN will 
continue as ICANN currently performs the Internet Assigned Names 
Authority (IANA) functions under contract to the Department. With 
respect to the JPA, I am aware that NTIA released on April 24th, a 
Notice of Inquiry (NOI) seeking input on these issues. I do not wish to 
pre-judge the outcome of this public comment process, but I can assure 
you that if I am confirmed the comments received will inform any 
decision made about the JPA's future.

    Question 3. One of the most significant challenges we are facing 
with the respect to the Internet is with cyber threats and cyber 
security. Our government networks and even private computers systems 
are constantly being bombarded by cyber attacks on daily basis. These 
cyber attacks are much aggressive and sophisticated in nature and pose 
an increasingly serious and costly threat to U.S. government and 
commercial networks and infrastructure.
    Typically these organizations are leveraging botnets--networks of 
hundreds of thousands and sometimes millions of high-jacked personal 
computers. One botnet, known as the Conficker botnet, has grown so 
immense and extensive that it is estimated to consist of possibly more 
than 10 million compromised computers. Each conficker botnet computer 
can send approximately 10,000 to 20,000 illegal spam messages a day. 
ICANN should certainly be applauded in their efforts of working with 
parties such as the ccTLD managers to disrupt and eliminate the 
conficker botnet.
    But the severity of the situation and threats are why I joined 
Chairman Rockefeller in introducing comprehensive cyber security 
legislation so we can harden on networks and infrastructure and better 
protect ourselves from the growing threats.
    The legislation calls for NTIA to implement a secure domain name 
system (DNS) since the DNS is absolutely critical to communications 
over the Internet. However, such voluntarily efforts have moved a 
glacial pace unfortunately and is somewhat at a standstill in securing 
the root (global) level of the DNS. Will NTIA work with ICANN to 
resolve some of the political issues that have delayed securing the 
DNS?
    Answer. Let me assure you that preserving the security and 
stability of the Internet's domain name and addressing system (DNS) 
will continue to guide NTIA activities in this area if I am confirmed. 
I understand that the deployment of a security technology called Domain 
Name Security Extensions (DNSSEC) will help in this regard and that 
NTIA is in a unique position to help facilitate broader DNSSEC 
deployment. If confirmed, I will see that NTIA works with ICANN and 
technical experts to protect the DNS from existing and future threats.

    Question 4. Some countries are concerned about U.S. control over 
the Internet, and may reject any centralized keying for this reason. 
What are your preliminary thoughts about the controversy of signing the 
root zone? Last fall, NTIA issued a Notice of Inquiry about DNS 
security with comments due last November. Can you provide an update as 
to any decisions derived from that NOI?
    Answer. It is my understanding that signing of the root zone does 
not mandate the use or deployment of DNSSEC as it is an opt-in 
technology. My review of the NOI public record suggests that there is 
almost unanimous consensus for DNSSEC to be implemented at the root 
zone level as soon as possible, in a manner that maintains the security 
and stability of the DNS. If confirmed, I will ensure that NTIA works 
collaboratively with the international technical community to obtain 
the widest possible support for DNSSEC deployment at the root zone 
level.

    Question 5. There are over 1.5 billion Internet users globally, 
which is absolutely amazing. However, what is even more amazing is that 
there are more than 4 billion cell phone users worldwide. Mobile phones 
are the single most widespread information and communication technology 
today and for good reason. The Increased mobility, access, and 
productivity are all tangible results of wireless technology so a once 
nascent service has emerged as an indispensible tool that millions of 
consumers and countless businesses use on a daily basis.
    But with all this growth, we are seeing constraints--spectrum is 
already a scarce resource in many areas--there is no new spectrum to 
allocate, only redistribute. That is why we must be proactive in 
advancing supportive spectrum policy and spectrum availability. Even 
President Obama and senior officials of the Administration have called 
for better use of the Nation's wireless spectrum.
    To assist in this effort, Senator Kerry and I have introduced 
legislation that calls for a comprehensive and accurate inventory of 
how the spectrum managed by both NTIA and the FCC are currently being 
used and how. This is the first step in tackling comprehensive spectrum 
policy reform. Do you support such a spectrum inventory effort, given 
that there is at the very least a perceived scarcity of spectrum for 
advanced communications and broadband services?
    Answer. Yes. I recognize the importance of wireless technologies to 
our economy, business productivity, and personal efficiency. 
Accordingly, I support a spectrum inventory that accounts for the 
spectrum assigned both to Federal and to commercial interests. This 
includes the spectrum already auctioned or allocated, though not yet 
auctioned, for advanced wireless. At the same time, I am sensitive to 
the fact that Federal agencies have Congressional mandated missions and 
many of those missions require mobile communications and unhindered 
response. These pertain to defense, homeland security, transportation 
safety, and others. Many of the technologies used by the government 
require access to specific bands due to technical reasons. I believe 
that an inventory will provide a sound basis for evaluating the 
availability of spectrum and efficient use of this scarce resource.

    Question 6. What additional resources would NTIA require to 
complete an accurate inventory?
    Answer. I understand that the only information not currently 
available in NTIA's database relates to the time component of systems' 
use and the numbers of end users. To obtain this information, NTIA 
would need to query the Federal agencies and seek their support to put 
the information together. If confirmed, I will work to facilitate this 
process.

    Question 7. In 2006, the Spectrum Management Advisory Committee, 
was established to advise NTIA on spectrum policy and reform. The 
advisory committee has issued several reports with recommendations to 
improve spectrum efficiency, transparency, and accountability. Can you 
agree to provide this Committee an update of as to the status of those 
recommendations whether they have been implemented or not?
    Answer. It is my understanding that the Administration is currently 
reviewing the CSMAC's recommendations as it begins to reactivate the 
CSMAC for a new term. The CSMAC's final transition report should serve 
as the focal point of NTIA's review since it concisely identifies the 
actionable recommendations. If confirmed, I will be happy to update the 
Committee with regard to the CSMAC's recommendations and NTIA actions 
taken to implement those recommendations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Ensign to 
                         Lawrence E. Strickling
    Question 1. The American Recovery and Reinvestment Act provides 
NTIA the authority to allow broadband service providers (BSPs) to be 
eligible to receive funding under the NTIA Broadband Technology 
Opportunities Program (BTOP). Given that these companies are in the 
business of deploying broadband and connecting users to the Internet, 
they may be some of the entities best positioned to hit the ground 
running. Do you think NTIA should allow BSPs to apply for and to 
receive BTOP funding?
    Answer. The Recovery Act states that for-profit entities such as 
broadband and infrastructure providers, shall be eligible to apply for 
grants if the Assistant Secretary finds it to be in the public 
interest. As a general matter, I believe encouraging the widest 
possible array of applications will best achieve the goals established 
by the Recovery Act. However, until I am confirmed and can review the 
public record on this question, it would not be appropriate for me to 
indicate whether the public interest standard has been met.

    Question 2. The American Recovery and Reinvestment Act requires 
that NTIA, in coordination with the FCC, shall publish ``non-
discrimination and network interconnection obligations that shall be 
contractual conditions [for] grants'' issued under the Broadband 
Technology Opportunities Program (BTOP). I am concerned that if these 
conditions are too burdensome that some of the broadband providers that 
are most able to quickly and efficiently deploy broadband 
infrastructure will choose not to apply for BTOP grants. Do you share 
this concern? What steps do you plan to take in order to ensure maximum 
participation by broadband providers in BTOP?
    Answer. The Recovery Act requires NTIA to publish network 
interconnection and non-discrimination obligations that are to be 
contractual conditions of any broadband grants it awards pursuant to 
the Act. These obligations must, at a minimum, adhere to the principles 
contained in the 2005 broadband policy statement adopted by the Federal 
Communications Commission. I understand that in March, NTIA released a 
Request for Information (RFI) that sought public comment on a number of 
important issues, including the extent of non-discrimination and 
network interconnection obligations it should require of grant 
recipients. If confirmed, I will ensure that the public comments help 
inform the definitions of non-discrimination and interconnection, and 
will adequately protect consumers while promoting the shared goals of 
widespread investment in broadband networks and widespread 
participation in the grants program.

    Question 3. The NTIA Broadband Technology Opportunities Program is 
designed to encourage and advance the deployment of broadband to 
unserved and underserved communities. Next-generation wireless 
broadband technologies such as LTE and WiMAX may be well suited to 
reach these populations. What steps will you take to ensure that 
wireless broadband technologies will be included in NTIA's broadband 
efforts?
    Answer. The Recovery Act states that NTIA should ensure that 
projects reach the greatest number of people at the highest speed to 
the greatest extent possible. The statute also requires that NTIA 
implement the program in a technology-neutral fashion. As Congress has 
recognized, different technologies bring different advantages depending 
on the demographics of the area to be served. If confirmed, I intend 
for NTIA to welcome the participation of all technologies that will 
best achieve the goals of increased broadband deployment, and higher 
speeds, to the greatest population of users.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim DeMint to 
                         Lawrence E. Strickling
    Question 1. The United States broadband market is among the most 
competitive in the world. The FCC reports that more than 90 percent of 
the Nation's population is served by multiple broadband competitors. A 
highly competitive market ensures rapid innovation, deployment, and 
investment. Private investment is why, in a nation as geographically 
and demographically diverse as ours, broadband has gone from 
essentially non-existent to nearly ubiquitous in less than one decade. 
With its focus on greater taxpayer funding of broadband deployment, how 
will this Administration's policies help sustain and encourage the high 
levels of private investment we are accustomed to in the United States? 
What steps will you take to ensure that public investments do not 
substitute, or diminish the incentives, for continued private 
investment?
    Answer. The Broadband Technology Opportunities Program of the 
American Recovery and Reinvestment Act of 2009 has many important 
goals. For example, one of these is to ensure that improved access to 
broadband service to consumers living in ``unserved'' areas of the 
United States. Another purpose of the program is to provide improved 
access to broadband service to consumers residing in ``underserved'' 
areas. Although private investment has been instrumental in getting 
broadband to many segments of the population, the fact remains that 
millions of Americans still do not have access to broadband. And, where 
access is available, adoption of broadband is often lagging due to a 
variety of factors, including cost, service problems, or an under-
appreciation of the economic, educational, and civic benefits that 
broadband can produce. The $7.2 billion allocated by the Recovery Act 
is meant to provide a jump start for viable, sustainable, and scalable 
broadband projects. BTOP funding should serve to promote and enhance 
private-sector investment, and will not supplant the efforts of 
existing providers to serve Americans with broadband. In fact, the Act 
requires that applicants demonstrate that projects would not have moved 
forward on their own. What the BTOP program can do is to support 
innovative, test-bed concepts for broadband expansion that can serve as 
a catalyst and guide for private-sector investment.

    Question 2. Under the Broadband Technology Opportunity Program 
(BTOP), the NTIA will make up to $4.7 billion in grants with taxpayer 
money. Among the conditions imposed on receipts of these grants are 
``nondiscrimination obligations'', to be defined by the NTIA. While I 
believe such vague obligations are a solution in search of a problem, I 
understand the desire to require or limit certain behavior by 
recipients of taxpayer funding. But, even if nondiscrimination 
obligations were necessary, there should be a distinction between how 
such obligations are applied to legal versus illegal activity. For 
example, this requirement potentially will force a grant recipient to 
treat an electronic copy of the Constitution the same as child 
pornography, or a legally downloaded movie the same as a pirated and 
illegally-downloaded copy of the same movie. How will you address the 
distinction between legal and illegal activities when defining 
nondiscrimination obligations? Should recipients of BTOP grants be 
prohibited from treating illegal activities and content on their 
networks differently than legal activities and content?
    Answer. The Recovery Act requires grant recipients to comply with 
all applicable Federal, state and local laws. Federal law prohibits 
copyright piracy. If confirmed, I look forward to working with you and 
members of the Committee to find the most appropriate way to prevent 
copyright piracy and other illegal activities over the Internet.

    Question 3. In 2006, Congress passed the Warning Alert and Response 
Network Act. The purpose of that law was to provide Americans with 
emergency alerts direct to their now ubiquitous wireless devices. The 
Commercial Mobile Service Alert Advisory Committee has handed off a 
road map to the Department of Homeland Security to conduct research, 
development, testing, and evaluation, including Alert Origination, the 
Federal Aggregator, and Gateway, to enable the capabilities necessary 
to deliver emergency alerts from emergency managers to wireless mobile 
devices. If confirmed you would have the responsibility under the WARN 
Act to transfer funds as needed to the Department of Homeland Security 
to conduct these crucial activities as their experts deem most 
appropriate. Can you assure me that you will provide the Department of 
Homeland Security with all the funds they need as requested by them to 
execute this essential program and will not divert funds to other 
projects that could undermine the ability of DHS to conduct the 
research and development necessary to ensure that wireless devices can 
optimally receive emergency alerts generated by America's first 
responders as soon as possible?
    Answer. The creation of a unified national system capable of 
alerting the public, on a national, regional, and local basis to 
emergency situations using a variety of communications technologies is 
an important goal in which NTIA has a key role to play under the 
Deficit Reduction Act and the WARN Act. The WARN Act charged the 
Commercial Mobile Service Alert Advisory Committee with the development 
of the architecture for a national alerting system and the Federal 
Communications Commission (FCC) with the adoption of the process 
through which commercial mobile service providers can voluntarily elect 
to transmit emergency alerts and the requirements for public television 
broadcasters to install the necessary equipment to enable such 
providers to distribute geographically targeted messages. The Deficit 
Reduction Act provided NTIA with $156 million to support a national 
alerting system and the WARN Act charged NTIA with funding certain of 
these activities. To meet its obligations, I understand that NTIA has 
already made available $50 million to the National Oceanic and 
Atmospheric Administration (NOAA) to support a tsunami warning and 
coastal vulnerability program and $10 million for grants to support 
outdoor alerting in remote communities. NTIA has also made over $4.7 
million available to the Department of Homeland Security's Science and 
Technology Directorate to permit the Directorate to plan and design a 
research, development, testing and evaluation program to facilitate the 
transmission of emergency alerts by commercial mobile service 
providers. The WARN Act requires NTIA to use the remaining funds made 
available under the Deficit Reduction Act to compensate public 
television broadcasters for the reasonable costs they incur in 
complying with the FCC's requirements and to make adequate funds 
available to the Directorate for its research program. If confirmed, I 
intend to fully meet both obligations.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                         Lawrence E. Strickling
    Question 1. The stimulus legislation provides for the creation of a 
national broadband strategy. What do you believe should be the 
fundamental components of that strategy? Do you anticipate filing 
public comments on the FCC's national broadband policy proceeding?
    Answer. Since the passage of the Recovery Act, NTIA has been 
working closely with its partners at the Federal Communications 
Commission and the Department of Agriculture's Rural Utilities Service 
(RUS). I would expect NTIA to be active in coordinating with the FCC on 
its plan. Whether that coordination would benefit from NTIA's filing 
public comments would be determined in the course of those discussions.

    Question 2. Can you discuss what you see as the timing of broadband 
funding? Recent reports indicate grants for the first round of funding 
will not be awarded by NTIA until September. Given the primary thrust 
of the stimulus was job creation, can anything be done to speed the 
timing of the awards?
    Answer. The NTIA has been working as expeditiously as possible to 
implement the Broadband Technology Opportunities Program (BTOP). As you 
can imagine, implementing this new program requires significant 
planning, the development of rules, and developing the programmatic 
infrastructure necessary to effectively and efficiently award grants. 
NTIA is committed to ensuring that the public's investment is spent 
wisely. However, while these significant preparations likely mean that 
this fall is the earliest that NTIA will be able to make awards, I will 
take all appropriate steps to ensure that grant funds are distributed 
as quickly as possible, such as rolling awards, to maximize the 
stimulative effect of the program on job creation.

    Question 3. In terms of what constitutes ``unserved'' and 
``underserved'' areas, those terms were largely left to NTIA to 
interpret and define. In your mind, what constitutes an ``unserved'' 
and an ``underserved'' area?
    Answer. Settling on the definition of ``unserved'' and 
``underserved'' must take place before grants can be awarded to 
qualified and eligible applicants. NTIA has received a remarkable level 
of public input in response to its March 2009 Request for Information 
on the definition of these terms as well as a number of other critical 
issues that impact the effective implementation of this program. In its 
upcoming Notice of Funds Availability (NOFA), NTIA will further define 
these terms. And while I am not in a position to make those decisions 
at this time, I do believe there are a number of factors that should 
affect how we determine unserved and underserved areas. For example, 
unserved areas are likely to be those places where households and 
businesses lack access to Internet service at appropriate speed levels. 
As the public comments reflect, the definition of underserved is more 
likely to incorporate a variety of factors--gaps in service, speed, 
cost, to name a few--that impact the public's ability to take full 
advantage of the benefits of broadband service.

    Question 4. The stimulus legislation references non-discrimination 
within the Broadband Technology Opportunity Program. How do you plan to 
comply with this directive while still allowing network providers to 
protect against the illegal transmission of copyrighted material, and 
protect children from dangerous online activity?
    Answer. The Recovery Act requires grant recipients to comply with 
all applicable Federal, state and local laws. Federal law prohibits 
copyright piracy. If confirmed, I look forward to working with you and 
members of the Committee to find the most appropriate way to prevent 
copyright piracy and other illegal activities over the Internet.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                         Lawrence E. Strickling
    Question 1. I have heard concerns in my state regarding middle mile 
projects in underserved areas. The concern is that NTIA may only fund 
last mile applications without considering middle mile projects. Given 
the limited amount of resources would you consider, in ``underserved 
areas'', limiting funding to only projects that seek to build high 
capacity ``middle mile'' infrastructure?
    Answer. In the American Recovery and Reinvestment Act of 2009 
(Recovery Act), Congress required NTIA to award competitive grants 
based upon factors such as whether a grant will increase the 
affordability of, and subscribership to, broadband service to the 
greatest population of users in an area, and provide the fastest 
broadband speeds possible. The Recovery Act also directs NTIA to 
consider the extent to which a grant will increase broadband access to 
public safety agencies, educational institutions, health care 
providers, vulnerable communities, and other stakeholders. In its 
Conference Agreement, Congress specifically expressed its intent that 
middle-mile projects be eligible for funding if they meet the broadband 
needs of the area served. The Recovery Act also provides funding for 
non-infrastructure projects, such as public computing centers and 
programs that will promote broadband adoption. I expect the Notice of 
Funds Availability (NOFA) that NTIA plans to publish this summer will 
describe in much greater detail the criteria by which applications will 
be reviewed and evaluated. I fully expect middle-mile projects to be 
among the innovative and cost-effective proposals that will meet the 
goals established by Congress in the Recovery Act. However, in light of 
statutory requirements, I do not believe it would be appropriate to say 
that all grants to underserved areas can or should be limited to 
middle-mile projects, particularly in light of the directive to fund 
other categories of projects.

    Question 2. It seems limiting these areas to receiving money for 
``middle mile'' projects would ensure significant broad-based 
improvements in high-speed broadband availability is possible without 
creating a competitive disadvantage for existing reliable ``last mile'' 
providers, such as existing cable and phone providers who have already 
made private investments, and who already have a proven track record of 
operating networks successfully. Do you agree?
    Answer. For the reasons stated in my previous response, I cannot 
say that all grants to underserved areas will be limited to middle-mile 
projects, particularly in light of the statutory directive to fund 
other categories of projects. However, I would expect NTIA, in making 
grants, to take account of the presence and status of existing 
providers, as those factors will help inform where and how broadband 
grants can best promote improved broadband service and adoption in that 
community.
                                 ______
                                 
    Response to Written Question Submitted by Hon. David Vitter to 
                         Lawrence E. Strickling
    Question. Are there security concerns around the running of the 
core infrastructure of the Internet that should be addressed before the 
U.S. Government gives up oversight of ICANN? For example, should NTIA 
agree to ICANN's plan to take over all security management for the 
Internet root zone?
    If the Department of Commerce allows the ICANN Joint Partnership 
Agreement to expire, what oversight mechanisms will there be to ensure 
accountability absent the Department of Commerce? How will the input of 
private sector stakeholders be incorporated into such oversight 
mechanisms? The proposed plan suggests that doing away with the ICANN 
Board is the answer, but there are concerns that such a change would 
not be a viable option. Also, we have heard a clear message from the 
United Nations, which thinks it should manage Critical Internet 
Resources instead of the private sector. Do you agree with this 
assessment?
    Answer. If confirmed, my goal will be to continue to preserve the 
security and stability of the Internet's domain name and addressing 
system (DNS) and my decision with respect to the future of the Joint 
Project Agreement (JPA) will be consistent with that goal. I understand 
that NTIA released on April 24th, a Notice of Inquiry (NOI) seeking 
comments on these issues. The public record developed through this 
process will also inform any decision made about the JPA's future and I 
look forward to working with you and the Committee on this important 
issue.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Sam Brownback to 
                         Lawrence E. Strickling
    Question. The U.S. benefits from more private broadband investment 
than any other country. In 2008, it is my understanding that U.S. 
broadband providers invested more than companies in Japan, France, UK 
and Germany combined. Can you discuss how the Administration can help 
sustain this level of private investment, especially in today's 
challenging economic environment?
    Answer. The Broadband Technology Opportunities Program of the 
American Recovery and Reinvestment Act of 2009 has many important 
goals. For example, one of these is to ensure that improved access to 
broadband service to consumers living in ``unserved'' areas of the 
United States. Another purpose of the program is to provide improved 
access to broadband service to consumers residing in ``underserved'' 
areas. Although private investment has been instrumental in getting 
broadband to many segments of the population, the fact remains that 
millions of Americans still do not have access to broadband. And, where 
access is available, adoption of broadband is often lagging due to a 
variety of factors, including cost, service problems, or an under-
appreciation of the economic, educational, and civic benefits that 
broadband can produce. The $7.2 billion allocated by the Recovery Act 
is meant to provide a jump start for viable, sustainable, and scalable 
broadband projects. BTOP funding should serve to promote and enhance 
private-sector investment, and will not supplant the efforts of 
existing providers to serve Americans with broadband. In fact, the Act 
requires that applicants demonstrate that projects would not have moved 
forward on their own. What the BTOP program can do is to support 
innovative, test-bed concepts for broadband expansion that can serve as 
a catalyst and guide for private-sector investment.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                            to John Porcari
    Question 1. The Essential Air Service (EAS) program funds subsidies 
that allow airlines to provide critical air service to small and rural 
communities. President Obama recently committed in his FY 2010 budget 
proposal to provide a significant increase to the EAS program. In 
addition to this funding increase, what steps do you believe should be 
taken to improve the effectiveness of this program?
    Answer. The Essential Air Service program provides a vital link to 
the national air transportation system for many communities across the 
country. The EAS program, however, has remained fundamentally unchanged 
since its inception while the aviation landscape has changed 
dramatically with the spread of the hub-and-spoke system, regional 
jets, and low-fare carriers. If confirmed, I would like to actively 
review the challenges facing EAS and work closely with Congress to 
develop a more efficient and sustainable program that ensures the 
program remains responsive to the needs of rural America.

    Question 2. What challenges, if any, do you see to implementing the 
national surface transportation policy, objectives and goals that are 
included in the Rockefeller-Lautenberg Federal Surface Transportation 
Policy and Planning Act of 2009 that was introduced last week. How do 
you believe the Federal Government can best work with states to ensure 
effective implementation of the policy, objectives, and goals?
    Answer. Many experts in the transportation industry believe that 
the pending reauthorization of surface transportation programs is an 
opportunity to focus Federal policy and investment around the pursuit 
of important national goals. The Rockefeller-Lautenberg proposal would 
do just that. The mechanics of how these goals are translated into 
investment plans at the state and local level are complicated, but goal 
setting is the right place to start. If confirmed I look forward to 
working with this Committee and others to determine how best to achieve 
our national goals.

    Question 3. The American Recovery and Reinvestment Act of 2009 
provides significant funding to several programs within the Department, 
including unprecedented funding of intercity passenger rail grant 
programs. What mechanisms should be in place for effective oversight of 
selected projects?
    Answer. I have been pleased to learn that extensive actions are 
underway to assure effective oversight of the American Recovery and 
Reinvestment Act of 2009 (ARRA) funds at DOT. In addition to the $20 
million that Congress provided to the Inspector General, the active 
oversight by the Government Accountability Office, and the supervision 
within the entire Executive Branch by the new Recovery Accountability 
and Transparency Board, the Office of Management and Budget has 
specified comprehensive and systematic ``Risk Assessment'' procedures 
for the expenditure of ARRA funds. Furthermore, these activities are 
being publicized by the Recovery.gov team for maximum transparency.

    Question 4. Currently, the transportation sector is the largest 
contributor of greenhouse gas emissions in the United States. What 
efforts should the Department take to reduce overall transportation 
emissions in the short-term, while still making the movement of people 
and goods more sustainable in the long-term?
    Answer. Under the President's leadership the Department is already 
taking steps to lower greenhouse gas emissions from transportation. 
Just yesterday the President announced a plan under which NHSTA will 
issue fuel economy standards for new cars and light trucks starting in 
2012 that will bring the mileage of the U.S. fleet to its highest level 
ever. In addition, the surface transportation reauthorization is an 
opportunity to build on this progress by choosing investments that will 
lead to a less carbon-intensive transportation system over the long 
term.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                              John Porcari
    Question 1. The State Highway Departments in Arkansas and Missouri 
will soon jointly submit an application for a grant for the Bella Vista 
Bypass project to be part of the American Recovery and Reinvestment Act 
(ARRA) Discretionary Grant Program, which provided $1.5 billion for 
Secretary LaHood to use at his discretion.
    This program was designed by Congress to be used by the Secretary 
to provide funding on a competitive basis to state and local 
governments or transit agencies for surface transportation projects 
that will have a significant impact on the Nation, a metropolitan area, 
or a region. The minimum dollar amount for the grant is $20 million and 
the maximum is $300 million.
    The Bella Vista Bypass, which is an integral portion of the future 
I-49 Interstate Corridor, clearly fits the mold for projects that 
should be funded under this new account. What role will you have in 
helping the Secretary on Recovery Act funds including this 
discretionary grant program? Would you please ensure that DOT takes a 
close look at this important project as you review incoming 
applications?
    Answer. I am told that Deputy Secretary Thomas Barrett has had a 
major role in the implementation of the American Recovery and 
Reinvestment Act of 2009 at the Department of Transportation (DOT) and, 
if asked to take a similar role by Secretary LaHood, I would make this 
a high priority as Deputy Secretary. The $48 billion appropriated the 
Department can and will play a critical role in reviving the National 
economy and addressing important transportation infrastructure needs of 
the Nation at the same time. The $1.5 billion Discretionary Grant 
Program you refer to offers a unique opportunity to target the most 
promising surface infrastructure projects we have.
    The merit-based criteria for project selection were recently 
published, as I'm sure you know, and they lay out the methodology that 
will guide the Department in making awards. The project you describe 
would, if submitted, certainly receive a full review by the staff 
involved.

    Question 2. I noticed that during your time as Secretary of 
Transportation for the State of Maryland that you oversaw multiple 
modes of transportation. Giving the funding needs to maintain and 
expand our transportation infrastructure, would you briefly share your 
thoughts on traditional funding mechanisms like fuel taxes and newer, 
innovative funding mechanisms such as tolling, congestion pricing, and 
freight fees?
    Answer. I know that the Department is exploring a great number of 
issues in preparation for surface transportation reauthorization. 
Perhaps the most important and challenging is the question of future 
funding of the highway and transit programs and restoration of the 
health of the Highway Trust Fund. Many options have been widely 
discussed and promoted for funding these programs, including those 
presented in the recently published final reports of the two national 
commissions established in SAFETEA-LU: the National Surface 
Transportation Infrastructure Financing Commission and the National 
Surface Transportation Policy and Revenue Study Commission.
    I agree with the two SAFETEA-LU commissions that we need to explore 
more sustainable revenue sources than the fuel tax to support the 
Highway Trust Fund.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                              John Porcari
    Question 1. Mr. Porcari, You oversaw the Maryland State Highway 
Administration's efforts to make U.S. Route 301 the Nation's first 
``green'' highway, which incorporates new storm water management, 
recycled materials, and ecosystem conservation techniques. How will DOT 
under your leadership work to further advance ``green highway'' 
technologies and practices to make our Nation's road system more 
environmentally sustainable?
    Answer. I know that DOT is committed to advancing environmentally 
sensitive transportation infrastructure. Minimizing damage from, and 
mitigating negative impacts of, transportation facilities on the human 
and natural environments is important for federally-assisted 
transportation projects, from the initial planning and design stages, 
through development and construction, to operation and maintenance. If 
confirmed, I expect to continue DOT's efforts to achieve a balance 
between environmental challenges and the need for a safe and efficient 
transportation network. DOT has fostered a shift in the transportation 
community from simply mitigating environmental impacts to actively 
contributing to environmental improvements, and has provided leadership 
and funding to advance transportation agencies along the continuum of 
environmental stewardship.
    I would actively engage in DOT's efforts to advance initiatives 
that support broader community and societal issues such as: 
coordination between land use and transportation; supporting reduction 
in emissions to meet climate change goals and adapt transportation 
infrastructure. We need to provide leadership in achieving the goal of 
having a transportation system support sustainability objectives. 
Secretary LaHood's livability initiative establishes a framework for 
DOT to advance mobility choices and increase quality of life.
    Our ability to deliver the Federal Aid program will be dependent on 
mainstreaming these livability and green highway initiatives into 
regulatory a framework with Federal and state resource agencies. We 
will also need to support continued research on environment and 
transportation issues. By building strong relationships with resource 
agencies and all our constituencies, the Department can deliver green 
transportation projects and ultimately a green transportation system.

    Question 2. Mr. Porcari, The state of New Mexico is aggressively 
addressing the problem of drunk driving through a combination of 
enforcement and education efforts. Yet in 2007 alone, there were still 
169 fatal alcohol-related crashes in my state. Although the last 
highway bill provided grant programs to help states tackle the problem 
of drunk driving, it is a still a problem of great concern. What would 
you do as Under Secretary for Transportation Policy to further efforts 
to reduce drunk driving?
    Answer. The State of New Mexico is to be commended for its 
remarkable rate of progress over recent years in reducing drunk 
driving. I was very impressed by Governor Richardson's announcement 
earlier this year that the number of DWI-related deaths in New Mexico 
has decreased 35 percent since 2002. Yet I fully agree that even at 
this reduced level, there are still far too many drunk driving deaths--
in New Mexico and across the Nation--and we need to continue looking 
for every possible remedy for this problem.
    If confirmed as Deputy Secretary for Transportation, I will work 
with my colleagues in the Department to provide the leadership, 
guidance and resources that States need to address the drunk driving 
problem. I believe it is important that the Department assist States by 
highlighting effective strategies and providing technical assistance 
and available resources that allow States flexibility in implementing 
solutions that best address their specific circumstances. States need 
support in assessing and adopting a range of potential countermeasures, 
including effective public awareness campaigns, law enforcement 
operations, and improvements in adjudication and sanctioning systems, 
including the use of ignition interlocks.

    Question 3. New Mexico further requires those convicted of drunk 
driving to use ignition interlock devices, an inexpensive technology 
endorsed by Mothers Against Drunk Driving and mandated by eleven states 
to help prevent repeat offenses.
    Do you support requiring the use ignition interlock devices (or 
similar devices) for drunk driver offenders? How could the use of such 
technology be encouraged nationwide by the Dept. of Transportation?
    Answer. I believe that technology plays an important role in 
addressing the Nation's drunk driving problem. Ignition interlocks have 
proven effective in preventing repeat drunk driving offenses and are 
increasingly being adopted by states as part of their legal system for 
addressing this problem.
    The Department of Transportation can play an important role in 
furthering use of ignition interlocks by evaluating State approaches 
for administering interlock programs, creating guidance to steer 
efforts to improve the deployment of interlocks and providing technical 
assistance to States which adopt or strengthen interlock laws.

    Question 4. President Obama's vision for high speed rail identifies 
ten high-speed rail corridors as potential recipients of Federal 
funding. However, none of these corridors is in the southwest. Why is 
the southwest region of the U.S. left out of consideration for a high 
speed rail corridor? What work or planning would need to be done at the 
state, regional, and/or Federal level in order for the southwest to 
become part of DOT plans for high speed rail?
    Answer. The Department`s strategic plan, Vision for High-Speed Rail 
in America, includes a discussion of the ten designated high-speed 
corridors in the background section in identifying efforts that had 
been undertaken by the Federal Government over the past twenty years to 
lay the groundwork for an expansion of high speed rail and intercity 
passenger rail in America. The corridor designations were based on 
State applications for corridors expected to achieve 90 miles per hour 
for grade crossing safety purposes. The American Recovery and 
Reinvestment Act of 2009 provides $8 billion to the Secretary for 
expenditure on three different rail passenger programs with the 
allocation among the programs to be decided at the Secretary's 
discretion. The three programs are capital investment grants to support 
intercity passenger rail service (authorized by section 301 of the 
Passenger Rail Investment and Improvement Act of 2008 (PRIIA)), 
congestion grants (authorized by section 302 of PRIIA), and high-speed 
rail corridor development (authorized by Section 501 of PRIIA). Only 
the high-speed rail corridor development program is limited to 
designated high-speed rail corridors (see 49 U.S.C.  26106(b)(2)). 
This is not a significant limiting factor for Recovery Act funding 
because of the broad discretion provided to the Secretary under the 
Recovery Act. The strategic plan indicates that DOT will have three 
separate ``tracks'' for funding under the Recovery Act and available 
annual appropriations: (1) grants to complete individual projects 
eligible under the intercity passenger rail service program ( 301) and 
the congestion program ( 302) for the benefit of existing services; 
(2) cooperative agreements to develop entire segments or phases of 
corridor programs eligible under the intercity passenger rail service 
program ( 301) and high-speed rail corridor development program ( 
501) benefiting new or existing services; and (3) cooperative 
agreements for planning activities (including development of corridor 
plans and State Rail Plans eligible for funding under Section 301 of 
PRIIA) using non-Recovery Act funds. This third track provides States 
an opportunity to prepare themselves for any funding remaining in 
subsequent application processes under the Recovery Act and/or future 
year appropriations. Applicants located in the southwest region of the 
United States are eligible to apply for grant funds under any of the 
three tracks to the same extent as applicants in other regions of the 
country. Application requirements building on the proposed strategy 
outlined in pages 13-18 of the strategic plan will be identified in the 
Department's application guidance that will be issued on or before June 
17, 2009. The Federal Railroad Administration is holding a series of 
High-Speed and Intercity Passenger Rail Workshops to seek input from 
the rail community in seven regions across the country. One of those 
sessions will be held in Houston, Texas on May 29, 2009.
                                 ______
                                 
Response to Written Question Submitted by Hon. Kay Bailey Hutchison to 
                              John Porcari
    Question. Emergency Medical Helicopter Airline Deregulation Act 
``Carve-out'' Issue: Being the Secretary of Transportation in Maryland, 
I'm sure you are aware of the outstanding issues regarding medical 
helicopter safety and regulation because of the high profile accident 
in your state last year. Some in the medical helicopter community have 
proposed `carving out' the medical helicopter industry from the Airline 
Deregulation Act (ADA) of 1978. This Committee has always been 
reluctant to dilute, exempt or make special carve outs for industries 
as it pertains to the ADA. Do you believe the Department could simply 
issue letters of decision on disputed areas versus a change in the law?
    Answer. While I am well aware of the underlying issue because of 
the tragic accident you refer to, the ``preemption'' issue in this 
context is new to me. If confirmed, I would focus on the area of 
emergency medical services because of its obvious significance. I am 
told that the Department welcomes requests for guidance on whether 
particular State regulations comply with the preemption provision of 
the Airline Deregulation Act. Case-by-case determinations permit the 
Department to carefully address each fact-specific situation 
appropriately. If Congress were to consider legislation in this area, I 
understand the Department believes a comprehensive study beforehand, to 
gather data on whether any systemic problem exists, would be a best 
first step.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                              John Porcari
    Question 1. As a member who represents a large rural state, I am 
very concerned about how the next highway reauthorization measure will 
impact our State's ability to adequately fund our roads, highways, and 
bridges. Given your first-hand knowledge and experience with the 
Federal Highway program, you have a unique understanding of its 
importance to a state's ability to meet its transportation needs.
    The President's recent budget shows the Highway Trust Fund is 
perhaps even in a worse situation than we knew--that as of September 
30, 2009, the Highway Account will only have $950 million cash on hand. 
The administration is proposing that $36 billion in general funds be 
appropriated to augment what is available from the Trust Fund for 
FY2010, for a total program of $41.8 billion--meaning almost the entire 
program would be paid for out of the Treasury next year. What are your 
views concerning the current shortfall in the Highway Trust Fund? How 
can we most responsibly provide for continued, adequate funding to 
ensure we truly continue a ``national'' transportation system?
    Answer. Addressing the shortfall in the Highway Trust Fund will be 
a major challenge in enacting surface transportation legislation. The 
treatment of this shortfall in the budget is intended to be an 
indication of the nature of the budgetary problem that needs to be 
addressed, rather than a specific proposal for how the shortfall should 
be funded. The condition, performance and safety of our transportation 
infrastructure are important and we will need the best and most 
creative thinking from both the Executive Branch and the legislative 
branch and a willingness to work together to address these important 
issues. If confirmed, I pledge to work as part of that team.

    Question 2. Our Nation's surface transportation policies need to be 
crafted in a manner that strikes a proper balance among the many 
competing needs and many diverse geographic areas throughout the 
country. Do you agree that our national surface transportation policy 
must provide investment in a manner that ensures continued connections 
to and through rural states, and access for rural states to the larger 
transportation system? What are your thoughts on how best to strike the 
proper balance among rural and urban transportation needs?
    Answer. I believe we need to look at transportation from a national 
perspective and identify the best ways to link points of population and 
commerce, including the farms where our food is grown, the industrial 
areas, recreational opportunities, and the land borders and ports. It 
is not possible to have a healthy economy while ignoring a significant 
part of the Nation. If confirmed, I want to work with you to develop or 
improve our surface transportation programs to provide the surface 
transportation systems that our Nation needs and our people deserve.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                              John Porcari
    Question 1. As you know, the House version of the 2009 FAA 
Reauthorization Act would sunset the antitrust immunity (ATI) for 
existing airline alliances, resulting in the loss of 15,000 U.S. 
airline jobs and having a ripple effect across the travel and tourism 
industry. The proposal to sunset current antitrust immunity for airline 
alliances also comes with the risk that the DOT will lose the authority 
to grant it altogether in the future. Do you believe ATI has been 
beneficial for consumers? Do you believe it should be sunsetted? What 
impact on future air transport negotiations, particularly with critical 
markets such as Japan, China, Mexico, and Brazil do you believe 
sunsetting ATI will have? What impact on ongoing negotiations for a 
second stage air transport agreement, with the EU do you believe it 
will have?
    Answer. It is my understanding that the Department thoroughly 
analyzes each application for antitrust immunity and only approves 
those that are pro-competitive and pro-consumer. With regard to the 
impact of antitrust immunity on aviation relations with foreign 
countries, it is my understanding that, historically, the ability of a 
foreign country's airlines to apply for antitrust immunity has proven 
to be a valuable incentive in negotiating and achieving open skies 
between the United States and the foreign country. I believe this was 
the case with the recent U.S.-Europe open-skies agreement.

    Question 2. Before joining the Commerce Committee I served on the 
Environment and Public Works Committee, and was Ranking Member on the 
Subcommittee on Transportation and Infrastructure which, as you know, 
writes a large portion of the surface transportation authorization 
bill. One of the issues we were looking at in my Subcommittee was how 
we would fund our highways trust fund moving forward. As you know 
Oregon has just completed piloting a ``vehicles miles traveled'' (VMT) 
funding program. What are your thoughts on VMT's as a funding stream 
for the highway trust fund?
    Answer. I know that the Department is exploring a great number of 
issues in preparation for surface transportation reauthorization. 
Perhaps the most important and challenging is the question of future 
funding of the highway and transit programs and restoration of the 
health of the Highway Trust Fund. Many options have been widely 
discussed and promoted for funding these programs, including those 
presented in the recently published final reports of the two national 
commissions established in SAFETEA-LU: the National Surface 
Transportation Infrastructure Financing Commission and the National 
Surface Transportation Policy and Revenue Study Commission. Both 
reports indicate that a mileage-based user fee may be a feasible long-
term alternative to the fuel tax for funding surface transportation 
programs. Each Commission also recommended that identifying a long-term 
alternative to the fuel tax should be a high priority in the next 
authorization.
    I agree with the two SAFETEA-LU commissions that we need to explore 
more sustainable revenue sources than the fuel tax to support the 
Highway Trust Fund. Before settling on a mileage-based user fee or any 
other option, however, I think we should examine all potential revenue 
sources.
    The long-term option of replacing the existing fuel tax with a 
mileage-based user fee has many positive attributes, but it would 
require major, and some argue costly, administrative changes that might 
take many years to fully implement. Many other technical and 
institutional issues such as privacy concerns must also be resolved 
before a mileage-based user fee could be implemented. As the two 
national commissions recommend, I think further work to investigate 
long-term surface transportation funding options, including a mileage-
based user charge, should be undertaken during the next authorization.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                                  to 
                             Aneesh Chopra
    Question 1. One of the main roadblocks to a comprehensive 
interoperable health IT system is the often prohibitive upfront costs 
of purchasing and licensing the technologies. Some have recommended the 
use of open source technologies to reduce cost, and speed the 
implementation, of health IT networks. However, you've spoken in favor 
of an `open collaboration' approach to technology development. These 
two terms are not synonymous. Can you describe the difference between 
open source and open collaboration? Are there aspects of open source 
software that you find lacking or insufficient for government needs?
    Answer. First, I thank you for these questions because speeding the 
advancement of affordable health IT solutions is among my highest 
priorities should I have the opportunity to serve in the Obama 
Administration. Open collaboration includes open source software 
solutions, but also more broadly covers shareable intellectual property 
built on proprietary software solutions. If helpful, I'll elaborate a 
bit more by defining each below:
    Open Source: From my perspective, this refers to the method by 
which software is developed--typically through a collaborative 
approach. This means often unrelated individuals or organizations work 
together, often in an ad-hoc manner, to deliver software that is of 
common interest. Key to this model is that the entirety of the 
intellectual property encourages sharing and collaboration (for 
example, under the General Purpose License) and allows for the 
distribution of source code or other related artifacts.
    Open Collaboration: From my perspective, this refers to the method 
by which software is implemented--typically through a synchronous 
(multiple implementations at the same time) or asynchronous (one 
implementation at a time) approach. This means often unrelated 
individuals or organizations collaborate in a manner to share in the 
implementation, configuration or customization of a chosen software 
product. It applies equally to open source and proprietary software 
applications.
    When proprietary software is used, only the intellectual property 
assets that are explicitly allowed by the vendor, systems integrator, 
or sponsoring organization may be shared. In these open collaboration 
models, the collaboration often uses an open licensing scheme like 
Creative Commons to share the best practices, business process 
documentation, implementation configurations, training materials or 
other software implementation artifacts.
    As Virginia's Secretary of Technology, I appointed a Senior Advisor 
for Open Collaboration (see http://www.Governor.virginia.gov/
MediaRelations/NewsReleases/viewRelease.cfm?id=806) who is an award-
winning local government CIO who successfully implemented a number of 
traditional open source software solutions and promoted open 
collaboration solutions built on proprietary software.
    With respect to my preference for open collaboration, the issue is 
largely one of where I see the most leverage for savings. I'm less 
interested in the software license cost as I am the implementation 
costs associated with meeting a physician practice's current and 
prospective health improvement needs. For example, does the practice 
wish to implement a patient registry with alerts notifying patients of 
needed prevention services? Open collaboration allows for the sharing 
of intellectual property in the development of healthcare improving 
technology functionality while allowing maximum flexibility for 
physicians in selecting the underlying platform.
    If confirmed, I look forward to actively working with you and your 
staff on ensuring low-cost options are available for the adoption of 
HIT, especially in those communities where physician practice incomes 
would have difficulty sustaining the investment.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                             Aneesh Chopra
    Question 1. Over the past year, we have seen a number of reports of 
cyber-intrusions into government networks. The Office of the Director 
of National Intelligence is currently in the process of completing a 
60-day review of national cybersecurity policy, and the Pentagon is 
also reviewing its cybersecurity policies. In your ``dual'' role as 
Chief Technology Officer and Associate Director of OSTP, what do you 
see as your role in ensuring that we have an effective, national 
cybersecurity strategy?
    Answer. If confirmed, it would be my responsibility to ensure that 
the Federal Government pursues a course of responsible adoption of 
technologies that can improve the efficiency, effectiveness and 
transparency of government and improved delivery of government services 
for the American citizen. In the case of information technologies, part 
of that responsibility would include working with the Federal CIO, the 
CIO Council, DHS, and other stakeholders in the Federal Government to 
ensure that adopted technologies are safe and reliable. Since most 
intrusions are the result both of vulnerabilities in the information 
technology systems and improper configuration or use, I would stress 
both improvements in the security of Federal IT systems and a robust 
training and awareness program for the Federal workforce on the 
importance of good security practices.
    Addressing the immediate cybersecurity needs of the Federal 
Government is essential; however, as the Associate Director of OSTP for 
Technology, my responsibility would also include providing guidance for 
the prioritization and coordination of advanced technology research in 
the Federal Government, including research in cyber security.
    If confirmed, I would emphasize a research program on ``game-
changing'' ideas in cybersecurity, to find new ideas that might 
transform the Nation's information infrastructure to be more secure and 
simpler to understand and use. The goal is to make it `easy to do the 
right thing, hard to do the wrong thing, and easy to recover when the 
wrong thing happens anyway.'

    Question 2. In your role as the Chief Technology Officer for the 
Commonwealth of Virginia, you oversaw several programs that implemented 
geospatial technology to support the efficient delivery of government 
services. Under your leadership, the Commonwealth successfully 
coordinated with local governments in order to share resources, to 
provide better citizen service, and to implement cost avoidance 
procedures across state and local agencies.
    Would you share with us your plans, in cooperation with the 
National CIO, for overseeing high level coordination that fosters 
innovation in geospatial technology, and supports a national spatial 
data infrastructure (NSDI) that can be leveraged at all levels of 
government and the private sector?
    Answer. Virginia's Geospatial strategy has indeed been a successful 
example of state and local collaboration, fueled by thoughtful public 
policy codifying a statewide board to lower costs, spur innovation 
applications and creative public-private partnerships.
    If confirmed, I would look forward with the Federal CIO on the key 
strategies that led to Virginia's success:

        1. Shared Services: Virginia benefited from the deployment of 
        shared geospatial technology products and services, including 
        statewide imagery collection. By pooling our scarce public 
        dollars, we were able to afford higher resolution imagery at 
        lower cost. In addition to shared costs, another benefit of 
        coming together is the development of a ``meta-data'' library 
        to simplify the sharing of data sets across agency and between 
        the public and private sectors.

        2. Application Development Platform: Once a shared service is 
        in place, it lowers the marginal cost to deploy innovative 
        applications. A relevant example given the current priority 
        placed on broadband is the no-cost deployment of a statewide 
        broadband availability map (accessible at http://
        gismaps.virginia
        .gov/BroadbandMappingFinal/) that took advantage of the 
        technical infrastructure made available through Virginia's CIO.

        3. Public-Private Partnerships: Virginia is focused on 
        innovative partnerships to leverage capabilities and further 
        our goals with limited resources. Recent examples include 
        partnership agreements with Microsoft and Google to deliver 
        Virginia's more robust imagery into private sector mapping 
        platforms for public use. In addition, Virginia's partnership 
        with NAVTEQ demonstrated the benefits of data sharing with 
        NAVTEQ benefiting from Virginia's higher resolution imagery and 
        Virginia's state agencies benefiting from NAVTEQ's premium data 
        services, including GIS routing capabilities.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Aneesh Chopra
    Question 1. Eric Schmidt, the CEO of Google has written that, 
``We're moving into the era of `cloud' computing, with information and 
applications hosted in the diffuse atmosphere of cyberspace rather than 
on specific processors and silicon racks. The network will truly be the 
computer.'' Some experts say Cloud computing could be as important and 
as disruptive as the World Wide Web. Do you agree? What should the 
Obama Administration do to realize the benefits of ``Cloud computing''?
    Answer. Cloud computing has a number of advantages, including 
reduced cost, increased storage, higher levels of automation, increased 
flexibility, and higher levels of employee mobility. The Federal 
Government should be exploring greater use of cloud computing where 
appropriate. The President's Chief Information Officer, Vivek Kundra, 
has already convened a committee of the CIO Council to engage on this 
topic and surface recommendations for agency adoption.
    We also need to educate the next generation of computer scientists 
and programmers in developing software, algorithms, and applications 
that will take advantage of cloud computing. NSF, for example, has 
already developed partnerships with several of the leaders in cloud 
computing that will increase access to the latest technology at 
colleges and universities across the country. This will position the 
U.S. to lead in the future development of this critical technology.

    Question 2. Today, there are about 1.5 billion computers and 
smartphones connected to the Internet. Yet in a few years, there could 
be hundreds of billions of devices, sensors, and appliances connected 
as well. Some people call this the ``Internet of Things'' or sensor 
nets. Networked sensors could help monitor the environment, provide 
early warning of natural disasters, reduce traffic congestion, and save 
companies (and government agencies) billions of dollars. What do you 
think the government's role should be in the development of the 
``Internet of Things''?
    Answer. If confirmed, I look forward to working with you on at 
least two levers for government to assist in the development of the 
``Internet of Things'':

        1. Investments in R&D

        2. Procurement/Grants Aligned to the President's Policy 
        Priorities

    Government agencies such as NSF and DARPA have already been 
actively involved in supporting R&D and testbeds related to pervasive 
computing and wireless sensor networks. For example, NSF has a research 
program called ``Sensors and Sensing Systems.'' DARPA has been 
supporting research that combines novel approaches to sensing, sensor 
processing, sensor fusion, and information management to enable 
pervasive and persistent surveillance of the battlespace. Agencies 
participating in the Networking Information Technology Research and 
Development (NITRD) Program have identified ``cyber-physical systems'' 
as a top priority--which is directly relevant to an ``Internet of 
Things.''
    If confirmed, I look forward to furthering the development of the 
``Internet of Things'' by aligning opportunities to the President's key 
priorities in healthcare, energy, education and job creation. For 
example, devices capable of monitoring a patient's health condition in 
the home might contribute to the President's goal of bending the 
healthcare cost curve and might qualify for support among a number of 
Federal programs. Through grants and other procurement vehicles, the 
government might contribute to the growth of this industry by 
supporting early-stage product adoption and testing.

    Question 3. The State of New Mexico has adopted EPEAT standards for 
the procurement of environmentally preferable electronic products. This 
decision ensures New Mexico contributes to the national reduction of 
3,220 metric tons of toxic materials, 174 million metric tons of 
carbon/greenhouse gas emissions, and 42.2 billion kilowatt hours of 
electricity consumption. That electricity savings is equivalent to the 
annual electricity consumption of almost 4 million households. In your 
role as President Obama's ``Chief Technology Officer,'' would you 
encourage Federal Government procurement requirements for electronic 
equipment that helps reduce ``e-Waste,'' energy consumption, and 
greenhouse gas emissions?
    Answer. First, I wish to applaud your home state for leadership on 
this important issue. It is my understanding that Federal agencies are 
following a similar path. On January 15, 2009, pursuant to the Energy 
Policy Act of 2005 and Executive Order 13423, the Civilian Agency 
Acquisition Council and the Defense Acquisition Regulations Council 
adopted a Federal Acquisition Regulation rule that requires the use of 
the EPEAT when acquiring personal computer products.
    If confirmed, I intend to work closely with the Federal CIO and the 
President's Chief Performance Officer on strategies to encourage agency 
management to consider the energy implications of technology 
procurements.

    Question 4. A recent GAO report (08-1044) found that more than 300 
million electronic devices entered the U.S. waste stream in 2006, and 
that North America was the primary exporter of potentially harmful 
electronic devices to developing countries where they are often 
recycled by crude and inefficient means that endanger human health and 
environmental protection. How do you propose reducing the Federal 
Government's electronic equipment waste stream? How would address you 
this issue in your role as Chief Technology Officer?
    Answer. If confirmed, I look forward to working with you and your 
staff on developing a set of strategies to reduce the Federal 
Government's electronic equipment waste stream. In general, I would 
focus on three simple concepts:

        1. Reduce Waste: In part, with the use of EPEAT in technology 
        procurement, we should have greater confidence our acquisition 
        strategies will minimize downstream waste.

        2. Expand Reuse: In Virginia, I assisted in the launch of the 
        Virginia STAR program (http://www.Governor.virginia.gov/
        MediaRelations/NewsReleases/view
        Release.cfm?id=840) which recycled older computers into high 
        schools that refurbished them as part of a larger student 
        training effort. We were particularly proud of this program 
        because it aligned two of our priorities--the Governor's energy 
        agenda and his commitment to workforce training for all 
        Virginians (many kids working on the refurbished computers were 
        not enrolled in technology classes before). Finally, our 
        initial program involved donations from the Social Security 
        Administration.

        3. Component Recycling: For those components that are difficult 
        to reuse, it is possible to find public/private/non-profit 
        partnerships to pursue alternatives.

    As Chief Technology Officer, I will have the opportunity to convene 
working groups interested in pursuing strategies that intersect the 
President's priorities with technology and innovation.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                             Aneesh Chopra
    Question 1. NASA is both an important user and a significant 
creator of Technology products, systems and architectures. It is also 
in the midst of several initiatives to consolidate the management it 
its information technology (IT) infrastructure, as well as enhancements 
to its data security practices. NASA also applies its technology 
development resources to carrying out programs unlike anything done by 
any other Federal agency, especially in the human spaceflight arena. It 
is important that government-wide coordination or initiatives in 
technology development, in general, and information technology in 
particular, takes into account the unique mission challenges facing an 
agency like NASA, and ensure that inter-agency coordination, 
cooperation and standardization serve to further enable or enhance the 
ability to address those specific missions and challenges.
    What steps will you take to ensure that any new or existing 
government-wide coordination or initiatives in technology development, 
in general, and information technology in particular, take into account 
the unique mission challenges facing an agency like NASA, and ensure 
that inter-agency coordination, cooperation and standardization serve 
to further enable or enhance the ability to address those specific 
missions and challenges?
    Answer. If confirmed, I intend to work closely with the Federal CIO 
on ensuring NASA's active participation in and contribution to 
information technology initiatives. That said, it is my understanding 
that NASA already actively participates in myriad government-wide 
working groups, committees, and subcommittees to ensure appropriate 
inter-agency coordination, cooperation and standardization. For 
example, NASA has reported that it is engaged and aligned with Federal 
initiatives to improve Information Technology (IT) security, such as 
implementation of the Federal Desktop Core Configurations (FDCC), 
Trusted Internet Connection (TIC), and all aspects of the Federal 
Information Security Management Act (including certification and 
accreditation of systems, contingency planning and testing). In 
addition, NASA is heavily engaged with the National Institute of 
Standards and Technology in the FDCC testing activities.
    To streamline its operations, NASA participates in several E-
Government initiatives to consolidate and standardize systems across 
the government, such as the IT Security Line of Business, E-Travel, E-
Training, Business Gateway, and Integrated Acquisition Environments. In 
addition, the NASA CIO actively participates on the Federal CIO 
Council, monitoring and supporting, as appropriate, activities and 
initiatives being driven by the Federal CIO and OMB.
    On the programmatic side, NASA maintains and plans to continue key 
partnerships with industry and other Federal agencies in the conduct of 
NASA business. NASA policy requires that technology development be 
carefully considered during the development and execution of programs--
whether they are for human space flight or aeronautics research. For 
example, programs generally require the following plans including: Risk 
Management Plan, Technology Development Plan, Mission Operations Plan, 
Information and Configuration Management Plan, Security Plan, and an 
Export Control Plan.
    As CTO, I will work to ensure that NASA is a full participant in 
these relevant interagency activities and that lessons learned at NASA 
and other agencies are shared to maximize the benefit across the 
Federal Government enterprise.

    Question 2. Senators are frustrated with cost overruns and 
continued delays in the NPOESS (National Polar-orbiting Operational 
Environmental Satellite System), the new weather-monitoring satellites 
which is being built by NOAA, NASA and the Defense Department. Many are 
calling for the Administration to take a fresh look at this program and 
develop a plan forward to ensure the continuity of our weather services 
to the Nation.
    Do you have any ideas of how the government can better manage this 
large systems acquisitions? Are there any lessons learned from your 
work as Virginia's Secretary of Technology?
    Answer. The NPOESS program provides critical capabilities for our 
Nation's terrestrial, ocean and space weather forecasting, as well as 
sustained climate monitoring. In order to ensure the success of NPOESS, 
there must be discipline on the program's requirements, funding and 
workforce stability, and strong program management. Requirements must 
be articulated crisply and clearly and any changes must be based upon a 
solid justification with requisite funds available, if needed. Funding 
stability is crucial for complex programs on both the government and 
industrial base sides so that program milestones can be planned with 
high confidence and to ensure that a talented workforce is retained. 
Last, large complex programs require a strong program management office 
with clear lines of communications between decisionmakers and 
executors, as well as accountability to ensure that schedules are met 
with the resources available.
    My experience as Virginia's Secretary of Technology has taught me 
that open, transparent communications across all the stakeholders in 
complex programs is vital and that clearly articulated goals, and roles 
and responsibilities are critical to ensure efficient, timely 
execution. In addition, it is crucial to have motivated, talented 
managers that are held accountable and are given the flexibility to 
deliver innovative solutions. Finally, the procurement process must 
balance a clear description of agency need with the ability to make 
agile adjustments to ensure the achievement of the well-stated goals or 
outcomes the program is intended to achieve.
    If confirmed, I will certainly work with the Federal CIO, NASA, 
NOAA, DOD, and others within the Executive Office of the President in 
an effort to achieve success in this program.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Aneesh Chopra
    Question 1. As the State of Virginia's Secretary of Technology you 
oversee the Office of Telework Promotion And Broadband Assistance, 
which was established by Governor Kaine in 2006 to support public and 
private sector efforts that promote widespread adoption of telework 
initiatives as well to encourage the availability of affordable 
broadband throughout the state.
    Telecommuting great opportunity to advance broadband and 
environmentally friendly issues. Telecommuting is seen as a solution to 
traffic congestion caused by single-car commuting, and the resulting 
urban air pollution and petroleum use. A Consumer Electronics 
Association 2007 study found 1 day of telecommuting saves the 
equivalent of up to 12 hours of an average household's electricity use. 
Furthermore, the report estimated that U.S. telecommuters save 840 
million gallons of gas per year, which would also curb carbon dioxide 
emissions by nearly 14 million tons.
    Telecommuting also has business benefits, increased productivity 
and costs savings. British Telecom found productivity rose 31 percent 
among its 9,000 teleworkers due to lack of disruptions, stress and 
commuting time. PC World magazine found that Teleworking can cut 
corporate real estate costs from 25 to 90 percent. However, 
telecommuting has come to be viewed by some as more a complement rather 
than a substitute for work in the workplace. With all the benefits that 
telecommuting/telework provides, how has Virginia, and specifically the 
Office of Telework Promotion And Broadband Assistance, promoted 
telework as a more of a permanent solution for businesses and companies 
operating in your state?
    Answer. Virginia's strategy to promote telework began with Governor 
Kaine's goal to achieve 20 percent enrollment across each state agency 
by 2010. Leading by example, we inspired a voluntary coalition of 
businesses pledging to match the Governor. We celebrated the results of 
our most innovative agencies and worked closely with stakeholders to 
incorporate telework in our larger congestion management strategies, 
especially in traffic-clogged regions of the Commonwealth.
    In general, we adopted a strategy focused on three levers 
applicable to the private sector:

        1. Broadband: A critical ingredient in the adoption of private 
        sector telework policies is sufficient bandwidth at the home or 
        regional telework center to support basic staff productivity 
        requirements

        2. Rural Economic Development: While most attention in telework 
        policy is paid to workers telecommuting one or 2 days a week, 
        we focused on the possibilities of permanently sourcing private 
        sector work in rural areas, spreading higher-wage, higher-
        growth jobs across more communities in Virginia. We led by 
        example, with Virginia's TAX Department sourcing 25 jobs to 
        Virginia's rural southside filled entirely by home-based 
        workers with broadband.

        3. Innovation: We fostered a culture of employee creativity 
        through Governor Kaine's Productivity Investment Fund, a source 
        of seed capital to catalyze innovative ideas that advanced his 
        policy goals and delivered productivity gains. One of our 
        projects called for a newly designed space for ``learning and 
        work'' that took advantage of the fact that most distance 
        learning courses were offered in the evening. The goal of this 
        innovation project is to increase space utilization by allowing 
        private sector employees to ``rent'' the learning space for 
        telework during the morning and then transition smoothly into a 
        distance learning course taught in the evening. The project is 
        in a design phase but should increase the number of private 
        sector teleworkers also interested in additional training when 
        launched.

    Question 2. How will you migrate those initiatives to the Federal 
level?
    Answer. If confirmed, I intend to work closely with OPM Director 
John Berry on supporting his strategies to promote Federal employee 
telework with a goal to publish all training and implementation 
materials so private sector firms might rapidly adopt a similar program 
with minimal cost.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Aneesh Chopra
    Question 1. Drawing from your role as Secretary of Technology for 
Virginia, what approaches did you take to broadband deployment at the 
state level that could be applied at the Federal level? Did the state 
of Virginia use, for example, state universal service support 
mechanisms to foster broadband access?
    Answer. Governor Kaine established a bold goal in his economic 
development plan issued, by statute, in his first year in office. He 
explicitly called for universal access to broadband services for 
business as a goal and directed me to lead an Office of Telework 
Promotion and Broadband Assistance with the support of several 
additional cabinet members.
    The setting of a bold goal was critical in our subsequent strategy 
to engage a broad set of public and private sector leaders from around 
the state to develop a web-based ``toolkit'' capable of accelerating 
public-private partnerships for local service delivery.
    We focused our attention on four principles, all of which apply to 
the Federal level:

        1. Measurement: We published (at no cost) a statewide broadband 
        availability map (accessible at www.otpba.vi.virginia.gov), 
        with full voluntary cooperation by over 25 service providers; 
        the map assembles service availability at the address-level 
        with a minimum download speed of 768 Kbps based on the current 
        FCC ``basic broadband'' threshold. In addition, we developed a 
        set of specialty maps--on speed testing for homes and schools, 
        and of all industrial parks marketed to attract new businesses 
        to the Commonwealth.

        2. Technology: We published a ``matrix'' of technologies 
        (accessible at http://www.otpba.vi.virginia.gov/
        technology_attributes.shtml), with full voluntary cooperation 
        by technology firms representing each technology category. The 
        purpose of this effort was to assist local communities in 
        determining the right technology for community-led initiatives.

        3. Applications: We published an ``applications inventory'' 
        (accessible at http://www.otpba.vi.virginia.gov/
        broadband_applications.shtml) focused on publicly-oriented 
        benefits of various applications that might form the basis of a 
        community business plan (specifically, generating cash-flows to 
        support network deployment).

        4. Business Case: We published a ``buy-down'' worksheet 
        (accessible at http://funding.otpba.vi.virginia.gov/) in order 
        to simplify the development of a business case that could lower 
        upfront capital costs for community-led initiatives, and to 
        maximize available cash-flow to support ongoing operations.

    It is important to note that in almost every case we examined, the 
universal service support mechanisms have been key ingredients in the 
development of a sustainable business case.

    Question 2. I understand you will be the first Chief Technology 
Officer within the White House. What expectations do you have for this 
new role? What are a few ways (3 ways) we can better use information 
technology to make government more open and transparent?
    Answer. As the Nation's first CTO, I expect to provide meaningful 
advice to the President on how best to harness the power and potential 
of technology and innovation to further his agenda. To accomplish this 
goal, I expect to coordinate policy in a number of areas, including the 
use of information technology to make government more open and 
transparent. Based on my experience, the following three levers can 
achieve this goal:

        1. Publish ``Meaningful'' Data: A threshold question on the 
        ability to improve government is asking what it is we should 
        expect out of our government. In Virginia, we developed a web-
        based performance management system, Virginia Performs 
        (www.vaperforms.virginia.gov) to provide every Virginian a 
        clear understanding of our long-term goals as a Commonwealth--
        on education, healthcare, public safety and so forth--and the 
        ability to measure state agency performance against them. In 
        addition to our long-term goals, we've published by agency a 
        set of key outcome measures that can be tracked over time, as 
        well as a new set of productivity measures to inform the public 
        about the costs of running government operations. We've 
        additionally published this information in a mapping format so 
        Virginians can benchmark performance by zip code, region or 
        across state lines.

        2. Engage the Public in Decision-Making: Shortly after the 
        President announced his intention to advocate for a stimulus 
        program, Governor Kaine directed me to use information 
        technology to engage the public on how best to direct that 
        spending if it would include discretion at the state-level. 
        Within days, we launched http://stimulus.virginia.gov/projects/ 
        and invited public input on project ideas worthy of the 
        Governor's consideration. In less than a month, we solicited 
        9,000+ ideas totaling $465BN in project value. Currently, 
        Virginia's state agencies and Cabinet Secretaries are 
        evaluating project ideas for future consideration.

        3. Organize Government by Constituency: Forbes.com has rated 
        Virginia the ``best state for business'' 3 years in a row and 
        Governor Kaine directed me to use information technology to 
        further improve our business climate. An immediate priority was 
        to support entrepreneurs as they manage the complexity of 
        interfacing with multiple state agencies before they can 
        conduct business. We launched a ``Business One Stop'' (accessed 
        at http://www.virginia.gov/bos/index.html) to assist with the 
        completion of business forms. Within its first year in 
        operation, over 7,000 new businesses registered with the system 
        saving, on average, 3-5 business days to locate all of the 
        myriad forms needed to get started.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                             Aneesh Chopra
    Question 1. The GAO recently testified that Federal agencies 
reported $72 billion in improper payments from a variety of Federal 
programs for FY2008--roughly 4 percent of all payments in these 
programs. Medicare and Medicaid accounted for roughly half of these 
improper payments. Several other Federal programs, while smaller than 
Medicare and Medicaid, have payment error rates of over 10 and 20 
percent. At the same time, many Federal programs have yet to meet the 
requirements of the Improper Payments Information Act of 2002, so the 
full extent of this problem is not even known yet. What are your plans 
to use technology to address this issue?
    Answer. It is my understanding that addressing payment errors and 
other forms of government waste is a top priority of this 
Administration. I plan to work closely with the Office of Management 
and Budget (OMB) and other Federal agencies to identify ways in which 
technology can be better leveraged to improve program integrity and 
other key financial management results. According to OMB, a significant 
portion of the $72 billion in improper payments can be attributed to 
two key problem areas: (i) inability of the Federal agency and 
recipients to produce supporting documentation to validate a payment 
when it is audited for accuracy; and (ii) inability of Federal agency 
to verify or authenticate the eligibility of a recipient. While I look 
forward to the opportunity to delve deeper into payment accuracy 
issues, my initial understanding of the matter gives me confidence that 
technology can play a key in improving results in these areas. Of 
particular note, technology can enable enhanced data matching and 
mining solutions that will facilitate Federal programs making smarter 
eligibility determinations. Again, if confirmed, I will quickly engage 
OMB in partnership on this issue and look forward to updating this 
Committee on our progress.

    Question 2. A constituent of mine that owns a technology company 
has been working with Defense Finance and Accounting Services (DFAS) 
within the Department of Defense to use data mining and auditing 
software to prevent improper payments and identify waste, fraud and 
abuse. In its initial phase, this effort has already identified and 
prevented several hundred million dollars in improper payments. Are you 
aware of these efforts within DFAS, and do you plan to pursue these and 
other types of technological solutions more broadly throughout 
government agencies to address this problem? Do you know if OMB is 
aware of these approaches and if they will require other agencies to 
implement these kinds of approaches?
    Answer. I am aware of the type of technology that DFAS is 
deploying, but I am not personally familiar with the specific software 
product being used in this instance. It is my understanding that OMB is 
aware of DFAS' Business Activity Monitoring program and the successes 
achieved to date. Of note, OMB notes that since this program was 
initiated, DFAS has prevented nearly 2000 potential improper payments 
totaling $220 million. These results are impressive and I believe 
warrant further review to see if the solutions being deployed as part 
of DFAS overall program can be replicated in other parts of government.
    If confirmed, I believe that I can play an important role in 
identifying and disseminating best practices such as this. I look 
forward to working with OMB and the Federal agencies to identify and 
expand the use of technologies with proven effectiveness at error 
prevention.

    Question 3. Do you see the need for the creation of a technology 
advisory task force or team that can come together in the early stages 
of your tenure assisting you with the myriad of technologies, 
applications, processes and approaches such as Buy or Build that you 
and your team will face?
    Answer. In my capacity as Virginia's Secretary of Technology, I 
convened a Productivity Advisory Committee of leading private sector 
technology leaders to advise me on strategies to lower costs, improve 
customer service, and advance the Governor's objectives. If confirmed, 
I look forward to engaging the private sector in a manner consistent 
with Federal policy on the myriad issues we will face.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                        to Dr. Rebecca M. Blank
    Question. The Economics and Statistics Administration is the 
government's statistics agency. ESA provides broad and targeted 
economic data, analyses and forecasts for use by Government agencies, 
businesses and others, as well as develops domestic and international 
economic policy. ESA consists of the Bureau of Economic Analysis (BEA) 
and the Bureau of the Census. BEA is responsible for many important 
economic measurements derived from the national income and product 
accounts, most notably the gross domestic product. The Census Bureau is 
responsible for the decadal census as well as other measures of U.S. 
population, economy, and governments. Some analysts have a total 
estimated cost for the 2010 Census rising upwards of $13 billion 
dollars. The Census is in the jurisdiction of the Homeland Security and 
Governmental Affairs Committee. The 2010 Census is a major interest of 
many Senators on this Committee. Can you promise to keep this Committee 
updated with the progress of the Census and any problems that may 
arise?
    Answer. If I am confirmed, you have my commitment that your 
committee, and all other committees of the Senate and House with 
jurisdictional oversight for Census Bureau will be given regular 
progress reports on 2010 Census operational milestones, budget 
expenditures, challenges and successes.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                          Dr. Rebecca M. Blank
    Question. The Economics and Statistics Administration has been 
charged with tracking new residential construction and sales. However, 
the housing crisis has been attributed in part to a lack of data at the 
individual homeowner level that would have predicted some of the 
negative trends that we now see in the housing market. As you know, 
Florida is facing some of the highest foreclosure rates in the Nation. 
Do you believe that the Federal Government should use vehicles such as 
the Home Mortgage Disclosure Act and the First Time Homebuyer Tax 
Credit to track housing activity at the individual homeowner level, as 
was demonstrated in last Friday's New York Times Interactive 
Foreclosure Map which was designed based on census tract information?
    Answer. There is a wealth of information available from the Census 
Bureau and the Bureau of Economic Analysis that can be used to track 
the health of the Nation's families and businesses. In particular, the 
American Community Survey, which by 2011 will have economic and 
demographic household information available at the block group level, 
will provide data on homeownership, how long a person has been living 
at a particular address, and monthly mortgage payments. I don't know 
enough about the information that will be collected to offer an 
informed opinion about whether the Home Mortgage Disclosure Act and the 
First Time Homebuyer Tax Credit should be used to track housing 
activity. If your committee and committee staff would find it useful to 
learn more about the data collection vehicles currently in place that 
provide information on the status of housing and homeownership among 
American households, if confirmed I would be happy facilitate such a 
briefing.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          Dr. Rebecca M. Blank
    Question 1. Ms. Blank, Secretary Locke has stated that ``a 
successful census is critical for ensuring that communities have proper 
representation and the resources needed for health care, law 
enforcement and education.'' You will oversee the Census Bureau in your 
role as Under Secretary of Economic Affairs. Will current efforts and 
resources for the 2010 Census be adequate to ensure an accurate and 
complete counting of Americans living in rural areas where census 
participation can be low and it is difficult for census workers to 
follow up with those who do not respond to census questionnaires?
    Answer. I am not fully briefed on the finer details of the Census 
Bureau's efforts to address the challenges of enumerating rural 
populations. However, if confirmed, I commit to thoroughly 
investigating the strategies the Census Bureau has in place to address 
the special needs of enumerating rural communities. An accurate count 
in the 2010 Census is my highest priority. My review of news accounts 
of the President's 2010 budget for the Census Bureau has revealed that 
it has been very well received. In addition, $1 billion was provided to 
the Census Bureau in the American Recovery and Reinvestment Act. Of 
those funds, approximately $120 million will be used by the Census 
Bureau to conduct outreach, and create relationships with places of 
worship, local and tribal governments and organization that can help 
educate communities about the importance of participation in the census 
and the confidentiality of the information they provide. This outreach 
effort will touch every community--urban and rural. I look forward to 
working with you on these outreach efforts in your state.

    Question 2. If problems do arise in rural areas, will the Census 
Bureau and Dept. of Commerce ensure that all necessary resources are 
provided to meet the task of counting rural Americans?
    Answer. Secretary Locke has stated that a fair and accurate 2010 
Census is one of his highest priorities. I will, if confirmed, extend 
every effort to assist the Secretary, the Census Bureau Director, and 
the employees of Census Bureau in meeting its goal of counting every 
resident--rural, urban and suburban--in the United States once, and in 
the right place.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to J. Randolph Babbitt
    Question 1. As more facts surrounding the crash of Colgan Air 
Flight 3407 become public, it has raised serious concerns about the 
adequacy of pilot training, crew rest, pilot commuting and fatigue, and 
the FAA's oversight of regional airlines. Much of the attention has 
been focused on the Captain's training and his inability to recover the 
aircraft after it stalled. As Administrator, what steps do you plan to 
take to make sure the FAA provides adequate oversight of airline pilot 
training and to address the issue of flight crew fatigue?
    Answer. These are critical issues. Flight time, rest requirements 
and duty time limitations for all crewmembers, not just pilots, should 
be made as consistent as possible. If confirmed, I will review the 
current regulations with a focus on consistency and appropriate 
application of fatigue science, and I will also review current FAA 
regulations and practices to ensure that we have adequate oversight of 
air carriers.

    Question 2. The Obama Administration recently proposed that the air 
traffic control system ought to be funded with direct charges levied on 
the users of the system beginning in October of 2011. As Administrator, 
in what ways do you plan to move this proposal forward?
    Answer. The Administration supports a stable source of funding for 
the aviation trust fund that ensures the ability to accelerate air 
traffic control modernization, improve aviation infrastructure and 
provide safe and efficient air operations. If confirmed as 
Administrator, I plan to work with Congress to develop a funding 
process that does this as part of the FAA Reauthorization.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          J. Randolph Babbitt
    Question 1. The record will reflect my ongoing interest over the 
years about the adequacy of safety regulations relating to aircraft 
emergencies resulting from dense, continuous smoke in the cockpit. If 
confirmed, will you commit to reviewing this matter, and providing me 
with your assessment as to whether existing Federal Aviation 
Administration safety regulations adequately address emergency 
situations resulting from continuous smoke in the cockpit?
    Answer. Yes, I will review this issue, and will provide you with an 
assessment.

    Question 2. It is my understanding that air traffic control service 
to Kona International Airport on the Big Island of Hawaii was initially 
contracted out because air traffic was slow and passenger count was 
low, but traffic and passenger counts at Kona International Airport 
have since considerably increased, and the contracting company is 
planning to end its operations soon. It is also my understanding that 
currently, there is no mechanism to return a contract tower back to a 
FAA tower, and I would like to inquire why there is no such mechanism 
if the traffic and/or passenger count have reached a point where the 
tower is unable to provide the quality of service that a FAA controller 
is required to.
    I am aware of several recent incidents at Kona International 
Airport, and I am concerned that though the FAA has not classified 
those incidents as ``near collisions,'' the short staffing by the 
contracting company increases safety risks for our passengers and 
airport workers. The local media in Hawaii reported on May 29, 2009 
that an air cargo plane took off in the wrong direction at Kona 
Airport, heading toward another plane that was coming in for a landing 
on the same runway. I wish to express my grave concern over this 
incident, and I would like to inquire after developing a mechanism to 
return the Kona Airport tower back to a FAA-operated tower.
    Answer. I understand your interest in the incident on May 29, 2009 
at Kona and am advised that it was due to pilot error and not a result 
of incorrect air traffic controller actions. In this incident, the 
pilot failed to follow instructions from the tower and departed from 
the wrong runway. I understand that the FAA took immediate action. The 
Air Traffic Manager in Honolulu ordered an immediate review to 
determine the causal factors and dispatched a team to Kona the 
following day. The team found no issues with the quality of services at 
Kona.
    Data indicate that the Federal contract tower (FCT) program is 
highly successful and has a safety record that rivals Federal towers. 
Kona is one of 240 FCT facilities across the U.S. The FAA maintains 
operational and safety oversight of the FCT program--safety audits and 
reviews are an ongoing process for all towers. I understand that Kona 
was last audited in 2008, and all of the items found during the audit 
that required corrective action have been corrected.
    In response to your questions on staffing and training, I am 
advised that FAA did a thorough review of each at Kona, and found that 
the tower is staffed appropriately for the number and type of 
operations, the complexity of the airport operations, and the number of 
operating hours.
    In regards to training, FCT controllers are held to the same 
standards, and must also adhere to the same policies and procedures as 
FAA controllers. I understand that Kona has a wealth of experienced air 
traffic controllers who are capable of handling the traffic volume, 
including four controllers with 22 to 40 years experience as FAA 
controllers. The other three controllers have 8 years of military air 
traffic control experience.
    The above data indicate that the FCT program, both in general and 
at Kona in particular, is an efficient way for the FAA to manage 
resources while maintaining regulatory and safety oversight of these 
air traffic control facilities. Therefore, the FAA plans to maintain 
Kona's tower as a contract facility. I am advised that the current 
contract for Kona's contract tower expires on September 30, 2009. The 
FAA is conducting a new competition and anticipates that a follow-on 
contract will be awarded for the Kona airport tower in August.
    I pledge to continue to work with you on your concerns, and to 
maintain safe and efficient air traffic control operations at Kona and 
throughout the National Airspace System.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Kerry to 
                          J. Randolph Babbitt
    Question. Mr. Babbitt, you were a paid consultant recently for the 
Alliance to Protect Nantucket Sound in a proceeding before the 
Massachusetts Energy Facilities Siting Board involving an application 
by Cape Wind, the proposed wind farm in Nantucket Sound. Your testimony 
is on behalf of the principal group opposing Cape Wind. Cape Wind 
currently has an application pending before the FAA seeking a 
Determination of No Hazard. It received this determination in 2001, and 
an affirmation of this determination in 2005, but these orders have 
expired. Given your paid participation by an active opponent of Cape 
Wind, will you assure the Committee that you will recuse yourself from 
the current proceeding involving Cape Wind and not participate in or 
seek to influence this or any other proceeding involving Cape Wind at 
the FAA?
    Answer. Yes. If confirmed, I will recuse myself.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Byron Dorgan to 
                          J. Randolph Babbitt
    Question 1. As you know, Congress has been very supportive of FAA's 
plan to transform our antiquated, analog ground-based air traffic 
control system to a more efficient satellite-based system. 
Unfortunately, we are still moving slower than other nations despite 
knowing that NextGen provides significant public benefits such as 
improved safety, congestion relief and reduced fuel consumption and 
emissions. I understand the stakeholders representing all segments of 
the aviation industry have presented a plan to the Administration on 
ideas that can accelerate NextGen benefits by as much as five to 7 
years. A key component of the plan is for substantial Federal 
investment in key aircraft avionics equipage. Can you tell me what you 
think of the plan?
    Answer. I agree that ensuring aircraft are equipped with the 
necessary avionics is a critical element for NextGen's success and for 
realizing benefits for both operators and the FAA. If confirmed, I look 
forward to working with the Congress and the Administration on the 
FAA's reauthorization, focusing on the importance of equipage and 
options for acceleration. I also understand the FAA is working with the 
industry to obtain recommendations on strategies for both accelerating 
NextGen benefits and facilitating the private sector business cases for 
investment. If confirmed, I look forward to studying in more detail the 
plan you mention and to doing what we can to accelerate benefits.

    Question 2. The U.S. Air Force has told me it needs routine access 
to portions of the national airspace to conduct cooperative unmanned 
aircraft operations without temporary, specific authorization or 
special flight restrictions. As I understand it, the U.S. Air Force 
requires a permanent solution by the time UAVs arrive at Grand Forks 
Air Force Base in 2010. Furthermore, these needs will expand to other 
locations in the continental United States as more and more UAVs are 
assigned to other home bases.
    At my urging, the FAA and the Air Force convened a task force in 
February of this year to begin to address these issues. The Red River 
Operations Group task force established a deadline to complete its work 
by the summer 2010. Are you confident the task force will meet its 
goals on schedule? If not, what do you see as major impediments, and 
what can Congress do to help you and the Air Force resolve them? In 
particular, are there specific authorities and resources you require to 
resolve any issues?
    Answer. I am advised that FAA staff working on this issue have some 
concerns that FAA and the Air Force will not be able to meet the 
schedule outlined in the February meeting. I intend to look into this 
issue and am committed to breaking down any barriers to success. Once I 
have had an opportunity to examine this issue, I will communicate with 
you regarding any assistance Congress can provide. I look forward to 
working collaboratively with the Air Force and all stakeholders to 
jointly develop options for success at Grand Forks AFB.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Barbara Boxer to 
                          J. Randolph Babbitt
    Question 1. I re-introduced my Passenger Bill of Rights legislation 
along with my colleague, Senator Snowe, to prevent airline passengers 
from being stranded on the tarmac for hours without food, water, 
adequate restroom facilities or medical attention. Will you commit to 
working with us to pass and implement a strong passenger bill of rights 
this year?
    Answer. The protection of airline consumers is primarily a 
responsibility of the Office of the Secretary of Transportation. That 
said, I know it is one of the Department's priorities. Accordingly, if 
confirmed, I would do everything within my power to support completion 
of the Department's pending consumer protection rulemaking that 
proposes to enhance passenger protections in the following ways: by 
requiring carriers to adopt contingency plans for lengthy tarmac 
delays; by requiring air carriers to respond to consumer problems; by 
deeming the continued operation of a flight that is chronically delayed 
to be an unfair and deceptive practice; by requiring carriers to 
publish information on flight delays on their websites; and by 
requiring carriers to adopt customer service plans, and to audit their 
own compliance with their plans.
    I would also work to ensure that the Department takes into account 
the views of Congress and stakeholders on the appropriate definitions 
of tarmac delays and chronically delayed flights. It is important to 
recognize that we cannot rely solely on existing regulations, or on the 
sometimes lengthy process of enacting new regulations, to protect 
consumers in an industry as dynamic as the airline industry. The 
ultimate goal should be to eliminate lengthy ground delays and thereby 
the need for legislative action.

    Question 2. The Department of Transportation's Inspector General 
issued a report in April 2009 on the staffing shortages at the Southern 
California TRACON (SCT), Northern California TRACON (NCT) and at the 
Los Angeles International Airport Traffic Control Tower (LAX). The IG's 
report found significant reliance at all three facilities on new hires, 
noting that while SCT is the Nation's busiest TRACON, more than 40 
percent of SCT's workforce is expected to be in training this year. 
Will you commit to reviewing the staffing at all three facilities and 
to take appropriate action as warranted?
    Answer. Yes. If confirmed, I will commit to take the appropriate 
action to ensure that all FAA facilities are appropriately staffed and 
able to meet air traffic demands today and tomorrow.

    Question 3. Like many of my colleagues, I was deeply saddened by 
the tragic crash of Flight 3407 outside of Buffalo last February. I am 
also troubled by the initial round of testimony during the National 
Transportation Safety Board (NTSB) hearing last week that indicated a 
lack of safety oversight by FAA. What more can FAA do now to ensure the 
safety of the flying public?
    Answer. I was a member of the Independent Review Team that was 
charged with reviewing the current aviation safety system. That gave me 
direct insight into the particulars of the FAA's oversight program, and 
this will allow me to delve into these safety issues immediately upon 
taking office if I am confirmed. As to the particulars of the incident 
in Buffalo, I eagerly await the completion of the NTSB process and any 
recommendations that result from it.

    Question 4. I have heard concerns that the FAA has not done its 
best to include its entire work force, particularly the air traffic 
controllers, in the discussion on the implementation of the NextGen Air 
Traffic Modernization. Will you work to include all interested parties 
in the discussion on the implementation of NextGen?
    Answer. NextGen is a complex and broad reaching initiative that 
impacts almost the entire FAA workforce in one way or another. One of 
the challenges the FAA has faced in the past is communicating NextGen 
in real, clear terms that can be broadly understood. However, the only 
way to ensure successful implementation of NextGen capabilities is to 
have effective engagement of key FAA stakeholders in the process. If 
confirmed, one of my top priorities will be to facilitate the 
productive involvement of air traffic controllers, as well as all other 
key stakeholders and key members of the work force, in the 
implementation process.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                          J. Randolph Babbitt
    Question 1. Captain Babbitt, we spoke last week about the facility 
realignments that have occurred in Florida, and the impact that NextGen 
will have on air traffic control staffing. Do we have your commitment 
that the FAA will consult with all stakeholders, improve communication, 
and consider the overall use of airspace and safety before decisions 
are made about future realignments?
    Answer. If confirmed, I will be absolutely committed to opening the 
lines of communication and including stakeholder input as we move 
forward to address the critical issues before the FAA. The important 
decisions that will be made over the next few years with regard to 
NextGen and the FAA's facility infrastructure, including possible 
realignments, require thoughtful input from a wide range of 
stakeholders.

    Question 2. We also spoke about the use of existing, proven, U.S. 
technology to prevent dangerous bird strikes, such as those that caused 
the USAir accident on the Hudson River in January. Will you take a 
fresh look at the FAA's approach to bird radars?
    Answer. Yes, I believe bird radar research is important, and that 
the FAA should examine available technologies that can further reduce 
the risks to aviation posed by wildlife.

    Question 3. Last, the FAA is working with a number of companies on 
developing jet fuel made entirely from sustainable biofuels such as 
algae and switchgrass. This will not only reduce harmful emissions but 
will lessen our dependence on foreign oil and spur U.S. production. 
Will you devote all possible resources to expediting careful review and 
certification of this technology?
    Answer. Yes, I am supportive of the development of sustainable 
biofuels for the reasons you mention and will make it a priority for 
the FAA if confirmed. We must, of course, ensure the safety of the new 
biofuels. Sustainable biofuels are vital to our national security, 
protecting the environment, supporting the health of the aviation 
industry and creating American jobs and will have my complete 
commitment.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          J. Randolph Babbitt
    Question 1. The airspace around Newark is one of the most complex 
and congested in the world. And once again, Newark airport leads the 
country as the most delayed airport, causing delays that ripple 
throughout the country. What actions will you take to reduce congestion 
and delays at Newark Airport?
    Answer. If confirmed, I will be committed to accelerating NextGen 
to reduce delays and to getting technologies and procedures in place 
for Newark as quickly as feasible. I will also be focused on what are 
the best congestion policies to put in place in the near-term and I 
plan to extend the current orders that have capped the number of 
flights able to fly into Newark during this interim period.

    Question 2. Airlines have promised to do more to avoid having 
passengers stranded on the tarmac, but nearly every month we hear of 
another horrific delay. In early April, a flight from Columbia, South 
Carolina, spent 5 hours on the tarmac without food or water. What more 
should airlines do to protect the health and safety of the flying 
public during these long ground delays?
    Answer. The protection of airline consumers is primarily a 
responsibility of the Office of the Secretary of Transportation. That 
said, I know it is one of the Department's priorities. Accordingly, if 
confirmed, I would do everything within my power to support completion 
of the Department's pending consumer protection rulemaking that 
proposes to enhance passenger protections in the following ways: by 
requiring carriers to adopt contingency plans for lengthy tarmac 
delays; by requiring air carriers to respond to consumer problems; by 
deeming the continued operation of a flight that is chronically delayed 
to be an unfair and deceptive practice; by requiring carriers to 
publish information on flight delays on their websites; and by 
requiring carriers to adopt customer service plans, and to audit their 
own compliance with their plans.
    I would also work to ensure that the Department takes into account 
the views of Congress and stakeholders on the appropriate definitions 
of tarmac delays and chronically delayed flights. It is important to 
recognize that we cannot rely solely on existing regulations, or on the 
sometimes lengthy process of enacting new regulations, to protect 
consumers in an industry as dynamic as the airline industry. The 
ultimate goal should be to eliminate lengthy ground delays and thereby 
the need for legislative action.

    Question 3. Air traffic controllers have been without a collective-
bargaining contract since 2005. How do you recommend DOT move forward 
with air traffic controllers and other FAA unions to negotiate a 
collective bargaining agreement on pay and working conditions? If 
confirmed, will you make this a priority?
    Answer. I firmly believe that employee issues and working 
conditions are important matters that need to be addressed and, if 
confirmed, I am committed to working with all stakeholders to address 
the concerns you raise. Specifically, with regard to the controller 
contract, on April 30, 2009, Secretary LaHood announced that Jane 
Garvey would oversee two mediators who are responsible for solving the 
contract dispute between the air traffic controllers and the FAA. That 
process is currently underway and resolving this important issue is a 
priority for the Department.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          J. Randolph Babbitt
    Question 1. In Sec. 308 of the FAA reauthorization bill that was 
reported out of the full Commerce Committee in the 110th Congress, the 
FAA is directed to publish criteria to be used in making facility and 
service realignment decisions. This is to be completed within 9 months 
after enactment. Furthermore, Sec. 308(e)(4) stipulates that no control 
facilities be consolidated into the Memphis TRACON until after the ATC 
Modernization Oversight Board's review of the Administrator's 
realignment recommendations is completed. In Arkansas, we're concerned 
about the Little Rock facility for a host of reasons, and want to be 
sure that there isn't a determination made in the interim. If 
confirmed, will you commit to working with Congress prior to 
consolidating, relocating, or realigning Air Traffic Control staff and 
facilities?
    Answer. It is my understanding that Obama Administration is 
currently reviewing its policies on a variety of specific aviation 
issues and I look forward to working on them including consolidating, 
relocating and realigning air traffic control facilities. In general, I 
support a transparent, continuous and defined consolidation process, 
whereby affected stakeholders work together and collaboratively with 
the FAA and Congress to ensure safety and advancement of NextGen.

    Question 2. Last year's extreme fuel price volatility followed by 
the severe economic downturn has been hard particularly hard on general 
aviation industries. At last week's Aviation Subcommittee stakeholders 
hearing, we heard that operations are down by as much as a third in 
many cases. Layoffs have been extensive throughout the industry. In 
Arkansas, we have a large aerospace footprint with aviation products 
being our state's number one export in dollar terms. We are especially 
proud of our role in general aviation. If confirmed, what role will you 
play in promoting general aviation?
    Answer. Like you, I believe aviation is critical to our economy--it 
is the backbone for our domestic and international commerce. Just last 
year, our aerospace industry contributed $97 billion in export sales to 
America's economy. As a pilot, I understand the importance of general 
aviation and will work with our general aviation community on issues 
affecting them.

    Question 3. In 2005, due to budget pressures, FAA reduced 
engineering and technical staff through attrition in the Aircraft 
Certification Service (AIR). As a result of resource constraints, FAA 
reduced the level of certification services which slows the pace of 
U.S. aerospace product development and design improvements by delaying 
when they can start. Many aviation manufacturers whose modernization 
related projects have already been delayed 9 months with no indication 
how much longer the FAA will continue to hold up their business. 
Increasingly, the survival and financial health of businesses are being 
impacted by FAA's inability to support the safety certification of new 
technologies and products which promote safety, efficiency, and 
modernization in a timely manner. This problem will become more acute 
as the need for FAA Aircraft Certification Service resources to support 
NextGen technologies and equipage increases. If confirmed, will you 
commit to reviewing staffing levels for FAA personnel in the Aircraft 
Certification Service and working to prevent unnecessary delays in the 
certification process?
    Answer. As I was meeting with different Senators through my 
confirmation process, this concern was raised. I understand that as 
part of the FY09 Omnibus appropriations bill, additional funding was 
provided to the certification office to address some of the issues you 
mentioned. Further, I do plan on reviewing staffing levels to ensure we 
have the most efficient and effective system.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          J. Randolph Babbitt
    Question 1. Mr. Babbitt, The Essential Air Service program 
currently ensures that there is commercial air service for five small 
communities in my state. While I agree that the program could probably 
be more efficient, could you tell me more about what changes DOT 
proposes for Essential Air Service? What steps would you take to 
provide a better foundation for the Essential Air Service program and 
otherwise ensure that small communities depending on it--especially in 
the current economic climate--continue to benefit from airline 
transportation?
    Answer. The Essential Air Service program is administered by the 
Office of the Secretary and does not fall under the FAA's purview. 
Having said that, I know that the Essential Air Service program 
provides a vital link to the national air transportation system for 
many communities across the country. In order to ensure that the 
program remains responsive to the needs of rural America, I expect the 
Department to actively review the challenges facing EAS and work with 
closely with Congress in an effort to develop a more efficient program.

    Question 2. The in-cabin environment remains an evolving, high-
threat setting within commercial air transport. In addition to dealing 
with disruptive passengers, what other security areas should flight 
attendant training address? What metrics should be used to validate the 
effectiveness of any training?
    Answer. If confirmed, I will ensure that FAA continues to work with 
TSA to enhance security training for flight attendants. I will also 
make certain that we carefully evaluate how we measure the 
effectiveness of this--and any--training.

    Question 3. Mr. Babbitt, I am concerned that FAA does not have the 
FAA engineering and technical resources to support certification 
projects. In my state, small aviation manufacturers face multiple 
delays with FAA even beginning the certification process for their new 
products. Such delays not only prevent the timely deployment of new 
aviation and avionics products that improve safety, but also hurt 
business opportunities and job growth.
    I believe this problem could become even more acute given the need 
to certify projects to support ``NextGen'' technologies and equipage. 
Will you ensure that the FAA under your leadership has the engineering 
and technical resources to support certification projects in a timely 
and efficient manner? Will you make this issue a priority as 
Administrator, especially given its importance to the successful 
implementation of ``NextGen''?
    Answer. I am sensitive to the impact that reduced staffing in 
aircraft certification offices has had on the U.S. aerospace industries 
ability to obtain FAA certification. I will commit to review the 
current situation and make more effective use of our resources to 
reduce delays in certification. I agree with you that this issue is a 
priority.

    Question 4. In addition to regulating civil airspace, the FAA 
regulates the commercial space industry. This industry's emergence is 
apparent with firms such as Virgin Galactic, Space X, XCOR Aerospace, 
Armadillo Aerospace, and others. What role will FAA taking to encourage 
the development of the new commercial space industry?
    Answer. As directed by Congress, the FAA, through its Office of 
Commercial Space Transportation (AST), regulates the industry to ensure 
public safety during commercial launch and reentry activities. Congress 
has also directed FAA to encourage, facilitate, and promote the 
industry. If confirmed, I will ensure that FAA develops and distributes 
information of interest to the industry and helps the industry 
understand and comply with regulations. It is also critical that FAA 
works with other government agencies, including NASA, the Department of 
Defense, the State Department, and the Commerce Department, to identify 
and attempt to minimize regulatory obstacles that are encountered by 
the industry.

    Question 5. What is your view on regulation and safety for 
commercial space operations given this industry's maturity level?
    Answer. The FAA has successfully regulated commercial space 
operations for more than two decades. FAA's regulations are focused on 
ensuring the safety of the uninvolved public. The regulations have 
evolved as the commercial space transportation industry has evolved, 
and as new vehicles and operational concepts have been developed. 
Although there is a regulatory framework already in place, the FAA must 
continue to be proactive by planning and anticipating what new 
regulations, or changes to existing regulations, may be needed in the 
future.

    Question 6. Spaceports such as the one under development in New 
Mexico are key enablers for the commercial space industry. How will 
these facilities and the technologies they support be integrated into 
the airspace system?
    Answer. It is critical that FAA integrates spaceport facilities 
safely into the airspace system. Since most of the launch vehicle 
operations that occur from these spaceport facilities are potentially 
hazardous, they typically occur within restricted airspace. However, 
all of the facilities are required to have agreements in place with the 
air traffic control center closest to where the spaceport is located 
that outline the proper procedures to be followed. This allows the air 
traffic control centers to establish temporary flight restrictions, or 
make other arrangements, to enable the launch and reentry operations to 
be safely accommodated within the national airspace system.

    Question 7. How will the current and future airspace management 
systems accommodate commercial space vehicles?
    Answer. The FAA must handle commercial space launches both 
strategically and tactically on a case-by-case basis. Airspace is 
blocked for each launch to ensure safe separation from other aircraft. 
Temporary flight restrictions and notices to airmen are issued. 
Outreach must be conducted to airlines, business flyers, and general 
aviation to ensure they are aware of the launch and possible recovery 
activity. In addition, I understand the FAA is working on a software 
tool to track launch/reentry trajectories of commercial space vehicles 
to determine possible debris fields. This will allow FAA to protect the 
airspace in the event of a breakup on reentry. If confirmed, I will 
work with our Office of Commercial Space Transportation to develop 
procedures to integrate and accommodate space flight vehicles as 
seamlessly as possible into the National Airspace System.

    Question 8. Mr. Babbitt, in 2006, a man who was drinking before and 
during his flight to Albuquerque later killed a family of six while 
driving the wrong way down the highway.
    Although current FAA regulations prohibit an intoxicated person 
from boarding a flight, or from being served more alcohol, it is not 
mandatory for airlines to provide training to ensure that these 
important safety regulations are obeyed.
    I have introduced legislation (S. 743)--supported by flight 
attendants, Federal air marshals, pilots, airport law enforcement 
agencies, and Mothers Against Drunk Driving--that would require that 
all flight attendants and gate attendants receive training for 
identifying intoxicated passengers and managing drunk or belligerent 
passengers onboard. Do you agree that flight attendants and gate agents 
should receive such training to help ensure passenger safety in the air 
and protect public safety on the ground?
    Answer. While I would need to study the details of this specific 
proposal, I agree that it is critical to protect the safety of 
passengers, crew members, and the general public. Additional training 
for airline employees may be a valuable tool in this effort.

    Question 9. Alcohol fueled air rage continues to be an aviation 
security issue, which seems to require an integrated, system-wide 
response. What plans are there to integrate checkpoint screeners and 
other Federal security personnel with airline employees (gate agents, 
flight attendants) to work on managing the risk of drunken travelers? 
What about the roles of airport security and local law enforcement? How 
should they be incorporated into safety planning and management?
    Answer. If confirmed as Administrator, I will collaboratively work 
with all agencies that are involved in the safety of the flying public. 
While I do not have any specific recommendations at this time, I will 
commit to reviewing this issue early in my tenure.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Warner to 
                          J. Randolph Babbitt
    Question. In November of last year, the FAA convened a working 
group consisting of representatives from the Department of Defense, 
Department of Homeland Security, the Washington Metropolitan Airports 
Authority and Arlington County. The purpose of the group is to assess 
the current surveillance coverage issues around Ronald Reagan 
Washington National Airport (DCA), conduct surveillance impact and 
mitigation studies incorporating the proposed redevelopment in 
Arlington County west of DCA, and recommend a mitigation and 
implementation plan that preserves air traffic, communications, 
navigations and surveillance systems integrity while providing a 
roadmap for these necessary redevelopment efforts in Arlington County. 
The Arlington County Board of Supervisors has indicated to my staff 
that this effort is not only critical to the redevelopment of the 
Crystal City area in Northern Virginia that is necessitated by the 2005 
Base Realignment and Closure process, but will also provide the FAA 
with a model to apply to other airports throughout the country to 
mitigate surveillance and air traffic operations issues. Can you 
provide the Committee with an update as to the status of this important 
project, the timeline for the completion of the relevant studies, and 
the implementation schedule for the proposed mitigation measures?
    Answer. I am advised that the FAA is currently engaged in three 
specific feasibility aeronautical studies regarding the Arlington 
County, VA BRAC redevelopment plan for Crystal City. This is the first 
project of its kind where the FAA works with all aviation stakeholders 
to assist a community with their long-term development plans to 
identify and mitigate potential conflicts in airspace use to derive at 
a mutually beneficial solution.
    The main issue in Arlington County is the impact increased building 
heights and density will have on the Washington-Reagan National 
Airport's (DCA) surveillance Radar (DCA ASR-9). The FAA has identified 
and is investigating three options of potential mitigation: (1) 
increasing the antenna height of the current ASR-9 at DCA; (2) 
evaluation of optimizing an alternative site at Andrews Air Force Base 
(ADW), MD; (3) evaluation of an alternative site at St. Elizabeth's 
Hospital in Washington, DC.
    I'm told that work on this important project is expected to 
continue throughout the summer. The FAA expects to report the findings 
by end of FY 2009. Implementation schedules for any proposed 
mitigations would be forthcoming at that time.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                          J. Randolph Babbitt
    Question 1. The only FAA controllers still providing Flight Service 
Air Traffic duties are located in Alaska. Flight Service controllers 
are now retiring and there is no current plan or facility in place to 
train replacements. The University of Alaska Anchorage Air Traffic 
Control program has offered to provide this needed training for the 
FAA. (1) Will you work with the University of Alaska Anchorage to 
ensure this needed pipeline of new FSS controllers is implemented? (2) 
Do you support continued restoration efforts of retirement benefits for 
the Flight Service Controllers (outside of Alaska) who lost Federal 
employment as a result of the FAA's 2005 labor outsource?
    Answer. (1) I have not had the opportunity to examine the 
University of Alaska Anchorage program but, if confirmed, I look 
forward to doing so. (2) Employee issues of this kind are of great 
importance and if confirmed I will look into this matter promptly. As 
you may know, a variety of labor-management issues are currently under 
discussion between FAA management and representatives of its work 
force, and I pledge to inform the Committee if and when these 
discussions produce results.

    Question 2. The FAA has failed to properly maintain a number of the 
physical structures from which essential air traffic services are 
provided to Alaskans. This neglect has threatened the safety of workers 
and now threatens to close Flight Service operations in Dillingham, 
Ketchikan and Kotzebue for up to 2 years while replacement facilities 
are built or repairs are made. What will you do to ensure these ATC 
services are not eliminated or reduced, and that employees have a safe 
working environment?
    Answer. I am not familiar with the particular conditions of these 
facilities but I will look into this matter promptly if confirmed. As 
you know, modernization of the facilities and systems of the air 
traffic control system is a priority of this Administration and it will 
be my goal to accomplish this as quickly as possible.

    Question 3. Do you think FAA should include stakeholders, including 
FAA employees, in any efforts to realign facilities and services? If 
confirmed, will you agree to work with stakeholders to ensure the FAA 
reauthorization plan is enacted and a transparent, inclusive process is 
implemented?
    Answer. If confirmed, I will be absolutely committed to opening the 
lines of communication and including stakeholder input as we move 
forward to address the critical issues before the FAA. The important 
decisions that will be made over the next few years with regard to 
NextGen and the FAA's facility infrastructure require thoughtful input 
from a wide range of stakeholders. I know as we move forward with FAA 
reauthorization, the Administration supports a transparent and 
inclusive stakeholder process to address FAA facility issues.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                          J. Randolph Babbitt
    Question 1. One of the primary benefits of NextGen is the efficient 
use of our national air space system that will lead to reduced carbon 
emissions. Over the past couple years we have seen several climate 
change legislative proposals such as cap-and-trade schemes. Do you have 
concerns with how these climate proposals would affect the airline 
industry specifically and will you commit to being an advocate for 
practical approaches to climate policy within the Administration?
    Answer. If confirmed, I am committed to being an advocate for 
practical approaches. Aviation safety is always the top priority for 
any proposals involving aircraft or aircraft fuels, and FAA must be 
involved. Aviation is global in nature, and it would be a concern if 
proposals would undermine international agreements. We need to keep an 
eye on costs because we cannot achieve the energy and climate benefits 
of NextGen without the aviation industry's ability to invest in new 
technologies. We also need to consider the interdependent nature of 
environmental impacts, such as improving fuel efficiency in a way that 
degrades noise or other emissions.

    Question 2. There is a good argument that the global aviation 
system does not lend itself to country-by-country or region-by-region 
standard and regulation governing environmental performance. Because of 
the global nature of the airline business, one would think we should 
seek a more internationally agreed upon approach. As FAA Administrator, 
will you continue the U.S. Government's approach of working through the 
International Civil Aviation Organization (ICAO) mechanisms to 
establish global environmental standards, rather than the piecemeal 
approach being taken by the European Union?
    Answer. It is my understanding that the Federal Aviation 
Administration has been and is continuing to work at ICAO through the 
high-level Group on International Aviation and Climate Change to 
develop a global plan of action. It is important for that process to 
succeed. Aviation must do its part as a sector to address international 
aviation greenhouse gas emissions and the FAA must continue to 
integrate its approach with the Administration's policies on addressing 
climate change on a global scale.

    Question 3. Recently a Texas news story was reported with some 
potentially disturbing allegations regarding flaws in the way FAA 
licenses mechanics, including English proficiency. One employee is 
quoted saying ``There are people [where I work] who do not know how to 
read a maintenance manual as they are spelled out, because they don't 
have a clue,'' said one certified aircraft mechanic who works at a 
Texas aircraft repair station.
    I have included a copy of the most recent story below. I would like 
you to report back to me on the allegations in the story and describe 
how you intend to deal with the problem if the story has merit?

News 8 Investigates: Airline mechanics who can't read English

10:03 AM CDT on Saturday, May 16, 2009
By BYRON HARRIS/WFAA-TV

News 8 Investigates
May 15th, 2009

    News 8 has recently revealed serious flaws in the way the FAA 
licenses mechanics who fix planes.
    There is evidence of years of problems in testing these mechanics. 
There is also evidence that hundreds of mechanics with questionable 
licenses are working on aircraft in Texas.
    Now there is evidence of repair facilities hiring low-wage 
mechanics who can't read English.
    Twenty-one people were killed when U.S. Airways Express Flight 5481 
crashed in Charlotte, North Carolina in 2003. The plane went wildly out 
of control on takeoff.
    One reason for the crash, investigators found, was that mechanics 
incorrectly connected the cables to some of the plane's control 
surfaces in the repair shop. The FAA was cited for improper oversight 
of the repair process.
    Repairing airplanes is a complicated business. Airplanes have many 
manuals. Typically, when mechanics repair a part, they open the manual, 
consult the book, and make the repair step-by-step, as if it were a 
recipe book.
    They make a list of every action they take, so the next person to 
fix the plane (as well as the people who fly it) will know exactly what 
has been done.
    If mechanics don't speak English, the international language of 
aviation, they can't read the manual and they can't record their 
activities.
    There are more than 236 FAA-certified aircraft repair stations in 
Texas, according to the FAA's Website. News 8 has learned that hundreds 
of the mechanics working in those shops do not speak English and are 
unable to read repair manuals for today's sophisticated aircraft.
    Former FAA inspector Bill McNease told News 8 he regularly 
encountered applicants for pilots' licenses who tried to pretend they 
could speak English--but could not.
    ``When I was based in Dallas, I had that happen every week,'' 
McNease said. ``It was not uncommon at all to have foreign flight 
students. We had mechanics, but I handled the pilot end of it . . . and 
I turned down people every week because they couldn't speak English.''
    ``There are people [where I work] who do not know how to read a 
maintenance manual as they are spelled out, because they don't have a 
clue,'' said one certified aircraft mechanic who works at a Texas 
aircraft repair station. He wished to remain anonymous to protect his 
employment.
    To certify a part for flight or repair an engine, a mechanic must 
be licensed by the FAA as an Airframe and Powerplant mechanic, known in 
the business as an ``A&P.''
    News 8 discovered that mechanics at one licensing center in San 
Antonio were being tested in Spanish as late as last fall. The FAA 
ultimately shut the facility down.
    Supervisors in Texas repair stations say they are supposed to 
oversee the repairs of dozens of untrained mechanics who can't read the 
manuals and can't write down the work they've done.
    But the FAA does not require every person working at a repair 
station to be a certified A&P. One certified A&P can sign off on the 
work of dozens of uncertified mechanics.
    That creates a huge problem, another certified mechanic told News 
8. ``I need an interpreter to talk to these people,'' he said. ``They 
can't read the manuals, they can't write, and I have so many working 
for me I can't be sure of the work they've done.''
    To be sure of proper quality, the supervisor has to either re-do 
the work himself or take the chance that no mistakes have been made. 
There is a push to get work out the door and planes back in the air. 
But when he signs his name to certify the repair for flight, he is 
legally responsible for it.
    The root of the problem is money, mechanics say. A certified 
mechanic can earn upwards of $25 an hour in Texas. Technicians who 
can't speak English are often hired for less than $10, according to 
mechanics interviewed by News 8.
    ``I've been wanting to leave this company since the day I got 
there,'' said one certified A&P. ``But with the economy the way it is, 
I've got kids to feed and I have to stay there. I don't want to be 
anywhere near one of those planes when it kills somebody.''
    The FAA is supposed to police repair stations, but insiders say the 
agency is more focused on looking at paperwork than inspecting the 
facilities. Insiders also say inspectors warn repair stations when 
they're coming.
    ``In Dallas, most of them would map it out and tell them what day 
they were going to be there,'' said Gene Bland, a former FAA inspector.
    Safety, mechanics say, is at risk. ``In my opinion,'' said one, 
``company owners should all be locked up because someone's going to die 
eventually, if it hasn't already happened.''
    Texas' two biggest airlines, American and Southwest, both require 
mechanics and the technicians who work under them to speak, read and 
write English.
    But mechanics who work elsewhere--whose repairs often end up on 
commercial airliners--say their shops are filled with non-English 
speakers.
    The FAA declined to be interviewed for this report.
    Answer. I assure the Committee that, if confirmed, I will 
thoroughly examine these allegations, and I will provide the Committee 
with a report of our findings.

    Question 4. Are there any specific issues you intend to rescue 
yourself from if they are brought before the Agency?
    Answer. I have agreed, if confirmed, to recuse myself in all 
particular matters affecting the financial interests of Citigroup, JP 
Morgan Chase, Bank of America, and my former employer (Oliver Wyman), 
the parent of my former employer (Marsh & McLennan Corporation), and 
Access National Corporation (a bank holding company in Reston, 
Virginia).
    Also, I have agreed pursuant to Executive Order 13490, if 
confirmed, not to participate, for a two-year period, in particular 
matters involving former clients for whom I have personally provided 
services within the two-year period preceding my appointment. These 
clients include Airbus Inc., the City of Phoenix, Hawaiian Airlines, 
Frontier Airlines, Pinnacle Airlines, as well as Save Our Sound (APNS) 
and the other organizations for whom I have provided consulting 
services in connection with flight path obstacle evaluations.
    In addition, if confirmed, I would be recused in particular matters 
affecting General Electric, Air Tran, Inc., Hawaiian Holdings, Inc., 
Continental B, Federal Express Corporation, Limco Piedmont, Inc., 
Aercap Holdings NV, Air Castle Ltd., and Macquarie Infrastructure 
Company LLC until I divest my stock interests in these organizations. I 
am required by my ethics agreement to sell my stock in these 
organizations within 90 days of confirmation.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                          J. Randolph Babbitt
    Question. I am pleased to hear that the modernization of the air 
traffic control system will be one of your top priorities. 
Modernization will not just improve air travel at busy hubs, but there 
are also benefits for smaller and rural communities. This is especially 
true in the area of safety since we can have safer approaches in poor 
weather conditions. Currently the equipment needed to do so is too 
expensive to ever be deployed at smaller airports. What will you do to 
ensure the modernization will come to all airports, not just the large 
congested ones?
    Answer. I believe there are a number of opportunities for improving 
small airports and the General Aviation community. For example, one 
area is the deployment of Wide Area Augmentation System (WAAS) 
approaches. There are currently 20,000 aircraft already equipped to 
take advantage of the procedures. If confirmed, I will ensure that the 
FAA will continue to pursue opportunities for improvement at smaller 
and rural communities.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          J. Randolph Babbitt
    Question 1. Has the FAA has sufficiently involved industry 
stakeholders in the development of NextGen?
    Answer. I believe the FAA has taken a number of steps to involve 
stakeholders in NextGen development. If confirmed, I am committed to 
continued outreach and involvement as we move forward with NextGen 
implementation. I know that FAA has taken recent steps to foster 
increased industry involvement in NextGen and encourage timely equipage 
of aircraft. For example, earlier this year the FAA, in partnership 
with RTCA, initiated broader collaboration with industry through the 
NextGen Implementation Task Force. If confirmed, I intend to work 
closely with the aviation community to ensure NextGen meets the needs 
both of the FAA and its stakeholders.

    Question 2. Does the FAA have both the resources and the management 
capabilities to maintain the current system--with all its flaws--while 
simultaneously overseeing the implementation of NEXT GEN, particularly 
if Congress expedites the rollout of so-called `off-the-shelf' 
technology already available? Or do you envision seeking additional 
revenues from other sources, such as the General Fund?
    Answer. I believe this is a question that has been raised by a 
number of constituencies. If confirmed, I look forward to working 
closely with the Congress to ensure that FAA has the resources and 
capabilities to move forward with NextGen implementation while 
maintaining the current system. I am encouraged by the improvements FAA 
has made to improve its acquisition performance in recent years as 
evidenced by the fact that GAO removed the FAA from the high risk list 
for modernization in recognition of FAA's progress.
    Recognizing the importance of attracting and retaining the proper 
skill sets for NextGen is critical and if confirmed, I am committed to 
addressing workforce concerns, particularly around staffing, hiring 
processes, and training and retention programs.

    Question 3. The GAO has testified before this Committee that the 
efforts to fully implement the NEXT GEN system by 2025 may not be 
attainable, which seems directly in contrast with your perspective of 
an expedited roll out. What do you believe would be the single greatest 
obstacle to complete implementation? What would be the single-most 
effective measure Congress could include in this reauthorization that 
would help overcome that obstacle?
    Answer. I believe that avionics equipage is a significant issue. I 
think the FAA needs to continue to work aggressively to develop and 
deploy real, mid-term capabilities that build the foundation toward 
NextGen. However, FAA's efforts alone will not be sufficient. Achieving 
the full capability of NextGen benefits will require investment by both 
the government and the private sector. Ensuring that a significant 
portion of the aircraft fleet is appropriately equipped to take 
advantage of NextGen improvements is one of the most critical issues in 
achieving success. If confirmed, I stand ready to work with Congress on 
any other proposals that may be considered.

    Question 4. What kind of revenue infusion will the FAA require to 
develop and deploy NEXT GEN technologies, while expanding capacity at 
some of our largest airports and repairing the crumbling facilities we 
must have in place until NEXT GEN is fully implemented?
    Answer. The FAA has requested approximately $6.9B in NextGen 
funding over the next 5 years (FY 10-14) with approximately $865M for 
FY10. The funding for FY09 is $695M.

    Question 5. To handle the projected rise in traffic into the next 
decade, FAA will need not only to reconfigure the layout of various 
airports, but also augment capacity at several facilities--most of 
which are among the busiest airports in the country. This will require 
a substantial commitment of both time and money, especially if it 
resembles modernization problems at O'Hare. Will the scarcity of these 
additional resources further compromise the schedule for NEXT GEN, 
particularly in its later stages when it is nearing completion?
    Answer. Airport capacity will continue to be a factor in the 
ability of the national aviation system to meet current and future 
demand. Solving the airport congestion problem must go hand in hand 
with NEXT GEN implementation. If confirmed, I will be committed to 
integrating airport capacity needs and NEXT GEN implementation.

    Question 6. Due to the recent decline in passenger numbers and 
reduced ticket prices, we are seeing a precipitous drop in revenues 
flowing into the Airport Trust Fund. Are we facing a situation where 
Congress will be forced to choose between traditional capacity and 
safety improvements such as new runways, or funding NEXT GEN 
development?
    Answer. While there may be a drop in revenues, the cash balance 
remains adequate to fund NextGen at the levels suggested in the 
President's budget. However, the FAA must work with Congress during the 
reauthorization process to find ways to appropriately fund acceleration 
of NextGen.

    Question 7. Airlines are projected to bring in as much as $3.5 
billion in fees and surcharges in 2009. While I do not dispute the 
straits in which the commercial aviation companies find themselves in, 
do you feel that these fees are circumventing the needs of a dwindling 
Aviation Trust Fund, just when we may need it the most?
    Answer. Most fees that the airlines have put in place are subject 
to the 7.5 percent passenger tax. The exception is the baggage fee, 
which by statute is exempt. If confirmed, I will look forward to 
working with Congress during FAA's reauthorization process to ensure 
the Aviation Trust Fund's ability to provide the funds necessary for 
aviation.

    Question 8. The FAA's primary responsibility is to ensure safety in 
the skies. It is specifically delineated in their charter, despite 
recent changes that muddied the waters by simultaneously attempting to 
be advocates for the airlines and maintain safety. Yet Congress 
continues to grow frustrated with the agency as they typically refuse 
to act until a tragedy occurs--and in this particular instance, even 
AFTER multiple tragedies. Can we finally expect a more proactive FAA 
under your leadership? While I understand that you are under no legal 
obligation to reply, much less to enact, NTSB recommendations, will you 
commit to informing both the Board and Congress of the agency's 
decisions when and why they do not endorse NTSB recommendations?
    Answer. The fatal commercial accident rate has dropped 65 percent 
in 10 years. You have my commitment that I will focus on the other 35 
percent if confirmed. Historically, the NTSB has found 82 percent of 
FAA's actions to its recommendations acceptable. I commit that we will 
continue to treat all NTSB recommendations with high regard, and if we 
disagree with a recommendation, we will do so in a clear and 
unambiguous manner.

    Question 9. As we discussed privately, there are a number of 
discrepancies between regional, or commuter, airlines and major legacy 
carriers. Do you believe the FAA must tailor their regulations and 
standards to meet the needs of these smaller, regional carriers? Or 
should the agency continue their one-size-fits-all approach?
    Answer. All commercial air carriers conduct business using the same 
design, maintenance, and operational rules. I support this and will 
continue to focus on consistency across the spectrum of aircraft and 
operators if confirmed.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Johnny Isakson to 
                          J. Randolph Babbitt
    Question 1. My understanding is that FAA has decided to revoke its 
revised pilot and flight attendant rest rules for long-range flights 
(OpSpec A332), instead working with airlines to study the matter over 
the coming year. Do you believe this was the right course of action?
    Answer. I understand the FAA's decision to withdraw a proposed 
amendment to three air carriers' operations specifications was a 
routine activity to amend operations specifications. If confirmed as 
Administrator, I will certainly become active in the issue of the 
management of ultra-long range operations, as well as the larger issue 
of fatigue in aviation operations.

    Question 2. In your view, should all pilots (regional or mainline; 
domestic or international) be covered under one flight time and duty 
time rule?
    Answer. Flight time, rest requirements and duty time limitations 
for all crewmembers, not just pilots, should be made as consistent as 
possible. If confirmed, I will review the current regulations with a 
focus on consistency and appropriate application of fatigue science.

    Question 3. Under your leadership, what steps, if any, will FAA 
take to incorporate research findings on flight crewmember fatigue into 
a common set of regulations for all types of airline operations?
    Answer. My emphasis will be on exerting FAA leadership in fatigue 
mitigation by first developing a solid set of Fatigue Risk Management 
System principles that operators could begin to use. Utilizing 
available data and research is critical in developing appropriate 
regulations in this area.

    Question 4. What role do you think science should play in 
determining pilot crew rest requirements and the impacts of fatigue on 
aircraft operations?
    Answer. Today we have a genuine advantage over the FAA of the 
1960s, 70s, 80s, and even the 1990s because there is a solid base of 
fatigue science that permits effective modeling of fatigue and fatigue 
mitigation effectiveness. With this as a starting point, I believe that 
we can lead the industry toward genuinely effective fatigue mitigation 
practices in scheduling, rest requirements, and duty restrictions that 
would reflect accurate knowledge of human performance yet enable safe, 
reliable aviation operations.

    Question 5. FAA, in the past, has been reluctant to define work 
rules for airline operations. Both FAR Part 121.471 and Part 135.265 
are nearly identical and both do not include the term ``duty time,'' 
instead making all references to duty under ``flight time limitations 
and rest requirements.'' Do you believe the FAA should specifically 
regulate duty time?
    Answer. If confirmed, I commit that the FAA will focus on all 
fatigue issues. One of my priorities will be working with industry to 
come up with a solution acceptable to both industry and the FAA.

    Question 6. Should the FAA set working hour limits for flight 
crews, aviation mechanics, and air traffic controllers based on fatigue 
research, circadian rhythms, and sleep and rest requirements, and 
develop a fatigue awareness and countermeasures program for air traffic 
controllers?
    Answer. As I've stated before, we have a very good base of fatigue 
science that we can apply to this challenging issue. All the fatigue 
aspects that you've mentioned, and more, need to be applied to a 
rational set of guidelines in aviation operations and air traffic 
control.

    Question 7. Do you believe that the FAA should install crash-
protected image recorders in cockpits to give investigators more 
information to solve complex accidents?
    Answer. Accident investigators need all the tools science can 
provide them. However, I am aware of the controversy surrounding the 
use of image recorders and their effect on privacy, as well as how the 
images could be used. If confirmed, I commit to focus on this issue in 
my tenure.

    Question 8. Do you believe that the FAA should require commuter and 
on-demand air taxi flight crews to receive crew resource management 
training?
    Answer. It's my understanding the FAA recently proposed a rule that 
would require Crew Resource Management training for crewmembers in Part 
135 operations. I support the extension of Crew Resource Management 
training to all appropriate segments of aviation.

    Question 9. Do you believe that, with regards to Emergency Medical 
Service flights, the FAA should require EMS conduct all flights with 
medical personnel on board in accordance with commuter aircraft 
regulations, develop and implement flight risk evaluation programs, 
require formalized dispatch and flight-following procedures including 
up-to-date weather information, and install terrain awareness and 
warning systems on aircraft?
    Answer. It's my understanding the FAA is in the process of issuing 
a proposed rule in this area which is very comprehensive and would 
require certain programs that are now voluntary. I fully support this 
effort.

    Question 10. Do you believe that the FAA should use current 
research on freezing rain and large water droplets to revise the way 
aircraft are designed and approved for flight in icing conditions?
    Answer. As a pilot, I know firsthand the issues of flying in 
freezing rain and ice. I know the FAA is proposing a rule that 
addresses requirements for safe operation in these conditions.

    Question 11. Do you believe that the FAA should review and, where 
necessary, apply revised icing requirements to currently certificated 
aircraft?
    Answer. The FAA and NTSB have a long and successful history of 
addressing the threat to aircraft in icing conditions. If confirmed as 
the Administrator, I will continue to review and improve our programs 
to reduce this threat even further.

    Question 12. There have been 15 recorded accidents or incidents 
where a turboprop aircraft, being flown by the autopilot, departed 
controlled flight while operating in icing conditions. The NTSB has 
recommended turboprop aircraft be hand-flown in icing conditions. Do 
you agree with their recommendation?
    Answer. Based on my experience as a pilot, hand flying the airplane 
for awareness of any effects of icing on the airplane must be balanced 
against the potential detrimental effects of increased crew workload.
    With that in mind, I support continuing to assess the feasibility, 
benefits, and risks associated with hand-flying turboprop aircraft in 
icing conditions.

    Question 13. Analysis performed by the Flight Safety Foundation has 
shown that runway excursions accounted for approximately 29 percent of 
all accidents involving turboprop and turbojet aircraft worldwide 
between 1995 and 2006, and that runway incursions are on the rise. What 
are your plans to address runway incursions?
    Answer. I understand that the FAA has focused on this problem over 
the past year and that progress has been made to reduce runway 
incursions, particularly the most serious incursions. So far in FY 09 
total runway incursions are down approximately 5 percent and 
significant RI's are down almost 70 percent. If confirmed, I will 
continue to focus on the initiatives that have proven beneficial in 
terms of reducing the risk of runway incursions. Technology, improved 
procedures and communications and awareness between pilots and 
controllers are all key to ensuring we continue to reduce risk in the 
system.

    Question 14. The challenges you face with regards to NextGen/NowGen 
implementation are challenges that your predecessors have faced. In 
your view, what are the road blocks to implementing NextGen/NowGen 
technology? What specifically are you going to do that your 
predecessors did not do in this regard to implement these technologies?
    Answer. NextGen is an incredibly complex undertaking, the likes of 
which has not been seen elsewhere in Government. Along with the 
complexity come a number of challenges that will face the FAA as 
NextGen is implemented. Some of the challenges I foresee include:

  <bullet> Ensuring the effective engagement of the workforce in the 
        implementation process.

  <bullet> Ensuring alignment with industry and timely avionics 
        equipage to enable benefits to be realized.

  <bullet> Ability of FAA to grow its acquisition workforce.

  <bullet> Potential impact of environmental barriers.

  <bullet> Communicating NextGen in real, clear terms that can be 
        understood by all stakeholders.

    If confirmed, my focus will be on addressing these challenges.

    Question 15. In order to address budget shortfalls, the FAA 
Aircraft Certification Office will downsize its organization through 
attrition of engineering staff and will reduce the level of services it 
provides. FAA has committed to support existing certification programs 
already in process. However, due to decreased FAA staffing, new 
certification projects are being evaluated and possibly delayed in 
order to determine which projects will be supported and which projects 
will be put on hold. According to the FAA, each new project will be 
held until the FAA determines what resources are necessary to support 
the program and whether the FAA will wait to begin the project. The 
problems become worse because the FAA will not provide manufacturers 
with the specific criteria for the evaluation leaving manufacturers 
without any guidance on when and how to start new product development. 
What is your vision for FAA certification processes given current 
budget issues, and what steps will you take to insure that more 
adequate staffing is available to the Certification Office?
    Answer. I am sensitive to the impact that reduced staffing in 
aircraft certification offices has had on the U.S. aerospace 
industries' ability to obtain FAA certification.
    I will commit, if confirmed, to review the current situation and 
make more effective use of our resources to reduce delays in 
certification.

    Question 16. Recently on a visit to Columbus (CSG) I met with a 
woman whose house is next to a lot where the FAA is installing a wind 
shear detector. While I absolutely recognize the need for this 
technology, and do not want to be an impediment toward its 
implementation at CSG, I contacted FAA on her behalf to inquire as to 
possibility for locating the tower somewhere else. I and my staff have 
asked to be updated on the progress with this tower, but have not heard 
anything from the FAA legislative affairs office on what is happening 
with construction or the potential for locating this at an alternative 
site. Please provide me an update as to the status of this project.
    Answer. It is my understanding that the Regional Administrator for 
the Southern Region recently sent you a letter outlining the efforts 
that FAA regional officials and local officials went through to 
determine if there was an acceptable alternative site for the alert 
system. Unfortunately, after considering several alternate sites, it 
was determined that FAA's technical requirements were best achieved by 
locating the alert system at the original location. I am told that FAA 
will finish construction at this site by the end of the month and place 
the alert system in service, which will improve aviation safety in this 
region.

    Question 17. According to the latest DOT Air Travel Consumer 
Report, 17 of the 21 flights that had tarmac departure delays of 4 
hours of more in March were departing from Atlanta, including one 
flight that took a staggering 5 hour 45 minute delay. To what do you 
attribute these statistics? What air traffic management plans do you 
have in place to ensure that this situation does not happen at Atlanta 
again?
    Answer. With regard to your questions about the Atlanta operation 
in March, if confirmed, I will follow up to provide specific answers. 
On a broader level, the issue of delays points to the importance of 
moving forward with NextGen implementation as quickly as possible. 
NextGen means flying more passengers, more cargo, more types of 
aircraft, more safely and efficiently. NextGen is a top priority for 
the Obama Administration and will be for me as we seek to accelerate 
key components over the next few years. In parallel, I am committed to 
continued work with the airlines and airports to mitigate the impacts 
of the types of events outlined in your question.

                                  <all>

</pre></body></html>
